APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Entry in the Supreme Court of Ohio
(February 16, 2021) . . . . . . . . . . . App. 1
Appendix B Memorandum Decision in the Court of
Appeals of Ohio Tenth Appellate District
(October 22, 2020) . . . . . . . . . . . . . App. 2
Appendix C Decision and Order in the Court of
Common Pleas of Franklin County,
Ohio Civil Division
(April 21, 2020) . . . . . . . . . . . . . . App. 22
Appendix D Decision in the Court of Appeals of
Ohio Tenth Appellate District
(February 13, 2020) . . . . . . . . . . App. 27
Appendix E Decision and Entry Affirming, in part,
and Reversing, in part, the Order of
Appellee Ohio Department of
Medicaid and Notice of Final
Appealable Order in the Court of
Common Pleas, Franklin County, Ohio
Civil Division
(November 27, 2018) . . . . . . . . . . App. 96
Appendix F Adjudication Order in the Ohio
Department of Medicaid
(October 3, 2016) . . . . . . . . . . . . App. 113
Appendix G Report and Recommendation in the
Ohio Department of Medicaid
(October 31, 2015) . . . . . . . . . . . App. 285

App. 1

APPENDIX A
THE SUPREME COURT OF OHIO
Case No. 2020-1471
[Filed: February 16, 2021]
____________________________________
CHS-Lake Erie, Inc. et al
)
)
v.
)
)
Ohio Department of Medicaid
)
____________________________________)
ENTRY
Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Franklin County Court of Appeals; No. 18AP-897)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

App. 2

APPENDIX B
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
No. 18AP-897
(C.P.C. No. 16CV-9766)
(REGULAR CALENDAR)
[Filed: October 22, 2020]
_______________________________________
CHS-Lake Erie, Inc. et al.,
)
)
Appellants-Appellees/
)
Cross-Appellants,
)
)
v.
)
)
Ohio Department of Medicaid,
)
)
Appellee-Appellant/
)
Cross-Appellee.
)
_______________________________________)
MEMORANDUM DECISION
Rendered on October 22, 2020
On brief: Webster & Associates, Co., LPA, and
Geoffrey E. Webster, for appellees/crossappellants.

App. 3
On brief: Dave Yost, Attorney General, and
Rebecca L. Thomas, for appellant/cross-appellee.
ON APPLICATION FOR RECONSIDERATION
ON APPLICATION FOR CONSIDERATION
EN BANC ON MOTIONS
BEATTY BLUNT, J.
{¶ 1} Appellants-appellees/cross-appellants, CHSGlenwell, Inc. (dba Glen Meadows), CHS-Glenwell, Inc.
(dba Wellington Manor), CHS-Greater Cincinnati, Inc.
(dba East Galbraith Health Care Center), CHS-Lake
Erie, Inc. (dba Carington Park), CHS-Miami Valley,
Inc. (dba Vandalia Park), CHS-Miami Valley, Inc. (dba
Franklin Ridge), and CHS-Ohio Valley, Inc. (dba
Terrace View Gardens) (collectively, “CHS”) have filed
timely applications seeking reconsideration, pursuant
to App.R. 26(A)(1), and consideration en banc, pursuant
to App.R. 26(A)(2), of this court’s decision in CHS-Lake
Erie, Inc. v. Ohio Dept. of Medicaid, 10th Dist. No.
18AP-897, 2020-Ohio-505. Appellee-appellant/crossappellee, the Ohio Department of Medicaid (the
“department”), opposes CHS’s applications. For the
reasons which follow, we deny CHS’s applications for
reconsideration and consideration en banc.
I.

Procedural Matters: CHS’s Motion to
Convert and Motion to Exceed Page
Limitation Granted

{¶ 2} Initially, we must resolve two pending
motions concerning CHS’s post-decision filings. This
court rendered its decision in CHS-Lake Erie on
February 13, 2020 and issued the judgment entry
corresponding to the decision on February 18, 2020. On

App. 4
February 24, 2020, CHS filed a combined application
for reconsideration and consideration en banc and a
separate motion to certify a conflict. Although CHS’s
combined application for reconsideration and
consideration en banc contained an argument to
support CHS’s request for reconsideration, CHS did not
present an argument to support its request for
consideration en banc. CHS’s motion to certify a
conflict asserted that our decision in CHS-Lake Erie
conflicted with the following two decisions rendered by
this court: Meadowbrook Care Ctr. v. Ohio Dept. of Job
& Family Servs., 10th Dist. No. 06AP-871, 2007-Ohio6534, and OMG MSTR LSCO, LLC v. Ohio Dept. of
Medicaid, 10th Dist. No. 18AP-223, 2018-Ohio-4843.
{¶ 3} On March 5, 2020, the department filed
memoranda in opposition to CHS’s motion to certify a
conflict and CHS’s combined application for
reconsideration and consideration en banc. The
department asserted this court should deny CHS’s
motion to certify a conflict as CHS failed to allege a
conflict between CHS-Lake Erie and a decision from
another court of appeals of this state. Although the
department noted that CHS failed to present an
argument to support its request for consideration en
banc, the department also asserted there was no
conflict of law between CHS-Lake Erie and either
Meadowbrook Care Ctr. or OMG MSTR LSCO, LLC.
{¶ 4} On March 10, 2020, CHS filed a combined
motion asking this court to convert its motion to certify
a conflict to an application for consideration en banc
and for leave to file an over length application for
consideration en banc instanter. CHS acknowledged

App. 5
the alleged “conflict in the holdings does indeed exist
within the Tenth Appellate District as opposed to a
conflict in opinions issued by different districts,” and
asserted the arguments contained in its motion to
certify a conflict “would have been appropriately
contained in an application for en banc consideration.”
(Appellees/Cross-Appellants’ Mot. to Convert at 3.)
{¶ 5} To certify a conflict between cases, “the
certifying court must find that its judgment is in
conflict with the judgment of a court of appeals of
another district.” Whitelock v. Gilbane Bldg. Co., 66
Ohio St.3d 594, 596 (1993). Accord App.R. 25(A). The
“procedure for certified conflicts does not apply to
conflicts existing within an appellate district.” In re
J.J., 111 Ohio St.3d 205, 2006-Ohio-5484, paragraph
three of the syllabus. As CHS never asserted the
judgment in CHS-Lake Erie conflicted with the
judgment of a court of appeals of another district, CHS
never even raised a potential issue for certification. In
contrast, the purpose of an en banc proceeding is to
resolve conflicts of law that arise within an appellate
district. App.R. 26(A)(2)(a); McFadden v. Cleveland
State Univ., 120 Ohio St.3d 54, 2008-Ohio-4914, ¶ 10,
15-16.
{¶ 6} Accordingly, in the interests of justice, we
grant CHS’s motion to convert its motion to certify a
conflict to an application for consideration en banc and
find that CHS has withdrawn its motion to certify a
conflict. We also grant CHS’s motion for leave to exceed
the page limitation on its application for consideration
en banc.

App. 6
II.

Application for Reconsideration Denied

{¶ 7} When presented with an application for
reconsideration filed pursuant to App.R. 26, an
appellate court must determine whether the
application “calls to the attention of the court an
obvious error in its decision, or raises an issue for
consideration that was either not considered at all or
was not fully considered by the court when it should
have been.” Columbus v. Hodge, 37 Ohio App.3d 68
(10th Dist.1987), paragraph one of the syllabus.
“‘App.R. 26 provides a mechanism by which a party
may prevent miscarriages of justice that could arise
when an appellate court makes an obvious error or
renders an unsupportable decision under the law.’”
Huff v. Ohio State Racing Comm., 10th Dist. No. 15AP586, 2017-Ohio-948, ¶ 2, quoting State v. Owens, 112
Ohio App.3d 334, 336 (11th Dist.1996).
{¶ 8} However, an appellate court will not grant
“[a]n application for reconsideration * * * just because
a party disagrees with the logic or conclusions of the
appellate court.” Bae v. Dragoo & Assocs., Inc., 10th
Dist. No. 03AP-254, 2004-Ohio-1297, ¶ 2.
“Furthermore, an application for reconsideration is not
a means to raise new arguments or issues.” Electronic
Classroom of Tomorrow v. State Bd. of Edn., 10th Dist.
No. 17AP-767, 2019-Ohio-1540, ¶ 3, citing State v.
Wellington, 7th Dist. No. 14 MA 115, 2015-Ohio-2095,
¶ 9.
{¶ 9} In CHS-Lake Erie, this court addressed the
department’s appeal and CHS’s cross-appeal from the
common pleas court’s order reversing in part and
affirming in part the department’s adjudication order.

App. 7
The department’s adjudication order concluded that
CHS owed the department $11,111,557.96 in Medicaid
provider overpayments. The overpayment finding was
the result of two types of audits: cost report audits of
the CHS facilities’ calendar year 2003 cost reports and
days audits of the days the facilities were paid for
rendering services to Medicaid recipients between 2003
and 2006. The primary issue in the direct appeal
concerned the department’s application of the
liquidation of liabilities rule to the CHS facilities’ 2003
cost reports.
{¶ 10} The liquidation of liabilities rule is contained
in 42 C.F.R. 413.100 and the provider reimbursement
manual (“PRM”) section 2305. Ohio Adm.Code 5101:33-01(A) provides that allowable costs for Medicaid cost
reporting purposes are to be determined according to
the following reference material in the following
priority: (1) Title 42 C.F.R. Chapter IV, (2) the PRM, or
(3) generally accepted accounting principles (“GAAP”).
“Although 42 C.F.R. Chapter IV and the PRM are rules
and interpretative guidelines applicable to Medicare
cost reports, Ohio incorporated these rules into Ohio
Adm.Code 5101:3-3-01(A) thereby making the
liquidation of liabilities rule applicable to Ohio
Medicaid cost reports.” CHS-Lake Erie at ¶ 54. 42
C.F.R. 413.100 provides that “a short term liability
* * * must be liquidated within 1 year after the end of
the cost reporting period in which the liability is
incurred.” 42 C.F.R. 413.100(c)(2)(i)(A). PRM section
2305 provides that if the liquidation of a short-term
liability “is made by check or other negotiable
instrument, these forms of payment must be redeemed

App. 8
through an actual transfer of the provider’s assets
within the” one-year time limit.
{¶ 11} The costs at issue in CHS-Lake Erie were
certain consulting costs the CHS facilities incurred in
2003. The consulting costs were short-term liabilities,
and the facilities failed to timely liquidate the
consulting costs pursuant to the requirements of 42
C.F.R. 413.100 and PRM section 2305. As such, the
department disallowed the relevant consulting costs
from the facilities’ 2003 cost reports. In CHS-Lake Erie,
we found the department correctly applied the
liquidation of liabilities rule to the consulting costs. Id.
at ¶ 66.
{¶ 12} The common pleas court reversed the
department’s application of the liquidation of liabilities
rule based on the court’s conclusion that the
“department had ‘ignor[ed] the competent and credible
evidence demonstrating that Medicare would not have
applied the rule to the transaction at issue.’” CHS-Lake
Erie at ¶ 36, quoting Trial Court Decision at 8. Ohio’s
Medicaid reimbursement system in 2003 was a
prospective cost-based system of reimbursement. In the
prospective cost-based system, the department used
the actual costs reported on a facility’s cost report to
establish a unique per diem rate for the facility for the
subsequent fiscal year. Id. at ¶ 24. In contrast, the
Medicare prospective payment system relied on
prospectively fixed rates for each category of treatment
rendered. Id. at ¶ 60. The Federal Register explains
that 42 C.F.R 413.100 “pertains to all services
furnished by providers” in the Medicare system other
than services paid for “on a prospective payment basis.”

App. 9
Id. at ¶ 59. John Hapchuk, a former auditor for the
Medicare and Medicaid programs in the United States
Department of Health and Human Services, testified at
the department hearings that the liquidation of
liabilities rule did not apply in Ohio in 2003 because
Ohio used “[a] prospective payment system” like the
Medicare prospective payment system and “had moved
away from the cost reimbursement to basically setting
prices.” Id. at ¶ 23.
{¶ 13} In CHS-Lake Erie, we observed that the
department’s hearing examiner had addressed both
Hapchuk’s and the Federal Register’s statements
indicating the liquidation of liabilities rule did not
apply in the Medicare prospective payment system. Id.
at ¶ 62-63. The hearing examiner concluded that
because “providers in Ohio were reimbursed based
upon costs incurred rather than services provided, * * *
Ohio’s prospective cost-based system differed from the
Medicare prospective payment system.” Id. at ¶ 63. The
hearing examiner also noted the “reliability issues
present in Hapchuk’s testimony,” as Hapchuk
“admitted he was not familiar with the rules applicable
to Ohio’s Medicaid cost reports.” Id. at ¶ 62. As the
department had addressed and distinguished the
evidence demonstrating that Medicare would not apply
the liquidation of liabilities rule in the Medicare
prospective payment system, we concluded in CHSLake Erie that the common pleas court “abused its
discretion by holding that the department had ignored
the evidence concerning Medicare’s application of the
liquidation of liabilities rule.” Id. at ¶ 64. Accordingly,
CHS’s contention that CHS-Lake Erie contains “no
discussion on how the common pleas decision was

App. 10
‘unreasonable, arbitrary, or unconscionable’” lacks
merit. (Appellees/Cross-Appellants’ App. for Recon. at
8.)
{¶ 14} CHS asserts in its application for
reconsideration that the liquidation of liabilities rule
“cannot be applied in a prospective [payment] system,”
whether the prospective payment system is “based on
past costs or a fixed or negotiated rate.”
(Appellees/Cross-Appellants’ App. for Recon. at 4.) To
support its assertion, CHS cites to various provisions of
42 C.F.R. 413 which demonstrate that Medicare has a
retrospective system of cost reimbursement for
providers who are not subject to the Medicare
prospective payment system. (Appellees/CrossAppellants’ App. for Recon. at 3, 6-7, 13.) See 42 C.F.R.
413.1(b) (noting that “[e]xcept as provided” in the
paragraphs addressing the prospective payment
system, Medicare will pay for services furnished by its
providers on the “basis of reasonable costs”); 42 C.F.R.
413.5 (stating general principles of Medicare
retrospective cost reimbursement); 42 C.F.R. 413.60
(detailing how the Medicare fiscal contractors will
make payments to providers under the retrospective
payment system). Compare 42 C.F.R. 413.1(d)(2)
(noting that Medicare payments for inpatient hospital
services after October 1, 1983 “are determined
prospectively on a per discharge basis”); 42 C.F.R.
413.1(g)(2)(i) (noting that the amount “paid” by
Medicare for services furnished in a nursing facility “on
or after July 1, 1998, * * * is determined in accordance
with the prospectively determined payment rates”).

App. 11
{¶ 15} The fact that Medicare retained its
retrospective payment system for providers not subject
to the Medicare prospective payment system does not
demonstrate that the liquidation of liabilities rule could
not apply in Ohio’s prospective cost-based payment
system. Under Ohio’s prospective cost-based system,
the department used the actual costs reported on a
facility’s annual cost report to establish a prospective
per diem rate for the facility for the subsequent fiscal
year. CHS-Lake Erie at ¶ 24. Unlike the Ohio
prospective cost-based system, the Medicare
prospective payment system utilizes only pre-set rates
of payment and does not consider the actual costs
incurred by the provider. Accord Anna Jacques Hosp.
v Burwell, 797 F.3d 1155, 1157-58 (D.C.Cir.2015)
(explaining that the Medicare “Prospective Payment
System reimburses hospitals for medical care * * * on
the basis of a pre-established formula, regardless of the
actual costs incurred by the hospital”); Abington Mem.
Hosp. v. Burwell, 216 F.Supp.3d 110, 117
(D.C.Cir.2016) (noting that in the Medicare prospective
payment system hospitals are “given advance notice of
the pre-established rates at which inpatient services
will be reimbursed,” and hospitals are “reimbursed at
those pre-set rates, irrespective of the costs the hospital
actually incurs”). Accordingly, the statements
contained in the Federal Register and case law
demonstrating that the liquidation of liabilities rule
does not apply in the Medicare prospective payment
system demonstrate only that the rule does not apply
in a prospective payment system based on pre-set
rates. CHS fails to cite any authority demonstrating
that the liquidation of liabilities rule did not apply in
Ohio’s prospective cost-based system of reimbursement.

App. 12
{¶ 16} CHS contends the testimony from Hapchuk,
Bert Cummins, and John Fleischer was “reliable,
probative, and substantial” evidence demonstrating it
was “not possible to apply the Liquidation of Liabilities
Rule to a prospective payment system.” (Appellees/
Cross Appellants’ App. for Recon. at 15.) We addressed
Hapchuk, Cummins, and Fleischer’s testimonies in
CHS-Lake Erie.
{¶ 17} Hapchuk’s testimony was not reliable.
Indeed, Hapchuk admitted he was not familiar with
Ohio’s Medicaid reimbursement system and mistakenly
stated that Ohio utilized a pricing system in 2003.
CHS-Lake Erie at ¶57-58. Although Cummins testified
that the liquidation of liabilities rule could not apply in
a “prospective system,” he stated the liquidation of
liabilities rule did apply “in a cost-based or reasonable
cost system.” (Tr. Vol. VI at 748.) Ohio’s Medicaid
payment system in 2003 was a cost-based system.
Fleischer testified that the liquidation of liabilities rule
“no longer [made] sense” because Ohio changed its
Medicaid reimbursement system in 2004, but affirmed
“that the rules made sense prior to the change in
legislation.” CHS-Lake Erie at ¶ 21. Thus, Fleischer
affirmed the liquidation of liabilities rule made sense
in Ohio in 2003.
{¶ 18} CHS asserts that certain acts of the General
Assembly which altered the Medicaid reimbursement
system in Ohio for fiscal years 2006, 2007, 2008, and
2009 demonstrate that the “Liquidation of Liabilities
Rule may not be applied” in the present case.
(Appellees/Cross-Appellants’ App. for Recon. at 10.) In
CHS-Lake Erie, we recognized that the General

App. 13
Assembly changed Ohio’s Medicaid payment system
beginning on July 1, 2004, when Ohio began to
transition to a price-based prospective payment system.
Id. at ¶ 25. However, CHS-Lake Erie concerned the
costs reported on the facilities’ 2003 cost reports. As
such, the legislative changes to Ohio’s Medicaid
reimbursement system after 2003 were not relevant to
determining whether the costs reported on the
facilities’ 2003 cost reports were allowable.
{¶ 19} CHS notes that 2004 Am.Sub.H.B. No. 95
was “in effect in 2003.” (Appellees/Cross-Appellants’
App. for Recon. at 10.) 2004Am.Sub.H.B. No. 95
established rate caps on the per diem rates Medicaid
facilities would receive in fiscal years 2004 and 2005.
See 2004 Am.Sub.H.B. No. 95, Section 59.37(B)(1) and
(2).1 The department used the costs reported on the
facilities’ calendar year 2003 cost reports to establish
the facilities’ per diem rates for fiscal year 2005. CHSLake Erie at ¶ 6. Testimony at the agency hearings
demonstrated the facilities’ fiscal year 2005 per diem
rates were “subject to ceilings.” (Tr. Vol. VIII at 1009.)
However, the fact that rate caps or ceilings would be
applied to the CHS facilities’ fiscal year 2005 per diem
rates did not render the liquidation of liabilities rule
inapplicable to the facilities’ 2003 cost reports.
{¶ 20} The CHS facilities paid a portion of the
consulting costs at issue in CHS-Lake Erie by issuing
promissory notes. The facilities issued the promissory
notes on December 31, 2003, and pursuant to the terms

1

Accessible at http://archives.legislature.state.oh.us/BillText125/
125_HB_95_EN2_N.html.

App. 14
of the notes did not make payments on the notes until
2005. CHS-Lake Erie at ¶ 13. As the payments on the
promissory notes did not occur until over one year after
the end of the 2003 cost reporting period, the
liquidation of liabilities rule mandated that the costs
associated with the promissory notes “were not
allowable on the facilities’ 2003 cost reports.” Id. at
¶ 71.
{¶ 21} CHS contends that “[u]nder Ohio’s Uniform
Commercial Code” the promissory notes amounted to
“payment in full” of the consulting costs at issue.
(Appellees/Cross-Appellants’ App. for Recon. at 18-19.)
As we explained in CHS-Lake Erie, “[a]lthough the
promissory notes at issue were negotiable instruments
under R.C. 1303.03(A) (Uniform Commercial Code 3104), the present case is concerned with the specific
Ohio Medicaid cost reporting rules rather than general
rules concerning negotiable instruments.” Id. at ¶ 70,
fn. 11. Thus, while “the presentation of a promissory
note is sufficient to liquidate a debt for purposes of
GAAP, the Medicare regulations which Ohio adopted in
Ohio Adm.Code 5101:3-3-01(A) place additional
requirements on this method of liquidation for cost
reporting purposes.” Id. at ¶ 70.
{¶ 22} CHS contends the department’s
interpretation of 42 C.F.R. 413.100 and PRM section
2305 was not entitled to deference because the
“Liquidation of Liabilities Rule is not an ODM rule; it
is a federal Medicare rule.” (Emphasis sic.)
(Appellees/Cross-Appellants’ App. for Recon. at 14.)
However, Ohio incorporated 42 C.F.R. 413.100 and
PRM section 2305 into Ohio Adm.Code 5101:3-3-01(A),

App. 15
“thereby making the liquidation of liabilities rule
applicable to Ohio Medicaid cost reports.” Id. at ¶ 54.
And what we correctly held was that “the department’s
conclusion that 42 C.F.R. 413.100 and PRM 2305
applied to the 2003 cost reports was entirely in keeping
with and required by the plain language of Ohio
Adm.Code 5101:3-3-01(A).” (Emphasis added.) Id. at
¶ 66.
{¶ 23} CHS essentially seeks to rehash the same
arguments it made in CHS-Lake Erie. Although CHS
disagrees with this court’s conclusion that the
liquidation of liabilities rule applied to the CHS
facilities’ 2003 cost reports, CHS fails to point to an
obvious error in our decision or raise an issue for
consideration that was not fully considered by this
court when it should have been.
{¶ 24} CHS additionally asserts this court made an
obvious error in affirming the common pleas court’s
ruling on the unpaid days and unpaid claims issue in
the days audit. The common pleas court affirmed the
department’s motion in limine ruling which precluded
CHS from offering evidence of unpaid days or unpaid
claims for service at the R.C. Chapter 119 hearings. In
CHS-Lake Erie, we observed that CHS “had no right
under R.C. 5111.06 to address the unpaid days and
unpaid claims at the R.C. Chapter 119 hearing on the
final fiscal audits.” Id. at ¶ 79. R.C. 5111.06(B)(2)2

2

The Medicaid reimbursement statutes and rules have been
revised since the time of the events at issue in this case. All
references to R.C. Chapter 5111 and Ohio Adm.Code Chapter 5101

App. 16
provides for R.C. Chapter 119 hearing rights when the
department takes “any action based upon a final fiscal
audit.” As “an audit reviews payment made to
‘determine the amount of overpayment,’” CHS’s unpaid
days and unpaid claims were never reviewed by the
department in the audit and could not be addressed at
the R.C. Chapter 119 hearings. Id. at ¶ 78, quoting
Ohio Adm.Code 5101:3-1-27(B)(1).
{¶ 25} CHS contends it should have been permitted
to introduce evidence of unpaid days at the R.C.
Chapter 119 hearings because the “unpaid days” were
“in the same audit period as the days that were paid
and adjusted by ODM.” (Appellees/Cross-Appellants’
App. for Recon. at 20.) However, the fact that the
unpaid days occurred in the same audit period as the
paid days does not establish that CHS was entitled to
address the unpaid days at the R.C. Chapter 119
hearings. The department necessarily never paid CHS
for the unpaid days and, thus, never reviewed the
unpaid days in auditing the CHS facilities. CHS fails to
point to an obvious error in CHS-Lake Erie.
{¶ 26} Based on the foregoing, CHS’s application for
reconsideration is denied.
III.

Application for Consideration En Banc
Denied

{¶ 27} An en banc proceeding is one in which all
full-time judges of a court who have not recused

throughout this decision are to the versions of those statutes and
rules in effect during the fiscal years for which the department
sought repayment.

App. 17
themselves or otherwise been disqualified participate
in the hearing and resolution of a case. App.R.
26(A)(2)(a); McFadden at ¶ 10. An en banc proceeding
seeks to resolve conflicts of law that arise within a
district. App.R. 26(A)(2)(a); McFadden at ¶ 10, 15-16.
These intradistrict conflicts develop when different
panels of judges hear the same issue, but reach
different results. McFadden at ¶ 15. This “create[s]
confusion for lawyers and litigants and do[es] not
promote public confidence in the judiciary.” J.J. at ¶
18. “Resolution of intradistrict conflicts promotes
uniformity and predictability in the law, and a larger
appellate panel provides the best possible means of
resolution.” State v. Forrest, 136 Ohio St.3d 134, 2013Ohio-2409, ¶ 7, citing McFadden at ¶ 15-16.
{¶ 28} App.R. 26(A)(2) governs en banc procedures,
providing as follows:
(a) Upon a determination that two or more
decisions of the court on which they sit are in
conflict, a majority of the en banc court may
order that an appeal or other proceeding be
considered en banc. * * * Consideration en banc
is not favored and will not be ordered unless
necessary to secure or maintain uniformity of
decisions within the district on an issue that is
dispositive in the case in which the application
is filed.
(b) * * * An application for en banc consideration
must explain how the panel’s decision conflicts
with a prior panel’s decision on a dispositive
issue and why consideration by the court en

App. 18
banc is necessary to secure and maintain
uniformity of the court’s decisions.
{¶ 29} “[C]onflicting decisions are those which
conflict on the same legal issue or question of law.”
Frash v. Ohio Dept. of Rehab. & Corr., 10th Dist. No.
14-AP-932, 2016-Ohio-3134, ¶ 3, citing J.J. at ¶ 18.
Courts of appeals have discretion to determine whether
an intradistrict conflict exists. McFadden at paragraph
two of the syllabus.
{¶ 30} CHS’s contention that a conflict exists
between CHS-Lake Erie and Meadowbrook Care Ctr.
and OMG MSTR LSCO, LLC is premised on CHS’s
inaccurate portrayal of certain events which took place
at the agency hearings. CHS contends that during the
R.C. Chapter 119 hearings the department “determined
that some of the patient days the agency had
previously refused to pay, should have been paid.”
(Appellees/Cross-Appellants’ Mot. to Certify a Conflict,
as converted to App. For Consideration En Banc
(hereafter, “Appellees/Cross-Appellants’ App. for
Consideration En Banc”) at 3.) Based on CHS’s belief
that the department decided to pay previously unpaid
patient days at the R.C. Chapter 119 hearings, CHS
contends it was required to present other evidence of
previously unpaid patient days at the hearings.
{¶ 31} However, the department never determined
that previously unpaid patient days should be paid at
the hearings as CHS contends. The department
introduced a number of exhibits detailing its
adjustments to the paid patient days at issue in the
days audit at the January 22, 2013 hearing. At the
April 8, 2013 hearing, “the department introduced four

App. 19
exhibits to replace four of the exhibits previously
introduced at the January 22, 2013 hearing.” CHSLake Erie at ¶ 82. Kierstyn Canter, a department audit
manager, explained that the difference between the
initial exhibits and the revised exhibits was that the
department had “deleted an adjustment to create less
of an overpayment.” (Tr. Vol. VI at 670.) CHS’s counsel
asked Canter if the revised exhibits demonstrated that
CHS “was entitled to additional revenue for the
settlement periods reflected in those four exhibits.” (Tr.
Vol. VI at 670.) Canter stated the revised exhibits did
not reflect any additional revenue going to CHS, but
rather reflected “just a reduction in the amount that
the provider owes back to [the department].” (Tr. Vol.
VI at 670.)
{¶ 32} In Meadowbrook Care Ctr., a nursing facility
argued that the department’s audit of the facility’s
patient days did not constitute a final fiscal audit
pursuant to R.C. 5111.06(B)(2). The days audit in
Meadowbrook Care Ctr. consisted of “a comparison and
reconciliation with [the department’s] records of
amounts paid to other providers” such as “hospice or
hospital, for the same patient.” Id. at ¶ 14. The
Meadowbrook Care Ctr. court concluded the
department’s “audit procedures in undertaking the
limited adjustments proposed in its adjudication order
complied with R.C. 5111.06 and 5111.27.” Id. at ¶ 21.
{¶ 33} CHS asserts that in “Meadowbrook, the
facility received a hearing; here, CHS did not.”
(Appellees/Cross-Appellants’ App. For Consideration
En Banc at 8.) CHS’s contention that it did not receive
a hearing is premised on its mistaken belief that it was

App. 20
entitled to introduce evidence of unpaid patient days at
the R.C. Chapter 119 hearings. In Meadowbrook Care
Ctr., the nursing facility did not attempt to introduce
evidence of unpaid days at the R.C. Chapter 119
hearing. Rather, the issue in Meadowbrook Care Ctr.
was whether the department’s method of auditing the
facility’s patient days was sufficient. There is no
conflict on an issue of law between CHS-Lake Erie and
Meadowbrook Care Ctr.
{¶ 34} In OMG MSTR LSCO, LLC, the department
initiated proceedings against certain long-term care
facilities to recover alleged Medicaid overpayments.
The facilities filed a complaint in the common pleas
court seeking a declaratory judgment that the
department’s attempt to collect the alleged
overpayments was time-barred. The common pleas
court granted the department’s Civ.R. 12(B)(6) motion
to dismiss the complaint based on the facilities’ failure
to exhaust their administrative remedies. The face of
the facilities’ complaint demonstrated they had failed
to exhaust their administrative remedies and that the
limited exceptions to the doctrine did not apply. As
such, the OMG MSTR LSCO, LLC court concluded that
the “declaratory judgment action must be dismissed
due to appellants’ failure to exhaust their
administrative remedies.” Id. at ¶ 19.
{¶ 35} CHS asserts that pursuant to OMG MSTR
LSCO, LLC it has “absolutely no remedy at all”
because it did not “receive a hearing on patient days.”
(Appellees/Cross-Appellants’ App. for Consideration En
Banc at 14-15.) However, CHS received an R.C.
Chapter 119 hearing on the patient days at issue in the

App. 21
department’s final fiscal audits, and appealed the
department’s ruling on the patient days to the common
pleas court and this court. CHS-Lake Erie did not
concern any issue regarding the failure to exhaust
administrative remedies doctrine. There is no conflict
on an issue of law between OMG MSTR LSCO, LLC
and CHS-Lake Erie. Moreover, CHS’s contention that
it has no remedy for its unpaid days lacks merit. In
CHS-Lake Erie, this court explained that CHS has
available avenues of relief to address its contentions
regarding the unpaid days, including seeking
reconsideration pursuant to Ohio Adm.Code 5101:3-157(B) or seeking a writ of mandamus to force the
agency to act on its claims for payment. Id. at ¶ 80-81.
{¶ 36} Based on the foregoing, CHS’s application for
consideration en banc is denied.
{¶ 37} CHS’s motion to convert its motion to certify
a conflict into an application for consideration en banc
and motion to exceed page limitation are granted;
CHS’s motion to certify a conflict is withdrawn. CHS’s
application for reconsideration and application for
consideration en banc are denied.
Motion to convert granted;
motion to exceed page limit granted;
motion to certify a conflict withdrawn;
application for reconsideration denied;
application for consideration en banc denied.
LUPER SCHUSTER and NELSON, JJ., concur.

App. 22

APPENDIX C
IN THE COURT OF COMMON PLEAS OF
FRANKLIN COUNTY, OHIO
CIVIL DIVISION
Case No. 16CV9766
JUDGE SERROTT
[Filed: April 21, 2020]
_______________________________________
CHS-Lake Erie, Inc. et al.,
)
)
Appellants,
)
)
-v)
Ohio Department of Medicaid,
)
)
Appellee.
)
_______________________________________)
DECISION AND ORDER
I.

Introduction

This case is before the Court on remand from a
decision rendered by the Tenth District Court of
Appeals (“Tenth District”) on February 13, 2020
(“Appellate Court Decision”). After a thorough review
of the Appellate Court Decision, this Court hereby
renders the following decision that conforms with the
requirements laid forth by the Tenth District.

App. 23
II.

Background

On October 30, 2018, this Court rendered a decision
in this case (“Trial Court Decision”), which affirmed in
part, and reversed in part, the Adjudication Order of
Appellee, the Ohio Department of Medicaid
(“Appellee”). Appellants, CHS-Lake Erie, Inc. et al.
(“Appellant”), are related Medicaid-provider nursing
homes, and appealed from Appellee’s Adjudication
Order following an audit of the nursing facilities cost
reports from 2003. The Adjudication Order adopted in
full the Hearing Officer’s Report and Recommendation
that Appellants were not entitled to reimbursement for
claimed costs of $11,111,557.96. After a full review of
the record and relevant law this Court affirmed the
Adjudication Order with the exception of Appellants’
argument that Appellee improperly applied the
liquidation-of-liability rule to the 2003 cost reports, an
error that was sustained.
On November 26, 2018, Appellee appealed the Trial
Court Decision to the Tenth District and on November
27, 2018, Appellants cross-appealed. On February 13,
2020, in the Appellate Court Decision, the Tenth
District affirmed in part and reversed in part the Trial
Court Decision. Specifically, Appellants’ four
assignments of error on cross-appeal were overruled,
but the Appellee’s sole assignment of error on the
liquidation-of-liabilities rule was sustained, the latter
of which was remanded to this Court.
III.

Analysis

The Tenth District remanded this case to this Court
on the sole issue of the liquidation-of-liabilities rule.

App. 24
The Tenth District deemed that this Court erred by
ruling that the Appellee incorrectly construed and
applied the liquidation-of-liabilities rule to disallow the
consulting costs in Appellants’ 2003 cost reports.
Accordingly, this Court now renders a decision that
allows the liquidation-of-liabilities rule to apply to
Appellants’ 2003 cost reports. In other words, the
original Adjudication Order of Appellee is now affirmed
in all respects.
IV.

Conclusion

By rendering this decision, the Court complies with
the remand requirements of the Appellate Court
Decision. Because there are no remaining issues to be
decided, the case is hereby terminated.
IT IS SO ORDERED.
Electronically Signed By:
JUDGE MARK A. SERROTT

App. 25
Franklin County Court of Common Pleas
Date:

04-21-2020

Case Title:

CHS-LAKE ERIE INC ET AL VS-OHIO DEPARTMENT
MEDICAID

Case Number:

16CV009766

Type:

DECISION
It Is So Ordered.
/s/ Judge Mark A. Serrott

App. 26
Court Disposition
Case Number: 16CV009766
Case Style: CHS-LAKE ERIE INC ET AL -VS- OHIO
DEPARTMENT MEDICAID
Case Terminated: 18 - Other Terminations

App. 27

APPENDIX D
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
No. 18AP-897
(C.P.C. No. 16CV-9766)
(REGULAR CALENDAR)
[Filed: February 13, 2020]
_______________________________________
CHS-Lake Erie, Inc. et al.,
)
)
Appellants-Appellees/
)
Cross-Appellants,
)
)
v.
)
)
Ohio Department of Medicaid,
)
)
Appellee-Appellant/
)
Cross-Appellee.
)
_______________________________________)
DECISION
Rendered on February 13, 2020
On brief: Webster & Associates, Co., LPA, and
Geoffrey E. Webster, for appellees/crossappellants. Argued: Geoffrey E. Webster.

App. 28
On brief: Dave Yost, Attorney General, and
Rebecca L. Thomas, for appellant/cross-appellee.
Argued: Rebecca L. Thomas.
APPEAL from the Franklin County Court of
Common Pleas
BEATTY BLUNT, J.
{¶ 1} Appellant/cross-appellee, the Ohio
Department of Medicaid (the “department”)1 appeals
from a judgment of the Franklin County Court of
Common Pleas affirming in part and reversing in part
the department’s adjudication order determining that
appellees/cross-appellants, CHS-Glenwell, Inc. (dba
Glen Meadows), CHS-Glenwell, Inc. (dba Wellington
Manor), CHS-Greater Cincinnati, Inc. (dba East
Galbraith Health Care Center (“East Galbraith”)),
CHS-Lake Erie, Inc. (dba Carington Park), CHS-Miami
Valley, Inc. (dba Vandalia Park), CHS-Miami Valley,
Inc. (dba Franklin Ridge), and CHS-Ohio Valley, Inc.
(dba Terrace View Gardens) (collectively, “CHS”2 or

1

Pursuant to 2013 Am.Sub.H.B. No. 59, the General Assembly
created the Ohio Department of Medicaid effective July 1, 2013.
The Ohio Department of Medicaid assumed responsibility and
authority over the Ohio Medicaid cases previously under
jurisdiction of the Ohio Department of Job and Family Services.
References to the “department” throughout this decision refer
either to the Ohio Department of Job and Family Services or the
Ohio Department of Medicaid interchangeably depending on the
relevant time frame.
2

Although Carington Health Systems, the parent corporation to
the facilities at issue, operates other long-term care facilities,
references to CHS herein refer only to the seven named facilities.

App. 29
“the
facilities”) owed the department $11,111,557.96 in
Medicaid provider overpayments. For the reasons
which follow, we affirm in part and reverse in part the
judgment of the common pleas court.
I.

Facts and Procedural History

{¶ 2} CHS operates long-term care facilities,
providing room, board, and nursing services to persons
eligible for benefits under Ohio’s Medicaid program.
Pursuant to R.C. Chapter 51113 and Title XIX of the
Social Security Act, the department administers the
Medicaid program in Ohio.
{¶ 3} In 2009, the department issued proposed
adjudication orders to CHS. The proposed adjudication
orders informed CHS that the department intended to
implement the findings of final fiscal audits, which
demonstrated that CHS had received an overpayment
of Medicaid funds. CHS timely requested R.C. Chapter
119 hearings on the proposed adjudication orders. The
department consolidated the matter into a single
proceeding and appointed a hearing examiner.
{¶ 4} The department conducted two types of audits
in this case: cost report audits and days audits. In the
cost report audits, the department audited the calendar

3

The Medicaid reimbursement statutes and rules have been
revised since the time of the events at issue in this case. All
references to R.C. Chapter 5111 and Ohio Administrative Code
Chapter 5101 throughout this decision are to the versions of those
statutes and rules in effect during the fiscal years for which the
department sought repayment.

App. 30
year4 2003 cost reports filed by Carington Park,
Terrace View Gardens, Vandalia Park, and Franklin
Ridge; the six-month cost report filed by East Galbraith
covering July 1 to December 31, 2003; and the threemonth cost reports filed by Glen Meadows and
Wellington Manor covering December 1, 2003 to
February 29, 2004. The hearing examiner referred to
all the cost reports as the 2003 cost reports.
{¶ 5} Nursing facilities report their yearly operating
costs to the Medicaid program through cost reports.
Nursing facilities prepare cost reports using the
accrual basis of accounting. The 2003 cost reports
contained separate cost centers for direct care costs,
indirect care costs, capital costs, and other protected
costs.
{¶ 6} From fiscal year5 1994 to fiscal year 2005,
Ohio used a nursing facility’s calendar year cost report
to establish the facility’s per diem rate for the
subsequent fiscal year. For example, the calendar year
1994 cost report established the per diem rate for fiscal
year 1996, and the calendar year 1995 cost report
established the per diem rate for fiscal year 1997.
Bryant Health Care Ctr. v. Ohio Dept. of Job & Family
Servs., 10th Dist. No. 13AP-263, 2014-Ohio-92, ¶ 6.
Thus, the facilities’ calendar year 2003 cost reports
established the facilities per diem rates for fiscal year
4

A calendar year went from January 1 to December 31; for
example, calendar year 2003 went from January 1 to December 31,
2003.
5

A state fiscal year went from July 1 to June 30; for example, state
fiscal year 2005 went from July 1, 2004 to June 30, 2005.

App. 31
2005. The per diem rate was the amount the facility
received per resident per day. Id. at ¶ 5.
{¶ 7} In the days audits, the department reviewed
the days the facilities were paid for rendering services
to Medicaid recipients (“patient days”) and reviewed
the funds the facilities collected from their Medicaid
recipients (“patient liability”). In reviewing the patient
days, the department sought to determine whether the
facilities actually provided each resident care for the
number of days the facility claimed to have provided
such care. See Clifton Care Ctr. v. Ohio Dept. of Job &
Family Servs., 10th Dist. No. 12AP-709, 2013-Ohio2742, ¶ 15; Meadowbrook Care Ctr. v. Ohio Dept. of Job
& Family Servs., 10th Dist. No. 06AP-871, 2007-Ohio6534, ¶ 14. In reviewing the patient liability amounts,
the department assessed whether CHS had collected
the proper amount of contribution from each resident.
Medicaid recipients may be required to contribute to
the cost of their care depending on their income, and
the difference between “the individual’s patient liability
and the monthly medicaid cost of care is the medicaid
vendor payment amount.” Ohio Adm.Code 5101:1-3922.2(B). The department audited the patient days and
patient liability amounts for the following facilities
during the following fiscal years: Carington Park,
Terrace View Gardens, Vandalia Park, Franklin Ridge,
and East Galbraith for 2003, 2004, 2005, and 2006;
Glen Meadows for 2004, 2005, and 2006; and
Wellington Manor for 2005 and 2006.
{¶ 8} The hearing before the department proceeded
in two phases. Phase one concerned the threshold issue
of whether the department, acting through the auditing

App. 32
firm Clifton Gunderson, had conducted qualifying
audits of CHS’s 2003 cost reports. The phase one
hearings occurred on September 28, September 29, and
October 5, 2009. The hearing examiner concluded the
department had conducted audits of the 2003 cost
reports.
{¶ 9} Phase two concerned the merits of the
department’s proposed audit adjustments under both
the cost report audits and the days audits. The phase
two hearings occurred on December 10 and 11, 2012,
and January 22, January 23, January 24, April 8, April
9, April 10, and May 17, 2013. One of the issues
addressed at the phase two hearings was the
department’s disallowance of certain consulting costs
from the 2003 cost reports based on the liquidation of
liabilities rule. Prior to the start of the phase two
hearings, CHS filed a motion in limine seeking to block
all evidence and testimony relating to the liquidation
of liabilities rule. The hearing examiner denied CHS’s
motion.
{¶ 10} The consulting costs at issue concerned some
of the facilities contracts with Strategic Nursing
Systems, Inc. (“Strategic”) and Providers Choice
Administrative Services, Inc. (“Providers Choice”). The
parties stipulated that Carington Park, Terrace View
Gardens, Franklin Ridge, Vandalia Park, and East
Galbraith contracted with Strategic for direct care
consulting services in 2003. The parties stipulated that
Carington Park, Terrace View Gardens, Franklin
Ridge, Vandalia Park, and East Galbraith contracted
with Providers Choice for indirect care consulting
services in 2003. The noted facilities reported their

App. 33
costs from Strategic and Providers Choice on their 2003
cost reports. Although the parties did not enter into
any stipulations regarding Glen Meadows and
Wellington Manor, these facilities reported costs
related to Strategic on their three-month cost reports.
{¶ 11} Carington Park, Terrace View Gardens,
Franklin Ridge, and Vandalia Park entered into
yearlong contracts with both Strategic and Providers
Choice beginning on January 1, 2003. East Galbraith
entered into six-month contracts with Strategic and
Providers Choice beginning on July 1, 2003. The
contracts with both Strategic and Providers Choice
provided for annual services (“Annual Services”) and
stated that the fees for the Annual Services would be
payable in monthly installments. The monthly invoices
issued throughout 2003 pursuant to the Annual
Services portions of the contracts stated the invoices
were “due upon receipt of invoice.” (State’s Ex. 58, 64,
93, 99, 120, 126, 155, 158, and 182.) The facilities paid
the Annual Services monthly invoices by check.
{¶ 12} The contracts between Carington Park,
Terrace View Gardens, Franklin Ridge, East Galbraith,
and Strategic, as well as the contracts between
Carington Park, Terrace View Gardens, Franklin
Ridge, Vandalia Park, East Galbraith, and Providers
Choice, also contained attachments providing for
additional enhanced services (“Enhanced Services”).
The attachments stated that the entire fee for the
Enhanced Services would be invoiced to the facilities on
December 31, 2003. The noted facilities issued
promissory notes to Strategic and Providers Choice on

App. 34
December 31, 2003 as payment for the Enhanced
Services fees.
{¶ 13} The December 31, 2003 promissory notes
issued from the facilities to Strategic stated the unpaid
principal and accrued interest would be payable in
monthly installments beginning August 1, 2005. The
December 31, 2003 promissory notes issued from the
facilities to Providers Choice stated the unpaid
principal and accrued interest would be payable in
monthly installments beginning February 1, 2005. The
facilities paid the promissory notes pursuant to their
terms and, thus, did not make payments on the notes
until 2005.
{¶ 14} Following its initial audit of CHS, Clifton
Gunderson disallowed the Strategic and Providers
Choice costs from the 2003 cost reports due to lack of
documentation and a suspected related party issue.6
After CHS produced documentation during discovery to
support the Strategic and Providers Choice costs, the
auditors identified the liquidation of liabilities issue. At
the beginning of the phase two hearings, the parties
6

The auditors noted a suspected related party issue because the
owners of CHS reported owning Strategic on their 2004 tax
returns, and CHS failed to produce documentation to the auditors
demonstrating that CHS did not own Strategic or Providers Choice
in 2003. During discovery, CHS produced a purchase agreement
demonstrating that the owners of CHS purchased Strategic on
August 29, 2004 for $4.6 million. When CHS purchased Strategic,
it owed Strategic $12 million. Thus, after the purchase CHS “owed
the money to themselves. Strategic ha[d] a receivable of $12
million. The companies had a payable of $12 million. And when it
was acquired, it became part of the combination, and they
eliminated.” (Tr. Vol. VII at 894.)

App. 35
stipulated that the department would proceed on the
liquidation of liabilities issue as the proposed basis for
disallowance of the consulting costs.
{¶ 15} Emily Hess, a senior manager at Clifton
Gunderson who oversaw the CHS audit, explained
there was a hierarchy of authorities the auditors used
to determine what costs were allowable on the 2003
cost reports. The hierarchy, contained in Ohio
Adm.Code 5101:3-3-01(A), consisted in order of
authority of the Ohio Revised Code, the Ohio
Administrative Code, Title 42 of the Code of Federal
Regulations (“C.F.R.”) Chapter IV, the Provider
Reimbursement Manual7 (“PRM”), and Generally
Accepted Accounting Principles (“GAAP”). The
liquidation of liabilities rule is contained in 42 C.F.R.
413.100 and PRM 2305. Because neither the Ohio
Revised Code nor the Ohio Administrative Code
address the timely liquidation of liabilities for cost
reporting purposes, the auditors followed the hierarchy
to apply 42 C.F.R. 413.100 and PRM 2305 to the 2003
cost reports.
{¶ 16} Hess explained that under the liquidation of
liabilities rule, “[i]n order to be claimed on the cost
reports” a short-term liability “must be expended or
funds expended within a year of that cost report
period.” (Tr. Vol. II at 113.) Thus, for a short-term
liability to be claimed on the 2003 cost report, the
facility “would have to have those funds expended

7

The Provider Reimbursement Manual is accessible at
https://www.cms.gov/Regulations-and-Guidance/Guidance/
Manuals/Paper-Based-Manuals-Items/CMS021929.html.

App. 36
basically by the end of 2004 or 12/31/2004.” (Tr. Vol. II
at 111.) A short-term liability is a liability payable
“within 12 months.” (Tr. Vol. II at 113.) Because the
Strategic and Providers Choice invoices were due upon
receipt, Hess stated the invoices were all short-term
liabilities.
{¶ 17} Hess noted that “most of the[] transactions”
under the Annual Services portions of the contracts
were allowable because the facilities paid the monthly
invoices in either 2003 or 2004. However, Hess noted a
few transactions under the Annual Services portions of
the contracts which were not allowable because they
were not paid until 2005. For example, Carington Park
paid the November 30, 2003 Strategic Annual Services
monthly invoice on March 28, 2005.
{¶ 18} Hess explained that PRM 2305 provided that
if a short-term liability was paid by check or negotiable
instrument, the instrument had “to be cashed and
paid” and “funds transferred from one entity to the
other” within “one year of the cost report period end
date.” (Tr. Vol. II at 114-15.) Accordingly, because the
facilities did not transfer any funds to redeem the
December 31, 2003 promissory notes until 2005, over
one year after the end of the 2003 cost reporting period,
Hess stated that the Enhanced Services costs were not
allowable on the 2003 cost reports. Hess noted the
payments made toward the promissory notes in 2005
“would be allowed on the 2005 cost reports,” and the
payments made toward the notes in 2006 would be
allowable on the “2006 cost report,” and so on for the
remaining years. (Tr. Vol. VI at 134.)

App. 37
{¶ 19} CHS presented testimony from Bert
Cummins, John Fleischer, and John Hapchuk to
support its contention that the liquidation of liabilities
rule did not apply to the 2003 cost reports. Cummins
and Fleischer, both certified public accountants whose
work focused on the long-term care industry in Ohio,
stated they had never seen the department apply the
liquidation of liabilities rule in an audit. Cummins
asserted that the liquidation of liabilities rule could not
apply to the 2003 cost reports because there was “no
way that costs can be disallowed out of the 2003 cost
report period and placed into a subsequent payment
period.” (Tr. Vol. II at 747-48.)
{¶ 20} Fleischer explained that because 42 C.F.R.
413.100 and PRM 2305 were Medicare rules, he was
“not so sure” if the rules applied “for Medicaid.” (Tr.
Vol. II at 244.) However, Fleischer affirmed that the
C.F.R. and the PRM were in the hierarchy of
authorities applicable to Ohio Medicaid cost reports.
Fleisher acknowledged the requirements of PRM 2305
but stated that in his opinion “if you were to take an
ordinary expense and make it part of a long-term
liability, I think at that point you’re done. The liability
has been liquidated within one year.” (Tr. Vol. II at
240-41.)
{¶ 21} Fleischer also noted the liquidation of
liabilities rule was “designed for an ongoing
reimbursement system.” (Tr. Vol. II at 301.) Because
the General Assembly changed Ohio’s Medicaid
“reimbursement system legislatively” in 2004, “where
they weren’t going to use the cost report anymore,”
Fleischer asserted that the rules no longer “[made]

App. 38
sense.” (Tr. Vol. II at 301.) Fleischer affirmed that the
“rules made sense prior to the change in legislation.”
(Tr. Vol. II at 301.)
{¶ 22} Hapchuk worked at the federal level as an
auditor for the Medicare and Medicaid programs in the
United States Department of Health and Human
Services, Office of the Inspector General. Hapchuk
noted that, although the PRM was “a Medicare
manual,” because Ohio had “deemed it in part of its
hierarchy of criteria, it applies to Medicaid too.” (Tr.
Vol. IV at 484, 486-87.)
{¶ 23} Hapchuk explained that 42 C.F.R. 413.100
applied to “health care providers not subject to
prospective payment[]” systems. (Tr. Vol. IV at 509.)
Hapchuk noted that in the Medicare prospective
payment system, “payment [was] not dependent upon
what costs [providers] incur, it’s dependent upon what
type of services that they perform.” (Tr. Vol. IV at 540.)
Thus, Hapchuk stated the liquidation of liabilities rule
did not apply in Ohio in 2003, because Ohio used “[a]
prospective payment system” and had “moved away
from the cost reimbursement to basically setting
prices.” (Tr. Vol. IV at 510.)
{¶ 24} The department called Julie Evers, the
section chief for disability and aging policy at the
department, to testify regarding the Ohio Medicaid
reimbursement systems. Evers explained that Ohio
used a “prospective cost-based system” of
reimbursement from fiscal year 1994 to fiscal year
2005. (Tr. Vol. IV at 1009.) In the prospective costbased system, the department used the costs reported
in a facility’s annual “cost report to establish a

App. 39
prospective rate for the subsequent fiscal year,” but did
not “go back and reconcile it to what the provider
actually spent in that period.” (Tr. Vol. IV at 1009-11.)
Thus, in the prospective cost-based system each facility
received a unique per diem rate ‘’based upon their
actual costs” reported on their cost report. (Tr. Vol. IV
at 1029-30.)
{¶ 25} Beginning on July 1, 2004, Ohio began to
transition to a price-based prospective system. Under
the price-based prospective system, the department
paid “similarly-situated homes the same price subject
to a case mix adjustment.” (Tr. Vol. IV at 1034.)
Nursing facilities continue to file calendar year cost
reports under the price-based system, but the
department uses the cost reports to “look[] to the peer
group experience” rather than to establish a unique per
diem rate. (Tr. Vol. IV at 1034.) Evers explained that
the hierarchy of authority contained in Ohio Adm.Code
5101:3-3-01(A) applied to the cost reports filed under
both the prospective cost-based system and the pricebased prospective system.
{¶ 26} On February 22, 2013, the department filed
a motion in limine to preclude CHS from offering
evidence concerning unpaid patient days and other
unpaid claims for service. The hearing examiner
granted the department’s motion in limine on March
15, 2013.
{¶ 27} At the phase two hearings, the department
submitted exhibits containing reports of examination
setting forth the department’s adjustments to the
patient days and patient liability amounts. The
department relied on the reports of examination as

App. 40
prima facie evidence to support its case in the days
audits.
{¶ 28} On October 31, 2015, the hearing examiner
issued a report and recommendation adopting the
department’s proposed adjustments under both the
days audits and cost report audits. The hearing
examiner concluded that the reports of examination
depicting the department’s adjustments to the patient
days and patient liability amounts were prima facie
evidence of those adjustments. As CHS failed to
present evidence to “rebut [the department’s] prima
facie evidence with respect to patient days and patient
liability adjustments,” the hearing examiner concluded
the department’s adjustments in the days audits were
correct. (Report & Recomm. at 12.)
{¶ 29} The hearing examiner observed that,
although the C.F.R. and the PRM were regulations and
interpretive guidelines “for Medicare cost reports,” by
including these materials in the hierarchy of
authorities contained in Ohio.Adm Code 5101:3-3-01,
“Ohio adopted these regulations to determine allowable
costs for Medicaid cost reports in Ohio.” (Report &
Recomm. at 68.) Additionally, the hearing examiner
noted that “[w]hether costs are allowable are
determined by the law in effect at the time,” such that
“[a] future change in the reimbursement system [did]
not provide justification to ignore the cost reporting
laws in effect at the time of filing cost reports.” (Report
& Recomm. at 49.) As such, the hearing examiner
concluded that the liquidation of liabilities rule
contained in 42 C.F.R. 413.100 and PRM 2305 applied
to the facilities’ 2003 cost reports.

App. 41
{¶ 30} As the “Strategic and Providers Choice
Annual Services invoices and the Strategic and
Providers Choice Enhanced Services invoices were due
upon receipt,” the hearing examiner held that the
invoices were “short-term liabilities.” (Report &
Recomm. at 68.) Although most of the monthly invoices
issued under the Annual Services portions of the
contracts were liquidated within one year of the end of
the 2003 cost reporting period, the hearing examiner
noted several Annual Services invoices which were not
allowable because they were not paid until 2005. The
hearing examiner observed that “Terrace View
Gardens, Franklin Ridge, Vandalia Park, Glen
Meadows, and Wellington Manor paid the Strategic
Annual Services December 2003 invoices by check
dated March 2005,” that “Carington Park paid the
Strategic Annual Services November 2003 invoice by
check dated March 2005 and the Strategic Annual
Services December 2003 invoice by check dated April
2005,” and that East Galbraith did not pay any of the
2003 Providers Choice Annual Services invoices until
2005. (Report & Recomm. at 64-65.)
{¶ 31} Regarding the promissory notes issued as
payment for the Enhanced Services portions of the
contracts, the hearing examiner observed that “none of
the facilities’ assets were transferred until 2005, over
one year from the end of the 2003 cost report period.”
(Report & Recomm. at 23.) As such, the hearing
examiner concluded the Enhanced Services costs were
not allowable on the 2003 cost reports.
{¶ 32} The hearing examiner recommended that the
department adopt the proposed audit adjustments and

App. 42
order CHS to pay back to the department
$11,111,557.96 in Medicaid provider overpayments.
{¶ 33} On October 3, 2016, the department issued
an adjudication order adopting the hearing examiner’s
findings of fact, conclusions of law, and
recommendations. CHS appealed the adjudication
order to the common pleas court.
{¶ 34} On March 16, 2017, CHS filed a brief in the
common pleas court. CHS asserted that the hearing
examiner was unfairly biased in favor of the state, and
that the department erred in applying the liquidation
of liabilities rule to the consulting costs on the 2003
cost reports. CHS further asserted that the department
committed reversible error by refusing to hear evidence
concerning the unpaid days and unpaid claims, and by
preventing CHS from rebutting the department’s prima
facie case in the days audits. The department filed a
brief responding to CHS’s arguments on May 9, 2017,
and CHS filed a reply brief on May 30, 2017.
{¶ 35} On October 30, 2018, the common pleas court
issued a decision and entry affirming in part and
reversing in part the department’s adjudication order.
The court found no merit to CHS’s contention that the
hearing examiner was unfairly biased and “summarily
reject[ed]” CHS’s contention that it was “improperly
foreclosed from seeking recovery for the ‘unpaid days.’”
(Decision at 2.) The court, however, agreed that the
department erred in applying the liquidation of
liabilities rule. In discussing the liquidation of
liabilities rule, the court noted only the promissory
notes issued as payment for the Strategic Enhanced

App. 43
Services invoices; the court did not address Providers
Choice or the Annual Services monthly invoices.
{¶ 36} The court observed that the department had
followed the Ohio Adm.Code 5101:3-3-01(A) hierarchy
of authorities “in applying Medicare’s timely
liquidation of liability rule set forth in 42 CFR 413.100
and §2305 of the Provider Reimbursement Manual.”
(Decision at 6.) However, the court concluded the
department had “ignor[ed] the competent and credible
evidence demonstrating that Medicare would not have
applied the rule to the transaction at issue.” (Decision
at 8.) Specifically, the court noted that Hapchuk’s
testimony, the Federal Register, and Abington Mem.
Hosp. v. Burwell, 216 F.Supp.3d 110 (D.D.C.2016),
demonstrated that the liquidation of liabilities rule did
not apply in the Medicare prospective payment system.
As Ohio in 2003 reimbursed Medicaid providers on a
prospective basis, the court concluded that the
“liquidation of liabilities rule was not applicable to the
costs at issue in 2003.” (Decision at 10.) The court also
“adopt[ed] and incorporate[d] in full the reasoning set
forth in [CHS’s] Reply Brief at pages 17 to 28” in
reaching its conclusion. (Decision at 10.)
II.

Assignments of Error

{¶ 37} The department assigns the following single
assignment of error for our review on appeal:
The lower court erred in concluding that the
Department incorrectly construed and applied
the liquidation-of-liabilities rule to disallow the
consulting costs at issue.

App. 44
{¶ 38} CHS cross-appeals, assigning the following
four assignments of error for our review:
[1.] Did [the department] deprive CHS of
procedural due process by effectively failing to
afford CHS a R.C. 119 hearing as required under
federal and state law?
[2.] Did [the department] improperly grant the
motion in limine to exclude CHS from offering
evidence on patient days when it offered several
exhibits itself on patient days which the hearing
officer mischaracterized as “prima facie
evidence”?
[3.] By cheating CHS out of patient days, did
[the department] impermissibly shift costs to
Medicare beneficiaries and other payers?
[4.] By artificially lowering patient days for
fiscal year 2003, is [the department] failing to
observe fiscal responsibility given the resulting
higher reimbursement rate to be applied to fiscal
years 2004-2009?
III.

Standard of Review

{¶ 39} In an administrative appeal pursuant to R.C.
119.12, the common pleas court must consider the
entire record to determine whether reliable, probative,
and substantial evidence supports the agency’s order
and whether the order is in accordance with law. Univ.
of Cincinnati v. Conrad, 63 Ohio St.2d 108, 110-11
(1980). Reliable, probative, and substantial evidence
has been defined as follows:

App. 45
(1) “Reliable” evidence is dependable; that
is, it can be confidently trusted. In order
to be reliable, there must be a reasonable
probability that the evidence is true.
(2) “Probative” evidence is evidence that
tends to prove the issue in question; it
must be relevant in determining the
issue. (3) “Substantial” evidence is
evidence with some weight; it must have
importance and value.
Our Place, Inc. v. Ohio Liquor Control Comm., 63 Ohio
St.3d 570, 571 (1992).
{¶ 40} The trial court’s “review of the
administrative record is neither a trial de novo nor an
appeal on questions of law only, but a hybrid review in
which the court ‘must appraise all the evidence as to
the credibility of the witnesses, the probative character
of the evidence, and the weight thereof.’” Lies v. Ohio
Veterinary Med. Bd., 2 Ohio App.3d 204, 207 (1st
Dist.1981), quoting Andrews v. Bd. of Liquor Control,
164 Ohio St. 275, 280 (1955). The trial court “must give
due deference to the administrative resolution of
evidentiary conflicts,” although “the findings of the
agency are by no means conclusive.” Conrad at 111.
The common pleas court conducts a de novo review of
questions of law, exercising its independent judgment
in determining whether the administrative order is “‘in
accordance with law.’” Ohio Historical Soc. v. State
Emp. Relations Bd., 66 Ohio St.3d 466, 471 (1993),
citing R.C. 119.12.
{¶ 41} An appellate court’s review of an
administrative decision is more limited than that of the

App. 46
common pleas court. Pons v. Ohio State Med. Bd., 66
Ohio St.3d 619, 621 (1993). The appellate court is to
determine only whether the common pleas court
abused its discretion. Id.; Lorain City Bd. of Edn. v.
State Emp. Relations Bd., 40 Ohio St.3d 257, 261
(1988). The term “abuse of discretion” connotes more
than an error of law or judgment; it implies that the
court’s attitude is unreasonable, arbitrary, or
unconscionable. Blakemore v. Blakemore, 5 Ohio St.3d
217, 219 (1983). Absent an abuse of discretion, this
court may not substitute its judgment for that of the
administrative agency or the trial court. Pons at 621.
However, on the question of whether the agency’s order
was in accordance with the law, this court’s review is
plenary. Kistler v. Conrad, 10th Dist. No. 04AP-1095,
2006-Ohio-3308, ¶ 9.
IV.

Department’s Appeal Proper Pursuant to
R.C. 119.12(N)

{¶ 42} Initially, we address whether the department
has the statutory authority to bring the present appeal.
R.C. 119.12(N) provides for appeals from a common
pleas court’s ruling on an agency’s order. R.C.
119.12(N) states:
The judgment of the court shall be final and
conclusive unless reversed, vacated, or modified
on appeal. These appeals may be taken either by
the party or the agency * * *. An appeal by the
agency shall be taken on questions of law
relating to the constitutionality, construction, or
interpretation of statutes and rules of the
agency, and, in the appeal, the court may also
review and determine the correctness of the

App. 47
judgment of the court of common pleas that the
order of the agency is not supported by any
reliable, probative, and substantial evidence in
the entire record.
{¶ 43} Thus, R.C. 119.12(N) “allows an agency the
right to appeal only on questions of law pertaining to
state statutes as well as rules and regulations which
were promulgated by the agency.” Miller v. Dept. of
Indus. Relations, 17 Ohio St.3d 226, 226-27 (1985). See
Katz v. Dept. of Liquor Control, 166 Ohio St. 229, 232
(1957). “Once the appeal is perfected on these grounds,
the appellate court has jurisdiction to review the lower
court’s ruling as to the particular question of law and
whether it is supported by any reliable, probative and
substantial evidence.” Miller at 227. “The key is that
the trial court actually rule on a question of law that
pertains to the constitutionality, construction or
interpretation of a statute or agency rule.” Enertech
Elec. v. W. Geauga Bd. of Edn., 10th Dist. No. 96AP370 (Sept. 3, 1996).
{¶ 44} The common pleas court acknowledged that
Ohio Adm.Code 5101:3-3-01(A) made 42 C.F.R. 413.100
and PRM 2305 applicable to the 2003 cost reports.
However, the court held that neither rule applied to the
consulting costs at issue on CHS’s 2003 cost reports.
The court’s ruling effectively interpreted Ohio
Adm.Code 5101:3-3-01(A) to mean that there were
exceptions to the application of the rules identified in
Ohio Adm.Code 5101:3-3-01(A). As the common pleas
court’s ruling interpreted Ohio Adm.Code 5101:3-301(A), the department may appeal the court’s ruling
pursuant to R.C. 119.12(N). See Enertech Elec.; Tiggs

App. 48
v. Ohio Dept. of Job & Family Servs., 8th Dist. No.
106022, 2018-Ohio-3164, ¶ 17.
V.

Department’s Assignment of Error - The
Liquidation of Liabilities Rule Applied to
the 2003 Cost Reports

{¶ 45} The department’s sole assignment of error
asserts the common pleas court erred in concluding
that the liquidation of liabilities rule did not apply to
the consulting costs contained in CHS’s 2003 cost
reports.
{¶ 46} “Medicaid is a cooperative federal-state
program through which the federal government
provides financial assistance to states so that they may
furnish medical care to needy individuals.” Drake Ctr.
v. Dept. of Human Servs., 125 Ohio App.3d 678, 684
(10th Dist.1998), citing Wilder v. Virginia Hosp. Assn.,
496 U.S. 498 (1990), citing 42 U.S.C. 1396. States that
choose to participate in Medicaid must comply with
certain requirements imposed by the Medicaid Act and
the regulations adopted by the Secretary of Health and
Human Services (“Secretary”). Id., citing Wilder. To
qualify for federal assistance, a state is required to
have an approved plan for medical assistance
establishing a scheme for reimbursing participating
health care providers. Id. at 685, citing Wilder.
{¶ 47} Thus, the administration of the Medicaid
program “is left to the individual participating states
according to a federally approved plan.” Morning View
Care Ctr.-Fulton v. Ohio Dept. of Human Servs., 148
Ohio App.3d 518, 2002-Ohio-2878, ¶ 17 (10th Dist.). In
contrast, Medicare is a “federal program that provides

App. 49
health insurance to the elderly and disabled.” Baptist
Med. Ctr. v. Burwell, U.S.D.C.D.C. No. 11-cv-0899
(Feb. 28, 2019). See Sun Towers, Inc. v. Heckler, 725
F.2d 315, 318 (5th Cir.1984), citing 42 U.S.C. 1395c;
Natl. Fedn. of Indep. Business v. Sebelius, 567 U.S.
519, 630 (2012) (observing that “Congress elected to
nationalize health coverage for seniors through
Medicare,” and that it “could similarly have established
Medicaid as an exclusively federal program” but did
not, opting instead to “g[ive] the States the opportunity
to partner in the [Medicaid] program’s administration
and development”).
{¶ 48} To participate in the Medicaid program in
Ohio, each facility subject to a provider agreement
must file a cost report covering the calendar year or
portion of the calendar year during which the facility
participated in the Medicaid program. R.C.
5111.26(A)(1)(a); Ohio Adm.Code 5101:3-3-20; St.
Francis Home, Inc. v. Ohio Dept. of Job & Family
Servs., 10th Dist. No. 06AP-287, 2006-Ohio-6147, ¶ 1.
The costs included on a cost report must be “allowable,”
presented in accordance with “department rules,” and
must be “documented, reasonable, and related to
patient care.” R.C. 5111.27(B)(3); Ohio Adm.Code
5101:3-3-21(A)(2)(c).
{¶ 49} A cost is considered “reasonable” if it is “an
actual cost that is appropriate and helpful to develop
and maintain the operation of patient care facilities”
and “does not exceed what a prudent buyer pays for a
given item or services.” Ohio Adm.Code 5101:3-301(AA). Ohio Adm.Code 5101:3-3-01(A) defines an
allowable cost as “those costs incurred for certified beds

App. 50
in a facility as determined by [the department] to be
reasonable.” Ohio Adm.Code 5101:3-3-01(A) further
provides:
Unless otherwise enumerated in Chapter
5101:3-3 of the Administrative Code, allowable
costs are also determined in accordance with the
following reference material, as currently issued
and updated, in the following priority:
(1) Title 42 Code of Federal Regulations (C.F.R.)
Chapter IV;
(2) The provider reimbursement manual (“health
care financing administration HCFA Publication
15-1,”); or
(3) Generally accepted accounting principles.
{¶ 50} Title 42 of the C.F.R. is the public health
title; Chapter IV deals with the Centers for Medicare
and Medicaid Services (“CMS”). The United States
Department of Health and Human Services
administers the Medicaid and Medicare programs
through CMS. Bellevue Hosp. Ctr. v. Leavitt, 443 F.3d
163, 168 (2d Cir.2006).
{¶ 51} 42 C.F.R. 413.100, titled “[s]pecial treatment
of certain accrued costs,” is contained in the subchapter
of Chapter IV applicable to Medicare.8 42 C.F.R.

8

In the portion of CHS’s reply brief adopted by the trial court,
CHS asserted that “presumably” only C.F.R. provisions “applicable
to Medicaid” should apply to Ohio cost reports. (CHS’s Trial Court
Reply Brief at 17.) Ohio Adm.Code 5101:3-3-01(A) does not contain
such a limitation, but rather cites generally to all of 42 C.F.R.

App. 51
413.100 recognizes that “under the accrual basis of
accounting, revenue is reported in the period in which
it is earned and expenses are reported in the period in
which they are incurred.” 42 C.F.R. 413.100(a). 42
C.F.R. 413.100 alters the accrual basis of accounting
principles for costs related to short-term liabilities,
vacation pay, and all-inclusive paid days off, sick pay,
compensation of owners, non-paid workers, and FICA
and other payroll taxes. For these costs, “Medicare does
not recognize the accrual of costs unless the related
liabilities are liquidated timely.” 42 C.F.R.
413.100(c)(1). Regarding short-term liabilities, 42
C.F.R. 413.100 provides that “a short-term liability,
including the current portion of a long-term liability
(for example, mortgage interest payments due to be
paid in the current year), must be liquidated within 1
year after the end of the cost reporting period in which
the liability is incurred.” 42 C.F.R. 413.100(c)(2)(i)(A).
42 C.F.R. 413.100, however, does not define what
“liquidation” means in the context of the rule.
{¶ 52} The PRM “contains interpretive guidelines
for implementing federal Medicare * * * regulations.
The manual, originally issued by the Health Care
Financing Administration, is maintained by its
successor, the Centers for Medicare and Medicaid
Services.” Bryant Health Care at ¶ 42. See also
Abraham Lincoln Mem. Hosp. v. Sebelius, 698 F.3d
536, 542 (7th Cir.2012); Dept. of Health & Mental

Chapter IV. Notably, none of the Medicaid specific C.F.R.
provisions that CHS cited to in its trial court reply brief address
cost reporting. In contrast, 42 C.F.R. 413.100 specifically addresses
cost reporting.

App. 52
Hygiene v. Riverview Nursing Ctr., Inc., 104 Md.App.
593, 598 (1995), n.3 (noting the “PRM contains
Medicare reimbursement guidelines * * * which
elaborate upon the Medicare reimbursement
regulations found in 42 C.F.R. Part 413”). PRM 2305,
titled “Liquidation of Liabilities,” mirrors 42 C.F.R.
413.100 and states that a “short term liability must be
liquidated within 1 year after the end of the cost
reporting period in which the liability is incurred.”
Section 2305 further provides:
Liquidation must be made by check or other
negotiable instrument, cash or legal transfer of
assets such as stock, bonds, real property, etc.
Where liquidation is made by check or other
negotiable instrument, these forms of payment
must be redeemed through an actual transfer of
the provider’s assets within the time limits
specified in this section. Where the liability (1) is
not liquidated within the 1-year time limit, or
(2) does not qualify under the exceptions
specified in §§ 2305.1 and 2305.2, the cost
incurred for the related goods and services is not
allowable in the cost reporting period when the
liability is incurred, but is allowable in the cost
reporting period when the liquidation of the
liability occurs.
{¶ 53} PRM 2305.1 provides that if, within the oneyear time limit, the provider furnishes to its fiscal
intermediary9 sufficient written justification for non-

9

Fiscal intermediaries in Medicare handle the “[d]ay-to-day
administration of the Medicare program.” Highland Dist. Hosp. v.

App. 53
payment of the liability, the intermediary may grant an
extension for good cause not to extend beyond three
years. Section 2305.2 states that the liquidation of
liabilities rule does not apply to PRM sections 220,
704.5, 2146.2, or the PRM sections which require
liquidation within 75 days after the end of the cost
reporting period. Neither exception applies in the
present case.
{¶ 54} CHS asserts that the liquidation of liabilities
rule, as stated in 42 C.F.R. 413.100 and PRM 2305,
should not apply to the present case because the rule
“is not an [Ohio Department of Medicaid] rule; it is a
federal Medicare rule.” (Emphasis sic.) (Appellee’s
Brief at 20.) Although 42 C.F.R. Chapter IV and the
PRM are rules and interpretative guidelines applicable
to Medicare cost reports, Ohio incorporated these rules
into Ohio Adm.Code 5101:3-3-01(A) thereby making the
liquidation of liabilities rule applicable to Ohio
Medicaid cost reports.
{¶ 55} Notably, other jurisdictions routinely
incorporate and apply federal Medicare guidelines to
their state Medicaid programs. See Heartland of

Secretary of Health & Human Servs., 676 F.2d 230, 232 (1982).
Fiscal intermediaries are “private non governmental entities,”
often times insurance companies, that “enter into contracts with
Secretary, pursuant to the authority delegated by Congress in
§ 1395h, to serve as the Secretary’s agent for various functions,
including auditing provider cost reimbursement requests.” Id.
Accord Regents of the Univ. of California v. Burwell, 155 F.Supp.3d
31, 38 (D.C.C.2016) (noting that “fiscal intermediaries * * * act as
the Secretary’s agents”). Thus, a fiscal intermediary is simply an
agent of the Secretary in the Medicare program.

App. 54
Beckley WV, LLC v. Bureau for Med. Servs., Sup. Ct. of
Appeals W.V. No. 15-0595 (Oct. 26, 2012) (noting the
West Virginia Medicaid regulations provide that
“federal Medicare statutes, regulations, and guidelines
will be applied when federal and West Virginia
Medicaid statutes, regulations, and guidelines are
silent on a given point”); In re McKerley Health
Facilities, 145 N.H. 164 (2000), quoting N.H. Admin.
Rules, He-W 593.34 (providing that “‘[d]ecisions
governing the allowability of costs not specifically
detailed’” under the New Hampshire Medicaid rules
“‘shall be pursuant to the Medicare Provider
Reimbursement Manual’”); Redding Med. Ctr. v. Bonta,
75 Cal.App.4th 478, 484 (1999) (providing that
allowable costs under the California Medicaid program
are to “be determined based on the Medicare provisions
of the Code of Federal Regulations and the PRM”);
Beverly Health & Rehab. Servs. v. Metcalf, 24 Va.App.
584, 594-96 (1997) (same – Virginia); Dept. of Health &
Mental Hygiene at 598 (same – Maryland); Hampton
Nursing Cntr. v. State Health & Human Serv. Finance
Comm., 303 S.C. 143, 147 (1990) (same – South
Carolina).
{¶ 56} The common pleas court concluded that the
department ignored the evidence demonstrating that
Medicare would not have applied the liquidation of
liabilities rule to the consulting costs at issue. The
record, however, demonstrates that the hearing
examiner addressed and distinguished the evidence
cited by the common pleas court.
{¶ 57} Hapchuk testified that the liquidation of
liabilities rule could not apply to the 2003 cost reports

App. 55
because Ohio utilized a prospective payment system.
However, Hapchuk admitted that he was not familiar
with Ohio’s cost reporting system and affirmed that he
did not know what was allowable on an Ohio Medicaid
cost report. Hapchuk testified that he did “not
understand exactly what they, Ohio, did on its
prospective payment system,” noting that he had “not
been given an opportunity to take a look at it.” (Tr. Vol.
IV at 516.) The “only thing” Hapchuk reviewed to gain
an understanding of Ohio’s Medicaid reimbursement
system was a one-page document he printed off from
the internet. (Tr. Vol. IV at 546.) The one-page
document stated, without further definition, that
Ohio’s Medicaid reimbursement systems were
“[r]etrospective 1980-91, Semi-prospective 1991-93,
Prospective 1993-2002, Pricing 2003-present.” (State’s
Ex. 274.) Based on this document, Hapchuk stated that
Ohio’s Medicaid reimbursement system was a “pricing
[reimbursement system] from 2003.” (Tr. Vol.Nat 636.)
{¶ 58} Hapchuk explained that the Medicare
prospective payment system did not depend on the
costs a provider incurred, but rather depended on the
services the provider performed. Hapchuk noted that if
Ohio had “continued on cost reimbursement” and not
“mov[ed] over to a prospective payment system” he
would have said “okay, probably this rule applies.” (Tr.
Vol. IV at 514-15.) Notably, when counsel for the
department explained that Ohio’s prospective costbased payment system used a provider’s actual costs to
set rates, Hapchuk acknowledged that such a system
was “not a pure prospective payment system as the
Medicare system is.” (Tr. Vol. IV at 531.)

App. 56
{¶ 59} The Federal Register addresses 42 C.F.R.
413.100 and explains that:
Generally, under the Medicare program, health
care providers not subject to prospective
payment are paid for the reasonable costs of the
covered items and services they furnish to
Medicare beneficiaries. [42 C.F.R. 413.100]
pertains to all services furnished by providers
other than inpatient hospital services * * * and
certain inpatient routine services furnished by
skilled nursing facilities choosing to be paid on
a prospective payment basis * * *.
60 Fed.Reg. 33126, effective June 27, 1995.
{¶ 60} Abington Mem. Hosp., which the trial court
also cited, follows the Federal Register and notes that
42 C.F.R. 413.100 “was explicitly made inapplicable to
inpatient care that was subject to the [Medicare
prospective payment system] payment scheme.” Id. at
122. However, Abington Mem. Hosp. further explained
that the Medicare prospective payment system
“‘relie[d] on prospectively fixed rates for each category
of treatment rendered.’” Id. at 117, quoting Methodist
Hosp. of Sacramento v. Shalala, 38 F.3d 1225, 1227
(D.C.Cir.1994). Thus, under the Medicare prospective
payment system hospitals are “given advance notice of
the pre-established rates at which inpatient services
will be reimbursed,” and hospitals are “reimbursed at
those pre-set rates, irrespective of the costs the hospital
actually incurs.” Id. at 117. Accord Atrium Med. Ctr. v.
United States HHS, 766 F.3d 560, 564 (6th Cir.2014);
Anna Jacques Hosp. v. Burwell, 797 F.3d 1155
(D.C.Cir.2015). See Community Care, L.L.C. v. Leavitt,

App. 57
477 F.Supp.2d 751, 754 (E.D.La.2007), quoting New
GWO Report Examines Medicare PPS Effects on
Nursing Homes, 8 No. 1 Cal. Health L. Monitor 4
(2000) (explaining that the Balanced Budget Act of
1997 made the Medicare prospective payment system,
which is based on “‘fixed, predetermined rates for each
day of care,’” applicable to nursing facilities
participating in the Medicare program).
{¶ 61} In contrast to the Medicare prospective
payment system, Evers explained that Ohio’s
prospective cost-based system in 2003 used the actual
costs reported on a facility’s annual cost report to
establish the facility’s unique per diem rate for the
subsequent fiscal year. Thus, while Ohio’s
reimbursement system was prospective, as it set a rate
for a future period, it was also based on actual costs.
Accord Ohio Academy of Nursing Homes v. Ohio Dept.
of Job & Family Servs., 114 Ohio St.3d 14, 2007-Ohio2620, ¶ 2 (observing that “[u]nder a ‘prospective
payment’ system that has been in place since 1993,
Ohio reimburses a qualifying facility by paying it a per
diem rate that is calculated based on the actual costs
incurred by the facility in a prior period”); Bryant
Health Care Ctr. at ¶ 5; Arcadia Acres v. Ohio Dept. of
Job & Family Servs., 10th Dist. No. 06AP-738, 2007Ohio-6853, ¶ 2.
{¶ 62} The hearing examiner addressed Hapchuk’s
testimony and concluded that “[s]ince in Ohio, in 2003,
the rates were based upon the reported costs incurred,
not the type of service performed, Ohio was not under
a prospective payment system such as that described
by Mr. Hapchuk and used by Medicare.” (Report &

App. 58
Recomm. at 31.) Furthermore, the hearing examiner
addressed the reliability issues present in Hapchuk’s
testimony, noting that “Hapchuk admitted he was not
familiar with the rules applicable to Ohio’s Medicaid
cost reports” and that Hapchuk’s understanding of
Ohio’s payment system came from a “one-page
document from the internet.” (Report & Recomm. at
30.)
{¶ 63} The hearing examiner also addressed the
Federal Register’s statement that 42 C.F.R. 413.100
did “not apply to Medicare providers under a
prospective payment system.” (Report & Recomm. at
43.) Again, because “providers in Ohio were reimbursed
based upon costs incurred rather than services
provided,” the hearing examiner concluded that Ohio’s
prospective cost-based system differed from the
Medicare prospective payment system. (Report &
Recomm. at 43.) Based on the differences between the
Medicare and Ohio Medicaid payment systems, the
hearing examiner concluded that CHS’s “argument
that 42 CFR 413.100 and PRM 2305 [did] not apply to
[the] 2003 cost reports based upon the reimbursement
system in effect at the time [was] not well-taken.”
(Report & Recomm. at 43.)
{¶ 64} Accordingly, the department addressed the
evidence demonstrating that the liquidation of
liabilities rule did not apply to the Medicare
prospective payment system. The department
concluded that the liquidation of liabilities rule could
apply in Ohio’s prospective cost-based payment system
because the system was based on reasonable costs
rather than set prices. The common pleas court abused

App. 59
its discretion by holding that the department had
ignored the evidence concerning Medicare’s application
of the liquidation of liabilities rule.
{¶ 65} Furthermore, “the General Assembly created
administrative bodies to facilitate certain areas of the
law by placing the administration of those areas before
boards or commissions composed of individuals who
possess special expertise.” Parents Protecting Children
v. Korleski, 10th Dist. No. 09AP-48, 2009-Ohio-4549,
¶ 10, citing Club 3000 v. Jones, 10th Dist. No. 07AP593, 2008-Ohio-5058, ¶ 29. Deference is afforded to an
administrative agency’s interpretation of its own rules
and regulations if such an interpretation is consistent
with statutory law and the plain language of the rule
itself. OPUS III-VII Corp. v. Ohio State Bd. of
Pharmacy, 109 Ohio App.3d 102, 113 (10th Dist.1996).
Accord Frisch’s Restaurants, Inc. v. Ryan, 121 Ohio
St.3d 18, 2009-Ohio-2, ¶ 16; Sierra Club v. Koncelik,
10th Dist. No. 12AP-288, 2013-Ohio-2739, ¶ 24.
{¶ 66} We find that the department’s conclusion
that 42 C.F.R. 413.100 and PRM 2305 applied to the
2003 cost reports was entirely in keeping with and
required by the plain language of Ohio Adm.Code
5101:3-3-01(A). As such, the department’s conclusion
that the liquidation of liabilities rule applied to the
2003 cost reports is correct.
{¶ 67} As the invoices issued under both the Annual
Services and Enhanced Services portions of the
Strategic and Providers Choice contracts were due

App. 60
upon receipt, they were short-term liabilities.10 Because
the debts were short-term liabilities, Ohio Adm.Code
5101:3-3-01(A), 42 C.F.R. 413.100 and PRM 2305
required that the debts be liquidated within one year of
the end of the 2003 cost reporting period for the costs
to be allowable on the 2003 cost reports. As such, the
costs associated with the Strategic and Providers
Choice Annual Services monthly invoices which were
issued in 2003, but not paid until 2005, were not
allowable on the 2003 cost reports.
{¶ 68} The promissory notes the facilities issued to
pay the Strategic and Providers Choice Enhanced
Services invoices were negotiable instruments. As such,
PRM 2305 provided that the notes had to be redeemed
by an actual transfer of assets within one year of the
end of the 2003 cost reporting period. See Professional
Rehab. Outpatient Servs. v. Health Care Fin. Admin.,
S.D.Tex. H-00-2526 (Dec. 6, 2001) (applying the
liquidation of liabilities rule and concluding that,
because a promissory note issued in 1995 was payable
by “December 31, 1998 – three years following the end
of the 1995 cost reporting period” the promissory note
“did not meet this liquidation requirement”); Med.
Rehab. Servs., P.C. v. Bowen, E.D. Mich. 87-CV-74547DT (Sept. 6, 1989) (observing that pursuant to PRM
2305, “the issuance of [the] promissory note [was] not
evidence of liquidation, unless plaintiff’s assets were
actually transferred to its creditor within one year of
accrual”).

10

Notably, in CHS’s December 5, 2012 motion in limine, CHS
acknowledged that the promissory notes were “used to satisfy the
short term liabilities.” (Dec. 5, 2012 Mot. in Limine at 8.)

App. 61
{¶ 69} In the portion of CHS’s reply brief adopted by
the common pleas court, CHS asserted that the
“promissory notes at issue were long-term liabilities,
not subject to a Liquidation of Liabilities Rule.” (CHS
Trial Court Reply Brief at 20.) However, the
promissory notes were issued as payment for the
Enhanced Services invoices, which were short-term
liabilities. The long-term nature of the promissory
notes did not alter the fact that they were issued to pay
short-term liabilities.
{¶ 70} While the presentation of a promissory note
is sufficient to liquidate a debt for purposes of GAAP,
the Medicare regulations which Ohio adopted in Ohio
Adm.Code 5101:3-3-01(A) place additional
requirements on this method of liquidation for cost
reporting purposes. The Federal Register explains that
while GAAP is “used to present the financial position
of an organization,” Medicare payment policy differs
from GAAP as it seeks to “prevent the outlay of Federal
trust funds before they are needed to pay the costs of
providers’ actual expenditures.” 60 Fed.Reg. at 33129.
Because a negotiable instrument does not cause an
immediate transfer of assets, the Medicare regulations
place additional requirements on negotiable
instruments for cost reporting purposes.11 Otherwise,
providers could issue promissory notes and receive

11

Although the promissory notes at issue were negotiable
instruments under R.C. 1303.03(A) (Uniform Commercial Code 3104), the present case is concerned with the specific Ohio Medicaid
cost reporting rules rather than general rules concerning
negotiable instruments.

App. 62
Medicare trust funds before ever expending their own
assets.
{¶ 71} The requirements imposed by PRM 2305
applied to the promissory notes issued by the facilities
to pay the Strategic and Providers Choice Enhanced
Services invoices. Because the facilities did not transfer
any assets as payments toward the promissory notes
until 2005, beyond one year after the end of the 2003
cost reporting period, the costs associated with the
Strategic and Providers Choice Enhanced Services
invoices were not allowable on the facilities’ 2003 cost
reports.
{¶ 72} In the final analysis, Ohio Adm.Code 5101:33-01(A) plainly identifies 42 C.F.R. Chapter IV and the
PRM as the reference materials to be used to determine
whether costs reported on an Ohio Medicaid cost report
are allowable. Those reference materials, at 42 C.F.R.
413.100 and PRM 2305, contain the liquidation of
liabilities rule. The common pleas court ruled that the
liquidation of liabilities rule did not apply to the
facilities’ 2003 cost reports because the rule would not
apply in the Medicare prospective payment system.
The department, however, distinguished the Medicare
prospective payment system from the Ohio prospective
cost-based system, and concluded that the liquidation
of liabilities rule could apply in Ohio’s prospective costbased payment system. The common pleas court erred
in reversing the portion of the department’s
adjudication order applying the liquidation of liabilities
rule to the 2003 cost reports.
{¶ 73} Based on the foregoing, the department’s sole
assignment of error is sustained.

App. 63
VI.

First & Second Assignments of Error on
Cross-Appeal – CHS Not Entitled to
Introduce Evidence of Unpaid Days and
Reports of Examination Were Prima Facie
Evidence

{¶ 74} CHS’s first assignment of error asserts the
department deprived CHS of a R.C. Chapter 119
hearing. CHS asserts it did not receive a R.C. Chapter
119 hearing “on patient days since the Hearing Officer
granted the Department’s motion in limine” to exclude
CHS’s evidence of unpaid days and unpaid claims for
service. (Cross-appellant’s Brief at 21.) CHS’s second
assignment of error asserts that the hearing examiner
erred in granting the department’s motion in limine
and in characterizing the department’s exhibits as
prima facie evidence. As CHS’s first and second
assignments of error are related, we address them
jointly.
{¶ 75} The hearing examiner had the authority to
admit or exclude evidence at the administrative
hearing. Our review is limited to determining whether
the common pleas court abused its discretion by failing
to reverse the hearing examiner’s evidentiary ruling.
HCMC, Inc. v. Ohio Dept. of Job & Family Servs., 179
Ohio App.3d 707, 2008-Ohio-6223, ¶ 57.
{¶ 76} In granting the department’s motion to
exclude the evidence of unpaid days and unpaid claims
for service, the hearing examiner observed that R.C.
5111.06 authorized R.C. Chapter 119 hearings “for
providers to challenge matters included in final fiscal
audits, which examine payments made to providers.”
(Mar. 15, 2013 Journal Entry at 4.) As an audit

App. 64
examines payments made to providers, the hearing
examiner concluded that “adjudication of claims for
unpaid days and unpaid claims [were] not at issue in
this administrative hearing.” (Mar. 15, 2013 Journal
Entry at 4.)
{¶ 77} “[A]bsent specific statutory or constitutional
authority, a party has no inherent right to appeal from
an order of an administrative agency.” Springfield
Fireworks, Inc. v. Ohio Dept. of Commerce, 10th Dist.
No. 03AP-330, 2003-Ohio-6940, ¶ 17. Accord Section 4,
Article IV, Ohio Constitution. R.C. 5111.06(B) provides:
The department shall do either of the following
by issuing an order pursuant to an adjudication
conducted in accordance with Chapter 119 of the
Revised Code:
(1) Enter into or refuse to enter into a provider
agreement with a provider, or suspend,
terminate, renew, or refuse to renew an existing
provider agreement with a provider;
(2) Take any action based upon a final fiscal
audit of a provider.
{¶ 78} If a party is adversely affected by an order
issued under R.C. 5111.06(B), the party may “appeal to
the court of common pleas of Franklin county in
accordance with section 119.12 of the Revised Code.”
R.C. 5111.06(C). Thus, a party has R.C. Chapter 119
appeal right from any action the department takes
based on a final fiscal audit. Clifton Care Ctr. at ¶ 12.
An “audit” is defined as “a formal postpayment
examination * * * of a Medicaid provider’s records and
documentation to determine program compliance, the

App. 65
extent and validity of services paid for under the
Medicaid program and to identify any inappropriate
payments.” Ohio Adm.Code 5101:3-1-27(B)(1). Thus, an
audit reviews payment made to “determine the amount
of overpayment.” Ohio Adm.Code 5101:3-1-27(B)(1).
{¶ 79} Accordingly, as an audit reviews payments,
unpaid days and unpaid claims for service are not
reviewed by the department in an audit. See Clifton
Care Ctr. at ¶ 17 (observing that “[s]ince [the
department] never paid the claims at issue, it could not
audit them”). Accordingly, CHS had no right under
R.C. 5111.06 to address the unpaid days and unpaid
claims at the R.C. Chapter 119 hearing on the final
fiscal audits.12
{¶ 80} CHS asserts that the R.C. Chapter 119
hearing was the only opportunity CHS had to address
its claims relating to the unpaid days and unpaid

12

CHS asserts that it was entitled to present evidence on the
unpaid days and unpaid claims because in Ohio Academy of
Nursing Homes, Inc. v. Ohio Dept. of Job & Fam. Servs., 149 Ohio
App.3d 413, 2002-Ohio-4721 (10th Dist.), this court “ruled the
department must adjudicate all issues at once in a final fiscal audit
pursuant to R.C. 5111.06(B).” (Cross-appellant’s Brief at 22.) In
Ohio Academy of Nursing Home, the court held that for a R.C.
Chapter 119 hearing to occur pursuant to R.C. 5111.06, “‘there
must have been a final fiscal audit, which impliedly means that all
issues for the reimbursement period have been adjudicated.’” Id.
at ¶ 25, quoting trial court decision. The statement in Ohio
Academy of Nursing Homes meant that all issues pertaining to the
audit had to be adjudicated during the reimbursement period. The
statement did not indicate that a facility could introduce any issue
unrelated to the audit at a R.C. Chapter 119 hearing on a final
fiscal audit.

App. 66
claims. However, Ohio Adm.Code 5101:3-1-57(B)
provides that “[o]ther administrative actions affecting
the provider’s Medicaid program status which are not
subject to hearings under Chapter 119 of the Revised
Code, may be reconsidered by the deputy director in
the office where the contestation arose.” Notably,
“denied claims and claim adjustments which may be
reconsidered” pursuant to Ohio Adm.Code 5101:3-157(B), are expressly identified as “[a]ctions that do not
provide [R.C. Chapter 119] hearing rights.” Ohio
Adm.Code 5101:6-50-01(C)(9).
{¶ 81} Furthermore, “when an agency’s decision is
discretionary and, by statute, not subject to direct
appeal, a writ of mandamus is the sole vehicle to
challenge the decision.” Ohio Academy of Nursing
Homes v. Ohio Dept. of Job & Family Servs., 114 Ohio
St.3d 14, 2007-Ohio-2620, ¶ 23. Accord State ex rel.
Potts v. Comm. on Continuing Legal Edn., 93 Ohio
St.3d 452, 457 (2001) (providing that “[m]andamus is
the appropriate remedy where no right of appeal is
provided to correct an abuse of discretion by a public
body”); Heartland Jockey Club, Ltd. v. Ohio State
Racing Comm., 10th Dist. No. 98AP-1465 (Aug. 3,
1999). To the extent CHS contends that the
department has yet to deny or otherwise act on its
claims for payment, a writ of mandamus is the proper
vehicle to compel an agency to act. State ex rel. GMC v.
Indus. Comm., 117 Ohio St.3d 480, 2008-Ohio-1593,
¶ 9, citing State ex rel. Levin v. Schremp, 73 Ohio St.3d
733, 735 (1995) (holding that “[a] mandamus action is
thus appropriate where there is a legal basis to compel
a public entity to perform its duties under the law”);
Morning View Care Ctr.-Fulton at ¶ 16.

App. 67
{¶ 82} CHS asserts that when the department
“offered testimony on its four exhibits as to patient
days” the department “waived the prima facie
presumption” for those exhibits. (Cross-appellant’s
Brief at 29.) The department initially introduced the
reports of examination detailing the department’s
adjustments to the patient days and patient liability
amounts as exhibits at the January 22, 2013 hearing.
The department noted that it was relying on the
exhibits as its prima facie case in the days audits. At
the April 8, 2013 hearing, the department introduced
four exhibits to replace four of the exhibits previously
introduced at the January 22, 2013 hearing. The four
revised exhibits cleared some of the department’s prior
adjustments to patient days. The department
submitted the replacement exhibits as prima facie
evidence of its adjustments to the patient days.
{¶ 83} CHS objected that the revised exhibits were
unauthenticated. As such, the department presented
Kierstyn Canter, an audit manager at the department,
to authenticate the exhibits. Canter stated the four
exhibits were created under her supervision and were
all kept in the ordinary course of the department’s
business. CHS asserts that Canter’s testimony waived
the prima facie presumption on the four exhibits.
{¶ 84} Ohio Adm. Code 5101:6-50-09(A)(4) provides
that “[a]ny audit report, report of examination, exit
conference report, or report of final settlement issued
by [the department] and entered into evidence is to be
considered prima facie evidence of what it asserts.”
“Prima facie evidence has been defined as that which is
‘sufficient to support but not to compel a certain

App. 68
conclusion and does no more than furnish evidence to
be considered and weighed but not necessarily accepted
by the trier of the facts.’” Meadowwood Nursing
Facility v. Ohio Dept. of Job & Family Servs., 10th
Dist. No. 04AP-732, 2005-Ohio-1263, ¶ 14, quoting
Cleveland v. Keah, 157 Ohio St. 331, 337 (1952).
{¶ 85} “The presentation of evidence on some audit
findings [does] not deprive [the department] of all
applicable presumptions” under Ohio Adm.Code
5101:6-50-09(A)(4). Id. at ¶ 13. “However, to the extent
that the witness testifies with respect to discernible
audit factors, then the presumption [in Ohio Adm.Code
5101:6-50-09(A)(4)] has no effect.” Id. As Canter simply
authenticated the exhibits and did not testify regarding
any discernable audit factors, Canter’s testimony did
not invalidate the prima facie presumption on the four
exhibits.
{¶ 86} CHS contends that “[b]y granting the motion
in limine, the Department precluded CHS from offering
evidence on patient days.” (Cross-appellant’s Brief at
4.) However, the hearing examiner’s ruling on the
motion in limine only prevented CHS from introducing
evidence on unpaid days and unpaid claims. The
hearing examiner’s ruling did not prevent CHS from
presenting evidence on the patient days at issue in the
audit or from rebutting the department’s prima facie
evidence.
{¶ 87} The trial court did not abuse its discretion by
failing to reverse the hearing examiner’s evidentiary
ruling on the unpaid days and unpaid claims or in
upholding the department’s adjustments in the days

App. 69
audits. CHS’s first and second assignments of error on
cross-appeal are overruled.
VII.

Third & Fourth Assignments of Error on
Cross-Appeal – Not Raised in Common
Pleas Court

{¶ 88} CHS’s third assignment of error asserts the
department impermissibly shifted costs to Medicare
beneficiaries and to other payers. CHS’s fourth
assignment of error asserts the department failed to
observe fiscal responsibility by failing to pay CHS for
the unpaid patient days in fiscal year 2003.
{¶ 89} CHS did not raise either argument contained
in its third or fourth assignments of error in the
common pleas court. CHS’s failure to raise these
arguments in the common pleas court forfeits these
issues for appellate purposes. Edmands v. State Med.
Bd., 10th Dist. No. 16AP-726, 2017-Ohio-8215, ¶ 14.
Accord Nunn v. Ohio Dept. of Ins., 10th Dist. No. 18AP114, 2018-Ohio-4030, ¶ 11 (noting that “[i]t is well
established that a party may not present new
arguments for the first time on appeal”). As CHS has
forfeited these arguments, we overrule CHS’s third and
fourth assignments of error on cross-appeal. Parker’s
Tavern v. Ohio Dept. of Health, 195 Ohio App.3d 22,
2011-Ohio-3598, ¶ 11 (10th Dist.).
VIII. Conclusion
{¶ 90} Having sustained the department’s sole
assignment of error, CHS’s four assignments of error
on cross-appeal are overruled, we reverse in part and
affirm in part the judgment of the Franklin County
Court of Common Pleas.

App. 70
Judgment affirmed in part, reversed in
part, case remanded.
BRUNNER and NELSON JJ., concur.

App. 71
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
No. 18AP-897
(C.P.C. No. 16CV-9766)
(REGULAR CALENDAR)
_______________________________________
CHS-Lake Erie, Inc. et al.,
)
)
Appellants-Appellees/
)
Cross-Appellants,
)
)
v.
)
)
Ohio Department of Medicaid,
)
)
Appellee-Appellant/
)
Cross-Appellee.
)
_______________________________________)
JUDGMENT ENTRY
For the reasons stated in the decision of this court
rendered herein on February 13, 2020, appellant/crossappellee’s sole assignment of error is sustained,
appellees/cross-appellant’s four assignments of error
are overruled, and we reverse in part and affirm in part
the judgment of the Franklin County Court of Common
Pleas. Any outstanding appellant court costs are
assessed to appellant.
BEATTY BLUNT, J., BRUNNER & NELSON, JJ.
By

/S/ JUDGE
Judge Laurel Beatty Blunt

App. 72
Tenth District Court of Appeals
Date:

02-18-2020

Case Title:

CHS-LAKE ERIE INC ET AL
-VS- OHIO DEPARTMENT
MEDICAID

Case Number:

18AP000897

Type:

JEJ - JUDGMENT ENTRY
So Ordered
/s/ Judge Laurel Beatty Blunt

App. 73
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
No. 18AP-897
(C.P.C. No. 16CV-9766)
(REGULAR CALENDAR)
_______________________________________
CHS-Lake Erie, Inc. et al.,
)
)
Appellants-Appellees/
)
Cross-Appellants,
)
)
v.
)
)
Ohio Department of Medicaid,
)
)
Appellee-Appellant/
)
Cross-Appellee.
)
_______________________________________)
MEMORANDUM DECISION
Rendered on October 22, 2020
On brief: Webster & Associates, Co., LPA, and
Geoffrey E. Webster, for appellees/crossappellants.
On brief: Dave Yost, Attorney General, and
Rebecca L. Thomas, for appellant/cross-appellee.
ON APPLICATION FOR RECONSIDERATION
ON APPLICATION FOR CONSIDERATION
EN BANC ON MOTIONS

App. 74
BEATTY BLUNT, J.
{¶ 1} Appellants-appellees/cross-appellants, CHSGlenwell, Inc. (dba Glen Meadows), CHS-Glenwell, Inc.
(dba Wellington Manor), CHS-Greater Cincinnati, Inc.
(dba East Galbraith Health Care Center), CHS-Lake
Erie, Inc. (dba Carington Park), CHS-Miami Valley,
Inc. (dba Vandalia Park), CHS-Miami Valley, Inc. (dba
Franklin Ridge), and CHS-Ohio Valley, Inc. (dba
Terrace View Gardens) (collectively, “CHS”) have filed
timely applications seeking reconsideration, pursuant
to App.R. 26(A)(1), and consideration en banc, pursuant
to App.R. 26(A)(2), of this court’s decision in CHS-Lake
Erie, Inc. v. Ohio Dept. of Medicaid, 10th Dist. No.
18AP-897, 2020-Ohio-505. Appellee-appellant/crossappellee, the Ohio Department of Medicaid (the
“department”), opposes CHS’s applications. For the
reasons which follow, we deny CHS’s applications for
reconsideration and consideration en banc.
I.

Procedural Matters: CHS’s Motion to
Convert and Motion to Exceed Page
Limitation Granted

{¶ 2} Initially, we must resolve two pending
motions concerning CHS’s post-decision filings. This
court rendered its decision in CHS-Lake Erie on
February 13, 2020 and issued the judgment entry
corresponding to the decision on February 18, 2020. On
February 24, 2020, CHS filed a combined application
for reconsideration and consideration en banc and a
separate motion to certify a conflict. Although CHS’s
combined application for reconsideration and
consideration en banc contained an argument to
support CHS’s request for reconsideration, CHS did not

App. 75
present an argument to support its request for
consideration en banc. CHS’s motion to certify a
conflict asserted that our decision in CHS-Lake Erie
conflicted with the following two decisions rendered by
this court: Meadowbrook Care Ctr. v. Ohio Dept. of Job
& Family Servs., 10th Dist. No. 06AP-871, 2007-Ohio6534, and OMG MSTR LSCO, LLC v. Ohio Dept. of
Medicaid, 10th Dist. No. 18AP-223, 2018-Ohio-4843.
{¶ 3} On March 5, 2020, the department filed
memoranda in opposition to CHS’s motion to certify a
conflict and CHS’s combined application for
reconsideration and consideration en banc. The
department asserted this court should deny CHS’s
motion to certify a conflict as CHS failed to allege a
conflict between CHS-Lake Erie and a decision from
another court of appeals of this state. Although the
department noted that CHS failed to present an
argument to support its request for consideration en
banc, the department also asserted there was no
conflict of law between CHS-Lake Erie and either
Meadowbrook Care Ctr. or OMG MSTR LSCO, LLC.
{¶ 4} On March 10, 2020, CHS filed a combined
motion asking this court to convert its motion to certify
a conflict to an application for consideration en banc
and for leave to file an over length application for
consideration en banc instanter. CHS acknowledged
the alleged “conflict in the holdings does indeed exist
within the Tenth Appellate District as opposed to a
conflict in opinions issued by different districts,” and
asserted the arguments contained in its motion to
certify a conflict “would have been appropriately

App. 76
contained in an application for en banc consideration.”
(Appellees/Cross-Appellants’ Mot. to Convert at 3.)
{¶ 5} To certify a conflict between cases, “the
certifying court must find that its judgment is in
conflict with the judgment of a court of appeals of
another district.” Whitelock v. Gilbane Bldg. Co., 66
Ohio St.3d 594, 596 (1993). Accord App.R. 25(A). The
“procedure for certified conflicts does not apply to
conflicts existing within an appellate district.” In re
J.J., 111 Ohio St.3d 205, 2006-Ohio-5484, paragraph
three of the syllabus. As CHS never asserted the
judgment in CHS-Lake Erie conflicted with the
judgment of a court of appeals of another district, CHS
never even raised a potential issue for certification. In
contrast, the purpose of an en banc proceeding is to
resolve conflicts of law that arise within an appellate
district. App.R. 26(A)(2)(a); McFadden v. Cleveland
State Univ., 120 Ohio St.3d 54, 2008-Ohio-4914, ¶ 10,
15-16.
{¶ 6} Accordingly, in the interests of justice, we
grant CHS’s motion to convert its motion to certify a
conflict to an application for consideration en banc and
find that CHS has withdrawn its motion to certify a
conflict. We also grant CHS’s motion for leave to exceed
the page limitation on its application for consideration
en banc.
II.

Application for Reconsideration Denied

{¶ 7} When presented with an application for
reconsideration filed pursuant to App.R. 26, an
appellate court must determine whether the
application “calls to the attention of the court an

App. 77
obvious error in its decision, or raises an issue for
consideration that was either not considered at all or
was not fully considered by the court when it should
have been.” Columbus v. Hodge, 37 Ohio App.3d 68
(10th Dist.1987), paragraph one of the syllabus.
“‘App.R. 26 provides a mechanism by which a party
may prevent miscarriages of justice that could arise
when an appellate court makes an obvious error or
renders an unsupportable decision under the law.’”
Huff v. Ohio State Racing Comm., 10th Dist. No. 15AP586, 2017-Ohio-948, ¶ 2, quoting State v. Owens, 112
Ohio App.3d 334, 336 (nth Dist.1996).
{¶ 8} However, an appellate court will not grant
“[a]n application for reconsideration * * * just because
a party disagrees with the logic or conclusions of the
appellate court.” Bae v. Dragoo & Assocs., Inc., 10th
Dist. No. 03AP-254, 2004-Ohio-1297, ¶ 2.
“Furthermore, an application for reconsideration is not
a means to raise new arguments or issues.” Electronic
Classroom of Tomorrow v. State Bd. of Edn., 10th Dist.
No. 17AP-767, 2019-Ohio-1540, ¶ 3, citing State v.
Wellington, 7th Dist. No. 14 MA 115, 2015-Ohio-2095,
¶ 9.
{¶ 9} In CHS-Lake Erie, this court addressed the
department’s appeal and CHS’s cross-appeal from the
common pleas court’s order reversing in part and
affirming in part the department’s adjudication order.
The department’s adjudication order concluded that
CHS owed the department $11,111,557.96 in Medicaid
provider overpayments. The overpayment finding was
the result of two types of audits: cost report audits of
the CHS facilities’ calendar year 2003 cost reports and

App. 78
days audits of the days the facilities were paid for
rendering services to Medicaid recipients between 2003
and 2006. The primary issue in the direct appeal
concerned the department’s application of the
liquidation of liabilities rule to the CHS facilities’ 2003
cost reports.
{¶ 10} The liquidation of liabilities rule is contained
in 42 C.F.R. 413.100 and the provider reimbursement
manual (“PRM”) section 2305. Ohio Adm.Code 5101:33-01(A) provides that allowable costs for Medicaid cost
reporting purposes are to be determined according to
the following reference material in the following
priority: (1) Title 42 C.F.R. Chapter IV, (2) the PRM, or
(3) generally accepted accounting principles (“GAAP”).
“Although 42 C.F.R. Chapter IV and the PRM are rules
and interpretative guidelines applicable to Medicare
cost reports, Ohio incorporated these rules into Ohio
Adm.Code 5101:3-3-01(A) thereby making the
liquidation of liabilities rule applicable to Ohio
Medicaid cost reports.” CHS-Lake Erie at ¶ 54. 42
C.F.R. 413.100 provides that “a short term liability
* * * must be liquidated within 1 year after the end of
the cost reporting period in which the liability is
incurred.” 42 C.F.R. 413.100(c)(2)(i)(A). PRM section
2305 provides that if the liquidation of a short-term
liability “is made by check or other negotiable
instrument, these forms of payment must be redeemed
through an actual transfer of the provider’s assets
within the” one-year time limit.
{¶ 11} The costs at issue in CHS-Lake Erie were
certain consulting costs the CHS facilities incurred in
2003. The consulting costs were short-term liabilities,

App. 79
and the facilities failed to timely liquidate the
consulting costs pursuant to the requirements of 42
C.F.R. 413.100 and PRM section 2305. As such, the
department disallowed the relevant consulting costs
from the facilities’ 2003 cost reports. In CHS-Lake Erie,
we found the department correctly applied the
liquidation of liabilities rule to the consulting costs. Id.
at ¶ 66.
{¶ 12} The common pleas court reversed the
department’s application of the liquidation of liabilities
rule based on the court’s conclusion that the
“department had ‘ignor[ed] the competent and credible
evidence demonstrating that Medicare would not have
applied the rule to the transaction at issue.’” CHS-Lake
Erie at ¶ 36, quoting Trial Court Decision at 8. Ohio’s
Medicaid reimbursement system in 2003 was a
prospective cost-based system of reimbursement. In the
prospective cost-based system, the department used
the actual costs reported on a facility’s cost report to
establish a unique per diem rate for the facility for the
subsequent fiscal year. Id. at ¶ 24. In contrast, the
Medicare prospective payment system relied on
prospectively fixed rates for each category of treatment
rendered. Id. at ¶ 60. The Federal Register explains
that 42 C.F.R. 413.100 “pertains to all services
furnished by providers” in the Medicare system other
than services paid for “on a prospective payment basis.”
Id. at ¶ 59. John Hapchuk, a former auditor for the
Medicare and Medicaid programs in the United States
Department of Health and Human Services, testified at
the department hearings that the liquidation of
liabilities rule did not apply in Ohio in 2003 because
Ohio used “[a] prospective payment system” like the

App. 80
Medicare prospective payment system and “had moved
away from the cost reimbursement to basically setting
prices.” Id. at ¶ 23.
{¶ 13} In CHS-Lake Erie, we observed that the
department’s hearing examiner had addressed both
Hapchuk’s and the Federal Register’s statements
indicating the liquidation of liabilities rule did not
apply in the Medicare prospective payment system. Id.
at ¶ 62-63. The hearing examiner concluded that
because “providers in Ohio were reimbursed based
upon costs incurred rather than services provided, * * *
Ohio’s prospective cost-based system differed from the
Medicare prospective payment system.” Id. at ¶ 63.
The hearing examiner also noted the “reliability issues
present in Hapchuk’s testimony,” as Hapchuk
“admitted he was not familiar with the rules applicable
to Ohio’s Medicaid cost reports.” Id. at ¶ 62. As the
department had addressed and distinguished the
evidence demonstrating that Medicare would not apply
the liquidation of liabilities rule in the Medicare
prospective payment system, we concluded in CHSLake Erie that the common pleas court “abused its
discretion by holding that the department had ignored
the evidence concerning Medicare’s application of the
liquidation of liabilities rule.” Id. at ¶ 64. Accordingly,
CHS’s contention that CHS-Lake Erie contains “no
discussion on how the common pleas decision was
‘unreasonable, arbitrary, or unconscionable’” lacks
merit. (Appellees/Cross-Appellants’ App. for Recon. at
8.)
{¶ 14} CHS asserts in its application for
reconsideration that the liquidation of liabilities rule

App. 81
“cannot be applied in a prospective [payment] system,”
whether the prospective payment system is “based on
past costs or a fixed or negotiated rate.”
(Appellees/Cross-Appellants’ App. for Recon. at 4.) To
support its assertion, CHS cites to various provisions of
42 C.F.R. 413 which demonstrate that Medicare has a
retrospective system of cost reimbursement for
providers who are not subject to the Medicare
prospective payment system. (Appellees/CrossAppellants’ App. for Recon. at 3, 6-7, 13.) See 42 C.F.R.
413.1(b) (noting that “[e]xcept as provided” in the
paragraphs addressing the prospective payment
system, Medicare will pay for services furnished by its
providers on the “basis of reasonable costs”); 42 C.F.R.
413.5 (stating general principles of Medicare
retrospective cost reimbursement); 42 C.F.R. 413.60
(detailing how the Medicare fiscal contractors will
make payments to providers under the retrospective
payment system). Compare 42 C.F.R. 413.1(d)(2)
(noting that Medicare payments for inpatient hospital
services after October 1, 1983 “are determined
prospectively on a per discharge basis”); 42 C.F.R.
413.1(g)(2)(i) (noting that the amount “paid” by
Medicare for services furnished in a nursing facility “on
or after July 1, 1998, * * * is determined in accordance
with the prospectively determined payment rates”).
{¶ 15} The fact that Medicare retained its
retrospective payment system for providers not subject
to the Medicare prospective payment system does not
demonstrate that the liquidation of liabilities rule could
not apply in Ohio’s prospective cost-based payment
system. Under Ohio’s prospective cost-based system,
the department used the actual costs reported on a

App. 82
facility’s annual cost report to establish a prospective
per diem rate for the facility for the subsequent fiscal
year. CHS-Lake Erie at ¶ 24. Unlike the Ohio
prospective cost-based system, the Medicare
prospective payment system utilizes only pre-set rates
of payment and does not consider the actual costs
incurred by the provider. Accord Anna Jacques Hosp.
v Burwell, 797 F.3d 1155, 1157-58 (D.C.Cir.2015)
(explaining that the Medicare “Prospective Payment
System reimburses hospitals for medical care * * * on
the basis of a pre-established formula, regardless of the
actual costs incurred by the hospital”); Abington Mem.
Hosp. v. Burwell, 216 F.Supp.3d 110, 117
(D.C.Cir.2016) (noting that in the Medicare prospective
payment system hospitals are “given advance notice of
the pre-established rates at which inpatient services
will be reimbursed,” and hospitals are “reimbursed at
those pre-set rates, irrespective of the costs the hospital
actually incurs”). Accordingly, the statements
contained in the Federal Register and case law
demonstrating that the liquidation of liabilities rule
does not apply in the Medicare prospective payment
system demonstrate only that the rule does not apply
in a prospective payment system based on pre-set
rates. CHS fails to cite any authority demonstrating
that the liquidation of liabilities rule did not apply in
Ohio’s prospective cost-based system of reimbursement.
{¶ 16} CHS contends the testimony from Hapchuk,
Bert Cummins, and John Fleischer was “reliable,
probative, and substantial” evidence demonstrating it
was “not possible to apply the Liquidation of Liabilities
Rule to a prospective payment system.” (Appellees/
Cross Appellants’ App. for Recon. at 15.) We addressed

App. 83
Hapchuk, Cummins, and Fleischer’s testimonies in
CHS-Lake Erie.
{¶ 17} Hapchuk’s testimony was not reliable.
Indeed, Hapchuk admitted he was not familiar with
Ohio’s Medicaid reimbursement system and mistakenly
stated that Ohio utilized a pricing system in 2003.
CHS-Lake Erie at ¶ 57-58. Although Cummins testified
that the liquidation of liabilities rule could not apply in
a “prospective system,” he stated the liquidation of
liabilities rule did apply “in a cost-based or reasonable
cost system.” (Tr. Vol. VI at 748.) Ohio’s Medicaid
payment system in 2003 was a cost-based system.
Fleischer testified that the liquidation of liabilities rule
“no longer [made] sense” because Ohio changed its
Medicaid reimbursement system in 2004, but affirmed
“that the rules made sense prior to the change in
legislation.” CHS-Lake Erie at ¶ 21. Thus, Fleischer
affirmed the liquidation of liabilities rule made sense
in Ohio in 2003.
{¶ 18} CHS asserts that certain acts of the General
Assembly which altered the Medicaid reimbursement
system in Ohio for fiscal years 2006, 2007, 2008, and
2009 demonstrate that the “Liquidation of Liabilities
Rule may not be applied” in the present case.
(Appellees/Cross-Appellants’ App. for Recon. at 10.) In
CHS-Lake Erie, we recognized that the General
Assembly changed Ohio’s Medicaid payment system
beginning on July 1, 2004, when Ohio began to
transition to a price-based prospective payment system.
Id. at ¶ 25. However, CHS-Lake Erie concerned the
costs reported on the facilities’ 2003 cost reports. As
such, the legislative changes to Ohio’s Medicaid

App. 84
reimbursement system after 2003 were not relevant to
determining whether the costs reported on the
facilities’ 2003 cost reports were allowable.
{¶ 19} CHS notes that 2004 Am.Sub.H.B. No. 95
was “in effect in 2003.” (Appellees/Cross-Appellants’
App. for Recon. at 10.) 2004 Am.Sub.H.B. No. 95
established rate caps on the per diem rates Medicaid
facilities would receive in fiscal years 2004 and 2005.
See 2004 Am.Sub.H.B. No. 95, Section 59.37(B)(1) and
(2).1 The department used the costs reported on the
facilities’ calendar year 2003 cost reports to establish
the facilities’ per diem rates for fiscal year 2005. CHSLake Erie at ¶ 6. Testimony at the agency hearings
demonstrated the facilities’ fiscal year 2005 per diem
rates were “subject to ceilings.” (Tr. Vol. VIII at 1009.)
However, the fact that rate caps or ceilings would be
applied to the CHS facilities’ fiscal year 2005 per diem
rates did not render the liquidation of liabilities rule
inapplicable to the facilities’ 2003 cost reports.
{¶ 20} The CHS facilities paid a portion of the
consulting costs at issue in CHS-Lake Erie by issuing
promissory notes. The facilities issued the promissory
notes on December 31, 2003, and pursuant to the terms
of the notes did not make payments on the notes until
2005. CHS-Lake Erie at ¶ 13. As the payments on the
promissory notes did not occur until over one year after
the end of the 2003 cost reporting period, the
liquidation of liabilities rule mandated that the costs
associated with the promissory notes “were not

1

Accessible at http://archives.legislature.state.oh.us/BillText
125/125_HB_95_EN2_N.html

App. 85
allowable on the facilities’ 2003 cost reports.” Id. at
¶ 71.
{¶ 21} CHS contends that “[u]nder Ohio’s Uniform
Commercial Code” the promissory notes amounted to
“payment in full” of the consulting costs at issue.
(Appellees/Cross-Appellants’ App. for Recon. at 18-19.)
As we explained in CHS-Lake Erie, “[a]lthough the
promissory notes at issue were negotiable instruments
under R.C. 1303.03(A) (Uniform Commercial Code 3104), the present case is concerned with the specific
Ohio Medicaid cost reporting rules rather than general
rules concerning negotiable instruments.” Id. at ¶ 70,
fn. 11. Thus, while “the presentation of a promissory
note is sufficient to liquidate a debt for purposes of
GAAP, the Medicare regulations which Ohio adopted
in Ohio Adm.Code 5101:3-3-01(A) place additional
requirements on this method of liquidation for cost
reporting purposes.” Id. at ¶ 70.
{¶ 22} CHS contends the department’s
interpretation of 42 C.F.R. 413.100 and PRM section
2305 was not entitled to deference because the
“Liquidation of Liabilities Rule is not an ODM rule; it
is a federal Medicare rule.” (Emphasis sic.)
(Appellees/Cross-Appellants’ App. for Recon. at 14.)
However, Ohio incorporated 42 C.F.R. 413.100 and
PRM section 2305 into Ohio Adm.Code 5101:3-3-01(A),
“thereby making the liquidation of liabilities rule
applicable to Ohio Medicaid cost reports.” Id. at ¶ 54.
And what we correctly held was that “the department’s
conclusion that 42 C.F.R. 413.100 and PRM 2305
applied to the 2003 cost reports was entirely in keeping
with and required by the plain language of Ohio

App. 86
Adm.Code 5101:3-3-01(A).” (Emphasis added.) Id. at
¶ 66.
{¶ 23} CHS essentially seeks to rehash the same
arguments it made in CHS-Lake Erie. Although CHS
disagrees with this court’s conclusion that the
liquidation of liabilities rule applied to the CHS
facilities’ 2003 cost reports, CHS fails to point to an
obvious error in our decision or raise an issue for
consideration that was not fully considered by this
court when it should have been.
{¶ 24} CHS additionally asserts this court made an
obvious error in affirming the common pleas court’s
ruling on the unpaid days and unpaid claims issue in
the days audit. The common pleas court affirmed the
department’s motion in limine ruling which precluded
CHS from offering evidence of unpaid days or unpaid
claims for service at the R.C. Chapter 119 hearings. In
CHS-Lake Erie, we observed that CHS “had no right
under R.C. 5111.06 to address the unpaid days and
unpaid claims at the R.C. Chapter 119 hearing on the
final fiscal audits.” Id. at ¶ 79. R.C. 5111.06(B)(2)2
provides for R.C. Chapter 119 hearing rights when the
department takes “any action based upon a final fiscal
audit.” As “an audit reviews payment made to
‘determine the amount of overpayment,’” CHS’s unpaid
days and unpaid claims were never reviewed by the
2

The Medicaid reimbursement statutes and rules have been
revised since the time of the events at issue in this case. All
references to R.C. Chapter 5111 and Ohio Adm.Code Chapter 5101
throughout this decision are to the versions of those statutes and
rules in effect during the fiscal years for which the department
sought repayment.

App. 87
department in the audit and could not be addressed at
the R.C. Chapter 119 hearings. Id. at ¶ 78, quoting
Ohio Adm.Code 5101:3-1-27(B)(1).
{¶ 25} CHS contends it should have been permitted
to introduce evidence of unpaid days at the R.C.
Chapter 119 hearings because the “unpaid days” were
“in the same audit period as the days that were paid
and adjusted by ODM.” (Appellees/Cross-Appellants’
App. for Recon. at 20.) However, the fact that the
unpaid days occurred in the same audit period as the
paid days does not establish that CHS was entitled to
address the unpaid days at the R.C. Chapter 119
hearings. The department necessarily never paid CHS
for the unpaid days and, thus, never reviewed the
unpaid days in auditing the CHS facilities. CHS fails to
point to an obvious error in CHS-Lake Erie.
{¶ 26} Based on the foregoing, CHS’s application for
reconsideration is denied.
III.

Application for Consideration En Banc
Denied

{¶ 27} An en banc proceeding is one in which all
full-time judges of a court who have not recused
themselves or otherwise been disqualified participate
in the hearing and resolution of a case. App.R.
26(A)(2)(a); McFadden at ¶ 10. An en banc proceeding
seeks to resolve conflicts of law that arise within a
district. App.R. 26(A)(2)(a); McFadden at ¶ 10, 15-16.
These intradistrict conflicts develop when different
panels of judges hear the same issue, but reach
different results. McFadden at ¶ 15. This “create[s]
confusion for lawyers and litigants and do[es] not

App. 88
promote public confidence in the judiciary.” J.J. at
¶ 18. “Resolution of intradistrict conflicts promotes
uniformity and predictability in the law, and a larger
appellate panel provides the best possible means of
resolution.” State v. Forrest, 136 Ohio St.3d 134, 2013Ohio-2409, ¶ 7, citing McFadden at ¶ 15-16.
{¶ 28} App.R. 26(A)(2) governs en banc procedures,
providing as follows:
(a) Upon a determination that two or more
decisions of the court on which they sit are in
conflict, a majority of the en banc court may
order that an appeal or other proceeding be
considered en banc. * * * Consideration en banc
is not favored and will not be ordered unless
necessary to secure or maintain uniformity of
decisions within the district on an issue that is
dispositive in the case in which the application
is filed.
(b) * * * An application for en banc consideration
must explain how the panel’s decision conflicts
with a prior panel’s decision on a dispositive
issue and why consideration by the court en
banc is necessary to secure and maintain
uniformity of the court’s decisions.
{¶ 29} “[C]onflicting decisions are those which
conflict on the same legal issue or question of law.”
Frash v. Ohio Dept. of Rehab. & Corr., 10th Dist. No.
14AP-932, 2016-Ohio-3134, ¶ 3, citing J.J. at ¶ 18.
Courts of appeals have discretion to determine whether
an intradistrict conflict exists. McFadden at paragraph
two of the syllabus.

App. 89
{¶ 30} CHS’s contention that a conflict exists
between CHS-Lake Erie and Meadowbrook Care Ctr.
and OMG MSTR LSCO, LLC is premised on CHS’s
inaccurate portrayal of certain events which took place
at the agency hearings. CHS contends that during the
R.C. Chapter 119 hearings the department “determined
that some of the patient days the agency had
previously refused to pay, should have been paid.”
(Appellees/Cross-Appellants’ Mot. to Certify a Conflict,
as converted to App. For Consideration En Banc
(hereafter, “Appellees/Cross-Appellants’ App. for
Consideration En Banc”) at 3.) Based on CHS’s belief
that the department decided to pay previously unpaid
patient days at the R.C. Chapter 119 hearings, CHS
contends it was required to present other evidence of
previously unpaid patient days at the hearings.
{¶ 31} However, the department never determined
that previously unpaid patient days should be paid at
the hearings as CHS contends. The department
introduced a number of exhibits detailing its
adjustments to the paid patient days at issue in the
days audit at the January 22, 2013 hearing. At the
April 8, 2013 hearing, “the department introduced four
exhibits to replace four of the exhibits previously
introduced at the January 22, 2013 hearing.” CHSLake Erie at ¶ 82. Kierstyn Canter, a department audit
manager, explained that the difference between the
initial exhibits and the revised exhibits was that the
department had “deleted an adjustment to create less
of an overpayment.” (Tr. Vol. VI at 670.) CHS’s counsel
asked Canter if the revised exhibits demonstrated that
CHS “was entitled to additional revenue for the
settlement periods reflected in those four exhibits.” (Tr.

App. 90
Vol. VI at 670.) Canter stated the revised exhibits did
not reflect any additional revenue going to CHS, but
rather reflected “just a reduction in the amount that
the provider owes back to [the department].” (Tr. Vol.
VI at 670.)
{¶ 32} In Meadowbrook Care Ctr., a nursing facility
argued that the department’s audit of the facility’s
patient days did not constitute a final fiscal audit
pursuant to R.C. 5111.06(B)(2). The days audit in
Meadowbrook Care Ctr. consisted of “a comparison and
reconciliation with [the department’s] records of
amounts paid to other providers” such as “hospice or
hospital, for the same patient.” Id. at ¶ 14. The
Meadowbrook Care Ctr. court concluded the
department’s “audit procedures in undertaking the
limited adjustments proposed in its adjudication order
complied with R.C. 5111.06 and 5111.27.” Id. at ¶ 21.
{¶ 33} CHS asserts that in “Meadowbrook, the
facility received a hearing; here, CHS did not.”
(Appellees/Cross-Appellants’ App. For Consideration
En Banc at 8.) CHS’s contention that it did not receive
a hearing is premised on its mistaken belief that it was
entitled to introduce evidence of unpaid patient days at
the R.C. Chapter 119 hearings. In Meadowbrook Care
Ctr., the nursing facility did not attempt to introduce
evidence of unpaid days at the R.C. Chapter 119
hearing. Rather, the issue in Meadowbrook Care Ctr.
was whether the department’s method of auditing the
facility’s patient days was sufficient. There is no
conflict on an issue of law between CHS-Lake Erie and
Meadowbrook Care Ctr.

App. 91
{¶ 34} In OMG MSTR LSCO, LLC, the department
initiated proceedings against certain long-term care
facilities to recover alleged Medicaid overpayments.
The facilities filed a complaint in the common pleas
court seeking a declaratory judgment that the
department’s attempt to collect the alleged
overpayments was time-barred. The common pleas
court granted the department’s Civ.R.12(B)(6) motion
to dismiss the complaint based on the facilities’ failure
to exhaust their administrative remedies. The face of
the facilities’ complaint demonstrated they had failed
to exhaust their administrative remedies and that the
limited exceptions to the doctrine did not apply. As
such, the OMG MSTR LSCO, LLC court concluded that
the “declaratory judgment action must be dismissed
due to appellants’ failure to exhaust their
administrative remedies.” Id. at ¶ 19.
{¶ 35} CHS asserts that pursuant to OMG MSTR
LSCO, LLC it has “absolutely no remedy at all”
because it did not “receive a hearing on patient days.”
(Appellees/Cross-Appellants’ App. for Consideration En
Banc at 14-15.) However, CHS received an R.C.
Chapter 119 hearing on the patient days at issue in the
department’s final fiscal audits, and appealed the
department’s ruling on the patient days to the common
pleas court and this court. CHS-Lake Erie did not
concern any issue regarding the failure to exhaust
administrative remedies doctrine. There is no conflict
on an issue of law between OMG MSTR LSCO, LLC
and CHS-Lake Erie. Moreover, CHS’s contention that
it has no remedy for its unpaid days lacks merit. In
CHS-Lake Erie, this court explained that CHS has
available avenues of relief to address its contentions

App. 92
regarding the unpaid days, including seeking
reconsideration pursuant to Ohio Adm.Code 5101:3-157(B) or seeking a writ of mandamus to force the
agency to act on its claims for payment. Id. at ¶ 80-81.
{¶ 36} Based on the foregoing, CHS’s application for
consideration en banc is denied.
{¶ 37} CHS’s motion to convert its motion to certify
a conflict into an application for consideration en banc
and motion to exceed page limitation are granted;
CHS’s motion to certify a conflict is withdrawn. CHS’s
application for reconsideration and application for
consideration en banc are denied.
Motion to convert granted;
motion to exceed page limit granted;
motion to certify a conflict withdrawn;
application for reconsideration denied;
application for consideration en banc denied.
LUPER SCHUSTER and NELSON, JJ., concur.

App. 93
IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
No. 18AP-897
(C.P.C. No. 16CV-9766)
(REGULAR CALENDAR)
_______________________________________
CHS-Lake Erie, Inc. et al.,
)
)
Appellants-Appellees/
)
Cross-Appellants,
)
)
v.
)
)
Ohio Department of Medicaid,
)
)
Appellee-Appellant/
)
Cross-Appellee.
)
_______________________________________)
JOURNAL ENTRY
For the reasons stated in the memorandum decision
of this court rendered herein on October 22, 2020, it is
the order of this court that appellants-appellees/crossappellants’ March 10, 2020 motion to convert and
motion to exceed page limit are granted; the February
24, 2020 motion to certify a conflict is withdrawn; and
the February 24, 2020 applications for reconsideration
and en banc consideration are denied.
BEATTY BLUNT, LUPER SCHUSTER &
NELSON, JJ.

App. 94
By

/S/ JUDGE
Judge Laurel Beatty Blunt

App. 95
Tenth District Court of Appeals
Date:

10-26-2020

Case Title:

CHS-LAKE ERIE INC ET AL
-VS- OHIO DEPARTMENT
MEDICAID

Case Number:

18AP000897

Type:

JOURNAL ENTRY
So Ordered
/s/ Laurel Beatty Blunt
/s/ Judge Laurel Beatty Blunt

App. 96

APPENDIX E
IN THE COURT OF COMMON PLEAS,
FRANKLIN COUNTY, OHIO
CIVIL DIVISION
CASE NO. 16 CV 9766
JUDGE MARK A. SERROTT
[Filed: November 27, 2018]
_______________________________________
CHS-LAKE-ERIE, INC., et al.,
)
)
Appellants,
)
)
v.
)
)
OHIO DEPARTMENT OF MEDICAID, )
)
Appellee.
)
_______________________________________)
DECISION AND ENTRY AFFIRMING, IN PART,
AND REVERSING, IN PART, THE ORDER OF
APPELLEE OHIO DEPARTMENT OF MEDICAID
AND
NOTICE OF FINAL APPEALABLE ORDER
SERROTT, J.
I.

INTRODUCTION

Appellants, who are related Medicaid-provider
nursing homes, appeal from an Adjudication Order

App. 97
issued by the Ohio Department of Medicaid (ODM)
following an audit of the nursing facilities cost reports
for calendar year 2003 as well as a “days audit” for the
same time frame. The Adjudication Order adopted in
full the Hearing Officer’s Report and Recommendation
that Appellants were not entitled to reimbursement for
claimed costs of $11,111,557.96 as well as the Hearing
Officer’s decision that Appellants could not seek
recovery for the “unpaid days” totaling $1,154,822.00.
Appellants initiate this appeal pursuant to R.C.
5111.06 and R.C. 119.12. The underlying record reveals
the parties have extensively litigated the issues for
over a decade and have provided the Court with
thorough briefing. Therefore, the parties being wellinformed of the lengthy history, facts, and legal issues,
the Court will forego a repetition of those matters. The
Court has conducted an exhaustive review of the record
and relevant law, including examining the thousands
of pages of exhibits and reading the hearing transcripts
in their entirety. In doing so, the Court notes that the
Hearing Officer, Appellants, and ODM each accurately
summarized the testimony and evidence, with the
disputes focused on application of the facts to the
relevant law.
Based on the Court’s thorough review of the record
and the relevant law, the Court summarily rejects
Appellants’ assignments of error alleging that ODM’s
audit procedures were not in accordance with Ohio law
and that it was improperly foreclosed from seeking
recovery for the “unpaid days” totaling $1,154,822.00.
The Court adopts the Hearing Officer’s Findings of
Fact and Conclusions of Law as well as ODM’s

App. 98
arguments and reasoning in reaching this conclusion.
For the reasons set forth below, the Court also
overrules Appellants’ argument that the Hearing
Officer was so unfairly biased so as to deprive them of
a fair and impartial hearing. However, as explained
further below, the Court sustains Appellants’ argument
that ODM improperly applied the “liquidation of
liability rule” to their 2003 cost reports. Therefore,
ODM’s Adjudication Order is affirmed in part, and
reversed, in part.
II.

STANDARD OF REVIEW

In a R.C. 119.12 appeal, the Court must affirm the
order of the Commission if it is supported by
substantial, reliable, and probative evidence. Our
Place, Inc. v. Ohio Liquor Control Comm’n, 63 Ohio
St.3d 570 (1992). “The Ohio Supreme Court has defined
reliable, probative, and substantial evidence as follows:
(1) ‘Reliable’ evidence is dependable; that is, it can be
confidently trusted. In order to be reliable, there must
be a reasonable probability that the evidence is true.
(2) ‘Probative’ evidence is evidence that tends to prove
the issue in question; it must be relevant in
determining the issue. (3) ‘Substantial’ evidence is
evidence with some weight; it must have importance
and value.” Keydon Mgmt. Co. v. Liquor Control
Comm’n, 10th Dist. No. 08AP-965, 2009-Ohio-1809, at
¶5, quoting Our Place, supra, at 571.
“[D]etermining whether an agency order is
supported by reliable, probative and substantial
evidence essentially is a question of the absence or
presence of the requisite quantum of evidence.” Univ.
of Cincinnati v. Conrad, 63 Ohio St.2d 108, 111 (1980).

App. 99
“To some extent, this standard of review permits the
court of common pleas to substitute its judgment for
that of the administrative agency.” Dep’t of Youth
Servs. v. Mahaffey, 10th Dist. Nos. 14AP-389 and
14AP-396, 2014-Ohio-4172, ¶13. “The court must,
however, ‘give due deference to the administrative
resolution of evidentiary conflicts.”’ Id., quoting Univ.
Of Cincinnati v. Conrad, 63 Ohio St.2d 108, 111, 407
N.E.2d 1265 (1980). However, “[w]hile the court must
give due deference to the administrative tribunal, it
need not rubber stamp an erroneous decision.” Decree
v. Columbus, 10th Dist. No. 89AP-247 (Aug. 17, 1989),
citing Conrad.
III.

DECISION
A. The Hearing Officer’s Bias and
Deprivation of a Fair and Impartial
Hearing

Appellants allege the Hearing Officer was incurably
biased in favor of ODM due to her previous
employment with the Ohio Attorney General’s Office
representing similar state agencies. Appellants produce
decisions authored by the Hearing Officer in other
cases and characterize these as proof that she will only
hold a non-discriminatory hearing when the State has
no pecuniary interest in the outcome of the proceeding.
Appellants accuse the Hearing Officer of accepting the
state agencies’ allegations as “gospel,” ignoring any
contrary evidence, and predetermining outcomes based
upon this alleged inexcusable partisanship.
“There is a presumption of honesty and integrity on
the part of an administrative body unless there is a

App. 100
showing to the contrary, and the party alleging a
disqualifying interest bears the burden of
demonstrating that interest to a reviewing court.”
Meadowbrook Care Ctr. v. Ohio Dept. of Job & Family
Servs., 10th Dist. Franklin No. 06AP-871 , 2007-Ohio6534, ¶23, citing Ohio State Bd. of Pharmacy v. Poppe,
48 Ohio App.3d 222 (1988). “While due process entitles
an individual before an administrative tribunal to
receive a fair hearing before an impartial tribunal, a
showing of substantial personal bias will be required
before a hearing officer may be disqualified or the
results of the hearing vacated. In practice this means
a personal bias so extreme as to display clear inability
to render a fair judgment.” Id. at ¶25, citing Staschak
v State Med. Bd. of Ohio, 10th Dist. No. 03AP-799,
2004-Ohio-4650. Additionally, “the outcome of a
judicial proceeding alone may not stand as proof of bias
or partiality.” Id. at ¶26, citing Liteky v. United States,
510 U.S. 540 (1994).
In Meadowbrook, the Tenth District Court of
Appeals addressed a similar accusation of bias
launched against a hearing officer. The appellant relied
upon a “statistical breakdown” of the hearing officer’s
prior decisions to show that he or she had so rarely
ruled against any state agency a lack of bias was
statistically impossible. The 10th District rejected this
argument, reasoning:
[i]t is impossible for this court to conclude, in the
absence of any corroborating evidence and
procedural context regarding the proceedings in
which the hearing examiner has purportedly
found in favor of state agencies, whether those

App. 101
determinations were in fact in favor of agencies,
whether they were warranted or not by the
merits of the matter before the examiner, and
ultimately whether the outcome reflected in the
resulting hearing examiner’s report did anything
less than reflect the relative merits of the
arguments put forth by the parties in those
matters.
In conclusion, because we agree with the hearing
examiner’s assessment of the law and facts in
the matter, and because the fact that counsel for
appellant disagrees with this particular hearing
examiner in this and a number of other hearing
outcomes does not help appellant, we find that
appellant has failed to establish a showing of
bias that would amount to a deprival of due
process in this particular case.
Id. at ¶¶26-27.
Here, Appellants have presented more than just a
statistical analysis and do set forth some context
regarding the other decisions to support their claims of
bias. However, their arguments merely show their
disagreements with the Hearing Examiner’s rulings
and do not ultimately demonstrate that her reports
“did anything less than reflect the relative merits of the
arguments put forth by the parties in those matters.”
Additionally, Appellants have made no showing that
these decisions were reversed or found to be erroneous.
Moreover, having read the entire hearing transcript,
the Court can whole-heartedly state that the Hearing
Officer was extremely patient with the counsel and the

App. 102
parties throughout the lengthy proceedings. The
Hearing Officer conducted the proceedings in a fair and
impartial manner and afforded all parties wide latitude
in presenting their case. The Hearing Officer strove to
render all rulings based on legal grounds or the facts
developed during the hearing and always explained the
basis for her decisions. Additionally, while the Hearing
Officer decided the issues against Appellants, she
certainly did not simply “rubber stamp” ODM’s
position. Rather, her detailed decision reflects she
thoroughly considered all of the arguments and
evidence presented by the parties, and she further set
forth the legal or factual rationale for her conclusions.
Appellants have failed to demonstrate that the
Hearing Officer was biased or in any deprived them of
a fair and impartial hearing, and their argument is
overruled.
B. The Liquidation of Liabilities Rule
Appellants contracted with Strategic Nursing
Systems (“Strategic”) for nursmg and administrative
support services and were invoiced the sum of
$12,082,000 for those services on December 31, 2003.
The invoices indicated “Payment Due Upon Receipt of
Invoice.” Also on December 31, 2003, Appellants
executed “Installment Promissory Notes” in favor of
Strategic providing that the debt would be paid over
time, with payments to commence in 2005 and to be
completed by 2008. Appellants characterized the debt
as long-term obligations in its cost report.
In auditing Appellants’ 2003 cost reports, ODM
initially disallowed the consulting services as it

App. 103
suspected Strategic was a “related entity,” and
Appellants did not timely provide documents during
the audit to show otherwise1. However, during the
audit review process, Appellants produced documents
establishing they did not acquire ownership of
Strategic until 2004, and therefore, Strategic was not
a related entity at the time their 2003 cost reports were
prepared. ODM still disallowed the costs on the
grounds that the costs were not timely liquidated
pursuant to a “liquidation of liabilities rule” set forth in
the code of federal regulations and the federal Medicare
Provider Reimbursement Manual. Appellants argue
that the liquidation of liabilities rule only applies to
short term liabilities and not the long term notes at
issue here. Appellants further contend that the
substantial and reliable evidence showed that, during
the relevant time period, Medicare applied the
liquidation of liabilities rule to reasonable cost systems
and not the prospective payment system utilized by
ODM in 2003.
Ohio adopted a hierarchy of legal authorities that
must be used to determine whether a reported cost is
allowable. The hierarchy is as follows: 1) the Ohio
Revised Code; 2) the Ohio Administrative Code; 3) the
Code of Federal Regulations; 4) the Provider
Reimbursement Manual; and 5) Generally Accepted
Accounting Principles. O.A.C. 5101:3-3-01(A). Thus, if
the Ohio Revised Code and Ohio Administrative Code
do not have an applicable provision pertaining to an

1

If Strategic had been a related entity, then what should have
been reported was Strategic’s costs to provide the services, not the
amount billed to Appellants.

App. 104
issue, ODM is allowed to look to guidance from the
Code of Federal Regulations and the Provider
Reimbursement Manual. ODM did so in applying
Medicare’s timely liquidation of liability rule set forth
in 42 CFR 413.100 and §2305 of the Provider
Reimbursement Manual.
42 CFR 413.100 sets forth 8 categories of costs that,
“for purposes of payment Medicare does not recognize”
unless the liability is timely liquidated. 42 CFR
413.100(c)(1). Those categories are short term liability;
vacation pay and all-inclusive paid days off; sick pay;
compensation of owners; nonpaid workers; FICA and
other payroll taxes; deferred compensation; and selfinsurance. 42 CFR 413.100(c)(2)(i) through (viii). Short
term liabilities are required to be liquidated within one
year after the end of the cost reporting period in which
the liability is incurred. 42 CFR 413.100(2)(i)(A).
Additionally, §2305 of the Provider Reimbursement
Manual states:
[a] short term liability must be liquidated within
1 year after the end of the cost reporting period
in which the liability is incurred, subject to the
exceptions specified in §§2305.1 and 2305.2.
Liquidation must be made by check or other
negotiable instrument, cash or legal transfer of
assets such as stocks, bonds, real property, etc.
Where liquidation is made by check or other
negotiable instrument, these forms of payment
must be redeemed through an actual transfer of
the provider’s assets within the time limits
specified in this section. Where the liability (1) is
not liquidated within the 1-year time limit, or

App. 105
(2) does not qualify under the exceptions
specified in §§ 2305.1 and 2305.2, the cost
incurred for the related goods and services is not
allowable in the cost reporting period when the
liability is incurred, but is allowable in the cost
reporting period when the liquidation of the
liability occurs.
(Emphasis Added).
In disallowing the consulting costs, ODM reasoned
that 1) the consulting services were short term
liabilities as the invoices indicated that payment was
due upon receipt; and 2) that the short term liabilities
were not timely liquidated pursuant to the above
provisions because an actual transfer of Appellants’
assets did not occur within one year as payments on
the promissory notes did not commence until 2005.
However, as argued by Appellants, the reliable,
probative, and substantial evidence in the record as
well as relevant legal authorities demonstrate that, in
2003, Medicare applied the liquidation of liabilities rule
to reasonable cost systems and not to the prospective
payment system utilized by ODM in 2003. ODM is
applying the rule simply because it is within the
“hierarchy of authorities,” while ignoring the
competent and credible evidence demonstrating that
Medicare would not have applied the rule to the
transaction at issue.
Appellant’s expert, John P. Fleischer, a certified
public accountant who has been involved in thousands
of Medicaid audits and settlements testified that he
has never seen ODM utilize the Medicare liquidation of
liabilities rule and further has never experienced ODM

App. 106
having an issue with a vendor accepting a promissory
note with payment terms beyond a year. ODM
responds with the adage that “there is a first time for
everything.” While the Court agrees with this principle,
again, the substantial evidence shows that the
Medicare system would not have applied the rule to
this transaction. This was borne out by the
uncontroverted testimony from Appellants’ expert,
John Hapchuk, who was retained to render an opinion
regarding application of the liquidation of liabilities
rule.
There can be no dispute that Mr. Hapchuk is highly
qualified and has significant expertise to opine on
Medicare cost reports and allowable costs. Mr.
Hapchuk is a Certified Fraud Examiner and Certified
Government Financial Manager with over 40 years of
experience in the Medicare industry including
performing audits of Medicare cost reports. Mr.
Hapchuk opined that, in 2003, Medicare would not
have applied the liquidation of liabilities rule to costs
that were calculated or reimbursed under a prospective
payment system. Rather, the rule was applied to costs
reported under reasonable cost or retrospective
payment system.
Under a reasonable cost payment system, a
Medicare provider reports its actual costs of serving
Medicare patients and is reimbursed for those costs
that are determined to be reasonable. See Washington
Regional Medicorp v. Burwell, 72 F. Supp. 3d 159, 161
(D.D.C.2014). Mr. Hapchuk explained that the rule
would not have been applied to a cost reported under a
prospective payment system. Mr. Hapchuk’s expert

App. 107
opinion is supported by relevant federal authorities. In
adopting 42 CFR 413.100 in 1995, the Federal Register
explained that the policy would not apply to providers
and costs subject to a prospective payment system:
[g]enerally, under the Medicare program, health
care providers not subject to prospective
payment are paid for the reasonable costs of the
covered items and services they furnish to
Medicare beneficiaries. This policy pertains to
all services furnished by providers other than
inpatient hospital services (section 1886(d) of
the Social Security Act (the Act)) and certain
inpatient routine services furnished by skilled
nursing facilities choosing to be paid on a
prospective payment basis (section 1888(d) of
the Act.) Additionally, there are other limited
services not paid on a reasonable cost basis, to
which this policy would not apply.
60 FR 33, 126.
Federal case law has further explained:
[t]he 1995 Final Rule was ultimately codified at
42 C.F.R. § 413.100, but it was explicitly made
inapplicable to inpatient care that was subject to
the PPS payment scheme. See Regents of the
Univ. of Cal., 155 F. Supp. 3d at 39 * * *. Thus,
between 1995 and 2005, hospitals continued to
report their wage-related costs in accordance
with GAAP with respect to reimbursements for
inpatient services, while the expenses that were
not subject to the prospective payment system

App. 108
were reported only if they were timely
liquidated.
Abington Mem. Hosp. v. Burwell, 216 F. Supp. 3d 110,
122 (D.D.C.2016).
During the relevant time frame, “[i]n Ohio,
Medicaid-funded nursing homes [were] reimbursed for
the reasonable costs of their services on a prospective
basis. In other words, [ODM] used the amount of a
prior period’s allowable costs to calculate the
reimbursement rate for a future period. PNP, Inc. v.
Ohio Dept. of Job & Family Servs., 10th Dist. No.
04AP-1294, 2006-Ohio-1159, ¶2. The reliable,
substantial, and probative evidence demonstrates that
the timely liquidation of liabilities rule was not
applicable to the costs at issue in 20032. In reaching
this conclusion, the Court adopts and incorporates in
full the reasoning set forth in Appellants’ Reply Brief
at pages 17 to 28.
Therein, Appellants accurately discredit any
contention that they overinflated their costs for 2003.
Appellants were not trying to take advantage of a
loophole and did not engage in any gamesmanship from
their subsequent purchase of Strategic in 2004. As
explained by Appellants, no one has refuted that the
2

The Abington decision illustrates an instance where the Medicare
system applied the liquidation of liabilities rule to certain costs
subject to a prospective payment system commencing in 2005.
Notably, Medicare did so only after providing notice of the
proposed rule so that “hospitals seeking reimbursement for
inpatient services should understand going forward that * * *
timely liquidation principles trumped GAAP.” Abington, 216 F.
Supp.3d 110, 135. (Emphasis Added).

App. 109
costs and services provided by Strategic were
reasonable and necessary and were actual costs
incurred by Appellants in operating the nursing home
facilities. If the costs were not included, the effect
would be to severely underinflate Appellants’
reimbursement rate for 2005. The evidence shows that
Appellants liquidated those costs through issuing a
long term note, which it paid in full. ODM contends
Appellants received a “windfall” as it was reimbursed
for these costs before it actually paid them with a
transfer of actual assets. However, again, there is no
“windfall” as the promissory notes have been satisfied.
Appellants would have had no reason to know that the
debt could not be liquidated through the issuance of a
long-term note3.
Based on the foregoing, the Adjudication Order is
REVERSED to the extent the Court finds that ODM
erred in applying the timely liquidation of liabilities
rule to disallow the consulting costs. The Adjudication
Order is AFFIRMED in all other respects. This action
is remanded to issue a new order in accordance with
this opinion. Costs to ODM.
Pursuant to Civ. R. 58(B), the Clerk of Courts shall
notify all parties of the existence of this judgment and
its day of entry on the record.

3

The Court would also note that both the federal regulation and
the provider manual include a process where the provider’s fiscal
intermediary can grant a three year extension to timely liquidate
a liability. Ohio’s Medicaid system does not operate through fiscal
intermediaries, again underscoring Appellants’ argument that
these Medicare provisions are not applicable here.

App. 110
IT IS SO ORDERED.
Electronically Signed By:
JUDGE MARK A. SERROTT

App. 111
Franklin County Court of Common Pleas
Date:

10-30-2018

Case Title:

CHS-LAKE ERIE INC ET AL
-VS- OHIO DEPARTMENT
MEDICAID

Case Number:

16CV009766

Type:

DECISION/ENTRY
It Is So Ordered
/s/ Mark A. Serrott
/s/ Judge Mark A. Serrott

App. 112
Court Disposition
Case Number: 16CV009766
Case Style: CHS-LAKE ERIE INC ET AL -VS- OHIO
DEPARTMENT MEDICAID
Case Terminated: 18 - Other Terminations
Final Appealable Order: Yes

App. 113

APPENDIX F
Ohio
Department of Medicaid
John R. Kasich, Governor
John B. McCarthy, Director
IN THE MATTER OF:

DOCKET NOS.

CHS-Glenwell, Inc.
(PN: 2429330)

09LTC17-19

CHS-Ohio Valley, Inc.
(PN: 2339384)

09LTC30-33

CHS-Glenwell, Inc.
(PN: 2429321)

09LTC24-25

CHS-Miami Valley,
Inc. (PN: 2339624 &
PN: 2339688)

09LTC13-16, 34-37

CHS-Greater
Cincinnati, Inc. (PN:
2399033)

09LTC20-23

CHS-Lake Erie, Inc.
(PN: 2339268)

09LTC26-29

ADJUDICATION ORDER
Pursuant to his power and duties under Chapter 119
and 5164 of the Ohio Revised Code, John B. McCarthy,

App. 114
Director of the Ohio Department of Medicaid (“ODM”),
enters this Adjudication Order.
Director McCarthy finds the following: ODM issued
proposed adjudication orders for the above-captioned
Medicaid providers for the above-captioned docket
matters. The providers timely requested hearings
under Chapter 119 of the Ohio Revised Code. Initially
the above-captioned matters were divided between two
hearing examiners. Subsequently, the matters were
consolidated under one hearing examiner. The hearing
examiner issued the Report and Recommendation on
October 31, 2015. After ODM granted two extensions,
the providers filed objections to the hearing examiner’s
Report and Recommendation on December 11, 2015.
After review of the record, including the objections filed
by the providers, Director McCarthy affixes his
signature and enters this Final Adjudication Order
adopting the hearing examiner’s findings of fact,
conclusions of law and recommendations all of which
are attached hereto and incorporated as if fully rewritten herein, including all attachments.
Hereby be advised that you may be entitled to appeal
this Final Adjudication Order to the Court of Common
Pleas of Franklin County pursuant to Section 119.12
and 5164.38 of the Ohio Revised Code. Any adversely
affected party desiring to appeal this Order must file a
notice of appeal with the Ohio Department of Medicaid,
Office of Legal Counsel, Attention: Litigation
Coordinator, P.O. Box 182709, Columbus, OH 432182709, setting forth the order appealed from and stating
that the agency’s order is not supported by reliable,
probative, and substantial evidence and is not in

App. 115
accordance with law. The notice or appeal may, but
need not, set forth the specific grounds of the party’s
appeal beyond the statement that the agency’s order is
not supported by reliable, probative, and substantial
evidence and is not in accordance with law. In order to
be determined filed with ODM, the notice of appeal
must be received by ODM, as evidence by the ODM
date and time stamp, no later than fifteen (15) days
after the mailing of this Adjudication Order to the
affected party. The affected party shall also file the
notice of appeal with the court of common pleas no
later than fifteen (15) days after the mailing of this
Final Adjudication Order to the affected party. In filing
a notice of appeal with ODM or the court, the notice
that is filed may be the original notice or a copy of the
original notice.
OCT - 3 2016
Date of Journalization and
Effective Date of Order
/s/ John B. McCarthy
John B. McCarthy, Director
Ohio Department of Medicaid

__________________________________________________
I hereby certify this to be a true and exact reproduction
of the original Adjudication Order of the Director of the
Ohio Department of Medicaid, entered on its journal on
October 3rd, 2016.

App. 116
By:
/s/
Katherine Paull
Litigation Coordinator
Ohio Department of Medicaid
10/3/16
Date of Certification
[SEAL]

App. 117
OHIO DEPARTMENT OF MEDICAID
50 W. TOWN STREET
COLUMBUS, OHIO
IN THE MATTER OF:
CHS-Glenwell, Inc. 09LTC17-19
CHS-Ohio Valley, Inc. 09LTC30-33
CHS-Glenwell, Inc. 09LTC24-25
CHS-Miami Valley, Inc. 09LTC13-16, 34-37
CHS-Greater Cincinnati, Inc. 09LTC20-23
CHS-Lake Erie, Inc. 09LTC26-29
Mary K. Crawford
Hearing Examiner
Respondents/Providers
October 31, 2015
Report and Recommendation
Appearances: For the Department of Medicaid:
Mike DeWine, Attorney General, and by William C.
Greene and Charity Robl, Assistant Attorneys General,
Health and Human Services Section, 26th Floor, 30
East Broad Street, Columbus, Ohio 43215. Phone: (614)
466-8600; Fax: (614) 466-6090.
For the Provider: Geoffrey E. Webster, Webster &
Associates Co., LPA, 17 South High Street, Suite 770,
Columbus, Ohio 43215: Phone: (614) 461-1156; Fax:
(614) 461-7168.

App. 118
Nature of the Case
These are proceedings taken pursuant to Ohio
Revised Code Chapters 119 and 5111.1 The Ohio
Department of Medicaid (“ODM”)2 proposes to
implement the findings of cost report audits and/or
patient days and patient liability audits conducted of
Respondents. Accordingly, the Department issued
Proposed Adjudication Orders (PAO), stating its
reasons for such proposed action and informing
Respondents of their right to a hearing. The parties
stipulated that Respondents timely requested a
hearing. (Tr., Pt. II, p. 23)
Summary of the Facts
Procedural Matters
Initially, the cases involved in this matter were
divided between two hearing examiners. Originally, the
above referenced hearing examiner was assigned CHS-

1

The provisions of R. C. Chapter 5111 were renumbered under R.
C. Title 51 and a few repealed by 130th General Assembly, HB 59.
2

The Ohio Department of Job and Family Services (ODJFS) issued
Proposed Adjudication Orders to Respondents, who timely
requested hearings. Since that time, pursuant to Am. Sub. HB 59
of the 130 General Assembly, eff. 7/1/2013, the Ohio legislature has
created a new department, Ohio Department of Medicaid (ODM);
which has assumed responsibility and authority over the Medicaid
cases previously under ODJFS’ jurisdiction. Throughout this
Report and Recommendation, references made to the Ohio
Department of Job and Family Services (ODJFS) or Office of
Medical Assistance or Ohio Department of Medicaid (ODM) may
be used interchangeably and for ease of reference may be called
“the Department.”

App. 119
Glenwell, Inc. Docket Nos. 09LTC17, 09LTC18,
09LTC19, CHS-Hamilton County, Inc. Docket Nos.
09LTC30, 09LTC31, 09LTC32, 09LTC33,3 and
Carington Health Systems Docket Nos. 09LTC24,
09LTC254. Thereafter, the following cases were
transferred to the above referenced hearing examiner
and the parties agreed to consolidate the cases: CHSMiami Valley, Inc. Docket Nos. 09LTC13, 09LTC14,
09LTC15, 09LTC16, 09LTC34, 09LTC35, 09LTC36,
09LTC37, CHS-Greater Cincinnati, Inc. Docket Nos.
09LTC20, 09LTC21, 09LTC22, 09LTC23, and CHSLake Erie, Inc. Docket Nos. 09LTC26, 09LTC27,
09LTC28, 09LTC29.
Prior to the consolidation, there were three days of
hearings in the CHS-Glenwell, Inc. Docket Nos.
09LTC17, 09LTC18, 09LTC19, CHS-Hamilton County,
Inc. Docket Nos. 09LTC30, 09LTC31, 09LTC32,
09LTC33, and Carington Health Systems Docket Nos.
09LTC24, 09LTC25 cases to address Respondents’
challenge that the Department had not conducted
audits. After consolidation, the parties agreed that the
determination of whether an audit was conducted

3

During the hearing, the parties agreed that the correct name for
CHS-Hamilton County, Inc. is CHS-Ohio Valley, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the correct Provider No. was used
for the entities. (Tr., Pt. II, pp. 23-4)
4

During the hearing, the parties agreed that the correct name for
CHS-Carington Health Systems is CHS-Glenwell, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the documents the correct
Provider No. was used for the entities. (Tr., Pt. II, pp. 23-24)

App. 120
would apply to all the cases in consolidated case.
(Stipulation of the Parties, No. 10)
During Part I of the hearing, sworn testimony was
received from Daniel Wilkins, who had recently retired
as Section Chief with ODJFS Bureau of Audit; Emily
Hess, CPA, Senior Manager with Clifton Gunderson,
Public Sector Healthcare Division; Kevin Kent, ODJFS
External Audit Supervisor; Kierstyn Canter, ODJFS
Audit Manager; Bert Cummins, CPA, designated
representative for Respondents; and Christopher
Carson, CPA, ODJFS Bureau Chief with Office of
Fiscal and Monitoring Services. During Part II of the
hearing, sworn testimony was received from Emily
(Hess) Wale;5 John Fleischer, CPA with the firm of
Howard, Wershbale & Co.; Kierstyn Canter; John
Hapchuk, an independent consultant who had worked
with the U.S. Office of the Inspector General as a
senior auditor and audit manager over the Medicare
program; and Julie Evers, ODJFS Section Chief for
Disability and Aging Policy. A court reporter was
present for all days of the hearing.
The pages of the transcripts in Part I are numbered
consecutively as follows: Vol. I - pp. 1-217; Vol. II - pp.
218-462; Vol. III - pp. 463-685. The pages of the
transcripts in Part II are numbered consecutively as
follows: Vol. I - pp. 1-7; Vol. II - pp. 8-313; Vol. III - pp.
314-454; Vol. IV - pp. 455-641; Vol. V - pp. 642-649; Vol.

5

Ms. Wale’s former name was Emily Hess, who had testified
during Part I of the hearing. In order to avoid confusion, Ms. Wale
will be referred to as Ms. Hess in this Report and
Recommendation. (Tr., Pt. II, p. 30)

App. 121
VI - pp. 650-817; Vol. VII - pp. 818-935; Vol. VIII - pp.
936-1082; Vol. IX - pp. 1083-1116. Throughout the
Report and Recommendation, references to the
transcript will be indicated as either Part (Pt.) I or II
and then the page number.
Background
The Respondents in this matter are: CHS-Glenwell,
Inc. [Glen Meadows (provider number 2429330)]; CHSOhio Valley, Inc. [Terrace View Gardens (provider
number 2339384)]; CHS-Glenwell, Inc. [Wellington
Manor (provider number 2429321)]; CHS-Miami
Valley, Inc. (Vandalia Park (provider number
2339624)]; CHS-Miami Valley, Inc. [Franklin Ridge
(provider number 2339688)]; CHS-Greater Cincinnati,
Inc. [East Galbraith Health Care Center (provider
number 2399033)]; and CHS-Lake Erie, Inc. [Carington
Park (provider number 2339268)]. Respondents operate
long-term care facilities, providing room, board and
related nursing services to persons eligible for benefits
under Ohio’s Medicaid program. At the time at issue,
ODJFS administered the Medicaid program pursuant
to R.C. Chapter 5111 and Title XIX of the Social
Security Act.
The Medicaid cost reports at issue in this matter
are: 1) the calendar year 2003 Medicaid cost reports
filed by Carington Park, Terrace View Gardens,
Vandalia Park, and Franklin Ridge; 2) the six-month
cost report covering July 1, 2003, to December 31, 2003,
filed by East Galbraith Health Care Center; and 3) the
three-month cost reports covering December 1, 2003, to
February 29, 2004, filed by Glen Meadows and
Wellington Manor. The cost reports are collective

App. 122
referred to as “2003 cost reports.” The Department also
audited the patient days and patient liability for:
1) Carington Park, Terrace View Gardens, Vandalia
Park, Franklin Ridge, East Galbraith Health Care
Center for fiscal years 2003, 2004, 2005, and 2006; 2)
Glen Meadows for fiscal years 2004, 2005, and 2006;
and 3) Wellington Manor for fiscal years 2005 and
2006.
Audit/Agreed Upon Procedures
During the Phase One of the administrative
hearings requested by Respondents, the issue
addressed was whether an audit was performed of the
cost reports for three of the nursing homes.
In order to conduct an audit of a cost report, the
person(s) conducting the audit reviews records and
documents to ensure that the amounts reported in a
provider’s annual cost report are reported accurately,
are allowable, documented, related to patient care and
reasonable. Each cost in a cost report should be
verifiable through documentation. (R.C. 5111.27;
ODJFS Post Phase One Hearing Memorandum at 1)
ODJFS issued a Request for Proposal (RFP) seeking
independent professional auditors to audit the calendar
year 2003 Medicaid Nursing Facility Cost Reports. The
RFP stated:
The objective of the contracts resulting from this
RFP are to provide ODJFS with the resources
necessary to issue the statutory audit reports on
cost reports of long term care facilities located in
the State of Ohio and certified as providers
under the Medicaid program.

App. 123
ODJFS is soliciting the services of qualified
vendors to perform “Agreed-Upon Procedures”
engagements with respect to ODJFS 2524
Medicaid cost reports...for CY2003. These
engagements are to be performed in accordance
with the provisions contained in this RFP and
Attestation Engagements (AT) Section 600 of the
AICPA (American Institute of Certified Public
Accountants) Codification of Statements for
Attestation Engagements.
(Tr., Pt. I, pp. 32, 42; State Exhibit 4, Wellington
Manor p. 1672)
A committee with ODJFS’ Bureau of Audits
reviewed the responses to the RFPs and two firms were
selected to conduct the cost report audits. One of these
firms was Clifton Gunderson, which has “been
performing cost report audits since the Medicaid
program began in the mid-1960s ... and [has] served
the Ohio Medicaid program since 1999.” Emily Hess,
who was the Supervisor Manager over the audits at
question herein, testified that the audits of CHS at
issue herein were conducted in the same manner that
it had performed all other cost report audits in Ohio
from 2000-2006. For over 12 years, Ms. Hess performed
nothing but Medicaid cost report audits for Clifton
Gunderson, including 900 - 1,000 in Ohio nursing
homes and hospitals. Whenever Clifton Gunderson had
an engagement in Ohio, Ms. Hess was the manager
assigned. (Tr., P. I, pp. 44-45, 230, 232-34, 319-20;
State Exhibit 3, Wellington Manor p. 1559)
As stated in the RFP, the successful vendor was to
perform “Agreed-Upon Procedures” engagements for

App. 124
the CY2003 cost reports. These Agreed-Upon
Procedures set forth the scope and method to be
utilized in conducting the cost report audits. The
Department provided Clifton Gunderson training to
review the procedures. Ms. Hess testified that Clifton
Gunderson quite frequently performed Agreed-UponProcedures with attestation standards for all of their
state clients, not just Ohio. She stated that in AgreedUpon Procedure engagements, the client, i.e. Ohio or
other states, would set forth procedures, which told
Clifton Gunderson or other vendor what they need to
be looking for. (Tr., Pt. I, pp. 148, 236-38)
An example of the reviewer’s checklist for AgreedUpon Procedures is set forth in State Exhibit 1,
starting with planning, proceeding step by step all the
way to the exit conference and completing the report.
The description of the task is listed in one column and
the work paper references are filled in as the work is
completed. (Tr., Pt. I, pp. 248-49)
Ms. Hess stated that there are different procedures
for full-blown financial based audits than for AgreedUpon Procedures. She stated that the Agreed-Upon
Procedures, especially in Ohio, is very in-depth. The
purpose of an audit for a financial base is more of a
balance sheet for the stockholders. The purpose of an
Agreed-Upon Procedures is to validate expenses and
revenues. (Tr., Pt. I, pp. 498-99)
Clifton Gunderson assigned a partner, manager,
supervisor and three field auditors to the audits at
issue herein. In preparing to conduct the audit, Clifton
Gunderson contacted CHS on March 1, 2006, over three
months prior to the site visit scheduled for the week of

App. 125
June 12, 2006 at CHS’ home office in Hamilton, Ohio,
where CHS indicated the relevant documents were
housed. In its letter, Clifton Gunderson stated: “ To
minimize disruptions to you and your staff during the
field work phase of the review, please send the
information listed on the attached letter to us by April
7, 2006.” The attachment listed 32 categories for items
to be produced. Furthermore, the list indicated the
specific accounts in the cost report to be audited. Ms.
Hess stated that CHS only produced documents
responsive to one of the requests. (Tr., Pt. I, pp. 30103; State Exhibit 9, Terrace View, p. 255)
Prior to the site visit, a second request was made for
the general ledger accounts, which are comprehensive
transaction lists. As stated in the original list, a review
of the general ledger was necessary for the auditors to
select invoices for the identified cost accounts to be
audited. This second request for the general ledger was
not honored until after the site visit had commenced.
Moreover, during the week-long on-site field work, the
auditors were waiting for documents that had been
requested from CHS three months previously. (Tr., Pt.
I, pp. 304-06)
On the last day of the field work, an exit conference
was held and signed off by three Clifton Gunderson
staff and David McClellan, the Corporate Controller for
CHS at the time. The signed form states: “All of the
proposed adjustments known at this time were
discussed with the Provider and a copy of the proposed
adjustments was given to the Provider.” (Tr., Pt. I, pp.
258, 307, 365-67; State Exhibit 9, Terrace View pp.
371-72 (italics in original))

App. 126
At the exit conference, Clifton Gunderson asked
CHS to sign the representation letter, which is part of
the Agreed-Upon Procedures. CHS’ consultant,
Cummins, Krasik and Hohl, informed Clifton
Gunderson that CHS would not sign it. Ms. Hess
explained that Section 600 of the AICPA requires a
representation letter, which is usually signed on the
last day of field work. This letter is obtained from the
entity being audited, in this case, Respondents. The
letter should state, among other things, that, to
Respondents’ knowledge, “they provided all
documentation to [Clifton Gunderson], that they were
not aware of any fraud from the time that they
submitted the cost report to the time” of the audit.
Furthermore, they represent that they disclosed
“anything else that...to their knowledge would be
impactful to the engagement,” i.e., anything that would
impact or affect the costs reported in the cost reports.
The letter used by Clifton Gunderson was a standard
form, the template of which was provided by ODJFS.
(Tr., Pt. I, pp. 239, 307-11, 506, 608)
Mr. Cummins stated that his firm advised CHS not
to sign the form because there was language in the
letter that was asking CHS “to agree to the sufficiency
of the procedures that they [Clifton Gunderson]
performed.” When Clifton Gunderson informed the
Department of CHS’ refusal to sign the letter, Clifton
Gunderson was instructed to proceed with the audit as
usual. (Tr., Pt. I, pp. 309-10, 548)
At the exit conference Clifton Gunderson also gave
CHS a list of still outstanding documents, which was
very similar to the list sent in March 2006. This list

App. 127
included, among other things, invoices, canceled checks
and contracts, which would substantiate
documentation for reported costs. Ms. Hess stated that
providers are required to maintain proper
documentation to support costs. Without that
documentation, the cost would be removed from the
cost report, resulting in an adjustment. The letter
stated that if the items were not received by Clifton
Gunderson by June 30, 2006, Clifton Gunderson would
“make the required adjustments in [its] report to the
Ohio Department of Job and Family Services.” (Tr., Pt.
I, pp. 306, 311, 315-16; State Exhibit 9, Terrace View
pp. 377-80)
CHS provided some documentation for expenses
prior to the deadline and Clifton Gunderson
incorporated that information prior to issuing the
proposed cost adjustment letter, which was sent to
CHS along with supporting work papers of those
adjustments. CHS was given seven days to respond to
the report; otherwise, the finalized report would be
sent to the Department. CHS did not respond and the
draft adjustments were finalized to the Department.
The Department received the Audit Input Document,
copy of the proposed cost adjustments and papers to
support Clifton Gunderson’s proposed cost
adjustments. (Tr., Pt. I, pp. 105, 317-19)
After the Department received the finalized report
from Clifton Gunderson, Kevin Kent6 of the

6

Mr. Kent holds a Masters in Business Administration and a
Masters in Accounting and Financial Management. (Tr., Pt. I, pp.
325-26)

App. 128
Department performed a high level review for
accepting the actual audit from Clifton Gunderson. Mr.
Kent explained that the review was not detailed. As
Mr. Wilkins stated, the Department is not going back
to re-perform the work of the contract auditors. Rather,
the Department relied upon Clifton Gunderson to
perform the detailed review of documentation. The
Department is “just ensuring that what has been done
is adequately documented in the working papers, and
that the adjustments tie back to those working papers
that are submitted.” He merely reviewed the report to
see that the Agreed-Upon Procedures were performed.
(Tr., Pt. I, pp. 55, 326-28, 360; State Exhibit 9, Terrace
View pp. 1133-41)
During the hearing, Mr. Kent showed the process he
went through comparing his checklist of review criteria
against the checklist with supporting documents
initialed by the auditors as work was completed and, if
necessary work papers. He conducted a similar quality
review of all seven CHS audits. He stated that Clifton
Gunderson passed the audit review he conducted. After
Mr. Kent completed his review, then there was a final
higher review and a final signoff to accept the audit as
done. (Tr., Pt. I, pp. 57, 106, 327-45, 347, 354-61; State
Exhibits 1, 9)
The contract auditor’s proposed cost adjustments
were input into the Perseus system, which is the longterm care’s operating system used to calculate payment
rates. Proposed cost adjustments were made to the
identified accounts where, based upon the audit, the
Department believed the costs had been misreported.
Mr. Wilkins testified that the procedures for audits,

App. 129
starting with the RFP, the contractor’s work and the
Department’s process after receiving deliverables from
the contract auditor have been the same since 1999. He
stated that the Agreed-Upon Procedures have been
modified periodically since 1999. He testified that
Clifton Gunderson followed the Agreed-Upon
Procedures as prescribed in the RFP. (Tr., Pt. I, pp. 59,
107, 118, 125-26, 155)
A final fiscal audit conference or exit conference
may be conducted by the Department’s Bureau of Audit
“to try and resolve potential findings identified by the
Department with the providers.” This final fiscal audit
conference, which is different than the exit conference
held between Clifton Gunderson and CHS immediately
after the on-site field work was completed in June
2003, is not mandatory. Ms. Canter stated that it is a
courtesy provided by the Department to try to resolve
proposed findings. After a cost report audit performed
by either the Department or a contract independent
auditor, the Department has the option to continue
trying to work with the provider or to issue a Proposed
Adjudication Order under R.C. Chapter 119 whereby
the provider may request a hearing. One other option
is for the provider to pay the amount identified by the
Department as due and owing. (Tr., Pt. I, pp. 411, 41314, 416, 427)
In this case, Respondents requested final fiscal
audit conferences. The Department, however, elected to
issue Proposed Adjudication Orders, affording
Respondents an opportunity to request a hearing under
R.C. Chapter 119. Ms. Canter stated that attempts to
meet and to obtain additional documents in order to try

App. 130
to resolve some of the matters were unsuccessful. One
of the factors in the Department’s decision to forego the
final fiscal audit conferences was the difficulty in
obtaining documents from CHS, not only during the
audit itself, but also during the exit conference process.
(Tr., Pt. I, pp. 191, 416, 427-28, 439)
Days Audits
Days audits were also conducted of 1) Carington
Park, Terrace View Gardens, Vandalia Park, Franklin
Ridge, East Galbraith Health Care Center for fiscal
years 2003, 2004, 2005, and 2006; 2) Glen Meadows for
fiscal years 2004, 2005, and 2006; and 3) Wellington
Manor for fiscal years 2005 and 2006. A days audit is
“a review of the claims a provider has submitted for
payment for a given fiscal year to determine that the
Department had paid the provider appropriately. Some
of the issues that are looked at in these audits include:
1) whether the Department paid for dates of service
beyond the date of death of a recipient; 2) whether two
institutions paid for the some dates of service for a
recipient; 3) whether the Department paid for services
when another payer should have paid first; 4) whether
patient resources were properly identified and applied.
(Tr., Pt. I, pp. 108)
For fiscal year 2005 and prior, unless a provider
notified the Department that a patient was not in the
facility, the Department paid the provider for a full 30
days for that patient. Thereafter, the provider
submitted a 9400 document identifying when a
recipient was not in the facility or there was a change
of resources or any circumstance that would indicate a
provider was overpaid. Starting in fiscal year 2006, the

App. 131
provider submitted a claim for days of service provided
to the Medicaid recipient. (Tr., Pt. I, pp. 110, 116)
Under both the systems -- before and after fiscal
year 2005 – the Department looked at all claims paid
to the institutional providers for a recipient to see if
there were any overlaps in payment. There are no onsite reviews of the providers’ records. A report is
generated of any overlap. The days audits in the cases
at issue herein were performed in the same manner as
the audit at issue in Meadowbrook Care Center v. Ohio
Dept. of Job and Family Services (10th Dist. 2007),
2007-Ohio-6534. (Tr., Pt. I, pp. 110-11, 113, 116-17,
159)
In its audits, ODJFS determined that some of the
paid patient days were not covered Medicaid days of
service. As stated in Meadowbrook at ¶ 14, examples of
non-covered days include “days on which patients left
[the provider’s] facility for treatment elsewhere, or for
which hospice costs were reimbursed directly to a
hospice provider who furnished such care to a resident
in [the provider’s] facility.”
ODJFS also looked at the amount Respondents
collected from individual residents for their patient
liability, which is “the individual’s financial obligation
toward the Medicaid cost of care for the medical
institution.” Ohio Admin. Code 5101:1-39-22.2(B). “The
difference between the individual’s patient liability and
the monthly Medicaid cost of care is the Medicaid
vendor payment amount.” Id.
After performing the patient day/patient liability
audits, ODJFS issued Combined Proposed Adjudication

App. 132
Orders (CPAO) for each open audit period for each of
the Respondents. Each CPAO contained Reports of
Examination, detailing the “calculation leading to the
amount determined to be owed.” State’s Exhibits 43-46,
78-81, 105-108, 139-142, 169-172, 199-201, and 227228. Respondents each timely requested an exit
conference. Thereafter, ODJFS re-issued CPAO’s for
each facility for each open audit period, providing
Respondents the opportunity to request a R.C. Chapter
119 hearing. State’s Exhibits 47-50, 82-85, 109-112,
143-146, 173-176, 202-204, and 229-230. Each
Respondent timely requested a Chapter 119
administrative hearing.
During discovery, CHS produced additional
documentation, which was reviewed by ODJFS. As a
result of this review, ODJFS made some adjustments
and created new CPAOs with Reports of Examination.
The revised reports reflecting the revised patient days
and patient liability adjustments are set forth as
follows:

App. 133
Facility

State’s
Patient
Exhibit
Days/
No.
Patient
Liability
FY Audit
at Issue

Adjustments to
Patient
Liability7

Adjustments
to No.
of
Paid
Patient
Days

Carington Park

FY 2003

$8,892.76

363.5

p. 19
(column
C)

p. 8
(column
E)

$5844.28

167

p. 20
(column
C)

p. 8
(column
E)

$2,849.76

337

p. 21
(column
C)

p. 5
(column
E)

Carington FY 2004
Park

Carington FY 2005
Park

7

242

243

244a

The patient-liability adjustment amounts in this chart are not the
amounts that CHS owes to ODM. The total amounts the CHS
facilities owe to ODM are calculated by multiplying the correct
number of patient days by the correct rate and subtracting the
correct patient liability.

App. 134
Carington FY 2006
Park

Terrace
View
Gardens

FY
2003

Terrace
View
Gardens

FY
2004

Terrace
View
Gardens

FY
2005

Terrace
View
Gardens

FY
2006

Vandalia
Park

FY
2003

245b

246

247

248

249a

250

$10,191.70

374.5

p. 19
(column
C)

p. 5
(column
E)

$6,461.32

296.50

p. 15
(column
C)

p. 5
(column
E)

$910.00

51

p. 10
(column
C)

p. 6
(column
E)

$945.00

19

p. 14
(column
C)

p. 5
(column
E)

-$3,706. 00

3.0

p. 10
(column
C)

p. 5
(column
E)

$8378.65

592.5

p. 17
(column
C)

p. 6
(column
E)

App. 135
Vandalia
Park

Vandalia
Park

Vandalia
Park

FY
2004

FY
2005

FY
2006

251

252a

253a

Franklin
Ridge

FY
2003

254

Franklin
Ridge

FY
2004

255

Franklin
Ridge

FY
2005

256a

$0

198

p. 17
(column
C)

p. 6
(column
E)

$528.42

161.5

p. 16
(column
C)

p. 5
(column
E)

-$2990.20

441

p. 19
(column
C)

p. 5
(column
E)

$1,404.98

175

p. 17
(column
C)

p. 6
(column
E)

$2,385.00

93

p. 14
(column
C)

p. 6
(column
E)

$1,474.88

61.5

p. 15
(column
C)

p. 5
(column
E)

App. 136
Franklin
Ridge

FY
2006

257a

East
Galbraith

FY
2003

258

East
Galbraith

FY
2004

259

East
Galbraith

FY
2005

260a

East
Galbraith

FY
2006

261a

Wellington
Manor

FY
2005

262

-$1.563.00

7

p. 9
(column
C)

p. 5
(column
E)

$0.00

3

p. 9
(column
C)

p. 6
(column
E)

$405.00

54.5

p. 12
(column
C)

p. 6
(column
E)

$0.00

45

p. 32
(column
C)

p. 21
(column
E)

$2827.64

867

p. 19
(column
C)

p. 5
(column
E)

$0.00

3.5

p. 10
(column
C)

p. 5
(column
E)

App. 137
Wellington
Manor

FY
2006

263

Glen
Meadows

FY
2004

264

Glen
Meadows

FY
2005

265a

Glen
Meadows

FY
2006

266a

-$18.00

2.5

p. 10
(column
C)

p. 5
(column
E)

$994.62

11.5

p. 12
(column
C)

p. 6
(column
E)

$0.00

16

p. 12
(column
C)

p. 6
(column
E)

-$6,385.00

9

p. 8
(column
C)

p. 5
(column
E)

(Ohio Department of Medicaid’s Post-Hearing brief, pp.
7-8; Tr., Pt. II, pp. 339-54)
Pursuant to Ohio Admin. Code 5101:6-50-09(A)(4),
“Any audit report, report of examination, exit
conference report, or report of final settlement issued
by ODJFS and entered into evidence [in a R.C. Chapter
119 hearing] is to be considered prime facie evidence of
what it asserts.” Therefore, with the admission of the
Reports of Examination, the State met its burden of
proof and the burden fell to Respondent to refute the
figures. Although Respondent’s counsel objected to the

App. 138
adjustments in the Reports of Examination and did not
stipulate to the amounts, no evidence was presented to
rebut ODJFS’ prime facie evidence with respect to
patient days and patient liability adjustments. Vill. of
Bellville v. Kieffaber, (2007) 114 Ohio St. 3d 124 (Tr.,
Pt. II, p. 333)
Cost Reports and Audits
A. Overview
Each of the seven nursing facilities were required,
pursuant to R.C. 51111.26(A)(1)(a) and Ohio Admin.
Code 5101:3-20, in effect at the time, to file a cost
report annually covering the calendar year or portion
thereof in which the facility participated in the
Medicaid program. These cost reports were to be
prepared pursuant to rules and procedures established
by ODJFS. Id; see Ohio Admin. Code Chapter 5101:3-3.
The cost reports filed by Respondents for calendar
year 20038 were used by ODJFS to set the per diem
rates for FY2005 and FY2006. (See State Exhibits 53,
88, 115, 150, 177, 207, 231) Pursuant to Ohio Admin.

8

Three of the facilities–East Galbraith Health Care Center, Glen
Meadows, and Wellington Manor–filed partial calendar year 2003
cost reports because they did not operate for the entire year. East
Galbraith Health Care Center filed a six-month cost report
covering July 1, 2003, to December 31, 2003. Glen Meadows and
Wellington Manor each filed 90-day cost reports covering
December 2003, January 2004, and February 2004. Ohio Admin.
Code 5101:3-3-20(H). However, the 2003 partial-year cost reports,
in addition to the full calendar year 2003 cost reports filed by the
other four providers, were used to set the per diem rates for FY
2005 and FY 2006. (State’s Post-hearing Brief, fn. 6)

App. 139
Code 5101:3-3-01(A), allowable costs, specifically, those
costs that were actually incurred and were reasonable,
are determined in accordance with a hierarchy of laws
and rules as follows: The Ohio Revised Code, then the
Ohio Administrative Code, then the Code of Federal
Regulations, then the CMS HIM publications or
Provider Reimbursement Manual publications and
lastly, the general accepted accounting principles
(GAAP). Ohio Admin. Code 5101:3-3-01; Ohio Admin.
Code 5101:3-3-20. (Tr., Pt. II, pp. 95-96, 949-50; State
Exhibit 275a)
Under this hierarchy, the Ohio Revised Code is
applied first. If that source does not specifically address
an issue, then the Ohio Administrative Code is applied.
If that source does not specifically address an issue,
then the Code of Federal Regulation is applied. If that
source does not specifically address an issue, the
Provider Manual or CMS Publication 15-19 is applied.
And, finally, if there is complete silence, then general
accepted accounting principles are applied. (Tr., Pt. II,
pp. 957)
It is noted that the CFR and PRM are regulations
and interpretive guidelines for reportable costs for
Medicare cost reports. By including them in the
hierarchy of sources to use in determining allowable
costs for Medicaid nursing facilities, Ohio adopted
these regulations to determine allowable costs for
Medicaid cost reports in Ohio. 5101:3-3-01(A) There is

9

Publication 15-1, HIM-15-1, HIM-15, Provider Reimbursement
Manual (PRM) and CMS-15-1 are different names for the same
document. (Tr., Pt. II, p. 955)

App. 140
nothing in the Ohio Administrative Code that states
that certain provisions of the CFR or the PRM are not
applicable to reporting costs in a cost report. Moreover,
there is nothing in the CFR or the PRM that limits the
application of any of the rules included therein to only
Medicare or only Medicaid. (Tr., Pt. II, pp. 484-85, 958)
After conducting an audit of the 2003 cost reports,
ODJFS determined that CHS had improperly reported
costs in its cost reports. Many of the cost adjustments
that Clifton Gunderson calculated during the audit
were based upon insufficient documentation. During
the discovery phase of this administrative hearing
process, CHS provided ODJFS with additional
information and documentation. After reviewing this
documentation, adjustments were made to the cost
adjustments. In some instances, the additional
documents supported the reported costs, thereby
enabling ODJFS to delete the adjustment. In other
circumstances, the parties agreed that certain costs
should not have been included in the cost report and
the original cost adjustments remained. As a result of
this review and the agreement of the parties, ODJFS
and CHS stipulated to the new cost adjustments. These
stipulated adjustments are set forth in State Exhibit
267a.10 (Attached hereto as Attachment A and
incorporated herein)
10

It is noted that paragraph 4 of the Stipulation of the Parties,
there is reference to State Exhibit 267 as the document that
summarizes the agreed upon cost adjustments. During the
hearing, additional information was provided which resulted in
recalculation of some of these stipulated cost adjustments. The
parties agreed that the amended stipulated cost adjustment is
State Exhibit 267a.

App. 141
The parties, however, did not agree on all the cost
adjustments. The disputed adjustments are set forth in
State Exhibit 268. (Attached hereto as Attachment B
and incorporated herein) Although the parties agree as
to amounts set forth in State Exhibit 268, they disagree
as to whether those costs should have been included in
the first place. (Stipulations of the Parties, no. 5,
attached hereto as Attachment C) These adjustments
were made for direct-care consulting costs, found at
State Exhibit 268, p. 1, indirect care consulting costs,
found at State Exhibit 268, p. 2 and Cincinnati Reds
tickets, found at State Exhibit 268, p. 3.
Accordingly, the disagreement between the parties
relates to:
1. Inclusion of costs for direct-care consulting
(account 6210) and indirect-care consulting
(account 7215) in its 2003 cost reports
2. Inclusion of costs for Cincinnati Reds tickets in
its 2003 cost reports
The parties have stipulated to the documents
supporting these reported costs and also to the
amounts in dispute. (State Exhibit 268 and Stipulation
of Parties).
B. Cost Reports
Cost reports, which are based on a calendar year,
are the mechanism by which nursing home facilities
report their operating costs to the State. These cost
reports are prepared by the nursing facilities and
submitted to the State. Providers use the accrual basis
of accounting when reporting costs on a cost report.

App. 142
Within each cost report are separate cost centers:
direct care, indirect care, capital cost, other protected.
Each of these cost centers is divided into cost accounts.
The Ohio Administrative Code outlines what is
included in each cost account and cost center. The State
then uses the cost reports in a rate-setting formula to
establish a per diem rate, which is the amount that a
facility is paid for each person in the facility. The sum
of the various cost accounts comprises the total for the
respective cost center. The totals of the cost centers are
used to determine that provider’s rate. There is a
different rate for each cost center. (Tr., Pt. II, pp.92-94,
96-97, 283-84, 376, 1012)
Over the years, Ohio has used different
reimbursement systems for Medicaid as it relates to
nursing homes. Prior to 1991, Ohio used a retrospective
cost settlement system. Under this system, the cost
report data was used “to establish ceilings, calculated
rates, multiplied the rate calculated by the number of
Medicaid days, and compared that to the total
payments made during the calendar year period.” If the
State paid the nursing home more than it should have,
the nursing home would repay the money. If the Sate
did not pay the nursing home as much as the cost, the
State would pay additional funds to the provider. (Tr.,
Pt. II, pp. 746, 1004, 1008)
In 1992, the State started transitioning into a
prospective cost based system, which came into place in
1994 and continued for 11 years, through FY 2005. In
the prospective cost-based system, a rate was
established for each facility, based upon its costs
(subject to ceilings). This rate was established prior to

App. 143
the beginning of the fiscal year for which it became
effective and there was no reconciliation as to “what
the provider actually spent in that period.” (Tr., Pt. II,
pp. 1009-10)
Julie Evers with the Department’s Office of Ohio
Health Plans, explained the prospective cost-based
system in a little more detail. Cost data was collected
from calendar year cost reports and an 18-month
inflation factor to the costs on that cost report was
applied to establish a rate for the subsequent fiscal
year. The cost reports for 2003 were used in
establishing the rates for FY 2005, which started July
1, 2004. Ms. Evers said that under the prospective costbased reimbursement system, the rate for nursing
facilities were based upon actual costs. Each facility
had its own unique rate. (Tr., Pt. II, pp. 746, 1011,
1029-30)
In 2005, the Ohio legislature passed laws which
changed the reimbursement system from the costbased prospective reimbursement system to a pricebased prospective system. During the transition period,
the rates in FY 2006 were the same as those in FY
2005. In FY 2007, the new rates under the price-based
prospective system went into effect. (Tr., Pt. II, pp.
1030-31)
Under the price-based prospective system, the State
pays “similarly-situated homes the same price subject
to case mix adjustments.” Rather than looking at the
facility’s costs, the State looks at “the peer group
experience to establish the rate components,” while still
starting with a calendar year cost report and applying
an 18-month inflation factor. (Tr., Pt. II, p. 1034)

App. 144
In order to claim any expense in a cost report, the
facility must have documentation, such as general
ledgers, trial balance, invoices, cancelled checks, bank
statements, contracts, leases, and loans, to
substantiate the expense. If the provider does not
supply documentation to substantiate the costs, that
cost is eliminated or disallowed due to lack of
documentation. An adjustment is made on the
Proposed Cost Adjustment Reports form. Each
adjustment reduces the amount that was originally
reported by the provider on its cost report. (Tr., Pt. II,
pp. 94-95, 98-103)
After the cost report audits are conducted,11 any
audit adjustments are entered into the Perseus system,
which also contains cost reports and sets the initial
rates for nursing homes. After the adjustments are
entered, Perseus calculates a new rate. These revised
rates are incorporated into combined proposed
adjudication reports12 (CPA report), which are sent to
nursing homes notifying them of the amount, if any,
owed back to the State. (Tr., Pt. II, pp. 377-78)
Direct Care and Indirect Care Consulting Costs
A. The Contracts
Each of the CHS facilities at issue herein contracted
with Strategic Nursing Systems (“Strategic”) and/or

11

One of the major purposes of the audit it to substantiate a cost
claimed on the cost report. (Tr., Pt. II, pp. 97)
12

Combined Proposed Adjudication reports are also called final
fiscal audit reports. (Tr., Pt. II, pp. 378)

App. 145
Providers Choice Administrative Services (“Providers”
or “Providers Choice”) for consulting services. Most of
these contracts consisted of two parts: Annual Services
and Enhanced Services. The Enhanced Services portion
of the contract was to pay Strategic and/or Providers
“additional fees as specified in Attachment A” of the
contract. (See, eg., State Exhibit 57, p. 5)
Under the “Annual Services” part of the contracts,
the facilities were invoiced monthly. Each of the
monthly invoices stated that payment was due upon
receipt of invoice. The facilities paid these invoices by
check.
Under the “Enhanced Services” part of the contracts
(Attachment A to the contract), rather than sending
monthly invoices, Strategic and Provider invoiced the
facilities on December 31, 2003 for the entire amount
for services provided from January 1, 2003 through
December 31, 2003. These invoices stated that payment
was due upon receipt of invoice.
During the audit, the auditor disallowed these costs
because there was inadequate documentation and there
was a related party issue. For example, Ms. Hess
testified that during the audit, the auditors asked for
accounts with respect to Strategic and they looked for
specific transactions in account 6210. They did not get
invoices, canceled checks, promissory notes, payments
of checks on the promissory notes (Tr., Pt. II, pp. 20608)
Since CHS presented documentation during
discovery, ODM is no longer proceeding on the issue of
inadequate documentation or related party issue. The

App. 146
additional documentation, however, revealed an issue
with liquidation of liabilities. This issue was not
identified originally because CHS failed to provide the
documentation (Tr., Pt. II, p. 16)
With respect to cost account 6210, the parties
stipulated:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Strategic Nursing Systems, Inc., at
State’s Exhibit 57. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Carington Park monthly for the consulting fees and
Carington Park paid each invoice by check as shown
in State’s Exhibit 58. The consulting agreement
(State’s Exhibit 57) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown by
State’s Exhibit 59. Carington Park issued an
installment promissory note for the December 31,
2003 for the Enhanced Services invoice, State’s
Exhibit 60. The payments of the installment
promissory note were per the note’s terms and were
by checks at State’s Exhibit 61.
B. CHS – Hamilton County, Inc. d.b.a. Terrace View
Gardens, provider number 2339384, entered into an
agreement with Strategic Nursing Systems, Inc. at
State’s Exhibit 92. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Terrace View Gardens monthly for the consulting

App. 147
fees and Terrace View Gardens paid each invoice by
check as shown in State’s Exhibit 93. The
consulting agreement (State’s Exhibit 92) contained
an Attachment A for Enhanced Services, with an
additional consulting fee that was due on December
31, 2003, that was invoiced by Strategic Nursing
Services as shown by State’s Exhibit 94. Terrace
View Gardens issued an installment promissory
note for the December 31, 2003 Enhanced Services
invoice, State’s Exhibit 95. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 96.
C. CHS – Miami Valley, Inc. d.b.a. Franklin Ridge,
provider number 2339688, entered into an
agreement with Strategic Nursing Systems, Inc. at
State’s Exhibit 119. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Franklin Ridge monthly for the consulting fees and
Franklin Ridge paid each invoice by check as shown
in State’s Exhibit 120. The consulting agreement
(State’s Exhibit 119) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown by
State’s Exhibit 121. Franklin Ridge issued an
installment promissory note for the December 31,
2003 Enhanced Services invoice, State’s Exhibit
122. The payments of the installment promissory
note were per the note’s terms and were by checks
at State’s Exhibit 123.

App. 148
D. CHS – Miami Valley, Inc. d.b.a. Vandalia Park,
provider number 2339624, entered into an
agreement with Strategic Nursing Systems, Inc. at
State’s Exhibit 154. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Vandalia Park monthly for the consulting fees and
Vandalia Park paid each invoice by check as shown
in State’s Exhibit 155.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with Strategic
Nursing Systems, Inc. at State’s Exhibit 181. The
costs associated with this consulting agreement
were reported in account 6210. Strategic Nursing
Systems, Inc. invoiced East Galbraith monthly for
the consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit 182.
The consulting agreement (State’s Exhibit 181)
contained an Attachment A for Enhanced Services,
with an additional consulting fee that was due on
December 31, 2003, that was invoiced by Strategic
Nursing Services as shown by State’s Exhibit 183.
East Galbraith issued an installment promissory
note for the December 31, 2003 Attachment A
Enhanced Services invoice, State’s Exhibit 184. The
payments of the installment promissory note were
per the note’s terms and were by checks at State’s
Exhibit 185. The consulting agreement (State’s
Exhibit 181) also contained an Attachment B for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown by

App. 149
State’s Exhibit 186. East Galbraith issued an
installment promissory note for the December 31,
2003, Attachment B Enhanced Services invoice,
State’s Exhibit 187. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 188.
(Stipulation of the Parties, ¶ 6)
With respect to cost account 7215, the parties
stipulated:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 63. The costs
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Carington
Park monthly for the consulting fees and Carington
Park paid each invoice by check as shown in State’s
Exhibit 64. The consulting agreement (State’s
Exhibit 63) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003. Carington
Park issued an installment promissory note for the
December 31, 2003 Enhanced Services fee, State’s
Exhibit 65. The payments of the installment
promissory note were per the note’s terms and were
by checks at State’s Exhibit 66.
B. CHS – Hamilton County, Inc. d.b.a. Terrace View
Gardens, provider number 2339384, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 98. The costs

App. 150
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Terrace View
Gardens monthly for the consulting fees and
Terrace View Gardens paid each invoice by check as
shown in State’s Exhibit 99. The consulting
agreement (State’s Exhibit 98) contained an
Attachment A for Enhanced Services, with an
additional consulting fee that was due on December
31, 2003. Terrace View Gardens issued an
installment promissory note for the December 31,
2003, Enhanced Services fee, at State’s Exhibit 100.
The payments of the installment promissory note
were per the note’s terms and were by checks at
State’s Exhibit 101.
C. CHS – Miami Valley, Inc. d.b.a. Franklin Ridge,
provider number 2339688, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 125. The costs
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Franklin
Ridge monthly for the consulting fees and Franklin
Ridge paid each invoice by check as shown in State’s
Exhibit 126. The consulting agreement (State’s
Exhibit 125) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003. Franklin
Ridge issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 127. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 128.

App. 151
D. CHS – Miami Valley, Inc. d.b.a. Vandalia Park,
provider number 2339624, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 157. The costs
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Vandalia
Park monthly for the consulting fees and Vandalia
Park paid each invoice by check as shown in State’s
Exhibit 158. The consulting agreement (State’s
Exhibit 157) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003. Vandalia
Park issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 159. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 160.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with Providers
Choice Administrative Services, Inc., at State’s
Exhibit 190. The costs associated with this
consulting agreement were reported in account
7215. Providers Choice Administrative Services,
Inc. invoiced East Galbraith monthly for the
consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit 191.
The consulting agreement (State’s Exhibit 190)
contained an Attachment A for Enhanced Services,
with an additional consulting fee that was due on
December 31, 2003. East Galbraith issued an
installment promissory note for the December 31,

App. 152
2003, Enhanced Services fee, at State’s Exhibit 192.
The payments of the installment promissory note
were per the note’s terms and were by checks at
State’s Exhibit 193.
(Stipulation of the Parties, ¶ 7)
Some of the monthly invoices for services under the
annual contracts were paid more than one year after
the end of the relevant cost-reporting period. The
following chart shows that the invoices were issued in
November and/or December 2003. The checks to pay
these invoices, however, were not paid to Strategic
until March 2005 and/or April 2005.

App. 153

Facility Invoice
Month

Date
Checks
were
Issued

End of
CostReporting
Period

State’s
Exhibit
Number

CHS’s
Exhibit
Number
CHS
Exhibit
RRR,
TVG00
0734000735

Terrance
View
Gardens

December
2003

March
2005

12/31/
2003

State’s
Exhibit
93, pp.
23-24

Franklin
Ridge

December
2003

March
2005

12/31/
2003

State’s CHS
Exhibit Exhibit
FFFF,
120
FR001
pp. 23- 19424
001195

Vandalia
Park

December
2003

March
2005

12/31/
2003

State’s CHS
Exhibit Exhibit
NNN,
155
CP000
pp. 23- 72724
0072813

13

When CHS produced documents during discovery, it
inadvertently labeled Vandalia Park documents with the BatesNumber prefix CP and Carington Park documents with the BatesNumber prefix VP.

App. 154
CHS
Exhibit
ZZZ,
VP000
863000866

12/31/
2003

State’s
Exhibit
58, pp.
21-25

March
2005

2/29/
2004

State’s CHS
Exhibit Exhibit
208
WW,
GM009
pp. 3-4 27-009
28

March
2005

2/29/
2004

State’s CHS
Exhibit Exhibit
234
HHH,
WELL
pp. 4-5 00065
7-000
658

Caring- Noveton
mber
Park
2003
and
December
2003

March
2005
and

Glen
Meadows

December
2003

Wellington
Manor

December
2003

April
2005

(State Post-hearing Brief at 14)
Based upon the fact that they were not paid within
one year after the end of the cost reporting period, the
Department disallowed these costs in the FY2003 cost
reports. These amounts are included in the Stipulated
Amount columns on State Exhibit 268, pp.1-2 (attached
hereto as Attachment B)
In addition to the facilities set forth in the above
chart, for disallowance of seven payments on the
“Annual Services” monthly invoices, one facility, East

App. 155
Galbraith, paid all of the monthly invoices for Annual
Services for Providers Choice starting in January 2005.
These payments were also disallowed in the FY2003
cost report because the payments were not made within
one year after the end of the cost reporting period.
These amounts are also included in the Stipulated
Amount columns on State Exhibit 268, pp.1-2 (attached
hereto as Attachment B) (Stipulation of the Parties;
State Exhibit 181, pp. 5, 11; State Exhibits 190, 191)
Some of the facilities reported costs in their cost
report for the “Enhanced Services.” On December 31,
2003, Strategic and/or Providers Choice issued invoices
for the total amount of the “Enhanced Services”
contracts. The invoice stated “Payment Due Upon
Receipt of Invoice.” That same day, December 31, 2003,
the facilities issued promissory notes in the exact
amount of the invoices. Payment on these promissory
notes were not to commence until mid-2005. Therefore,
none of the facilities’ assets were transferred until
2005, over one year from the end of the 2003 cost report
period. In July 2005, the facilities began issuing
monthly checks to pay the promissory notes.
B. Liquidation of Liabilities
One of the cost accounts in dispute is 6210, which is
consulting and management costs related to direct
care. For purposes of illustration, during the hearing,
ODM used the example of one of the Carington Park
facilities, whose cost report was State Exhibit 53.
Carington Park reported $2,398,356 in this cost
account. Ms. Hess testified that during the audit they
sampled “from to vouch expenses, and [they] selected a
variety of different journal entries and transactions to

App. 156
test these amounts.” Although Carington supplied the
auditors with some invoices and a consulting
agreement, Ms. Hess stated that they received very
little documentation, even after requesting
documentation on this transaction. As a result, an
adjustment was made to this account for lack of
documentation and related party matters14. Ms. Hess
testified that the lack of documentation included lack
of information regarding the related party issue. (Tr.,
Pt. II, pp. 97, 104-08, 207; State Exhibit 54)
The consulting agreement between Carington Park
and Strategic Nursing Systems provided for
Compensation of Consultant: “For the full and efficient
performance of its duties and responsibilities
hereunder, Consultant shall be paid annually $1,550.00
per licensed bed (the “Consulting fee”), payable in equal
installments on or before the 20th day of each month.”
Ms. Hess stated that Carington provided few, if any,
copies of these invoices. (Tr., Pt. II, pp. 108-09; State
Exhibit 57, p. 5)
Through discovery in this matter, invoices and
checks were received and are set forth in State Exhibit
58. The invoices were dated January 31, 2003,
February 29, 2003, March 31, 2003, April 30, 2003,
May 31, 2003, June 30, 2003, July 31, 2003, August 31,

14

The related party issues were based upon the fact that the 2004
tax returns of the owners of Carington also listed ownership of
Strategic Consulting, which was one of the entities that Carington
entered into contract with for consulting services in cost account
6210. This issue was later dropped by the Department after
receiving documentation during the discovery phase of this case.
(Tr., Pt. II, pp. 106-07)

App. 157
2003, September 30, 2003, October 31, 2003, November
30, 2003, and December 31, 2003. The checks, in the
amount of $26,738, were dated September 22, 2003,
October 24, 2003, November 24, 2003, December 16,
2003, January 22, 2004, February 24, 2004, March 18,
2004, May 20, 2004, June 19, 2004, July 23, 2004,
March 28, 2005 and April 26, 2005. (State Exhibit 58)
Ms. Hess testified that all of these transactions,
except the two checks issued in 2005, would have been
allowable in the cost report. She stated that funds must
be expended within one year of the end of the cost
reporting period. Therefore, the checks issued on
March 28, 2005 and April 26, 2005 would be
disallowed. (Tr., Pt. II, pp. 110-11, 116-17)
There was also an Attachment to this contract for
Enhanced Services for the period of January 1, 2003 to
December 31, 2003. Under this contract, Strategic
Nursing Systems charged Carington Park $10,024 per
licensed bed. Since there were 207 beds, the amount of
the contract for enhanced services was $2,075,000. The
contract specifically stated that the “Invoicing will be
submitted on December 31, 2003.” (State Exhibit 57)
Therefore, on December 31, 2003, Strategic Nursing
Systems submitted an invoice for service provided for
the 2013 calendar year in the amount of $2,075,000.
The invoice stated “PAYMENT DUE UPON RECEIPT
OF INVOICE” Ms. Hess stated that this debt was a
short term liability. She said that in order to be an
allowable expense, Carington Park would have to pay
Strategic for the goods and services within a year of the
end of the cost reporting period, i.e. December 31, 2004.
The auditors did not receive a copy of this invoice

App. 158
during the audit. (Tr., Pt. II, pp. 118-20; State Exhibit
59, p. 4)
On December 31, 2003, Carington Park executed an
Installment Promissory Note with Strategic in the
amount of “$2,075,000, with interest from July 1, 2005
on the unpaid principal at the rate of 5.00% per
annum.” The promissory note further stated: “The
unpaid principal and accrued interest shall be payable
in monthly installments of $62,189.61, beginning on
August 01, 2005, and continuing until July 01, 2008,
(the “Due Date”), at which time the remaining unpaid
principal and interest shall be due in full.” A copy of
this promissory note was not produced during the
audit. (State Exhibit 60)
The promissory note itself states that payments are
to commence August 2005, which is more than 12
months after the close of the 2003 cost reporting period.
State Exhibit 61 contains copies of monthly checks in
the amount of $62,189.61 for payments on the
promissory note. The first check on payment of the loan
is dated July 26, 2005. It is noted that the promissory
note was to be paid in full by July 1, 2008, but checks
in the amount of $62,189.61 continued to be issued in
August, September, October and December 2008. None
of these checks in State Exhibit 61 were produced
during the audit. (Tr., Pt. II, p. 120)
Ms. Hess testified that if they had been produced,
the cost would have been disallowed based upon 42CFR
413.100 and Provider Reimbursement Manual section
2305. Ms. Hess further explained that the checks which
were written in 2005 would be allowed on the 2005 cost
report and those written in 2006 would be allowed in

App. 159
the 2006 cost report and similarly for 2007 and 2008.15
(Tr., Pt. II, pp. 121, 128-34)
Ms. Hess was asked if it would have made a
difference if Carington had received a loan from a bank
for $2,075,000 and then given that money to Strategic.
She stated that since the vendor, Strategic, actually
received funds to pay for the goods and services, that
cost would have been allowed in the 2003 cost report.
By providing Strategic a promissory note in lieu of
money, however, Strategic did not receive any funds or
payment for the goods and service until actual
payments commenced in 2005. Ms. Hess stated that
the difference is the actual expenditure of funds. (Tr.,
Pt. II, pp. 135-36)
Ms. Hess stated that by placing the costs for
Enhanced Services in cost account 6210, Carington
Park classified these costs as short term. Long term
liabilities are reported on the balance sheets and
interest associated with long-term liability is usually in
the capital component. Ms. Hess stated that the
current portion of a long-term liability is “technically
considered a short term liability as well and it’s due
within 12 months of that date and time.” The long term
portion is greater than 12 months. (Tr., Pt. II, pp. 15152)
The costs in cost account 7215 involve contracts
with Provider’s Choice Administrative Services. For
purposes of illustration, during the hearing, the
Department used the example of one of the Carington
15

This is supposing that Ohio had the same reimbursement
system. The system, however, was changed in FY2006.

App. 160
Park facilities. In the 2003 cost report, Carington Park
reported $694,177. During the audit, the auditors only
received a few invoices. The auditors disallowed
$625,000 based upon insufficient documentation and
related parties transactions. (Tr., Pt. II, pp. 137; State
Exhibit 54)
Carington Park entered into an agreement for
indirect care consultant services with Providers Choice.
Carington Park agreed to pay Provider’s Choice $550
per licensed bed, payable 30 days from the date of the
invoice. Since there were 207 licensed beds, the
monthly charge was $9,488. State Exhibit 64 includes
the invoices, starting on January 31, 2003 through
December 31, 2003, with the corresponding checks to
pay the invoices. The auditors did not receive any of
these documents during the audit. (Tr., Pt. II, pp. 13941; State Exhibit 63)
As with Strategic, Carington Park entered into an
Additional Services (“Enhanced Services”) agreement
in which Providers Choice charged $2,730 per licensed
bed. As with Strategic, the contract specifically stated
that invoicing will be submitted on December 31, 2003.
(State Exhibit 63, pp. 6-7)
On December 31, 2003, Carington Park executed an
Installment Promissory Note with Providers Choice in
the amount of “ $565,000, with interest from February
1, 2005 on the unpaid principal at the rate of 5.00% per
annum.” The promissory note further stated: “The
unpaid principal and accrued interest shall be payable
in monthly installments of $24,787.34, beginning on
February 1, 2005, and continuing until January 1,
2007, (the “Due Date”), at which time the remaining

App. 161
unpaid principal and interest shall be due in full.” A
copy of this promissory note was not produced during
the audit. (Tr., Pt. II, pp. 142-44; State Exhibit 65)
The promissory note itself states that payments are
to commence February 2005, which is more than 12
months after the close of the 2003 cost reporting period.
State Exhibit 66 contains copies of monthly checks in
the amount of $24,787.34 for payments on the
promissory note. The first check on payment of the loan
is dated March 29, 2005 and continued through
December 18, 2006. None of these checks in State
Exhibit 66 were produced during the audit. (Tr., Pt. II,
p. 145)
Although ODM counsel just went through the
promissory note payment and time of payments
analysis for Carington Park, Ms. Hess testified that
there was a same scenario with the other facilities. She
stated that the auditors received approximately the
same amount of documentation for the other facilities
as for Carington Park. Therefore, at the time of the
audit, the costs were disallowed for lack of
documentation and what the auditors thought was a
related party issue. After reviewing the documentation
received during discovery in this matter, however, the
liquidation of liabilities issues became the basis for
disallowance. Ms. Hess testified that if the contracts,
invoices, promissory notes and checks had been
produced during the audit, the cost would have been
disallowed based upon 42CFR 413.100 and Provider
Reimbursement Manual section 2305. Moreover, she
testified that the same analysis would apply to all the

App. 162
other Carington Health Systems facilities at issue in
this case. (Tr., Pt. II, pp. 144-45)
In August 2004, prior to making any payments on
these promissory notes, Carington Health Systems
purchased Strategic for $4.6 million. Therefore, CHS
“owed the money to themselves. Strategic has a
receivable of $12 million. And when it was acquired, it
became part of the combination, and they eliminated.”
(Tr., Pt. II, p. 894)
Respondents presented the testimony of John
Fleischer and John Hapchuk to address the issue of
liquidation of liabilities.
John Fleischer has been a certified public
accountant since 1982. His firm, Howard, Wershbale &
Co., does a lot of work for nursing homes. Providers
Choice, which is currently one of the clients of Mr.
Fleischer’s firm,16 is one of the companies that received
promissory notes that are at issue in this case. (Tr., Pt.
II, pp. 226-27)
Mr. Fleischer also does consulting to the long-term
care industry and has been involved with a “couple
thousand” Medicaid audits and audit settlements. He
acknowledged that he does not perform the cost reports
for nursing home facilities, but reviews them for other
members of his firm. He said, however, he did prepare
them about 20 years ago. He has also served as

16

Mr. Cummins, the designated representative for Respondents in
this matter, and a CPA, merged with Mr. Fleisher’s firm in
January 2011. (Tr., Pt. II, p. 225)

App. 163
chairman of the Ohio Health Care Association’s17
payment committee. (Tr., Pt. II, pp. 218-19, 228)
Prior to presenting his testimony in this matter, Mr.
Fleischer did not review any of the exhibits in this case.
He had not seen any of the contracts between
Carington Park and Strategic. He did, however, look at
some of Mr. Cummins’ work papers. (Tr., Pt. II, pp.
228-30)
Mr. Fleischer has seen many instances in which
providers report costs which have been paid by a
negotiable instrument, including in the 1980’s when
providers got “lines of credit that they couldn’t pay and
then would refinance those into long-term debt.” He
explained that on the cost report there are two lines of
interest – the working capital interest and the longterm capital asset interest. Generally, the working
capital interest resulted from facilities being unable to
pay their vendors and refinance or convert into longterm debt or note with a bank or sometimes the
vendors themselves. Mr. Fleischer stated that the
entire expense would be recorded on the cost report
since it was incurred in that year and it was liquidated
by a long-term note. He admitted that this was not a
common practice and, in his experience has occurred
less than six times over the course of 20 years. He
further clarified that if he were looking only at such
transactions with vendors, it would be even more
limited. (Tr., Pt. II, pp. 221-24)

17

Ohio Health Care Association is the trade association which
represents nursing homes and assisted living facilities. (Tr., Pt. II,
pp. 227-228)

App. 164
When asked whether there was a specific rule in the
CFR which addresses costs not paid in the year they
were incurred, Mr. Fleischer stated there was a rule
regarding liquidation of liabilities. When asked if he
had an understanding of the liquidation of liabilities
rule, he responded that he had “looked at it a little bit.”
He said he has never seen the rule applied in the
manner the Department has applied it in this case.
Moreover, he was uncertain whether the rule was
applicable in Medicaid. (Tr., Pt. II, pp. 221, 232)
He stated that cost reporting is to be on the accrual
basis of accounting and, in accordance with generally
accepted accounting principles, when costs are reported
in the year that they incur. He acknowledges that 42
CFR 413.100 is a rule dealing with “special treatment
of certain accrued costs.” Mr. Fleischer acknowledged
that under this rule, in the case of accrued costs for
which a provider has not actually expended funds
during the current cost reporting period, such costs are
not recognized unless the related liabilities are
liquidated timely. He defined liquidation of liability as
a payment of cash, transfer of other assets or a
presentation of a long-term debt instrument, such as a
promissory note. (Tr., Pt. II, pp. 232-33, 237-39)
Mr. Fleischer also acknowledged that there is a
liquidation of liabilities rule in the Provider
Reimbursement Manual (PRM). Although the PRM
rule is similar to the 42 CFR 413.100, the PRM is more
explicit, requiring that liquidation “must be made by
check or other negotiable instrument, cash or legal
transfer of assets such as stocks, bond, real property,
etc. Where liquidation is made by check or other

App. 165
negotiable instrument, these forms of payment must be
redeemed through an actual transfer of the provider’s
assets within the time limits specified in this section.”
(PRM 2305)
Mr. Fleischer stated that if a facility takes “an
ordinary expense and makes it part of a long-term
liability, . . . the liability has been liquidated within one
year.” He admitted, however, that if an invoice is due
immediately, it is a short-term liability. The invoices
for Strategic and Providers Choice state “Payment due
upon receipt of invoice.” (Tr., Pt. II, pp. 241-42, 258,
278)
Mr. Fleischer was given a scenario of Carington
Park, getting a promissory note from the bank, taking
the cash it got from the bank and giving the cash to
Strategic. Mr. Fleischer agreed that in this scenario
there was a transfer of funds. In the herein matter,
however, Strategic did not get any money in their
account as a result of the promissory note. Strategic
took the note in lieu of cash. The first time Strategic
got any money under this contract was July 2005. (Tr.,
Pt. II, pp. 295, 302-06)
Mr. Fleischer acknowledged that a promissory note
does not make any actual transfer of provider assets. A
check, however, is a transfer of funds. The first check
issued to pay the promissory note was dated July 26,
2005. He agreed that the promissory note for
$2,075,000 did not transfer any assets from Carington
to Strategic. Strategic took the note in lieu of cash. The
promissory note did, however, liquidate the liability for
purposes of GAAP and reporting financial statements.
A cost report, however, is not a report of the financial

App. 166
status of a provider entity. (Tr., Pt. II, pp. 259-61, 281;
State Exhibit 61, p. 1)
PRM 2305 states that where liability is not
liquidated with the 1-year time limit, “the cost incurred
for the related goods and services is not allowable in
the cost reporting period when the liability is incurred,
but is allowable in the cost reporting period when the
liquidation of the liability occurs.” (emphasis added)
Mr. Fleischer stated that under the rule, the facility
would get its costs back in a later year. Therefore,
under this rule, Carington Park would report the
payments made on the promissory notes during the
year that the payments were made. So for example, the
first payment on the promissory note to Strategic
which was made on July 26, 2005, in the amount of
$62,189.61, would have been reported on the 2005 cost
report. (Tr., Pt. II, pp. 248-49)
However, there was a change in the reimbursement
system in 2004, and 2005 cost reports were not used to
establish rates. Mr. Fleischer said “2003 was a year
upon which rates were going to be established and we
did not know that 2004 was not going to be used.”
Therefore, looking in hindsight, Mr. Fleischer stated
that this provision of PRM should not apply because
there would be “no way to get that reimbursement back
at a later time.” (Tr., Pt. II, pp. 245, 300-01)
He admitted that had the reimbursement system
not changed, the cost reports for 2004 would set the
rate for FY2006, and 2005 cost report for FY2007, etc.
Therefore, the problem is that there was a change in
the law on how the rate was set. “They changed the
reimbursement system legislatively where they weren’t

App. 167
going to use the cost report anymore and that’s part of
why these rules don’t make sense. These rules are
designed for an ongoing reimbursement system.” He
admitted that the rules made sense prior to the change
in legislation. (Tr., Pt. II, pp. 250-51)
Respondents also presented the testimony of John
Hapchuk, who worked for the U. S. Office of the
Inspector General (OIG) in the Office of Audit Services
for 40 years. He held various positions of increasing
responsibility, serving as a senior auditor and audit
manager over the Medicare program. He also served as
a Medicaid Audit Manager. Since his retirement in
2010, he has served as an independent consultant. He
stated that during his career with the OIG, he
answered questions about “the application of Medicare
rules and the reimbursement manual.” He admitted
that he “can speak more from Medicare than
Medicaid.” (Tr., Pt. II, pp. 461-76, 488-89, 552;
Respondent Exhibit NNNN)
Mr. Hapchuk was hired by Respondent to Look at
the liquidation of liabilities rule and give his opinion as
to its applicability to the consulting costs for Strategic
and Providers. He stated that in his years of auditing,
he has applied 42CFR413 .100 and PRM 2305 “to cost
report audits where the costs are used as a basis to
reimburse the provider.” He further stated that he does
not recall making a finding based upon those rules.
(Tr., Pt. II, pp. 602)
He testified that the PRM “certainly applies to
Medicare. Because Ohio has deemed it in part of the
hierarchy of criteria, it applies to Medicaid too.”
Furthermore, he acknowledged that there is no section

App. 168
in the PRM which applies only to Medicare or only to
Medicaid and there is no wording in the PRM which
says that one rule applies to Medicare and one rule
applies to Medicaid. (Tr., Pt. II, pp. 484-86)
Mr. Hapchuk admitted he was not familiar with the
rules applicable to Ohio’s Medicaid cost reports and
does not know what is allowable in Ohio cost reports.
Moreover, he does not know any provision of the Ohio
Revised Code or Ohio Administrative Code that applies
to the reporting of Providers Choice and Strategic costs
in the cost reports. (Tr., Pt. II, pp. 558, 560)
As a preliminary matter, Mr. Hapchuk stated that
Medicare rules, including 42 CFR 413.100, do not apply
in a prospective payment system (PPS).18 In an attempt
to understand the type of reimbursement system used
in Ohio, prior to the hearing, he printed off a one-page
document from the internet which listed the various
reimbursement systems used in Ohio, using words such
as retrospective, semi-prospective, prospective and
pricing. There were no definitions for any of these
terms and he acknowledged he could have a different
definition than that used by Ohio. (Tr., Pt. II, pp. 520,
548-550, 561; State Exhibit 274)
He stated that a Medicare prospective payment
system is one in which “payment is not dependent upon
what costs they incur, it’s dependent upon what type of

18

Throughout the hearing different witnesses used the terms
“prospective” and “retrospective”. At times the witness clarified
how he/she used the term. An explanation of how Ohio used the
various terms is set forth at pages 15-16 of the Report and
Recommendation.

App. 169
services they perform.” Mr. Hapchuk gave the following
example to explain the difference between retrospective
and prospective:
Normally cost reimbursement is retrospective,
when I said you take the costs, put them on a
piece of paper, give it to the government, and
then they do something and they determine
liability, pay you. Prospective to me is the PPS
system whereby . . . the government says I’m
going to give you a thousand dollars for each
appendectomy .... [TJhe amount of costs
incurred by the provider is immaterial because
I’m going to pay you on prices.
(Tr., Pt. II, pp. 540, 631)
Since in Ohio, in 2003, the rates were based upon
the reported costs incurred, not the type of service
performed, Ohio was not under a prospective payment
system such as that described by Mr. Hapchuk and
used by Medicare. He further explained that in a
retrospective system, cost reports are utilized and the
provider is required to report reasonable costs. He
stated that this system was in place in Ohio in 2003
and that under Medicaid, “states have an option of how
they want to reimburse. It appears Ohio had
retrospective. They were reimbursing 100 percent of
reasonable costs.” (Tr., Pt. II, pp. 525-28)
Mr. Hapchuk stated that under the system Ohio
had in 2003, the providers were to report their
reasonable costs. He further testified that in reporting
these costs, 42 CFR 413.100 and PRM 2305 would be
applicable. In his auditing experience, he has applied

App. 170
42 CFR 413.100 and PRM 2305 to cost report audits
where the reported costs are used as a basis to
reimburse the provider. (Tr., Pt. II, pp. 531,533, 535-36,
604)
Mr. Hapchuk, however, stated that reporting costs
“is one thing and what is going to be reimbursed is
another. One is putting a number on a document. The
other one is how much cash you are going to actually
get.” When asked to separate what gets reported and
what gets reimbursed, Mr. Hapchuk stated it was
“very, very, very difficult to separate them” in this case.
(Tr., Pt. II, pp. 534, 535)
He was asked to look at the invoice from Strategic
to Carington Park for the Enhanced Services. Mr.
Hapchuk stated he had not seen this document or any
of the other invoices for these services. He had,
however, looked at the promissory notes. Mr. Hapchuk
was asked whether the invoice, which stated “Payment
due upon receipt of invoice”, was a short-term liability.
Mr. Hapchuk responded, “I don’t think I’m prepared to
stipulate to that.” He went on to explain:
Well, when you talk about short-term and longterm liabilities, and everybody keeps talking
about one year, and I agree there’s a one-year
rule, but in my mind, who determines if
something is a liability? And I really don’t know,
to tell you the honest truth. I don’t know if this
was booked by Carington as a short-term
liability; if it was treated as a payable, which
meant it never hit the books. What I do know is
that eventually both Carington and the other
ones thought of it as a long-term promissory

App. 171
note....I’m not sure I understand the rules for it,
frankly.
(Tr., Pt. II, pp. 574-75; State Exhibit 59)
Mr. Hapchuk was presented with a scenario in
which he might be serving as an auditor and was
provided with 1) a contract indicating services rendered
between January 1, 2003 and December 31, 2003 and
2) a corresponding invoice for these services, dated
December 31, 2003, and stating the invoice is payable
upon receipt. He was asked whether the invoice was a
short-term liability. He responded that “the reason I
don’t want to do it is I understand what these data are
going to be used for.” He further stated that “Carington
didn’t cause the State to convert over to a PPS
system....My whole thing on this is nobody has
questioned that these consulting services were true,
valid, related to patient care. ... And my feeling is,
okay, so you know, if they had kept the cost
reimbursement system, I’d probably have a different
idea.” Mr. Hapchuk then stated that his “judgment is,
hey, I don’t see any harm here, quite frankly. I don’t.”
(Tr., Pt. II, pp. 579-80)
Then ODM’s counsel asked him to look at the
Strategic and Providers Choice contracts for services
and whether they are reportable in a calendar year
2003 cost report. Mr. Hapchuk replied that he was
unable to do so for a Medicaid cost report. (Tr., Pt. II,
pp. 590)
He later acknowledged that the invoice for
Enhanced Services was due upon receipt, which is less
than one year, and the definition of a short-term

App. 172
liability is a liability that is due in less than one year.
He further admitted that according to 42 CFR 413 .100,
a short-term liability should be liquidated within a
year. He was then asked whether the promissory note,
which is a negotiable instrument, is liquidating the
short-term liability of the invoice. He agreed that the
promissory note was liquidating something, that it was
liquidating a liability. But he could not say whether the
liability was short-term or long-term. (Tr., Pt. II, pp.
593-96)
It is noted that in his written expert report, Mr.
Hapchuk wrote: “a short-term liability such as the
money due Strategic and Providers was paid in the
form of the delivery of 3 year promissory notes....” He
also wrote: “Payment of the short-term liabilities due
Strategic and Providers Choice was completed when
the promissory notes were signed and delivered to
those companies.” Mr. Hapchuk went on to say that
“Since the execution and delivery occurred before
December 2004 the short-term liability was timely
liquidated.” (Respondent Exhibit NNNN, pp. 4, 6, 7)
He opined that, based upon the facts presented to
him in this case, the Liquidation of Liabilities Rules
does not apply. He stated, however, if Ohio’s
reimbursement system had not changed, he would have
a different opinion. “Under the old system, the State
would pay for something, a cost for 2003 when it was
actually liquidated. They would have paid for it
eventually.” (Tr., Pt. II, pp. 503, 514-15, 517)

App. 173
Reds Tickets
Terrace View Gardens, Franklin Ridge, East
Galbraith Health Care Center, Glen Meadows and
Wellington Manor reported on their 2003 cost reports
the costs associated with the purchase of 2004
Cincinnati Reds season tickets. State Exhibit 41 is an
invoice for season tickets Cincinnati Reds games to Joe
Tucker, 2470-1/2 Princeton Pike Rd., Hamilton, Ohio.
The tickets were for the 2004 baseball season. There
was no evidence as to who Joe Tucker is and/or what,
if any, affiliation he has with CHS. These costs were
reported in the “employee benefits” accounts.19 (Tr., Pt.
II, p. 146; State Exhibit 268, p. 3; State Exhibit 41)
PRM, CMS Pub. 15-1, section 2105.8 states: “Costs
incurred by providers for entertainment, including
tickets to sporting or other events, ... are not
allowable.” Mr. Cummins stated: “The Reds tickets
were classified as employee benefits. They were used
for the staff of the Cincinnati-based facilities.
Carington Health System had a policy that was in
writing, and had been established as to what it was
going to be used for.” No such policy was identified
during the hearing. In Respondent Exhibit VV,
however, an undated single page document was found,
titled “Cincinnati Reds Season Ticket Policy.” There
was no indication where this document came from;
there was no number on the page ( other than the
exhibit page number) which might indicate that that it
came from an employee manual or some other type of

19

Cost accounts 6530, 7070 and 7520 are employee benefit
accounts. (Tr., Pt. II, p. 146)

App. 174
employee benefit package material. There were no
initials indicating that the auditors saw the document
during the audit. Therefore, there is no way of knowing
when this document was created. When asked at the
hearing if there was a continuous string of payments
over the years for Reds tickets for employee benefits,
Mr. Cummins responded, “I would imagine so.” (Tr., Pt.
II, pp. 777-78, 780; Respondent Exhibit VV, p. 2)
Ms. Hess stated in the few instances where this has
occurred in Ohio, the auditors sought counsel from the
State on how to handle a cost of sporting tickets under
employee benefits. She said since the rule specifies that
the benefit has to be nondiscriminatory, i.e. available
to all, Ohio has instructed the auditors that the cost is
allowable if documentation is provided as to which
employees attended the game. Ms. Hess acknowledged
that there is no specific rule that requires the names of
employees. She said that although the regulations deny
tickets altogether, Ohio gives a little leeway and will
allow it as an employee benefit if there is
documentation to show that the tickets are available to
all employees, not just the owners and their friends.
Although Mr. Cummins said the tickets were not used
for the benefit of the owners, no documentation or other
evidence to support this statement was produced. (Tr.,
Pt. II, pp. 147-49, 164, 782)
Furthermore, Ms. Hess also testified that employee
benefits which are included in a cost report must be
conferred during the cost-reporting period. Any benefit
purchased or paid for in 2003 and included in the 2003
cost report must be used by the employee during that
year. The tickets at issue were purchased in 2003 and

App. 175
used during 2004. Therefore, if, in fact, the tickets were
an employee benefit, they would only be an allowable
expense if they were used in 2003. (Tr., Pt. II, pp. Hess,
p. 148)
Mr. Cummins was asked if this was a valid basis for
disallowance of the cost on the cost report. He
responded that if something is reported in the wrong
period, if it was reported in 2003 and should have been
reported in 2004, the way that matter was resolved was
to put the cost “in the more appropriate period.” He
stated, however, that in this case, because of the
legislative change, this cost could not have been
“pushed forward.” (Tr., Pt. II, pp. 779-80)
Analysis
Audit/Agreed-Upon Procedures
Nursing home Medicaid providers are required to
file annual cost reports with the Department. These
cost reports, which “capture the costs and expenses
incurred [during the year] for providing services to
residents within the facility,” are used to determine
reimbursement for nursing home Medicaid providers.
Nursing homes are required to maintain records to
support the costs included in the cost reports, including
financial, medical and statistical. “In the Medicaid
audit setting, a provider must provide supporting
documentation that demonstrates that the reported
cost was actually incurred, that it is reasonable,
allowable and related to patient care.” Meadowwood
Nursing Facility v. Ohio Dept. of Job and Family Servs,
(10th Dist. 2005), 2005-Ohio-1263 at ¶19. (Tr., Pt. I, p.
130)

App. 176
Pursuant to R.C. 5111.27, the Department is
authorized to audit cost reports. These audits may be
conducted by auditors under contract or ones employed
by the Department. If the Department elects to use
contract auditors, the contracts shall be entered into by
bidding. With respect to the audits in this matter, the
Department issued a Request for Proposal and Clifton
Gunderson was one of the vendors selected to perform
the cost report audits.
Pursuant to Ohio Admin. Code 5101 :3-1-27(B)(l), an
audit is
A formal post payment examination made in
accordance with generally accepted accounting
standards, of a Medicaid provider’s records and
documentation to determine program compliance,
the extent and validity of services paid for under
the Medicaid program and to identify any
inappropriate payments.
The Department has conducted the audits of cost
reports pursuant to Agreed-Upon Procedures since
1999. Respondent, however, contends that AgreedUpon Procedures used by Clifton Gunderson do not
constitute an audit. In support of its position,
Respondents point to the testimony of Emily Hess who
stated that some procedures for performing an audit
are different than those under Agreed-Upon
Procedures.
Ms. Hess explained that the use of the term “audit”
has different meanings. She stated that under the
auditing standards, “which is where the financial-based
audits come from, there are specific standards that

App. 177
have to be applied to those auditing standards.” She
stated that many judgment calls need to be made, such
as control analysis or risk analysis. The primary
purpose for financial-based audits is to enable people to
look at the financial statements to make a decision on,
for example, stock exchange or banks making loans.
There are many purposes for an audit of a financial
statement. (Tr., Pt. I, p. 523)
Under the auditing standards for governmental
entities or entities receiving government funds such as
Medicaid, however, there are attest standards. These
standards are at a different level than financial based
audits because the purpose of the audit of a
governmental entity/entity receiving government funds
is different. In the audits at issue in this case, the
auditors were looking at specific information for a
purpose – the impact of the cost report on the rate.
Therefore, in these audits the purpose is to ensure that
the costs included in a cost report are correct,
documented, reasonable and allowable. In a cost report,
the auditors are not looking at internal controls,
inventory, accounts payable or cash status. (Tr., Pt. I,
pp. 523-24)
The Independent Accountant’s Report on Applying
Agreed-Upon Procedures, “has specific language that is
required under AICPA standards for attestation
statement engagements compared to the auditing
standards.” For example, under the attestation
standards, no representation can be made as to the
sufficiency of the procedures because Clifton
Gunderson did not write them, and, therefore, Clifton
Gunderson cannot “take ownership of them as a CPA

App. 178
firm.” The report states: “This agreed-upon procedures
engagement was performed in accordance with
attestation standards established by the American
Institute of Certified Public Accountants.” (Tr., Pt. I,
pp. 523-25; Respondent Exhibit RR, p. 1176)
In advancing its argument that an audit was not
performed in this case, Respondent cites two cases,
Medcorp, Inc. v. Ohio Dept. of Job and Family Services
(10th Dist., 2008) 2008-Ohio-464 and HCMC, Inc. v.
Ohio Dept. of Job and Family Services, (10th Dist.
2008)179 Ohio App.3d 707, which found proper audits
had not been performed. Neither of these cases,
however, concern cost report audits and are, therefore,
not relevant to the herein matter. The issue in Medcorp
concerned the use of statistical sampling methodology
used by the Department to extrapolate the results of a
small sample of claims to a larger sample. The Court in
Medcorp found that the sampling methodology used by
the Department and its application to the audit of
Medicaid claims for medical transport was invalid.
There is no issue of sampling in the herein case. HCMC
concerned Medicaid payments on a fee-basis. HCMC,
an oxygen supply company, provided services to
Medicaid and non-Medicaid patients, billing the
patients in different ways and at different rates. Again,
the issues in HCMC are completely different than those
in the herein case.
The issue of cost report audits, however, was
specifically addressed by the Tenth District in St.
Francis Home, Inc. v. Ohio Dept. of Job and Family
Services (10th Dist. 2006) 2006-Ohio-6147. The Court
stated that “R.C. 5111.27(B) provides that the scope of

App. 179
an audit conducted is within the discretion of ODJFS.”
Id. at ¶25 Furthermore, the factors set forth in R.C.
5111.27(B) “embody the standards that the audits be
conducted in a manner to produce an accurate result
and ODJFS utilize auditing procedures that are
objectively verifiable.” Id. at ¶21. Moreover, the Court
held that under R.C. 5111.27(B), the Department shall
consider accepted auditing standards and even if the
auditors did not comply with generally accepted
auditing standards the audit is not rendered invalid.
Id. at ¶ 23
The audit manual and program for audits of cost
reports is to include the following:
(1)

Comply with the applicable rules
prescribed pursuant to Titles XVIII and
XIX;

(2)

Consider generally accepted auditing
standards prescribed by the American
institute of certified public accountants;

(3)

Include a written summary as to whether
the costs included in the report examined
during the audit are allowable and are
presented fairly in accordance with
generally accepted accounting principle
and department rules, and whether, in all
material respects, allowable costs are
documented, reasonable, and related to
patient care;

(4)

Are conducted by accounting firms or
auditors who, during the period of the
auditors’ professional engagement or

App. 180
employment and during the period
covered by the cost reports, do not have
nor are committed to acquire any direct or
indirect financial interest in the
ownership, financing, or operation of a
nursing facility or intermediate care
facility for the mentally retarded in this
state;
(5)

Are conducted by accounting firms or
auditors who, as a condition of the
contract or employment, shall not audit
any facility that has been a client of the
firm or auditor;

(6)

Are conducted by auditors who are
otherwise independent as determined by
the standards of independence
established by the American institute of
certified public accountants;

(7)

Are completed within the time period
specified by the department;

(8)

Provide to the provider complete written
interpretations that explain in detail the
application of all relevant contract
provisions, regulations, auditing
standards, rate formulae, and department
policies, with explanations and examples,
that are sufficient to permit the provider
to calculate with reasonable certainty

App. 181
those costs that are allowable and the
rate to which the provider’s facility is
entitled.
R.C. 5111.27(B)
As the court in St. Francis stated, “These
requirements embody the standards that the audits be
conducted in a manner to produce an accurate result
and ODJFS utilize auditing procedures that are
objectively verifiable.” Therefore, if an audit is
conducted in such a manner as to produce an accurate
result and the procedures used are objectively
verifiable, a valid audit is performed. Agreed-Upon
Procedures, which the Department has utilized since
1999, set forth the scope and method to be utilized in
conducting the cost report audits. The auditors must
indicate the steps taken and provide work papers
documenting their work to verify their findings. Id. at
¶21.
Respondent argues that Clifton Gunderson did not
complete the Agreed-Upon Procedures and presents
several bases for its contention.
First, Respondent states that “the most
fundamental flaw in the procedures performed by
Clifton Gunderson is the obvious lack of independence
by the auditors.” (Post-hearing Brief of Appellant
(Phase I) at 9) In support of its argument that Clifton
Gunderson lacked independence, Respondent noted
that in its response to the RFP, Clifton Gunderson
included Mr. Wilkins, former chief of the Department’s
Bureau of Audit, as a reference. However, since Clifton
Gunderson had performed hundreds of cost report

App. 182
audits for the Department, Mr. Wilkins was familiar
with Clifton Gunderson’s work and would be an
appropriate reference.
The issue of independence is an important factor.
Therefore, R.C. 5111.27(B) specifically states that the
accounting firm performing the audit 1) shall not audit
any facility that has been a client of the firm or auditor
and 2) the firm not have direct or indirect financial
interest in a nursing facility. These factors concern
independence from the entity being audited, not from
the Department. Moreover, R.C. 5111.27 authorizes the
Department to use its own employees to perform cost
report audits. The employees are obviously not
independent from the Department.
Respondent also claims that Clifton Gunderson
could not be independent because in its response to the
RFP, Clifton Gunderson stated that it found a 5:1
return-on-investment ratio for prior audits. Therefore,
argues Respondent, “it is difficult to imagine how this
auditing firm will perform work truly independently
and not driven by the incentive to at least meet this
prior ration.” (Post-hearing Brief of Appellant (Phase I)
at 9-10) Since any disallowance that an auditing firm
finds in a cost report audit must be substantiated with
documentation, the nursing home is protected from any
unsupported finding.
Second, Respondent argues that Clifton Gunderson
departed from the Agreed-Upon Procedures outlined in
the RFP. After being awarded the contract and prior to
commencement of work, Clifton Gunderson requested
a slight modification to the cash disbursement testing.
This request was granted and approved by Mr. Wilkins

App. 183
prior to any work being performed under the contract.
Although Mr. Wilkins stated that he would have
documented that modification in an email or letter, no
such document was produced at the hearing. Ms. Hess
testified that Clifton Gunderson completed the AgreedUpon Procedures, which included the modification
requested before they commenced work. (Tr., Pt. I, pp.
185-87, 260-61, 497)
Third, Respondent argues that Clifton Gunderson
departed from the Agreed-Upon Procedures because it
did not obtain a signed representation letter from CHS.
The record is clear that Clifton Gunderson attempted
to obtain signatures from Wellington Manor, Terrace
View Gardens and Glen Meadows, but they refused to
provide signatures. (Tr., Pt. I, pp. 582-83, 679-80)
Mr. Cummins testified that the AICPA standards
regarding the performance of Agreed-Upon Procedures
“specifically state that if the accountant cannot obtain
a management representation letter from a responsible
party, they are required to withdraw, and there is no
exception. They are required to withdraw.” In this case,
the practitioner is Clifton Gunderson, the responsible
party is CHS and the client is the Department. (Tr., Pt.
I, pp. 561,585, 588)
AICPA AT section 201.39 states:
The responsible party’s refusal to provide written
representation determined by the practitioner to be
appropriate for the engagement constitutes a
limitation on the performance of the engagement. In
such circumstances, the practitioner should do one
of the following:

App. 184
a. Disclose in his or her report that inability to
obtain representation from the responsible
party.
b. Withdraw from the engagement.
c. Change the engagement to another form of
engagement.
Furthermore, AT section 601.13 states “If, in an
agreed-upon procedures engagement, the practitioner’s
client is not the responsible party, the practitioner is
not required to withdraw but should consider the
effects of the responsible party’s refusal on the
engagement and his or her report.” Therefore, Clifton
Gunderson was not required to withdraw from the
audit. Moreover, Clifton Gunderson notified their
client, the Department, that Respondents refused to
sign the representation letter. (State Exhibit 20, p. 3)
Fourth, CHS argues that Clifton Gunderson did not
complete the engagement. After the exit conference
between CHS and Clifton Gunderson, Clifton
Gunderson requested additional documentation, some
of which was subsequently provided. After reviewing
these documents, Clifton Gunderson incorporated the
relevant information into the audit results, revised the
disallowances, and submitted the Audit Input
Document, copy of the proposed cost adjustments and
papers, thus completing the audit. (Tr., Pt. I, pp. 311,
316)
Fifth, Respondent contends that the basis upon
which disallowances due to related party issues were
made were inadequate. These disallowances were also
based upon lack of documentation. Moreover, the issue

App. 185
of appropriateness of individual cost adjustments was
to be addressed in Phase II of the hearing. (Tr., Pt. I,
pp. 515-16)
Sixth, although Respondents acknowledge that
“lack of documentation is a valid criterion for
disallowing costs,” (Post-hearing Brief of Appellant
(Phase I) at 15) they argue that Clifton Gunderson was
at fault for failing to contact Bert Cummins about the
difficulties in obtaining documentation. The nursing
home facility is required to maintain adequate
documentation to substantiate its costs. It is incumbent
upon the facility being audited to produce the
documentation to support the costs included in cost
reports. Respondents were given months to collect the
information requested by Clifton Gunderson. They
failed to do so. They cannot now turn around and say
the audit is invalid because the auditor did not have
sufficient information to complete the audit.
Seventh, Respondents contend that all proposed
adjustments were not discussed with Respondent at
the exit conference with Clifton Gunderson. CHS bases
its argument upon the fact that the second page of the
form documenting the exit interview was not filled in.
This second page has three sections: “Proposed
Adjustment Areas”, “Document agreement and/or
disagreement with the proposed adjustments and any
pertinent comments below”, and “Were work papers
given to the provider? If yes, please indicate which
work papers.” However, David McClellan, CHS’
Corporate Controller, signed the first page of the form,
which states: “All of the proposed adjustments known
at this time were discussed with the Provider and a

App. 186
copy of the proposed adjustments was given to the
Provider.” Additionally, CHS was given a list of
outstanding documents and records requested but not
received. (State Exhibit 9, Terrace View, p. 371)
Finally, Respondent contends that the audit
conducted by Clifton Gunderson was inconsistent with
others it had conducted and with an audit conducted by
another firm, Tichenor & Associates. Respondent
argues that, since Clifton Gunderson always performed
its engagements in the same manner, the results
regarding related party transactions should have been
the same. In the audits at issue, however, one of the
issues with the related party transactions was a lack of
documentation. It is unknown what type of
documentation the auditors in the previous audits
received from CHS. Respondent also argues that
Tichenor conducted an audit of a three-month period
which was also included in the period Clifton
Gunderson’s audit and “made no adjustments for any
home office costs associated with Strategic or
Provider’s Choice.” (Tr., Pt. I, p. 319; Post-hearing Brief
of Appellant (Phase I) at 18)
As a preliminary matter, it is unknown what
documents CHS produced to Tichenor. Furthermore, as
the Tenth District responded to a similar argument
raised in Meadowwood , 2005-Ohio-1263, “the other
years are irrelevant here. ODJFS could have
mistakenly allowed the expense.” Id. at ¶29, In other
words, prior audits do not bind subsequent audits. As
a final matter, it is interesting that CHS is asserting
that Tichenor performed an audit, since the Agreed-

App. 187
Upon Procedures used by Clifton Gunderson were the
same as those used by Tichenor. (Tr., Pt. I, pp. 673-74)
Respondent also argues that it did not receive an
exit conference. However, the exit conference was held
between Respondents and Clifton Gunderson’s auditors
on June 16, 2003. What Respondents did not get was a
final fiscal audit conference, which may be held after a
proposed adjudication order is issued. There is no
requirement for the Department to hold these
conferences.
In conclusion, the Agreed-Upon Procedures
performed by Clifton Gunderson in the cost reports at
issue herein constitute an audit for purposes of R.C.
5111.27.
Direct Care and Indirect Care Consulting Costs
The parties entered into contracts with Providers
and/or Strategic for services for 2003. The Stipulation
of the Parties ¶¶ 6 and 7, attached hereto as
Attachment C, set forth the relevant contracts. These
contracts consisted of two parts: those outlined in the
main body of the contract, (“Annual Services”) and an
attachment to the contract (“Enhanced Services”).
In analyzing whether the costs, which were not paid
within one year of the end of the cost reporting period,
are reasonable and allowable, it is necessary to look at
the provisions of the CFR and PRM, specifically 42
CFR 413.100 and PRM 2305 (collectively, “Liquidation
of Liabilities rule”).
The Federal Register, which provides some
guidance in interpreting the CFR, states that 42 CFR

App. 188
413 codifies the long-standing policy regarding “the
timing of payment for accrued costs by requiring timely
liquidation of liabilities [to receive payments]. This
policy is intended to prevent the outlay of federal trust
funds before they are needed to pay the costs of
providers’ actual expenditures.”20 (60 Fed. Reg. 33129
(June 27, 1995))
Moreover, “[t]he purpose of the regulation [42 CFR
413] is to assure that Medicare recognizes only costs
associated with a liability that is timely liquidated
through an actual expenditure of funds. GAAP does not
offer this assurance for Medicare.” In another
comment, it states that “in the absence of timely
liquidation of the liability, the cost can be claimed in
the cost reporting period when the liquidation occurs,
that is, when actual expenditure takes place, as
currently described in section 2305 of the Provider
Reimbursement Manual.” (60 Fed. Reg. 33131 (June
27, 1995); State Exhibit 272,p. 6)
Respondents, however, contend that although the
CFR and PRM are part of the hierarchy of rules which
apply in Ohio in determining appropriate costs in cost
reports, these particular provisions of the CFR and
PRM do not apply to Medicaid cost reports.
Furthermore, Respondents argue that the liability
created by the contracts for Enhanced Services and the
subsequent invoices for such services are not a short-

20

It is noted that this comment addresses Medicare. Ohio, through
its hierarchy of authorities, has adopted the CFR and PRM for its
Medicaid program.

App. 189
term liability, and, therefore, 42 CFR 413.100 and PRM
2305 do not apply.
First of all, Respondents argue that 42 CFR 413.100
does not apply in a prospective payment system. The
Background section of the Federal Register
commenting upon 42 CFR 413.100, states that this
section does not apply to Medicare providers under a
prospective payment system. 60 Fed. Reg. 33126 (June
27, 1995) Mr. Hapchuk described the Medicare
prospective payment system as one in which “payment
is not dependent upon what costs they incur, it’s
dependent upon what type of services they perform.”
Furthermore, Mr. Cummins stated that under a
prospective payment system, nursing homes are
reimbursed at a flat rate for each RUG (Resource
Utilization Group) category, regardless of the cost to
the facility. The flat rate is per service rendered
regardless of cost. (Tr., Pt. II, p. 879)
From fiscal year 1994 through fiscal year 2005, Ohio
was on a prospective cost-based system. In this system,
Ohio reimbursed nursing home facilities based upon
their actual reasonable costs, which were used to
establish the per diem rate for the next fiscal year. Mr.
Hapchuk acknowledged that Ohio’s system during this
period was not a prospective payment system as used
under Medicare. The providers in Ohio were
reimbursed based upon costs incurred rather than
service provided, thereby distinguishing Ohio’s
prospective cost-based system from the Medicare
prospective payment system. Accordingly, Respondents’
argument that 42 CFR 413.100 and PRM 2305 do not
apply to 2003 cost reports based upon the

App. 190
reimbursement system in effect at the time is not welltaken.
Respondents also argue that the Liquidation of
Liabilities rule, which addresses short-term liabilities,
does not apply to the Enhanced Services contracts
because the liability is not short-term.
42 CFR 413.100 addresses special treatment of
certain accrued costs. The rule states that “under the
accrual basis of accounting, revenue is reported in the
period in which it is earned and expenses are reported
in the period in which they are incurred.” However, for
“the accrual of costs for which a provider has not
actually expended funds during the current cost
reporting period,” the rule then sets forth requirements
for liquidation of liabilities. If these requirements are
not met, the cost is disallowed, generally in the year of
accrual, except as specified in another portion of the
rule which does not apply to this case.
One type of accrued cost addressed in 42 CFR
413.100 is a short-term liability. Specifically, “a shortterm liability, including the current portion of a longterm liability (for example, mortgage interest payments
due to be in the current year), must be liquidated
within 1 year after the end of the cost reporting period
in which the liability is incurred.” A short term liability
is one that is due and payable within one year of its
occurrence. (Tr., Pt. II, pp. 42, 113, 240; 42 CFR
413.100(c)(2)(i)(A))
Respondent contends that the invoices for the
Enhanced Services Contracts for services to be
provided in 2003 were not short-term liabilities. In

App. 191
accordance with the terms of the Enhanced Contracts,
on December 31, 2003, Strategic and Providers billed
the CHS facilities for the entire amount of the
Enhanced Services portion of the contract. The invoice
stated “payment due upon receipt of invoice.” That
same day, December 31, 2003, CHS facilities entered
into promissory notes with Strategic and Providers for
the full amount of these invoices. The promissory notes
stated that payments would not commence until mid2005.
The Department contends that the December 31,
2003 invoices for Enhanced Services, payable on
receipt, are short-term liabilities. Respondents argue
that the debt for the Enhanced Contract was a longterm debt and the promissory notes liquidated the
debt.
The witnesses disagreed on whether the debt was a
short-term and long-term liability. Mr. Cummins said
the Enhanced Services contracts were long-term. Ms.
Hess said they were a short-term liability. Mr.
Hapchuk was unable to state whether the Enhanced
Services invoices were long-term or short term
liabilities. At one point in his testimony, when asked if
an Enhanced Service contract was a short-term
liability, he did not want to answer that question
because he understood “what these data are going to be
used for” and then stated that CHS did not cause the
legislature to change the reimbursement system. He
did state that the promissory note was liquidating a
liability, but he could not say whether the liability was
short-term or long-term. Although he stated “who
determines when a liability is a liability?” he did

App. 192
acknowledge that the invoice was a liability. When
asked when the liability was due, he responded, “Half
of the train says due upon receipt, and I don’t know
eventually it came up it was a long-term promissory
note.” In his written expert report, however, Mr.
Hapchuk wrote: “a short-term liability such as the
money due Strategic and Providers was paid in the
form of the delivery of 3 year promissory notes....” He
also wrote: “Payment of the short-term liabilities due
Strategic and Providers Choice was completed when
the promissory notes were signed and delivered to
those companies.” Mr. Hapchuk went on to say that
“Since the execution and delivery occurred before
December 2004 the short-term liability was timely
liquidated.” (emphasis added) (Tr., Pt. II, pp. 575, 57778, 593-96, 913; Respondent Exhibit NNNN 4, 6, 7)
Mr. Fleischer stated that if an invoice is due
immediately, it is a short term liability. He was shown
a copy of an invoice dated December 31, 2003 from
Strategic to Carington Park for Enhanced Services.
This invoice stated “Payment Due Upon Receipt of
Invoice.” Mr. Fleischer testified that it was a shortterm liability. (Tr., Pt. II, pp. 242, 278; State Exhibit
59, p. 4)
Respondents, however, argued that the statement
on the invoices saying “due upon receipt” is irrelevant
and has no meaning. It is merely form over substance
and is a statement put on all of Strategic and Providers
Choice invoices. On the same date as the invoices, CHS
issued promissory notes for the entire amount of the
invoice. If the invoices were not due upon receipt,

App. 193
however, there would be no need to immediately issue
the promissory notes.
Accordingly, the December 31, 2003 invoices for
Enhanced Services are short-term debts. Having found
that the invoices for the Enhanced Services were shortterm liabilities, it is necessary to look at the provisions
of 42 CFR 143.100 and PRM 2305, which address the
liquidation of liabilities of short-term liabilities.
The CFR provision requires that a short-term
liability must be liquidated within one year after the
end of the cost reporting period in which the liability is
incurred. The CFR, however, does not define what the
term “liquidate” means. Therefore, according to the
hierarchy of authorities, it is necessary to look to the
PRM. The Provider Reimbursement Manual, CMS
HIM-15-1, section 2305 is consistent with the CFR, but
sets forth additional requirements regarding shortterm liabilities. In addition to requiring that the short
term liability be liquidated within one year after the
end of the cost reporting period, the PRM requires:
Liquidation must be made by check or other
negotiable instrument, cash or legal transfer of
assets such as stocks, bond, real property, etc.
Where liquidation is made by check or other
negotiable instrument, these forms of payment
must be redeemed through an actual transfer of
the provider’s assets within the time limits
specified in this section. Where the liability (1) is
not liquidated within the 1-year time limit, or
(2) does not qualify under the exceptions

App. 194
specified in §§2305.1 and 230521, the cost
incurred for the related goods and services is not
allowable in the cost reporting period when the
liability is incurred, but is allowable in the cost
reporting period when the liquidation of the
liability occurs. (emphasis and footnote added)
Therefore, it is necessary to determine whether the
liability or debt set forth in the invoices for Enhanced
Services was (1) liquidated within one year of the end
of the cost reporting period and (2) whether that
liquidation complied with the requirements set forth in
PRM 2305.
Respondents argued that promissory notes are used
extensively in commercial transactions. The issue in
this case, however, involves more than a commercial
transaction or mere payment of a debt and accord and
satisfaction. As stated in the Federal Register, the
purpose of the Liquidation of Liabilities rule is to
ensure that “costs associated with a liability are timely
liquidated through an actual expenditure of funds.”
(emphasis added) Recognizing that this purpose is
different than that involved in mere commercial
transactions, the Federal Register points out that
“GAAP does not offer this assurance.” (60 Fed. Reg.
33131 (June 27, 1995)) PRM 2305 sets forth specific
criteria to be met in order to liquidate a liability or a
debt for purposes of cost reporting.
Pursuant to PRM 2305, liquidation must be made:
1) by check or other negotiable instrument; and
21

These exceptions do not apply in this case.

App. 195
2) where liquidation is made by check or other
negotiable instrument, these forms of payment
must be redeemed through an actual transfer of
the provider’s assets within one year from the
end of the cost reporting period in which the
expense was incurred.
If both of these criteria are not met, then the “cost
incurred for the related goods and services is not
allowable in the cost reporting period when the liability
is incurred, but is allowable in the cost reporting period
when the liquidation of the liability occurs.” Therefore,
if both of these criteria were not met, the costs for the
Enhanced Services contracts should be disallowed in
the 2003 cost report.
Having made payment of the December 31, 2013
invoices for Enhanced Services through promissory
notes, which are negotiable instruments, CHS complied
with the first portion of the rule. Therefore, pursuant
to the wording of PRM 2305, the payment, i.e. the
promissory note, must be redeemed through an actual
transfer of CHS’ assets within one year from the end of
the cost reporting period, which was December 31,
2004.
Mr. Fleischer testified that the promissory notes did
not transfer assets from CHS to Strategic.22 Rather,
Strategic took the notes in lieu of cash. They did,
however, liquidate the liability for purposes of GAAP
and reporting financial statements of the company. He
said that the promissory note given by Carington to
22

These comments applied to all Enhanced Services contracts and
promissory notes.

App. 196
Strategic is an asset of Strategic. It is not an asset of
Carington. He said that the amount of the promissory
note would show as an asset on Strategic’s balance
sheet. (Tr., Pt. II, pp. 259-61, 266)
There is a difference, however, between what is
reported in a financial statement and what is reported
in a cost report. Ms. Hess stated that the provisions of
42CFR 413.100 and PRM 2305 place additional
requirements for reporting costs in a cost report that do
not exist for reporting on a financial statement. The
financial statement is only required to follow GAAP,
not the CFR or PRM. (Tr., Pt. II, pp. 963-64)
The Federal Register emphasizes that
GAAP and Medicare payment policy have
different purposes. Unlike GAAP, which is
intended to be used to present the financial
position of an organization, Medicare policy
specifically deals with paying providers for costs
incurred in furnishing care to Medicare
beneficiaries. For payment purposes, the
Medicare Trust Funds should not be required to
pay a provider for costs associated with
liabilities that are not liquidated timely.
60 Fed. Reg. 33129 (June 27, 1995)
Mr. Fleischer consistently stated that the liability
of the invoices for the Enhanced Services were
liquidated when the promissory notes were issued. He
acknowledged that when Strategic deposited CHS’ first
payment on the promissory note, however, a transfer of
funds occurred. (Tr., Pt. II. Pp. 269-70)

App. 197
In Medical Rehabilitation Services P.C. v. Bowen,
U.S. Dist. Ct., E.D. Michigan, No. 87-CIV-75547-DT,
1989 WL 146308 (Sept. 6, 1989), the Court was faced
with a situation in which the provider included the full
expense ($61,544) of a deferred compensation package23
in its cost report. However, the provider paid $17,330
by check and tendered its creditor a promissory note for
the balance. In interpreting the PRM 2305, the Court
held that “the issuance of a promissory note is not
evidence of a liquidation, unless Plaintiff’s assets were
actually transferred to its creditor within one year of
accrual.” Id. at *7
Another case in which providers issued promissory
notes for compensation deferral is Professional
Rehabilitation Outpatient Services v. Health Care
Financing Administration, U.S. Dist. Ct., S.D. of TX,
H-00-2526, 2001 WL 1910296 (December 7, 2001). 42
CFR 413.100(c)(iv) states: “accrued liability related to
compensation of owners...must be liquidated within 75
days after the close of the reporting period in which the
liability occurs.” Professional Rehabilitation Output
Services elected to defer payment of the salaries of four
corporate officers and subsequently issued promissory
notes to each of the officers, committing to pay on or
before December 31, 1998. Id. at *3
The compensation costs were denied based on the
liquidation of liabilities rule. The reasonableness of the
23

42 CFR 413.100 addresses special treatment of certain accrued
costs, including short-term liability, vacation pay and all-inclusive
paid days off, sick pay, compensation of owners, nonpaid workers,
FICA and other payroll taxes, deferred compensation and selfinsurance.

App. 198
costs was not disputed. In upholding the decision to
disallow the costs, the court found that the provider
failed to timely liquidate the liability because
Professional Rehabilitation did not transfer any assets
to pay off the promissory notes within the applicable
time period. Id. at *6
CHS also failed to transfer assets for the promissory
notes for Enhanced Services contracts within the
requisite time period, and thus CHS failed to meet the
two preconditions to reimbursement of costs related to
a short-term liability.
In addition to the issues concerning the Enhanced
Services contracts, CHS also had annual contracts in
which some payments were not made timely pursuant
to 42 CFR 413.100 and PRM 2305. Under the Annual
Contracts, Strategic and/or Providers Choice submitted
monthly invoices, payable upon receipt, to the CHS
facilities. Most, but not all, of the invoices were paid
within one year after the end of the cost reporting
period. As set forth in the chart on pages 21-22 of the
Report and Recommendation, seven invoices (6 from
December 2003 and one from November 2003) from
Strategic were not paid until 2005. Furthermore, one
provider, East Galbraith, made late payments (i.e.
more than one year after the cost reporting period) to
Providers Choice for all of the services provided in
2003.
Mr. Fleischer was asked to assume that the check
dated April 26, 2005, payable to Strategic Nursing

App. 199
System, was payment for the November 2003 invoice.24
He agreed that the costs associated with this invoice
would not be reported in a 2003 cost report under the
liquidation of liability rule. Since these costs were not
liquidated within one year after the end of the cost
reporting period, under the provisions of both the CFR
and PRM, these costs are not allowable in the cost
report. (Tr., Pt. II, pp. 243-44; State Exhibit 58, p. 23)
The amounts attributable to the payments for the
Annual Contracts and which were paid after December
31, 2004 are set forth in State Exhibit 268, pp. 1, 2
(attached hereto as Attachment B)
As a final matter, CHS contends that the
Liquidation of Liabilities rule should not even apply to
the facts in this case because the Ohio legislature
changed the type of reimbursement system in FY2006.
CHS argues that it would be unable to recuperate its
costs if they were not included in the 2003 cost reports.
Both Mr. Fleischer and Mr. Hapchuk testified that
their opinions regarding the inapplicability of the
Liquidation of Liabilities rule to the facts in this case
were greatly influenced by the fact that the
reimbursement system changed in July 2005. Mr.
Hapchuk stated that if the system had not changed, his
opinion would be different. (Tr., Pr. II, pp. 248-50, 301,
579-80)
Whether costs are allowable are determined by the
law in effect at the time. Moreover, at the time of filing
24

The parties agree that the April 26. 2005 check was payment for
the November 2003 invoice.

App. 200
the 2003 cost reports, CHS did not know that the
Medicaid reimbursement system would change in July
2005. A future change in the reimbursement system
does not provide justification to ignore the cost
reporting laws in effect at the time of filing cost
reports.
Interestingly, in August 2004, before CHS made any
payments on the promissory notes and before the
reimbursement system changed, CHSHO Inc.
purchased Strategic for $4.6 million, less than the
amount of money CHS owed Strategic for the
promissory notes at issue here. Mr. Cummins stated
that because of this acquisition, CHS “owed the money
to themselves.” (Tr., Pt. II, p. 894) The monetary
implications of this acquisition are unknown and are
not relevant to a determination of whether the
Enhanced Services costs are allowable in the 2003 cost
reports, but may have an impact on concerns raised by
Mr. Fleischer and Mr. Hapchuk. Moreover, the 2003
cost reports were used to set the reimbursement rate
for FY 2005, a year before the new system went into
effect.
The promissory notes at issue in this case total
millions of dollars. It is clear that the first payment on
the promissory notes were not made until 2005.
Therefore, the first outlay of cash was not made by
CSH until the beginning of FY2006. The per diem rate
CHS received for FY2005, however, was based upon the
2003 cost reports, which included the amount of the
promissory notes at issue in this case. Therefore, the
figures used to calculate the per diem rate for 2005
included millions of dollars represented by the

App. 201
promissory notes. Because of the deferred payment
arrangement, however, CHS received Medicaid funds
prior to actually expending any assets. It is scenarios
such as this, where a provider receives government
funds prior to expending the money for services, that
42CFR 413.100 and PRM 2305 were intended to
prevent.
Cincinnati Reds Tickets
Based upon PRM 2105.8, the cost for season
Cincinnati Reds tickets were disallowed. PRM 2105.8
states:
Costs incurred by providers for entertainment,
including tickets to sporting or other events,
alcoholic beverages, golf outings, ski trips,
cruises, professional musicians of other
entertainers, are not allowable. Costs incurred
by providers for purposes of employee morale,
specifically, for an annual employee Christmas
or holiday party, an annual employee award
ceremony or for sponsorship of employee athletic
programs (bowling, softball, basketball teams,
etc.), are allowable to the extent that they are
reasonable.
The rule clearly prohibits the reimbursement of
tickets to sporting events. Respondents, however, argue
that the season Cincinnati Reds tickets were not used
for “entertainment,” but were employee benefits, which,
if reasonable, should be allowed. (Respondents’ Post
Phase II Merit Brief at 61) Mr. Cummins testified “if
they’re used for employee benefits, they’re allowable if
they are reasonable.” (Tr., Pt. II, p. 778)

App. 202
A close reading of the rule, however, does not say
that costs of the prohibited items, such as sporting
events, are allowable if reasonable. The rule states that
costs incurred for employee morale, “specifically” listing
the types of events or activities, are allowable if
reasonable. None of the prohibited items are included
in the listing of employee morale items, which are very
different in character than the prohibited items.
Assuming
arguendo
that
Respondents’
interpretation is correct, if a provider wishes such
prohibited expense to be considered an employee
benefit, it is incumbent upon the provider to produce
documentation to support such contention. No
assumption can be made, as CHS argues, that merely
because the cost of tickets were listed under employee
benefits on the cost report and included as employee
benefits, they were used by employees, as opposed to
owners and their friends. Moreover, the unidentified
piece of paper entitled “Cincinnati Reds Season Tickets
Policy” and found in Respondent Exhibit VV is
undated. There is no way of knowing when this
document was created. (Respondents’ Post Phase II
Merit Brief at 62)
Moreover, employee benefit costs must be conferred
during the cost reporting period. That was not the case
here. Mr. Cummins acknowledged that if these costs
were reported in the wrong period, the matter would be
resolved by including them “in the more appropriate
period.” Again, as with the liquidation of liabilities
issue, the change of legislation issue was raised as the
reason the appropriate year could not be used. (Tr., P.
II, p. 779)

App. 203
For the above stated reasons, the cost for the 2004
Cincinnati Reds tickets should be disallowed and the
corresponding adjustments in State Exhibit 268, p. 3 be
adopted.
Notice Issue
The Liquidation of Liabilities rule was not cited in
the Notice letters as a basis for disallowances. The
basis for the disallowance at issue at that time was
insufficient documentation to support the reported
costs. Therefore, CHS argues that it did not receive
notice that the Department was going to use the
liquidation of liabilities rule to disallow costs.
Specifically, Respondents state: “The intention to apply
this rule was not included in the notices of opportunity
for a hearing, nor in the audit reports or reports of final
settlement attached to and incorporated in the notice
of opportunity for a hearing. “ Therefore, Respondents
argue, “the liquidation of liabilities rule cannot be
applied.” (Respondents’ Post Phase II Merit Brief at 2728)
The due process afforded a respondent in an
administrative hearing is the right to a reasonable
notice of hearing and reasonable opportunity to be
heard, including reasonable notice of the subject matter
of the hearing. State ex rel. LTV Steel Co. v. Industrial
Comm’n of Ohio (10th Dist., 1995) 102 Ohio App.3d 100,
103-04 The purpose of the notice requirement in R.C.
119.07 is to enable the respondent to prepare a defense.
Geroc v. Ohio Veterinary Med. Bd. (8th Dist. 1987), 37
Ohio App.3d 192, 198; Keaton v. Ohio Dept. of
Commerce (10th Dist. 1981), 2 Ohio App.3d 480,482-83

App. 204
It was only after discovery in this matter that the
Department received the documentation which
revealed there was no actual transfer of CHS’ assets
within one year from the end of the cost reporting
period. CHS, however, argues that the two-year (2003
and 2004) Combined Financial Statement of all the
CHSHO and its Affiliates disclosed promissory notes
paid by CHS to Strategic, and, based upon this, the
auditors had sufficient information to make a
determination on whether to disallow the costs under
the liquidation of liabilities rule.
In advancing its argument, CHS relies upon Note L
in the Combined Financial Statement of CHSHO and
its Affiliates, stating:
Carington contracted with Strategic Nursing
Systems, Inc. (Strategic), to provide direct care
consulting services....Additionally, at December
31, 2003 Carington owed Strategic $3,420,131,
which was included in accounts payable-trade
and accrued liabilities. At December 31, 2003,
Carington also owed Strategic $12,082,000 of
trade accounts payable that both parties agreed
were not due within the next twelve months.
This amount was classified as an other longterm obligation.
(Respondent Exhibit MMMM, p. 218)
Note A of the Combined Financial Statement of
CHSHO and its Affiliates clarifies that “Carington”
refers to CHSHO’ Affiliates, stating: “The combined
financial statements present the financial position,
results of operations and cash flows of CHSHO, Inc.,

App. 205
and Affiliates (Carington). The financial statements
include the accounts of 21 affiliated Ohio corporations
that operate under common management and are
commonly owned. The corporate affiliates ... operate 35
long-term care facilities.” Therefore, in Note L,
“Carington” refers to 35 long-term care facilities. There
is nothing in Note L which identifies which of the 35
facilities have promissory notes. Moreover, Ms. Hess
stated that in order to determine which facility had the
promissory notes it would be necessary to see the
promissory notes prior to making a finding of
disallowance of a cost in a cost report. (Tr., Pt. II, p.
986; Respondent Exhibit MMMM, p. 206)
During the audit, the auditors did not receive
invoices for the Enhanced Services costs, promissory
notes for the Enhance Services costs, or cancelled
checks showing payments on the promissory notes.
Without this information, the auditors would be unable
to make a finding of failure to timely liquidate under
PRM 2305. Ms. Hess testified that had they been given
those documents, they “would have eliminated the cost
based upon the Liquidation of Liability Rule which is
Publication 15-1, Section 2305.” (Tr., Pt. II, pp. 966-67)
It was only during the discovery stage of the
administrative proceeding that the Department
received documentation of these costs at issue on the
Enhanced Services contracts.25 The parties stipulated

25

It is noted that during the discovery phase of this case, the
Department received additional documentation on other
allowances, which it reviewed and gave CHS credit, by removing
some disallowances.

App. 206
that, based upon documents received in the discovery
process, the Department’s “basis for the proposed
disallowance of the costs reported in 6210 and 7215 is
that the costs were not timely liquidated as provided by
the provisions of 42 CFR §413.100 ... and the provisions
of Pub. 15-1 §2305(A), §2305.1 and §2305.2.”
(Stipulation of the Parties, ¶ 8)
As stated in Geroc and Keaton, the purpose of the
notice requirement in R.C. 119.07 is to enable
respondent to prepare a defense. In this case, CHS
knew the basis upon which the Department was
proceeding and had time to thoroughly prepare its
defense, including engaging experts and calling
witnesses to address the liquidation of liabilities issues.
Respondent cites Minges v. Ohio Dept. of
Agriculture, 213-Ohio-1808 (10th Dist. May 2, 2013) in
support of its position that it did not receive proper
notice. In that case, however, the Ohio Department of
Agriculture (ODA) charged respondent with a rule that
required ODA to prove a particular behavior. ODA,
however, did not present evidence on this behavior and,
in its closing argument, relied upon a rule not cited in
the notice letter as the basis of its case. Therefore,
respondent did not have any opportunity to prepare a
defense.
In this case, CHS had ample opportunity to prepare
and suffered no prejudice from the fact that the Notice
Letter did not include notice of the disallowance under
the liquidation of liabilities rule. See Diso v. Dept. of
Commerce, 2012-Ohio-4672, ¶¶72, 73 (5th Dist. October
8, 2010) (finding respondent failed to show he was
prejudiced; he had time to prepare his defense).

App. 207
Moreover, to accept CHS’ notice argument would
encourage providers to fail to provide sufficient
documentation during an audit, then produce the
missing documentation during discovery and then
require the Department to issue another notice of
opportunity letter, starting the process all over again
from the beginning.
Prior Use of Liquidation of Liability Rule
CHS argues that the liquidation of liabilities rule
has never been used or interpreted in the manner the
Department is doing in this case, and, therefore, the
Department is precluded from using it in this case.
CHS relies upon the testimony of Mr. Fleischer, who
stated that, in his experience, he had not seen the rule
applied in this manner. From this statement, CHS
jumps to the conclusion that it has never been applied
in this manner. (Respondents’ Post Phase II Merit
Brief at 46) The record in this case does not establish
this fact one way or another.
Although CHS contends that the Department never
applied the rule, it then argues that the Department
has changed its application of the rule. CHS cites to
Cove Associates Joint Venture v. Sebelius, 848 F. Supp.
2d 13 (D.D.C. 2012) to argue that a new interpretation
of a rule cannot be applied to past practice. The court,
however, required that the providers must prove they
relied upon a prior interpretation of a rule. In this case,
there is no evidence of a contrary prior interpretation
or evidence that CHS relied upon a contrary
interpretation.

App. 208
CHS also raises the argument that the auditors are
prohibited from applying the PRM 2305 as it relates to
this case because it contends that the audit manual
only referenced a liquidation of an owner-administrator
compensation, not other types of liquidation of
liabilities cited in 42CFR 413.100. During the hearing
Mr. Cummins was asked to identify Respondent
Exhibit QQQQ, which he identified as six selected
pages from the audit manual that was in Clifton
Gunderson’s file. He said he went through the audit
manual looking for references to liquidation of
liabilities and this was the only reference he found. By
including only one aspect of the rule, CHS argues, all
other aspects or portions of the rule are excluded,
under the expressio unius principle (“the expression of
one thing is the exclusion of another”). (Tr., Pt. II, pp.
708-10)
Ms. Hess, however, stated that Respondent QQQQ
was not part of the audit manual. It was part of a more
comprehensive document, identified as State Exhibit
280, which was a listing of the most common
adjustments made in audits. Moreover, she testified
that the audit paragraphs listed in State Exhibit 280
are not an exclusive list and that the auditors would
make adjustments for reasons other than those listed
in State Exhibit 280. (Tr., Pt. II, pp. 948-50)
Furthermore, the auditors are required to apply all
the laws according to the hierarchy set forth in Ohio
Admin. Code 5101:3-3-0l(A).

App. 209
Other Audits not at Issue In This Case
CHS also argues that there were other audits
performed of other facilities in the CHSHO
organization and no disallowance was made using the
liquidation of liabilities in the manner it is being used
in this case. A determination of whether a cost was
allowable would depend, in part, upon the facts and
documentation in each case.
One audit raised by Respondent in support of its
position is that of East Galbraith, which covered the
period of June 29, 2003- September 30, 2003. The
Enhanced Service agreements and corresponding
promissory notes, however, were not entered into until
December 31, 2003. (Stipulation of the Parties, ¶7E)
Furthermore, there is no evidence as to the
documentation reviewed by the auditors in the other
facilities.
Unpaid Days
Respondent contends that the hearing examiner
improperly refused to consider evidence on unpaid
days, including the admissibility of Respondent Exhibit
0000, which was therefore proffered. This matter was
ruled upon in a March 15, 2013 Journal Entry granting
the Department’s Motion in Limine to exclusion
evidence of unpaid patient days for room and board and
unpaid claims for services.
Matters that are subject to R.C. Chapter 119
hearings are expressly limited to those matters
authorized by statute. R.C. 5111.06 authorizes Chapter
119 hearings as a forum for providers to challenge
matters included in final fiscal audits. The

App. 210
statutory/regulatory scheme for final fiscal audits
addresses the examination of payments by the
Department, whether such payments were appropriate,
and, if a determination of an overpayment is made, the
requirements of notice to the provider and the
provision of appeal rights under R.C. Chapter 119. The
final fiscal audit is the end result of an audit, which
was authorized by R.C. 5111.27, to determine whether
the provider must refund an overpayment to the
Department. Under this statutory/regulatory scheme,
non-payment or unpaid claims are not subject to R.C.
Chapter 119 proceedings. Unpaid days/claims which
CHS wanted to adjudicate, are by definition not
overpayments. Therefore, adjudication of claims for
unpaid days and unpaid claims are not at issue in this
administrative hearing.
Findings of Fact
To the extent any findings of fact constitute conclusions
of law, they are offered as such.
1.

The Respondents in this matter are: CHSGlenwell, Inc. [Glen Meadows (provider
number 2429330)]; CHS-Ohio Valley, Inc.
[Terrace View Gardens (provider number
2339384)]; CHS-Glenwell, Inc. [Wellington
Manor (provider number 2429321)]; CHSMiami Valley, Inc. [Vandalia Park (provider
number 2339624)]; CHS-Miami Valley, Inc.
[Franklin Ridge (provider number 2339688)];
CHS-Greater Cincinnati, Inc. [East
Galbraith Health Care Center (provider
number 2399033)); and CHS-Lake Erie, Inc.
[Carington Park (provider number 2339268)].

App. 211
Respondents operate long-term care
facilities, providing room, board and related
nursing services to persons eligible for
benefits under Ohio’s Medicaid program. At
the time at issue, ODJFS administered the
Medicaid program pursuant to R.C. Chapter
5111 and Title XIX of the Social Security Act.
2.

Initially, the cases involved in this matter
were split between two hearing examiners.
Originally, the above referenced hearing
examiner was assigned CHS-Glenwell, Inc.
Docket Nos. 09LTC17, 09LTC18, 09LTC19,
CHS-Hamilton County, Inc. Docket Nos.
09LTC30, 09LTC31, 09LTC32, 09LTC33,26
and Carington Health Systems Docket Nos.
09LTC24, 09LTC2527. Thereafter, the
following cases were transferred to the above
referenced hearing examiner and the parties
agreed to consolidate the cases: CHS-Miami
Valley, Inc. Docket Nos. 09LTC13, 09LTC14,
09LTC15, 09LTC16, 09LTC34, 09LTC35,
0 9 L T C3 6 , 0 9 LT C3 7 , CHS-G rea ter

26

During the hearing, the parties agreed that the correct name for
CHS-Hamilton County, Inc. is CHS-Ohio Valley, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the correct Provider No. was used
for the entities. (Tr., Pt. II, pp. 23-4)
27

During the hearing, the parties agreed that the correct name for
CHS-Carington Health Systems is CHS-Glenwell, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the documents the correct
Provider No. was used for the entities. (Tr., Pt. II, pp. 23-24)

App. 212
Cincinnati, Inc. Docket Nos. 09LTC20,
09LTC21, 09LTC22, 09LTC23, and CHSLake Erie, Inc. Docket Nos. 09LTC26,
09LTC27, 09LTC28, 09LTC29.
3.

Prior to the consolidation, there were three
days of hearings in the CHS-Glenwell, Inc.
Docket Nos. 09LTC17, 09LTC18, 09LTC19,
CHS-Hamilton County, Inc. Docket Nos.
09LTC30, 09LTC31, 09LTC32, 09LTC33, and
Carington Health Systems Docket Nos.
09LTC24, 09LTC25 cases to address
Respondents’ challenge that the Department
had not conducted audits. After
consolidation, the parties agreed that the
determination of whether an audit was
conducted would apply to all the cases in
consolidated case.

4.

The Medicaid cost reports at issue in this
matter are: 1) the calendar year 2003
Medicaid cost reports filed by Carington
Park, Terrace View Gardens, Vandalia Park,
and Franklin Ridge; 2) the six-month cost
report covering July 1, 2003, to December 31,
2003, filed by East Galbraith Health Care
Center; and 3) the three-month cost reports
covering December 1, 2003, to February 29,
2004, filed by Glen Meadows and Wellington
Manor. The cost reports are collective
referred to as “2003 cost reports.”

5.

In order to conduct an audit of a cost report,
the person(s) conducting the audit reviews
records and documents to ensure that the

App. 213
amounts reported in a provider’s annual cost
report are reported accurately, are allowable,
documented, related to patient care and
reasonable. Each cost in a cost report should
be verifiable through documentation.
6.

ODJFS issued a Request for Proposal (RFP)
seeking independent professional auditors to
audit the 2003 Cost Reports in accordance
with Agreed-Upon Procedures. One of the
firms selected was Clifton Gunderson, which
has performed cost report audits since the
Medicaid program began in the mid-1960’s
and has performed them for the Ohio
Medicaid program pursuant to Agreed-Upon
Procedures since 1999.

7.

Clifton Gunderson contacted CHS on March
1, 2006, over three months prior to the site
visit scheduled for the week of June 12, 2006
requesting the information listed on the
attached letter by April 7, 2006. The
attachment listed 32 categories for items to
be produced and indicated the specific
accounts in the cost report to be audited. Ms.
Hess stated that CHS only produced
documents responsive to one of the requests.
Prior to the site visit a second request was
made for the general ledgers.

8.

On the last day of the field work, an exit
conference was held and signed off by three
Clifton Gunderson staff and David
McClellan, the Corporate Controller for CHS
at the time. The signed form states: “All of

App. 214
the proposed adjustments known at this time
were discussed with the Provider and a copy
of the proposed adjustments was given to the
Provider.”
9.

At the exit conference after the audit, Clifton
Gunderson asked CHS to sign the
representation letter, which is part of the
Agreed-Upon Procedures. CHS refused to do
so.

10.

Section 600 of the AICPA requires a
representation letter, which is usually signed
on the last day of field work. This letter is
obtained from the entity being audited, in
this case, Respondents.

11.

When Clifton Gunderson informed the
Department of CHS’ refusal to sign the
letter, Clifton Gunderson was instructed to
proceed with the audit as usual.

12.

At the exit conference Clifton Gunderson
gave CHS a list of still outstanding
documents, which was very similar to the list
sent in March 2006. This list included,
among other things, invoices, canceled checks
and contracts, which would substantiate
documentation for reported costs. The letter
stated that if the items were not received by
Clifton Gunderson by June 30, 2006, Clifton
Gunderson would make the required
adjustments in its report to the Department.
CHS provided some documentation for
expenses prior to the deadline and Clifton

App. 215
Gunderson incorporated that information
prior to issuing the proposed cost adjustment
letter, which was sent to CHS along with
supporting work papers of those
adjustments. CHS was given seven days to
respond to the report; otherwise, the
finalized report would be sent to the
Department. CHS did not respond and the
draft adjustments were finalized to the
Department. The Department received the
Audit Input Document, copy of the proposed
cost adjustments and papers to support
Clifton Gunderson’s proposed cost
adjustments.
13.

After receiving the finalized report from
Clifton Gunderson, the Department
performed a high level review for accepting
the actual audit from Clifton Gunderson to
ensure that what had been done was
adequately documented in the working
papers, and that the adjustments tied back to
those working papers that were submitted.

14.

The procedures for audits, starting with the
RFP, the contractor’s work and the
Department’s process after receiving
deliverables from the contract auditor have
been the same since 1999. The Agreed-Upon
Procedures have been modified periodically
since 1999.

15.

Clifton Gunderson followed the Agreed-Upon
Procedures as prescribed in the RFP and the
slight modifications made prior to

App. 216
commencement of the engagement and
conducted a proper audit.
16.

A final fiscal audit conference or exit
conference may be conducted by the
Department’s Bureau of Audit “to try and
resolve potential findings identified by the
Department with the providers.” This final
fiscal audit conference, which is different
than the exit conference held between Clifton
Gunderson and CHS immediately after the
on-site field work was completed in June
2003, is not mandatory.

17.

In this case, Respondents requested final
fiscal audit conferences. The Department,
however, elected to issue Proposed
Adjudication Orders, affording Respondents
an opportunity to request a hearing under
R.C. Chapter 119.

18.

The 2003 cost reports at issue in this matter
were used to set the per diem rates for fiscal
years 2005 and 2006.

19.

The Department audited the patient days
and patient liability for: 1) Carington Park,
Terrace View Gardens, Vandalia Park,
Franklin Ridge, East Galbraith Health Care
Center for fiscal years 2003, 2004, 2005, and
2006; 2) Glen Meadows for fiscal years 2004,
2005, and 2006; and 3) Wellington Manor for
fiscal years 2005 and 2006.

20.

The days audits at issue herein were
performed in the same manner as the audit

App. 217
at issue in Meadowbrook Care Center v. Ohio
Dept. of Job and Family Services (10th Dist.
2007), 2007-Ohio-6534.
21.

After performing the patient day/patient
liability audits, ODJFS issued Combined
Proposed Adjudication Orders (CPAO) for
each open audit period for each of the
Respondents. Each CPAO contained Reports
of Examination, detailing the “calculation
leading to the amount determined to be
owed.” Respondents each timely requested an
exit conference. Thereafter, ODJFS re-issued
CPAO’s for each facility for each open audit
period, providing Respondents the
opportunity to request a R.C. Chapter 119
hearing. Each Respondent timely requested
a R. C. Chapter 119 administrative hearing.

22.

Attachment D attached hereto and
incorporated herein reflect the revised
patient days and patient liability
adjustments. Although Respondent’s counsel
objected to the adjustments in the Reports of
Examination and did not stipulate to the
amounts, no evidence was presented to rebut
the Department’s prime facie evidence with
respect to patient days and patient liability
adjustments. The findings as set forth in
Attachment D attached hereto are adopted as
a Finding of Fact.

23.

Based upon audits on cost reports performed
at issue herein, ODJFS issued Notices of
Opportunity for Hearing to the facilities for

App. 218
each of the audits and each Respondent
timely filed a request for a R. C. Chapter 119
hearing in the above-referenced matters.
24.

Notwithstanding the contents of any initial
or any amended Audit Report in these
proceedings, the parties have agreed to the
Proposed Cost Adjustments set forth in State
Exhibit 267a, which is Attachment A,
attached hereto and incorporated herein as a
Finding of Fact.

25.

The parties have stipulated that there were
only two issues related to the cost report
audit disallowances at issue in this hearing:
1) the Strategic Nursing Services consulting
costs (reported by all seven facilities in cost
account 6210) and the Providers Choice
Administrative Services consulting costs
(reported by Carington Park, Terrace View
Gardens, Franklin Ridge, Vandalia Park, and
East Galbraith Health Care Center in cost
account 7215); and 2) the Cincinnati Reds
tickets costs reported by Terrace View
Gardens, Franklin Ridge, Glen Meadows,
and Wellington Manor in cost accounts 6530,
7070, and 7520 and reported by East
Galbraith in cost accounts 7070 and 7520.

26.

The Proposed Cost Adjustments on State’s
Exhibit 268 are the sole and only remaining
cost report audit adjustment issues.
Although the parties agree as to amounts set
forth in State Exhibit 268, they disagree as to
whether those costs should have been

App. 219
included in the first place. Stipulations of the
Parties, no. 5 These adjustments were made
for direct-care consulting costs, found at
State Exhibit 268, p. 1, indirect care
consulting costs, found at State Exhibit 268,
p. 2 and Cincinnati Reds tickets, found at
State Exhibit 268, p. 3.
27.

Cost reports are the mechanism by which
nursing home facilities report their operating
costs to the state.

28.

Between 1994 and July 1, 2005, Ohio used a
prospective cost based payment system, in
which a per diem rate was established for
each facility based upon the facilities’
reasonable costs.

29.

Under the Medicare prospective payment
system the costs incurred are irrelevant.
Reimbursement under the Medicare
prospective payment system is dependent
upon the type of service performed; the
provider is reimbursed a set amount for a set
service, regardless of cost.

30.

Ohio’s prospective cost based system is
different than the prospective payment
system under Medicare.

31.

In 2005, the Ohio legislature passed laws
which changed the reimbursement system
from the cost-based prospective
reimbursement system to a price-based
prospective system. During the transition
period, the rates in FY 2006 were the same

App. 220
as those in FY 2005. In FY 2007, the new
rates under the price-based prospective
system went into effect. Under the pricebased prospective system, the State pays
“similarly-situated homes the same price
subject to case mix adjustments.” Rather
than looking at the facility’s costs, the State
looks at “the peer group experience to
establish the rate components,” while still
starting with a calendar year cost report and
applying an 18-month inflation factor.
32.

CHS– Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Strategic Nursing Systems,
Inc., at State’s Exhibit 57. The costs
associated with this consulting agreement
were reported in account 6210. Strategic
Nursing Systems, Inc. invoiced Carington
Park monthly for the consulting fees and
Carington Park paid each invoice by check as
shown in State’s Exhibit 58. The consulting
agreement (State’s Exhibit 57) contained an
Attachment A for Enhanced Services, with
an additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by
State’s Exhibit 59. Carington Park issued an
installment promissory note for the
December 31, 2003 for the Enhanced
Services invoice, State’s Exhibit 60. The
payments of the installment promissory note
were per the note’s terms and were by checks
at State’s Exhibit 61.

App. 221
33.

CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Strategic
Nursing Systems, Inc. at State’s Exhibit 92.
The costs associated with this consulting
agreement were reported in account 6210.
Strategic Nursing Systems, Inc. invoiced
Terrace View Gardens monthly for the
consulting fees and Terrace View Gardens
paid each invoice by check as shown in
State’s Exhibit 93. The consulting agreement
(State’s Exhibit 92) contained an Attachment
A for Enhanced Services, with an additional
consulting fee that was due on December 31,
2003, that was invoiced by Strategic Nursing
Services as shown by State’s Exhibit 94.
Terrace View Gardens issued an installment
promissory note for the December 31, 2003
Enhanced Services invoice, State’s Exhibit
95. The payments of the installment
promissory note were per the note’s terms
and were by checks at State’s Exhibit 96.

34.

CHS - Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered
into an agreement with Strategic Nursing
Systems, Inc. at State’s Exhibit 119. The
costs associated with this consulting
agreement were reported in account 6210.
Strategic Nursing Systems, Inc. invoiced
Franklin Ridge monthly for the consulting
fees and Franklin Ridge paid each invoice by
check as shown in State’s Exhibit 120. The
consulting agreement (State’s Exhibit 119)

App. 222
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as
shown by State’s Exhibit 121. Franklin Ridge
issued an installment promissory note for the
December 31, 2003 Enhanced Services
invoice, State’s Exhibit 122. The payments of
the installment promissory note were per the
note’s terms and were by checks at State’s
Exhibit 123.
35.

CHS – Miami Valley, Inc. d.b.a. Vandalia
Park, provider number 2339624, entered into
an agreement with Strategic Nursing
Systems, Inc. at State’s Exhibit 154. The
costs associated with this consulting
agreement were reported in account 6210.
Strategic Nursing Systems, Inc. invoiced
Vandalia Park monthly for the consulting
fees and Vandalia Park paid each invoice by
check as shown in State’s Exhibit 155.

36.

CHS – Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider
number 2399033, entered into an agreement
with Strategic Nursing Systems, Inc. at
State’s Exhibit 181. The costs associated with
this consulting agreement were reported in
account 6210. Strategic Nursing Systems,
Inc. invoiced East Galbraith monthly for the
consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit
182. The consulting agreement (State’s

App. 223
Exhibit 181) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003, that was invoiced by Strategic Nursing
Services as shown by State’s Exhibit 183.
East Galbraith issued an installment
promissory note for the December 31, 2003
Attachment A Enhanced Services invoice,
State’s Exhibit 184. The payments of the
installment promissory note were per the
note’s terms and were by checks at State’s
Exhibit 185. The consulting agreement
(State’s Exhibit 181) also contained an
Attachment B for Enhanced Services, with
an additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by
State’s Exhibit 186. East Galbraith issued an
installment promissory note for the
December 31, 2003, Attachment B Enhanced
Services invoice, State’s Exhibit 187. The
payments of the installment promissory note
were per the note’s terms and were by checks
at State’s Exhibit 188.
37.

CHS - Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Providers Choice
Administrative Services, Inc., at State’s
Exhibit 63. The costs associated with this
consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Carington Park monthly for the consulting

App. 224
fees and Carington Park paid each invoice by
check as shown in State’s Exhibit 64. The
consulting agreement (State’s Exhibit 63)
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003.
Carington Park issued an installment
promissory note for the December 31, 2003
Enhanced Services fee, State’s Exhibit 65.
The payments of the installment promissory
note were per the note’s terms and were by
checks at State’s Exhibit 66.
38.

CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Providers
Choice Administrative Services, Inc., at
State’s Exhibit 98. The costs associated with
this consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Terrace View Gardens monthly for the
consulting fees and Terrace View Gardens
paid each invoice by check as shown in
State’s Exhibit 99. The consulting agreement
(State’s Exhibit 98) contained an Attachment
A for Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. Terrace View Gardens issued an
installment promissory note for the
December 31, 2003, Enhanced Services fee,
at State’s Exhibit 100. The payments of the
installment promissory note were per the

App. 225
note’s terms and were by checks at State’s
Exhibit 101.
39.

CHS - Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered
into an agreement with Providers Choice
Administrative Services, Inc., at State’s
Exhibit 125. The costs associated with this
consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Franklin Ridge monthly for the consulting
fees and Franklin Ridge paid each invoice by
check as shown in State’s Exhibit 126. The
consulting agreement (State’s Exhibit 125)
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003. Franklin
Ridge issued an installment promissory note
for the December 31, 2003, Enhanced
Services fee, at State’s Exhibit 127. The
payments of the installment promissory note
were per the note’s terms and were by checks
at State’s Exhibit 128.

40.

Miami Valley, Inc. d.b.a. Vandalia Park,
provider number 2339624, entered into an
agreement with Providers Choice
Administrative Services, Inc., at State’s
Exhibit 157. The costs associated with this
consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Vandalia Park monthly for the consulting

App. 226
fees and Vandalia Park paid each invoice by
check as shown in State’s Exhibit 158. The
consulting agreement (State’s Exhibit 157)
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003.
Vandalia Park issued an installment
promissory note for the December 31, 2003,
Enhanced Services fee, at State’s Exhibit
159. The payments of the installment
promissory note were per the note’s terms
and were by checks at State’s Exhibit 160.
41.

CHS - Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider
number 2399033, entered into an agreement
with Providers Choice Administrative
Services, Inc., at State’s Exhibit 190. The
costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services,
Inc. invoiced East Galbraith monthly for the
consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit
191. The consulting agreement (State’s
Exhibit 190) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. East Galbraith issued an installment
promissory note for the December 31, 2003,
Enhanced Services fee, at State’s Exhibit
192. The payments of the installment
promissory note were per the note’s terms
and were by checks at State’s Exhibit 193.

App. 227
42.

The Annual Services were billed monthly and
the invoice specified that payment was due
upon receipt. Terrace View Gardens,
Franklin Ridge, Vandalia Park, Glen
Meadows, and Wellington Manor paid the
Strategic Annual Services December 2003
invoices by checks dated March 2005.
Carington Park paid the Strategic Annual
Services November 2003 invoice by check
dated March 2005 and the Strategic Annual
Services December 2003 invoice by check
dated April 2005.

43.

During the cost reporting period at issue
herein, Wellington Manor and Glen Meadows
had Annual Services contracts with
Strategic. Both facilities reported Strategic
costs in cost account 6210 on their threemonth cost reports covering December 2003
through February 2004.

44.

Glen Meadows and Wellington Manor did not
produce canceled checks for the Strategic
Annual Services January 2004 and February
2004 invoices.

45.

Starting in January 2005 and ending in
December 2006, East Galbraith Health Care
Center paid the Providers Choice Annual
Services invoices issued monthly from July 1,
2003 to December 31, 2003.

46.

Glen Meadows and Wellington Manor did not
provide the auditors with sufficient
documentation to support the Strategic

App. 228
Annual Services costs they reported in the
2003 cost reports.
47.

On December 31, 2003, the facilities issued
invoices for the Enhanced Services contracts
for 2003. The invoices stated: “Payment due
upon receipt of invoice.”

48.

On December 31, 2003, CHS issued
installment promissory notes for each of the
December 31, 2003 invoices for Enhanced
Services.

49.

The December 31, 2003, promissory notes
that Respondents issued did not require
payment to begin until 2005. The parties
have stipulated that the Respondents paid
the December 31, 2003, promissory notes
according to the notes’ terms. None of the
payments on the promissory notes were
made within one year of the end of the
relevant cost-reporting periods.

50.

A promissory
instrument.

51.

All Respondents reported Strategic
consulting costs (Annual Services and
Enhanced Services) on the 2003 cost reports
in cost account 6210. All Respondents
reported Providers Choice consulting costs
(Annual Services and Enhanced Services) on
the 2003 cost reports in cost account 7215.

52.

ODJFS’ basis for the proposed disallowance
of the costs reported in 6210 and 7215 is that

note

is

a

negotiable

App. 229
the costs were not timely liquidated as
provided by the provisions of 42 CPR
§413.100 (Generally described as the
“Liquidation of Liabilities Rule”) and the
provisions of Pub. 15-1 §2305(A), §2305.1 and
§2305.2.
53.

In the initial release of CHS’ audits by the
Department there was no application of the
Liquidation of Liabilities rule proposed,
referenced or cited. Many of the
disallowances were based upon insufficient
documentation. Upon receipt of
documentation, including the invoices,
promissory notes and checks involving the
Enhanced Services contracts, the
Department made disallowances based upon
the Liquidation of Liabilities rule.

54.

Mr. Fleischer and Mr. Hapchuk stated that
the problem with applying the Liquidation of
Liabilities rule in this case is that the Ohio
legislature changed the law on how the
reimbursement rate would be established.

55.

Terrace View Gardens, Franklin Ridge, East
Galbraith Health Care Center, Glen
Meadows and Wellington Manor reported on
their 2003 cost reports the costs associated
with the purchase of 2004 Cincinnati Reds
season tickets. The invoice for these tickets
was issued to Joe Tucker. There was no
evidence as to who Joe Tucker is and/or
what, if any, affiliation he has with CHS.
These costs were reported in the “employee

App. 230
benefits” accounts. No documentation was
presented to show how the tickets were
distributed or who used the tickets.
Conclusions of Law
To the extent any conclusion of law constitutes a
finding of fact, they are offered as such.
1.

All statutory procedural requirements have
been complied with and this matter is
properly before the Department.

2.

Medicaid nursing home providers are
required to file annual cost reports, which
capture the costs and expenses incurred
during the year for providing services to
residents within the facility. Nursing homes
are required to maintain records to support
the costs included in the cost reports,
including financial, medical and statistical.
“In the Medicaid audit setting, a provider
must provide supporting documentation that
demonstrates that the reported cost was
actually incurred, that it is reasonable,
allowable and related to patient care.”
Meadowwood Nursing Facility v. Ohio Dept.
of Job and Family Servs, (10th Dist. 2005),
2005-Ohio-1263 at ¶19.

3.

Pursuant to R.C. 5111.27, the Department is
authorized to audit cost reports and the scope
of the audit is within the discretion of the
Department.

App. 231
4.

If a cost report audit is conducted in such a
manner as to produce an accurate result and
ther procedures are objectively verifiable, a
valid audit is performed. St. Francis Home
Inc. v. Ohio Dept. of Job and Family Services
(10th Dist. 2006) 2006-Ohio-6147.

5.

The Department conducted audits of
Respondents’ 2003 cost reports pursuant to
R.C. 5111.27 (eff. 3/30/2006) (renumbered as
R.C. 5165.108 effective 9/29/2013) and Ohio
Adm. Code 5101:3-3-21 (eff. 7/04/2002), and
the Department issued audit reports related
to those audits.

6.

Clifton Gunderson completed the AgreedUpon Procedures, which set forth the scope
and method to be utilized in conducting the
2003 cost reports audits.

7.

Clifton
Gunderson
completed the
engagement, conducted an exit interview
with CHS and discussed all the proposed
adjustments with CHS, as evidenced by the
signature of CHS’ Corporate Controller, who
signed verifying that fact.

8.

The audits, using Agreed-Upon Procedures,
which Clifton Gunderson performed on CHS’
2003 cost reports was conducted in such a
manner as to produce accurate results and
the procedures were objectively verifiable.
Therefore, Clifton Gunderson conducted a
valid audit.

App. 232
9.

The due process afforded a respondent in an
administrative hearing is the right to a
reasonable notice of hearing and reasonable
opportunity to be heard, including reasonable
notice of the subject matter of the hearing.
State ex rel. LTV Steel Co. v. Industrial
Comm’n of Ohio (10th Dist., 1995) 102 Ohio
App.3d 100, 103-04. The purpose of the notice
requirement in R.C. 119.07 is to enable the
respondent to prepare a defense. Geroc v.
Ohio Veterinary Med Bd. (8th Dist. 1987), 37
Ohio App.3d 192, 198; Keaton v. Ohio Dept. of
Commerce (10th Dist. 1981), 2 Ohio App.3d
480,482-83

10.

Respondents had ample opportunity to
prepare a defense on the Liquidation of
Liabilities issues, including hiring experts,
and suffered no prejudice from the fact that
the Notice of Opportunity for Hearing did not
include notice of the disallowance under the
Liquidation of Liabilities rule.

11.

Whether the costs Respondents reported on
the 2003 cost reports are allowable was
determined pursuant to Ohio Adm. Code
5101:3-3-01 (eff. 9/30/2001) and the laws,
regulations, and rules referred to therein.

12.

Reported costs are “allowable” if they are
“incurred for certified beds in a facility as
determined by [the Department] to be
reasonable as set forth in [5101:3-301(AA)]...” Ohio Adm. Code 5101:3-3-01(A)
(eff. 9/30/2001).

App. 233
13.

“’Reasonable’ means that a cost is an actual
cost that is appropriate and helpful to
develop and maintain the operation of
patient care facilities and activities,
including normal standby costs, and that
does not exceed what a prudent buyer pays
for a given item or services. Ohio Adm. Code
5101:3-3-01(AA)(eff. 9/30/2001).

14.

Pursuant to Ohio Adm. Code 5101:3-3-20(L)
(eff. 9/12/2003), Respondents were required
to retain current and accurate financial,
statistical, and medical records supporting
the cost reports or claims for services for six
years after all appeal rights relating to the
audit reports herein are exhausted.
Respondents were also required to make
those records available to the Department.

15.

A “short-term liability” is a liability due and
payable within twelve months. A long-term
liability is one due and payable in one year
plus one or more days.

16.

The Strategic and Providers Choice Annual
Services invoices and the Strategic and
Providers Choice Enhanced Services invoices
were due upon receipt and were therefore
short-term liabilities.

17.

42 CFR 213.100 and PRM 2305, which
address special treatment of short term
liabilities in cost reports when the provider
has not expended funds during the current
cost reporting period, do not apply in the

App. 234
prospective
Medicare.

payment

system

used

in

18.

From 1994 through June 30, 2005, Ohio’s
reimbursement system was based upon
reasonable costs and was different than the
Medicare prospective payment system.

19.

Pursuant to Ohio Admin. Code 5101:3-3-01
(effective 9/30/2001), allowable costs were
determined in accordance with a hierarchy of
laws and rules as follows: The Ohio Revised
Code, then the Ohio Administrative Code,
then the Code of Federal Regulations, then
the CMS HIM publications or Provider
Reimbursement Manual publications and
lastly, the general accepted accounting
principles (GAAP). Ohio Admin. Code 5101:33-01; Ohio Admin. Code 5101:3-3-20.

20.

The CFR and PRM are regulations and
interpretive guidelines for reportable costs
for Medicare cost reports. By including them
in the hierarchy of sources to use in
determining allowable costs for Medicaid
nursing facilities, Ohio adopted these
regulations to determine allowable costs for
Medicaid cost reports in Ohio. 5101:3-3-0
1(A) There is nothing in the Revised Code or
Ohio Administrative Code that states that
certain provisions of the CFR or the PRM are
not applicable to reporting costs in a cost
report. Moreover, there is nothing in the CFR
or the PRM that limits the application of any

App. 235
of the rules included therein to only Medicare
or only Medicaid.
21.

Pursuant to 42 C.F.R. 413.100(c)(2)(i)(A), to
be reported on the relevant 2003 cost reports
at issue in this matter, the Strategic and
Providers Choice Annual Services and
Enhanced Services invoices had to be
liquidated within one year after the end of
the relevant cost-reporting periods.

22.

In addition to the requirement that a shortterm liability be liquidated in a year, the
PRM CMS 15-1 §2305 places an additional
requirement, specifically, where liquidation
is made by negotiable instrument, “payment
must be redeemed through an actual transfer
of the provider’s assets” within one year after
the end of the cost-reporting period.

23.

A promissory
instrument.

24.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 §2305, the costs for the Strategic
and Providers Choice Enhanced Services
December 31, 2003, invoices reported on the
2003 cost reports at issue in this matter, are
not allowable costs because the first actual
transfer of the CHS assets did not occur until
2005, over one year from the end of the cost
reporting period.

25.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 §2305, the Strategic Annual
Services December 2003 invoice costs

note

is

a

negotiable

App. 236
reported by Glen Meadows and Wellington
Manor are not allowable costs because the
invoices were not liquidated within one year
after the end of the relevant cost-reporting
periods.
26.

Pursuant to Ohio Adm. Code 5101:3-3-20(L)
(eff. 9/12/2003) and the Provider
Reimbursement Manual (“PRM”), CMS
Publication 15-1, § 2305, the Strategic
Annual Services January 2004 and February
2004 invoice costs reported by Glen Meadows
and Wellington Manor are not allowable
costs because the invoices were not
liquidated within one year after the end of
the relevant cost-reporting periods.

27.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 § 2305, the Strategic Annual
Services December 2003 invoice costs
reported by Terrace View Gardens, Franklin
Ridge, Vandalia Park, Glen Meadows, and
Wellington Manor are not allowable costs
because the invoices were not liquidated
within one year after the end of the relevant
cost-reporting periods.

28.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 § 2305, the Strategic Annual
Services November 2003 and December 2003
invoice costs reported by Carington Park are
not allowable costs because the invoices were
not liquidated within one year after the end
of the relevant cost-reporting periods.

App. 237
29.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 § 2305, the Providers Choice
Annual Services July 1, 2003, to December
31, 2003, invoice costs reported by East
Galbraith Health Care Center are not
allowable costs because the invoices were not
liquidated within one year after the end of
the relevant cost-reporting periods.

30.

The adjustments on State’s Exhibit 268 are
correct.

31.

Pursuant to the parties’ stipulations, the
adjustments on State’s Exhibit 267a are
correct.

32.

PRM 2105.8 specifically prohibits
reimbursement of sporting events.

33.

PRM 2105.8 allows reasonable costs
“incurred by providers for purposes of
employee morale, specifically, for annual
employee Christmas or holiday party, an
annual employee award ceremony or for
sponsorship of employee athletic programs
(bowling, softball, basketball teams, etc.)”

34.

The 2004 Cincinnati Reds season tickets are
a prohibited expense, are not one of, or
similar to one of, the listed employee morale
examples, and were not conferred during the
2003 cost reporting period. There was no
evidence who actually received these tickets.
Accordingly, the cost for the 2004 Cincinnati
Reds tickets are not allowable costs.

the

App. 238
35.

Any audit report, report of examination, exit
conference report or report of final
settlement issued by ODJFS and entered
into evidence is to be considered prima facie
evidence of what it asserts. Ohio Admin.
Code 5101:6-50-09(A)(4).

36.

The following patient days/patient liability
adjustments are correct:

Facility

Patient
Days/
Patient
Liability
FY Audit
at Issue

Adjustments to
Patient
Liability

Adjustments to
No. of Paid
Patient
Days

Carington
Park

FY 2003

$8,892.76

363.5

Carington
Park

FY 2004

$5844.28

167

Carington
Park

FY 2005

$2,849.76

337

Carington
Park

FY 2006

$10,191.70

374.5

Terrace
View
Gardens

FY 2003

$6,461.32

296.50

Terrace
View
Gardens

FY 2004

$910.00

51

App. 239
Terrace
View
Gardens

FY 2005

$945.00

19

Terrace
View
Gardens

FY 2006

-$3,706.00

3.0

Vandalia
Park

FY 2003

$8378.65

592.5

Vandalia
Park

FY 2004

$0

198

Vandalia
Park

FY 2005

$528.42

161.5

Vandalia
Park

FY 2006

-$2990.20

441

Franklin
Ridge

FY 2003

$1,404.98

175

Franklin
Ridge

FY 2004

$2,385.00

93

Franklin
Ridge

FY 2005

$1,474.88

61.5

Franklin
Ridge

FY 2006

-$1.563.00

7

East
Galbraith

FY 2003

$0.00

3

East
Galbraith

FY 2004

$405.00

54.5

App. 240
East
Galbraith

FY 2005

$0.00

45

East
Galbraith

FY 2006

$2827.64

867

WellingFY 2005
ton Manor

$0.00

3.5

Wellington
Manor

FY 2006

-$18.00

2.5

Glen
Meadows

FY 2004

$994.62

11.5

Glen
Meadows

FY 2005

$0.00

16

Glen
Meadows

FY 2006

-$6,385.00

9

37.

Based upon the foregoing findings of fact and
conclusions of law, and incorporating the
adjustments on State’s Exhibits 267a and
268 and on the preceding patient
days/patient liability chart, Respondents owe
the Department the following amounts for
each fiscal year:

Facility

Audit Issues

Amount
Owed by CHS

Carington
Park

FY 2003
Patient days/patient
liability audit only

$43,509.40

App. 241
Carington
Park

FY 2004
Patient days/ patient
liability audit only

$25,067.70

Carington
Park

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$2,586,852.40

Carington
Park

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$2,608,779.73

Terrace
View
Gardens

FY 2003
Patient days/patient
liability audit

$47,821.90

Terrace
View
Gardens

FY 2004
Patient days/ patient
liability audit only

$10,022.77

Terrace
View
Gardens

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$564,212.69

Terrace
View
Gardens

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$537,237.84

App. 242
Vandalia
Park

FY 2003
Patient days/patient
liability audit only

$88,945.40

Vandalia
Park

FY 2004
Patient days/ patient
liability audit only

$35,340.11

Vandalia
Park

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$270,681.51

Vandalia
Park

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$230,730.54

Franklin
Ridge

FY 2003
Patient days/patient
liability audit only

$29,858.76

Franklin
Ridge

FY 2004
Patient days/ patient
liability audit only

$16,407.45

Franklin
Ridge

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$584,324.18

App. 243
Franklin
Ridge

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$577,418.87

East
Galbraith

FY 2003
Patient days/patient
liability audit only

$606.54

East
Galbraith

FY 2004
Patient days/ patient
liability audit only

$30,997.09

East
Galbraith

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$913,384.29

East
Galbraith

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$1,215,526.66

WellingFY 2005
ton Manor CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$213,205.07

App. 244
Wellington
Manor

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$218,261.37

Glen
Meadows

FY 2004
Patient days/ patient
liability audit only

$1,317.80

Glen
Meadows

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$121,990.35

Glen
Meadows

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$139,057.54

Total: $11,111,557.96
Recommendation
Based upon the foregoing Findings of Fact and
Conclusions of Law, it is recommended that ODM
adopt the patient days/patient liabilities adjustments
as set forth in Attachment D, (attached hereto and
incorporated herein), the adjustments in State Exhibit
267a (attached hereto as Attachment A and
incorporated herein), and the adjustments in State
Exhibit 268 (attached hereto as Attachment B and
incorporated herein). It is further recommended that it

App. 245
be ordered that Respondents owe the Department of
Medicaid the amounts set forth in Conclusion of Law
No. 37. This recommendation is not a final order, and
may be approved, modified or rejected by the Director
of the Ohio Department of Medicaid, and shall not
become a final order unless and until it is approved by
the Director.
10-31-2015
Date

/s/Mary K. Crawford
Mary K. Crawford
Hearing Examiner
P.O. Box 14366
Columbus, Ohio 43214

App. 246
CERTIFICATE OF SERVICE
I certify that the original of this document was hand
delivered to the Ohio Department of Medicaid, Office of
Legal Counsel, 50 W. Town Street, Columbus Ohio, on
November 2, 2015, with instruction that file-stamped
copies are to be delivered by Department personnel to
the parties and their attorneys of record, if any, in the
manner prescribed by law and at the addresses shown
in the record of these proceedings.
/s/ Mary K. Crawford
Mary K. Crawford

App. 247
Stipulated Audit Adjustment Amounts for
CHS-Lake Erie, Inc. d.b.a.
Carington Park, Prov.# 2339260
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6001

1

(3,994)

0

6006

1

(1,242)

0

6001

2

(5,642)

(5,642)

6001

3

(45)

(45)

6020

3

(17,641)

0

6001

4

(1,970)

0

6001

5

(1,573)

(1,573)

6006

5

(1,710)

(1,710)

7055

5

54

54

7350

5

3,229

3,229

6001

6

(131)

(131)

6170

8

(25,480)

(25,480)

6530

8

(222,840)

0

7280

9

(129,723)

0

App. 248
7340

9

(5,545)

0

7340

11

(960)

(960)

8030

11

192

192

E-1

11

960

960

E-1

11

(192)

(192)

8020

12

(1,056)

(1,056)

8030

12

(19,776)

0

8040

12

(65,218)

0

E-1

12

(440,231)

0

E-1

12

177,233

0

E-1

12

(440,231)

0

E-1

12

263,283

0

8020

13

(148)

0

8030

13

(3,205)

0

8065

14

(119,016)

0

8195

15

(1,094,692)

0

8070

16

(11,372)

0

6095

17

(2,904)

0

6230

17

(30,461)

0

7310

17

(653,370)

(4,494)

8090

17

(17,463)

0

App. 249
Stipulated Audit Adjustment Amounts for
CHS-Ohio Valley, Inc. d.b.a
Terrace View Gardens, Prov # 2339384
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6001

1

(2,666)

(2,625)

6001

2

(1,863)

(1,863)

7025

2

301

301

7120

2

16

16

7350

2

1,546

1,546

6530

3

(128,569)

0

7340

5

(3,431)

0

7340

6

(1,085)

(1,085)

8040

6

164

164

E-1

6

1,085

1,085

E-1

6

(164)

(164)

8020

8

(1,404)

0

8030

8

(1,423)

0

8040

8

(2,617)

0

App. 250
E-1

8

(52,501)

0

E-1

8

17,052

0

E-1

8

(52,501)

0

E-1

8

22,497

0

8030

9

(167)

0

8040

9

(49)

0

8065

10

(49,682)

0

8195

11

(538,740)

0

A-1

12

4

4

6095

14

(1,175)

0

6230

14

(12,324)

0

7310

14

(141,347)

(1,818)

8090

14

(8,510)

(1,445)

6520

15

(28,002)

0

7065

15

(3,292)

0

7510

15

(4,477)

0

App. 251
Stipulated Audit Adjustment Amounts for
CHS-Miami Valley, Inc. d.b.a
Franklin Ridge, Prov # 2339688
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6000

1

(2,064)

(2,064)

6001

1

(168)

(168)

6006

1

(1,300)

(1,300)

7025

1

252

252

7055

1

117

117

7220

1

51

51

7320

1

3,112

3,112

6001

2

(1,452)

0

6001

3

(1,559)

(1,559)

6470

4

(1,700)

0

6530

4

(130,622)

0

7280

6

(64,380)

0

7340

6

(4,506)

(399)

7340

7

(1,734)

(1,734)

App. 252
7340

8

(2,110)

(2,110)

8065

8

2,110

2,110

8030

9

(4,996)

0

8040

9

(6,738)

0

E-1

9

(58,671)

0

E-1

9

27,987

0

E-1

9

(58,671)

0

E-1

9

39,721

0

8040

10

(1,007)

0

E-1

10

(5,035)

0

E-1

10

671

0

E-1

10

(5,035)

0

E-1

10

1,678

0

8030

11

(7,290)

0

8040

11

(18,768)

0

8065

12

(97,186)

0

8195

13

(242,625)

0

8070

14

(11,579)

0

A-1

15

10

10

6095

17

(1,352)

0

6230

17

(14,186)

0

App. 253
7310

17

(122,743)

(2,093)

8090

17

(8,133)

0

7200

18

(943)

0

App. 254
Stipulated Audit Adjustment Amounts for
CHS-Miami Valley, Inc. d.b.a
Vandalia Park, Prov # 2339624
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6001

1

(4,959)

(4,959)

6530

1

1,912

1,912

7520

1

420

420

7350

1

2,627

2,627

6001

2

(25,817)

0

6006

2

(1,965)

0

6001

3

(136)

(136)

6001

4

(5,327)

(5,327)

6530

6

(142,376)

(5,225)

7340

7

(8,586)

0

7340

8

(679)

(679)

8020

9

(2,060)

0

8030

9

(13,740)

0

8040

9

(41,734)

0

App. 255
E-1

9

(287,672)

0

E-1

9

98,759

0

E-1

9

(287,672)

0

E-1

9

142,723

0

8040

10

(8,047)

0

8065

11

(202,325)

0

8195

12

(392,600)

0

8070

13

(15,432)

0

6095

14

(2,277)

0

6230

14

(23,886)

0

7310

14

(242,197)

(3,524)

8090

14

(13,694)

0

7200

15

(757)

0

App. 256
Stipulated Audit Adjustment Amounts for
CHS-Greater Cincinnati, Inc. d.b.a
East Galbraith Health Care Center,
Prov # 2399033
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

E-1

1

(159,259)

0

6001

2

(2,875)

(2,875)

6001

3

(3,743)

(3,743)

6006

3

(69)

(69)

7350

3

3,351

3,351

8065

3

461

461

6190

5

(50,705)

0

6530

5

(131,626)

0

7350

6

(3,685)

0

7340

7

(2,537)

(2,537)

8065

8

(43,924)

(6,493)

8195

9

(286,529)

0

6095

11

(792)

0

6230

11

(8,311)

0

App. 257
7310

11

(83,774)

(1,226)

8090

11

(5,628)

(863)

7200

13

(1,568)

0

App. 258
Stipulated Audit Adjustment Amounts for
CHS-Glenwell, Inc. d.b.a
Glen Meadows Prov # 2429330
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

7070

1

(3,580)

0

7060

1

(220)

0

7220

1

(306)

(306)

7500

1

(1,007)

0

7520

1

(5,990)

0

E-1

1

(172,100)

(172,100)

E-1

1

(517)

(517)

7125

2

(2,414)

(2,414)

6001

3

(7,164)

0

6030

3

(6,029)

0

6001

4

(76)

(76)

6001

5

(270)

(270)

6001

6

(845)

(845)

7025

6

58

58

App. 259
7120

6

92

92

7220

6

323

323

7350

6

372

372

6530

7

(33,290)

0

6550

7

(5,865)

(4,740)

6530

9

(25,149)

0

6530

10

(30,018)

0

7225

11

(4,652)

0

7265

11

(1,110)

0

7280

11

(19,984)

0

7290

11

(2,099)

0

7340

11

(6,451)

0

7265

12

(2,767)

0

7215

13

(14,071)

0

7340

13

(1,371)

(1,371)

E-1

14

(64,300)

(64,300)

8030

15

(1,607)

0

8040

15

(5,187)

0

8050

15

(1,100)

0

E-1

15

(153,863)

0

E-1

15

95,651

0

App. 260
8030

16

(654)

0

8040

16

(97)

0

8065

17

(26,081)

0

8195

18

(136,188)

0

A-1

19

8

8

6095

21

(376)

0

6230

21

(3,038)

0

7310

21

(29,064)

(396)

8090

21

(1,529)

0

7200

22

(1,140)

0

E-1

23

(566,294)

(566,294)

E-1

24

(66,274)

(66,274)

6120

25

(1,489)

0

6195

25

(7,176)

0

App. 261
Stipulated Audit Adjustment Amounts for
CHS-Glenwell, Inc. d.b.a
Wellington Manor of Butler County.
Prov # 2429321
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

7070

1

(8,048)

0

E-1

1

(274,400)

(274,400)

7125

2

(2,027)

(2,027)

E-1

3

(29,400)

(29,400)

6001

4

(2,152)

0

6006

4

(101)

0

6001

5

(145)

(145)

6006

5

(325)

(325)

7025

5

97

97

7120

5

31

31

7255

5

17

17

7350

5

325

325

6060

6

(1,718)

0

6001

7

(30,000)

(30,000)

App. 262
6100

9

(2,050)

0

6530

9

(48,681)

0

6530

10

(15,859)

0

7280

11

(18,038)

0

7340

11

(4,854)

0

7520

11

(7,439)

0

7215

12

(10,909)

0

8020

13

(638)

0

8030

13

(1,160)

0

8040

13

(2,194)

0

E-1

13

(90,870)

0

E-1

13

66,268

0

8020

14

(218)

0

8030

14

(668)

0

8040

14

(513)

0

8065

15

(20,103)

0

8195

16

(115,248)

0

6095

18

(281)

0

6230

18

(2,274)

0

7310

18

(21,758)

(296)

8090

18

(1,145)

0

App. 263
6520

19

(4,648)

0

7065

19

(463)

0

7510

19

(750)

0

E-1

20

(112,536)

(112,536)

E-1

21

(60,470)

(60,470)

6120

22

(2,156)

0

App. 264
STIPULATED DISPUTED AMOUNT COST ACCOUNT 6210
NAME &
PROVIDER
NO.

ADJUST- ORIGINAL
MENT
ADJUSTNO.
MENT NO.

STIPULATED
DISPUTED
AMOUNT

CARRINGTON PARK,
2339268

7

(2,395,856)

(2,128,476)

TERRACE
VIEW
GARDENS,
2339384

4

(727,104)

(610,592)

FRANKLIN
RIDGE,
2339688

4

(425,00)

(284,332)

5

(153,456)

(153,456)

VANDALIA
PARK,
2339624

5

(249,552)

(20,796)

EAST GALBRAITH
HEALTH
CARE
CENTER,
2399033

4

(555,550)

(430,000)

GLEN
MEADOWS,
2429330

8

(39,655)

(39,655)

App. 265
WELLINGTON
MANOR
OF
BUTLER
COUNTY,
2429321

8

(30,741)

(30,741)

After discovering that the Provider No. for Franklin
Ridge was incorrect on State Exhibit 268, during the
hearing, the parties agreed that the correct number
could be inserted in pen on the exhibit. (Tr., Pt. II, pp.
20-21)

App. 266
STIPULATED DISPUTED AMOUNT COST ACCOUNT 7215
NAME &
PROVIDER
NO.

ADJUST- ORIGINAL
MENT
ADJUSTNO.
MENT NO.

STIPULATED
DISPUTED
AMOUNT

CARRINGTON PARK,
2339268

9
________

(625,000)
___________

(520,632)
__________

10

(44,368)

(44,368)

TERRACE
VIEW
GARDENS,
2339384

5
________

(200,000)
___________

(152,251)
__________

7

(17,749)

(17,749)

FRANKLIN
RIDGE,
2339688

6

(200,000)

(200,000)

7

(54,456)

0

VANDALIA
PARK,
2339624

7
________

(350,000)
___________

(251,379)
__________

8

(73,621)

(73,621)

EAST GALBRAITH
HEALTH
CARE
CENTER,
2399033

6

(350,000)

(350,000)

________

___________

__________

7

(15,000)

(15,000)

App. 267
STIPULATED DISPUTED AMOUNT REDS TICKETS ISSUE
NAME &
ADJUSTPROVIDER MENT NO.
NO.

ORIGINAL
ADJUSTMENT
NO.

STIPULATED
DISPUTED
AMOUNT

6530
___________

13
___________

(907)
___________

7070
___________

13
___________

(113)
___________

7520

13

(114)

16
___________

(907)
___________

16
___________

(113)
___________

7520

16

(114)

7070
___________

10
___________

(113)
___________

7520

10

(114)

20
___________

(907)
___________

20
___________

(113)
___________

20

(114)

TERRACE
VIEW
GARDENS,
2339384

FRANKLIN 6530
___________
RIDGE,
2339688
7070
___________

EAST GALBRAITH,
2399033

6530
GLEN
MEADOWS ___________
, 2429330
7070
___________
7520

App. 268
WELLINGTON
MANOR
2429321

6530
___________

17
___________

(907)
___________

7070
___________

17
___________

(113)
___________

7520

17

(114)

App. 269
BEFORE THE OHIO DEPARTMENT OF JOB
AND FAMILY SERVICES
In the Matters of:
CHS-Glenwell, Inc. 09 LTC17
CHS-Glenwell, Inc. 09LTC18
CHS-Glenwell, Inc. 09LTC119
CHS-Hamilton County, Inc. 09LTC30
CHS-Hamilton County, Inc. 09L TC31
CHS-Hamilton County, Inc. 09LTC32
CHS-Hamilton County, Inc. 09LTC33
Carington Health Systems 09LTC24
Carington Health Systems 09LTC25
CHS-Miami Valley, Inc. 09LTC13
CHS-Miami Valley, Inc. 09LTC14
CHS-Miami Valley, Inc. 09LTC15
CHS-Miami Valley, Inc. 09LTC16
CHS-Miami Valley, Inc. 09LTC34
CHS-Miami Valley, Inc. 09LTC35
CHS-Miami Valley, Inc. 09LTC36
CHS-Miami Valley, Inc. 09LTC37
CHS-Greater Cincinnati, Inc. 09LTC20
CHS-Greater Cincinnati, Inc. 09LTC21
CHS-Greater Cincinnati, Inc. 09LTC22
CHS-Greater Cincinnati, Inc. 09LTC23
CHS-Lake Erie, Inc. 09LTC26
CHS-Lake Erie, Inc. 09L TC27

App. 270
CHS-Lake Erie, Inc. 09LTC28
CHS-Lake Erie, Inc. 09LTC29,
Respondents/Providers.
Mary K. Crawford
Hearing Examiner
STIPULATIONS OF THE PARTIES
The Department of Job and Family Services and the
Respondents (hereinafter collectively “Carington
Health Systems”) stipulate and agree that for all
purposes in these adjudicatory hearings, and any
appeals arising, therefrom that the following
stipulations are made, entered into and binding upon
the parties as evidenced by the signatures of their
counsel, as facts which do not require testimony or
other evidence.
It is therefore stipulated by the parties that:
1. Carington Health Systems timely filed a request
for adjudicatory hearing in the referenced matters.
2. Carington Health Systems does not, by entering
into this stipulation, waive its right to contest on
procedural and/or substantive grounds the DJFS’s
position on and relating to the issue regarding
“Liquidation of Liabilities”.
3. Carington Health Systems does not waive any
objections to the Audit Reports and Reports of Final
Settlement previously addressed in this matter by
hearing before the Hearing Examiner consisting
principally of whether the Department of Job and
Family Services (“DJFS”) conducted an audit in

App. 271
compliance with the Ohio Revised Code and Ohio
Administrative Codes governing provisions.
4. Notwithstanding the contents of any initial or
any amended Audit Report in these proceedings, the
parties have agreed to the Proposed Cost Adjustments
on State’s Exhibits 267.
5. The Proposed Cost Adjustments on State’s
Exhibit 268 are the sole and only remaining cost report
audit adjustment issues (excepting the findings for
resident days remain an issue for each of the Carington
Health Systems’ facilities):
6. With respect to account 6210 on State’s Exhibit
268, it is stipulated that:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Strategic Nursing Systems, Inc,
at State’s Exhibit 57. The costs associated with
this consulting agreement were reported in
account 6210. Strategic Nursing Systems, Inc.
invoiced Carington Park monthly for the
consulting fees and Carington Park paid each
invoice by check as shown in State’s Exhibit 58.
The consulting agreement (State’s Exhibit 57)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 59. Carington Park issued an
installment promissory note for the December
31, 2003 for the Enhanced Services invoice,
State’s Exhibit 60. The payments of the

App. 272
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 61.
B. CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Strategic
Nursing Systems, Inc. at State’s Exhibit 92. The
costs associated with this consulting agreement
were reported in account 6210. Strategic
Nursing Systems, Inc. involced Terrace View
Gardens monthly for the consulting fees and
Terrace View Gardens paid each invoice by
check as shown in State’s Exhibit 93. The
consulting agreement (State’s Exhibit 92)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 94. Terrace View Gardens
issued an installment promissory note for the
December 31, 2003 Enhanced Services invoice,
State’s Exhibit 95. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 96.
C. CHS – Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered into
an agreement with Strategic Nursing Systems,
Inc. at State’s Exhibit 119. The costs associated
with this consulting agreement were reported in
account 6210. Strategic Nursing Systems, Inc.
invoiced Franklin Ridge monthly for the
consulting fees and Franklin Ridge paid each
invoice by check as shown in State’s Exhibit 120.

App. 273
The consulting agreement (State’s Exhibit 119)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 121. Franklin Ridge issued an
installment promissory note for the December
31, 2003 Enhanced Services invoice, State’s
Exhibit 122. The payments of the installment
promissory note were per the note’s terms and
were by checks at State’s Exhibit 123.
D. CHS – Miami Valley, Inc. d.b.a. Vandalia
Park, provider number 2339624, entered into an
agreement with Strategic Nursing Systems, Inc.
at State’s Exhibit 154. The costs associated with
this consulting agreement were reported in
account 6210. Strategic Nursing Systems, Inc.
invoiced Vandalia Park monthly for the
consulting fees and Vandalia Park paid each
invoice by check as shown in State’s Exhibit 155.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with
Strategic Nursing Systems, Inc. at State’s
Exhibit 181. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
East Galbraith monthly for the consulting fees
and East Galbraith paid each invoice by check as
shown in State’s Exhibit 182. The consulting
agreement (State’s Exhibit 181) contained an
Attachment A for Enhanced Services, with an

App. 274
additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by State’s
Exhibit 183. East Galbraith issued an
installment promissory note for the December
31, 2003 Attaclunent A Enhanced Services
invoice, State’s Exhibit 184. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 185.
The consulting agreement (State’s Exhibit 181)
also contained an Attachment B for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 186. East Galbraith issued an
installment promissory note for the December
31, 2003, Attachment B Enhanced Services
invoice, State’s Exhibit 187. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 188.
7. With respect to account 7215 on State’s Exhibit
268, it is stipulated that:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Providers Choice
Administrative Services, Inc, at State’s Exhibit
63. The costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services, Inc.
invoiced Carington Park monthly for the
consulting fees and Carington Park paid each
invoice by check as shown in State’s Exhibit 64.

App. 275
The consulting agreement (State’s Exhibit 63)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003. Carington Park
issued an installment promissory note for the
December 31, 2003 Enhanced Services fee,
State’s Exhibit 65. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 66.
B. CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Providers
Choice Administrative Services, Inc, at State’s
Exhibit 98. The costs associated with this
consulting agreement were reported in account
7215. Providers Choice Administrative Services,
Inc. invoiced Terrace View Gardens monthly for
the consulting fees and Terrace View Gardens
paid each invoice by check as shown in State’s
Exhibit 99. The consulting agreement (State’s
Exhibit 98) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. Terrace View Gardens issued an
installment promissory note for the December
31, 2003, Enhanced Services fee, at State’s
Exhibit 100. The payments of the installment
promissory note were per the note’s terms and
were by checks at State’s Exhibit 101.
C. CHS – Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered into
an agreement with Providers Choice

App. 276
Administrative Services, Inc., at State’s Exhibit
125. The costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services, Inc.
invoiced Franklin Ridge monthly for the
consulting fees and Franklin Ridge paid each
invoice by check as shown in State’s Exhibit 126.
The consulting agreement (State’s Exhibit 125)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003. Franklin Ridge
issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 127. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 128.
D. CHS – Miami Valley, Inc. d.b.a. Vandalia
Park, provider number 2339624, entered into an
agreement with Providers Choice
Administrative Services, Inc., at State’s Exhibit
157. The costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services, Inc.
invoiced Vandalia Park monthly for the
consulting fees and Vandalia Park paid each
invoice by check as shown in State’s Exhibit 158.
The consulting agreement (State’s Exhibit 157)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003. Vandalia Park
issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 159. The payments of the

App. 277
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 160.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with
Providers Choice Administrative Services, Inc.,
at State’s Exhibit 190. The costs associated with
this consulting agreement were reported in
account 7215. Providers Choice Administrative
Services, Inc. invoiced East Galbraith monthly
for the consulting fees and East Galbraith paid
each invoice by check as shown in State’s
Exhibit 191. The consulting agreement (State’s
Exhibit 190) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. East Galbraith issued an installment
promissory note for the December 31, 2003,
Enhanced Services fee, at State’s Exhibit 192.
The payments of the installment promissory
note were per the note’s terms and were by
checks at State’s Exhibit 193.
8. Based upon documents received during the
discovery process, DJFS will not proceed on
disallowance of costs in accounts 6210 and 7215 on the
basis of related party. DJFS will not proceed for
disallowance of costs in accounts 6210 and 7215 for
inadequate documentation as to Terrace View,
Vandalia Park, East Galbraith Health Care Center,
Carington Park and Franklin Ridge. As to Wellington
Manor and Glen Meadows the record will be held open
on the issue of inadequate documentation pending

App. 278
receipt of cancelled checks and invoices for January
and February, 2004, for Account 6210. The DJFS’s
basis for the proposed disallowance of the costs
reported in 6210 and 7215 is that the costs were not
timely liquidated as provided by the provisions of 42
CFR §413.100 (Generally described as the “Liquidation
of Liabilities Rule”) and the provisions of Pub. 15-1
§2305(A), §2305.1 and §2305.2.
9. Each party’s exhibits are admitted for all relevant
purposes.
10. The evidence presented at the Phase I hearing
regarding the issue of whether an audit was conducted
applies to all seven providers.
IT IS SO AGREED;
/s/William Greene, Esq.
William Greene, Esq.
Charity Rohl, Esq.
Assistant Attorneys General
Health & Human Services Section
150 East Gay Street, 17th Floor
Columbus, Ohio 43215-3428
Counsel for Ohio Department of
Job and Family Services

App. 279
/s/Geoffrey E. Webster
Geoffrey E. Webster (0001892)
Webster & Associates Co, LPA
17 South High Street, Suite 770
Columbus, OH 43215
Telephone: (614) 461-1156
Facsimile: (614) 461-7168
E-mail: gewebster@gewebster.com
Counsel for CHS

App. 280
Facility

State’s
Patient
Exhibit
Days/
No.
Patient
Liability
FY Audit
at Issue

Adjustments to
Patient
Liability
1

Adjustments
to No.
of
Paid
Patient
Days

Carington Park

FY 2003

$8,892.76

363.5

p. 19
(column
C)

p. 8
(column
E)

$5844.28

167

p. 20
(column
C)

p. 8
(column
E)

$2,849.76

337

p. 21
(column
C)

p. 5
(column
E)

Carington FY 2004
Park

Carington FY 2005
Park

1

242

243

244a

The patient-liability adjustment amounts in this chart are not the
amounts that CHS owes to ODM. The total amounts the CHS
facilities owe to ODM are calculated by multiplying the correct
number of patient days by the correct rate and subtracting the
correct patient liability.

App. 281
Carington FY 2006
Park

245b

$10,191.70 374.5
p. 19
(column
C)

Terrace
View
Gardens

FY
2003

Terrace
View
Gardens

FY
2004

Terrace
View
Gardens

FY
2005

Terrace
View
Gardens

FY
2006

Vandalia
Park

FY
2003

246

247

248

249a

250

p. 5
(column
E)

$6,461.32

296.50

p. 15
(column
C)

p. 5
(column
E)

$910.00

51

p. 10
(column
C)

p. 6
(column
E)

$945.00

19

p. 14
(column
C)

p. 5
(column
E)

-$3,706. 00

3.0

p. 10
(column
C)

p. 5
(column
E)

$8378.65

592.5

p. 17
(column
C)

p. 6
(column
C)

App. 282
Vandalia
Park

Vandalia
Park

Vandalia
Park

Franklin
Ridge

Franklin
Ridge

Franklin
Ridge

FY
2004

FY
2005

FY
2006

FY
2003

FY
2004

FY
2005

251

252a

253a

254

255

256a

$0

198

p. 17
(column
C)

p. 6
(column
E)

$528.42

161.5

p. 16
(column
C)

p. 5
(column
E)

-$2990.20

441

p. 19
(column
C)

p. 5
(column
E)

$1,404.98

175

p. 17
(column
C)

p. 6
(column
E)

$2,385.00

93

p. 14
(column
C)

p. 6
(column
E)

$1,474.88

61.5

p. 15
(column
C)

P. 5
(column
E)

App. 283
Franklin
Ridge

East
Galbraith

East
Galbraith

East
Galbraith

East
Galbraith

Wellington
Manor

FY
2006

FY
2003

FY
2004

FY
2005

FY
2006

FY
2005

257a

258

259

260a

261a

262

-$1.563.00

7

p. 9
(column
C)

p. 5
(column
E)

$0.00

3

p. 9
(column
C)

p. 6
(column
E)

$405.00

54.5

p. 12
(column
C)

P. 6
(column
E)

$0.00

45

p. 32
(column
C)

p. 21
(column
E)

$2827.64

867

p. 19
(column
C)

p. 5
(column
E)

$0.00

3.5

p. 10
(column
C)

p. 5
(column
E)

App. 284
Wellington
Manor

Glen
Meadows

Glen
Meadows

Glen
Meadows

FY
2006

FY
2004

FY
2005

FY
2006

263

264

265a

266a

-$18.00

2.5

p. 10
(column
C)

p. 5
(column
E)

$994.62

11.5

p. 12
(column
C)

p. 6
(column
E)

$0.00

16

p. 12
(column
C)

p. 6
(column
E)

-$6,385.00

9

p. 8
(column
C)

p. 5
(column
E)

App. 285

APPENDIX G
OHIO DEPARTMENT OF MEDICAID
50 W. TOWN STREET
COLUMBUS, OHIO
[Filed: October 31, 2015]
IN THE MATTER OF:
CHS-Glenwell, Inc. 09LTC17-19
CHS-Ohio Valley, Inc. 09LTC30-33
CHS-Glenwell, Inc. 09LTC24-25
CHS-Miami Valley, Inc. 09LTCl3-16, 34-37
CHS-Greater Cincinnati, Inc. 09LTC20-23
CHS-Lake Erie, Inc. 09LTC26-29
Mary K. Crawford
Hearing Examiner
Respondents/Providers
October 31, 2015
Report and Recommendation
Appearances: For the Department of Medicaid:
Mike De Wine, Attorney General, and by William C.
Greene and Charity Robl, Assistant Attorneys General,
Health and Human Services Section, 26th Floor, 30
East Broad Street, Columbus, Ohio 43215. Phone: (614)
466-8600; Fax: (614) 466-6090.
For the Provider: Geoffrey E. Webster, Webster &
Associates Co., LPA, 17 South High Street, Suite 770,

App. 286
Columbus, Ohio 43215. Phone: (614) 461-1156; Fax:
(614) 461-7168.
Nature of the Case
These are proceedings taken pursuant to Ohio
Revised Code Chapters 119 and 5111.1 The Ohio
Department of Medicaid (“ODM”)2 proposes to
implement the findings of cost report audits and/or
patient days and patient liability audits conducted of
Respondents. Accordingly, the Department issued
Proposed Adjudication Orders (PAO), stating its
reasons for such proposed action and informing
Respondents of their right to a hearing. The parties
stipulated that Respondents timely requested a
hearing. (Tr., Pt. II, p. 23)

1

The provisions of R. C. Chapter 5111 were renumbered under R.
C. Title 51 and a few repealed by 130th General Assembly, HB 59.
2

The Ohio Department of Job and Family Services (ODJFS) issued
Proposed Adjudication Orders to Respondents, who timely
requested hearings. Since that time, pursuant to Am. Sub. HB 59
of the 130 General Assembly, eff. 7/1/2013, the Ohio legislature has
created a new department, Ohio Department of Medicaid (ODM),
which has assumed responsibility and authority over the Medicaid
cases previously under ODJFS’ jurisdiction. Throughout this
Report and Recommendation, references made to the Ohio
Department of Job and Family Services (ODJFS) or Office of
Medical Assistance or Ohio Department of Medicaid (ODM) may
be used interchangeably and for ease of reference may be called
“the Department.”

App. 287
Summary of the Facts
Procedural Matters
Initially, the cases involved in this matter were
divided between two hearing examiners. Originally, the
above referenced hearing examiner was assigned CHSGlenwell, Inc. Docket Nos. 09LTC17, 09LTC18,
09LTC19, CHS-Hamilton County, Inc. Docket Nos.
09LTC30, 09LTC31, 09LTC32, 09LTC33,3 and
Carington Health Systems Docket Nos. 09LTC24,
09LTC254. Thereafter, the following cases were
transferred to the above referenced hearing examiner
and the parties agreed to consolidate the cases: CHSMiami Valley, Inc. Docket Nos. 09LTC13, 09LTC14,
09LTCI5, 09LTC16, 09LTC34, 09LTC35, 09LTC36,
09LTC37, CHSGreater Cincinnati, Inc. Docket Nos.
09LTC20, 09LTC21, 09LTC22, 09LTC23, and CHSLake Erie, Inc. Docket Nos. 091 TC26, 09LTC27,
09LTC28, 09LTC29.
Prior to the consolidation, there were three days of
hearings in the CHS-Glenwell, Inc. Docket Nos.
09LTC17, 09LTC18, 09LTC19, CHS-Hamilton County,

3

During the hearing, the parties agreed that the correct name for
CHS-Hamilton County, Inc. is CHS-Ohio Valley, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the correct Provider No. was used
for the entities. (Tr., Pt. II, pp. 23-4)
4

During the hearing, the parties agreed that the correct name for
CHS-Carington Health Systems is CHS-Glenwell, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the documents the correct
Provider No. was used for the entities. (Tr., Pt. II, pp. 23-24)

App. 288
Inc. Docket Nos. 09LTC30, 09LTC31, 09LTC32,
09LTC33, and Carington Health Systems Docket Nos.
09LTC24, 09LTC25 cases to address Respondents’
challenge that the Department had not conducted
audits. After consolidation, the parties agreed that the
determination of whether an audit was conducted
would apply to all the cases in consolidated case.
(Stipulation of the Parties, No. 10)
During Part I of the hearing, sworn testimony was
received from Daniel Wilkins, who had recently retired
as Section Chief with ODJFS Bureau of Audit; Emily
Hess, CPA, Senior Manager with Clifton Gunderson,
Public Sector Healthcare Division; Kevin Kent, ODJFS
External Audit Supervisor; Kierstyn Canter, ODJFS
Audit Manager; Bert Cummins, CPA, designated
representative for Respondents; and Christopher
Carson, CPA, ODJFS Bureau Chief with Office of
Fiscal and Monitoring Services. During Part II of the
hearing, sworn testimony was received from Emily
(Hess) Wale;5 John Fleischer, CPA with the firm of
Howard, Wershbale & Co.; Kierstyn Canter; John
Hapchuk, an independent consultant who had worked
with the U.S. Office of the Inspector General as a
senior auditor and audit manager over the Medicare
program; and Julie Evers, ODJFS Section Chief for
Disability and Aging Policy. A court reporter was
present for all days of the hearing.

5

Ms. Wale’s former name was Emily Hess, who had testified
during Part I of the hearing. In order to avoid confusion, Ms. Wale
will be referred to as Ms. Hess in this Report and
Recommendation. (Tr., Pt. II, p. 30)

App. 289
The pages of the transcripts in Part I are numbered
consecutively as follows: Vol. I - pp. 1-217; Vol. II -pp.
218-462; Vol. III-pp. 463-685. The pages of the
transcripts in Part II are numbered consecutively as
follows: Vol. I - pp. 1-7; Vol. II - pp. 8-313; Vol. III - pp.
314-454; Vol. IV - pp. 455-641; Vol. V - pp. 642-649; Vol.
VI- pp. 650-817; Vol. VII - pp. 818-935; Vol. VIII - pp.
936-1082; Vol. IX - pp. 1083-1116. Throughout the
Report and Recommendation, references to the
transcript will be indicated as either Part (Pt.) I or II
and then the page number.
Background
The Respondents in this matter are: CHS-Glenwell,
Inc. [Glen Meadows (provider number 2429330)]; CHSOhio Valley, Inc. [Terrace View Gardens (provider
number 2339384)]; CHS-Glenwell, Inc. [Wellington
Manor (provider number 2429321)]; CHS-Miami
Valley, Inc. [Vandalia Park (provider number
2339624)]; CHS-Miami Valley, Inc. [Franklin Ridge
(provider number 2339688)]; CHS-Greater Cincinnati,
Inc. [East Galbraith Health Care Center (provider
number 2399033)]; and CHS-Lake Erie, Inc. [Carington
Park (provider number 2339268)]. Respondents operate
long-term care facilities, providing room, board and
related nursing services to persons eligible for benefits
under Ohio’s Medicaid program. At the time at issue,
ODJFS administered the Medicaid program pursuant
to R.C. Chapter 5111 and Title XIX of the Social
Security Act.
The Medicaid cost reports at issue in this matter
are: 1) the calendar year 2003 Medicaid cost reports
filed by Carington Park, Terrace View Gardens,

App. 290
Vandalia Park, and Franklin Ridge; 2) the six-month
cost report covering July 1, 2003, to December 31, 2003,
filed by East Galbraith Health Care Center; and 3) the
three-month cost reports covering December 1, 2003, to
February 29, 2004, filed by Glen Meadows and
Wellington Manor. The cost reports are collective
referred to as “2003 cost reports.” The Department also
audited the patient days and patient liability for: 1)
Carington Park, Terrace View Gardens, Vandalia Park,
Franklin Ridge, East Galbraith Health Care Center for
fiscal years 2003, 2004, 2005, and 2006; 2) Glen
Meadows for fiscal years 2004, 2005, and 2006; and 3)
Wellington Manor for fiscal years 2005 and 2006.
Audit/ Agreed Upon Procedures
During the Phase One of the administrative
hearings requested by Respondents, the issue
addressed was whether an audit was performed of the
cost reports for three of the nursing homes.
In order to conduct an audit of a cost report, the
person(s) conducting the audit reviews records and
documents to ensure that the amounts reported in a
provider’s annual cost report are reported accurately,
are allowable, documented, related to patient care and
reasonable. Each cost in a cost report should be
verifiable through documentation. (R.C. 5111.27;
ODJFS Post Phase One Hearing Memorandum at 1)
ODJFS issued a Request for Proposal (RFP)
seeking independent professional auditors to audit the
calendar year 2003 Medicaid Nursing Facility Cost
Reports. The RFP stated:

App. 291
The objective of the contracts resulting from this
RFP are to provide ODJFS with the resources
necessary to issue the statutory audit reports on
cost reports of long term care facilities located in
the State of Ohio and certified as providers
under the Medicaid program.
ODJFS is soliciting the services of qualified
vendors to perform “Agreed-Upon Procedures”
engagements with respect to ODJFS 2524
Medicaid cost reports...for CY2003. These
engagements are to be performed in accordance
with the provisions contained in this RFP and
Attestation Engagements (AT) Section 600 of the
AICPA (American Institute of Certified Public
Accountants) Codification of Statements for
Attestation Engagements.
(Tr., Pt. I, pp. 32, 42; State Exhibit 4, Wellington
Manor p. 1672)
A committee with ODJFS’ Bureau of Audits
reviewed the responses to the RFPs and two firms were
selected to conduct the cost report audits. One of these
firms was Clifton Gunderson, which has “been
performing cost report audits since the Medicaid
program began in the mid-1960s ... and [has] served
the Ohio Medicaid program since 1999.” Emily Hess,
who was the Supervisor Manager over the audits at
question herein, testified that the audits of CHS at
issue herein were conducted in the same manner that
it had performed all other cost report audits in Ohio
from 2000-2006. For over 12 years, Ms. Hess performed
nothing but Medicaid cost report audits for Clifton
Gunderson, including 900 - 1,000 in Ohio nursing

App. 292
homes and hospitals. Whenever Clifton Gunderson had
an engagement in Ohio, Ms. Hess was the manager
assigned. (Tr., P. I, pp. 44-45, 230, 232-34, 319-20;
State Exhibit 3, Wellington Manor p. 1559)
As stated in the RFP, the successful vendor was to
perform “Agreed-Upon Procedures” engagements for
the CY2003 cost reports. These Agreed-Upon
Procedures set forth the scope and method to be
utilized in conducting the cost report audits. The
Department provided Clifton Gunderson training to
review the procedures. Ms. Hess testified that Clifton
Gunderson quite frequently performed Agreed-UponProcedures with attestation standards for all of their
state clients, not just Ohio. She stated that in AgreedUpon Procedure engagements, the client, i.e. Ohio or
other states, would set forth procedures, which told
Clifton Gunderson or other vendor what they need to
be looking for. (Tr., Pt. I, pp. 148, 236-38)
An example of the reviewer’s checklist for AgreedUpon Procedures is set forth in State Exhibit 1,
starting with planning, proceeding step by step all the
way to the exit conference and completing the report.
The description of the task is listed in one column and
the work paper references are filled in as the work is
completed. (Tr., Pt. I, pp. 248-49)
Ms. Hess stated that there are different procedures
for full-blown financial based audits than for AgreedUpon Procedures. She stated that the Agreed-Upon
Procedures, especially in Ohio, is very in-depth. The
purpose of an audit for a financial base is more of a
balance sheet for the stockholders. The purpose of an

App. 293
Agreed-Upon Procedures is to validate expenses and
revenues. (Tr., Pt. I, pp. 498-99)
Clifton Gunderson assigned a partner, manager,
supervisor and three field auditors to the audits at
issue herein. In preparing to conduct the audit, Clifton
Gunderson contacted CHS on March 1, 2006, over three
months prior to the site visit scheduled for the week of
June 12, 2006 at CHS’ home office in Hamilton, Ohio,
where CHS indicated the relevant documents were
housed. In its letter, Clifton Gunderson stated: “ To
minimize disruptions to you and your staff during the
field work phase of the review, please send the
information listed on the attached letter to us by April
7, 2006.” The attachment listed 32 categories for items
to be produced. Furthermore, the list indicated the
specific accounts in the cost report to be audited. Ms.
Hess stated that CHS only produced documents
responsive to one of the requests. (Tr., Pt. I, pp. 30103; State Exhibit 9, Terrace View, p. 255)
Prior to the site visit, a second request was made for
the general ledger accounts, which are comprehensive
transaction lists. As stated in the original list, a review
of the general ledger was necessary for the auditors to
select invoices for the identified cost accounts to be
audited. This second request for the general ledger was
not honored until after the site visit had commenced.
Moreover, during the week-long on-site field work, the
auditors were waiting for documents that had been
requested from CHS three months previously. (Tr., Pt.
I, pp. 304-06)
On the last day of the field work, an exit conference
was held and signed off by three Clifton Gunderson

App. 294
staff and David McClellan, the Corporate Controller for
CHS at the time. The signed form states: “All of the
proposed adjustments known at this time were
discussed with the Provider and a copy of the proposed
adjustments was given to the Provider.” (Tr., Pt. I, pp.
258, 307, 365-67; State Exhibit 9, Terrace View pp.
371-72 (italics in original))
At the exit conference, Clifton Gunderson asked
CHS to sign the representation letter, which is part of
the Agreed-Upon Procedures. CHS’ consultant,
Cummins, Krasik and Hohl, informed Clifton
Gunderson that CHS would not sign it. Ms. Hess
explained that Section 600 of the AICPA requires a
representation letter, which is usually signed on the
last day of field work. This letter is obtained from the
entity being audited, in this case, Respondents. The
letter should state, among other things, that, to
Respondents’ knowledge, “they provided all
documentation to [Clifton Gunderson], that they were
not aware of any fraud from the time that they
submitted the cost report to the time” of the audit.
Furthermore, they represent that they disclosed
“anything else that...to their knowledge would be
impactful to the engagement,” i.e., anything that would
impact or affect the costs reported in the cost reports.
The letter used by Clifton Gunderson was a standard
form, the template of which was provided by ODJFS.
(Tr., Pt. I, pp. 239, 307-11, 506, 608)
Mr. Cummins stated that his firm advised CHS not
to sign the form because there was language in the
letter that was asking CHS “to agree to the sufficiency
of the procedures that they [Clifton Gunderson]

App. 295
performed.” When Clifton Gunderson informed the
Department of CHS’ refusal to sign the letter, Clifton
Gunderson was instructed to proceed with the audit as
usual. (Tr., Pt. I, pp. 309-10, 548)
At the exit conference Clifton Gunderson also gave
CHS a list of still outstanding documents, which was
very similar to the list sent in March 2006. This list
included, among other things, invoices, canceled checks
and contracts, which would substantiate
documentation for reported costs. Ms. Hess stated that
providers are required to maintain proper
documentation to support costs. Without that
documentation, the cost would be removed from the
cost report, resulting in an adjustment. The letter
stated that if the items were not received by Clifton
Gunderson by June 30, 2006, Clifton Gunderson would
“make the required adjustments in [its] report to the
Ohio Department of Job and Family Services.” (Tr., Pt.
I, pp. 306, 311, 315-16; State Exhibit 9, Terrace View
pp. 377-80)
CHS provided some documentation for expenses
prior to the deadline and Clifton Gunderson
incorporated that information prior to issuing the
proposed cost adjustment letter, which was sent to
CHS along with supporting work papers of those
adjustments. CHS was given seven days to respond to
the report; otherwise, the finalized report would be
sent to the Department. CHS did not respond and the
draft adjustments were finalized to the Department.
The Department received the Audit Input Document,
copy of the proposed cost adjustments and papers to

App. 296
support Clifton Gunderson’s proposed
adjustments. (Tr., Pt. I, pp. 105, 317-19)

cost

After the Department received the finalized report
from Clifton Gunderson, Kevin Kent6 of the
Department performed a high level review for
accepting the actual audit from Clifton Gunderson. Mr.
Kent explained that the review was not detailed. As
Mr. Wilkins stated, the Department is not going back
to re-perform the work of the contract auditors. Rather,
the Department relied upon Clifton Gunderson to
perform the detailed review of documentation. The
Department is “just ensuring that what has been done
is adequately documented in the working papers, and
that the adjustments tie back to those working papers
that are submitted.” He merely reviewed the report to
see that the Agreed-Upon Procedures were performed.
(Tr., Pt. I, pp. 55, 326-28, 360; State Exhibit 9, Terrace
View pp. 1133-41)
During the hearing, Mr. Kent showed the process he
went through comparing his checklist of review criteria
against the checklist with supporting documents
initialed by the auditors as work was completed and, if
necessary work papers. He conducted a similar quality
review of all seven CHS audits. He stated that Clifton
Gunderson passed the audit review he conducted. After
Mr. Kent completed his review, then there was a final
higher review and a final signoff to accept the audit as

6

Mr. Kent holds a Masters in Business Administration and a
Masters in Accounting and Financial Management. (Tr., Pt. I, pp.
325-26)

App. 297
done. (Tr., Pt. I, pp. 57, 106, 327-45, 347, 354-61; State
Exhibits 1, 9)
The contract auditor’s proposed cost adjustments
were input into the Perseus system, which is the longterm care’s operating system used to calculate payment
rates. Proposed cost adjustments were made to the
identified accounts where, based upon the audit, the
Department believed the costs had been misreported.
Mr. Wilkins testified that the procedures for audits,
starting with the RFP, the contractor’s work and the
Department’s process after receiving deliverables from
the contract auditor have been the same since 1999. He
stated that the Agreed-Upon Procedures have been
modified periodically since 1999. He testified that
Clifton Gunderson followed the Agreed-Upon
Procedures as prescribed in the RFP. (Tr., Pt. I, pp. 59,
107, 118, 125-26, 155)
A final fiscal audit conference or exit conference
may be conducted by the Department’s Bureau of Audit
“to try and resolve potential findings identified by the
Department with the providers.” This final fiscal audit
conference, which is different than the exit conference
held between Clifton Gunderson and CHS immediately
after the on-site field work was completed in June
2003, is not mandatory. Ms. Canter stated that it is a
courtesy provided by the Department to try to resolve
proposed findings. After a cost report audit performed
by either the Department or a contract independent
auditor, the Department has the option to continue
trying to work with the provider or to issue a Proposed
Adjudication Order under R.C. Chapter 119 whereby
the provider may request a hearing. One other option

App. 298
is for the provider to pay the amount identified by the
Department as due and owing. (Tr., Pt. I, pp. 411, 41314, 416, 427)
In this case, Respondents requested final fiscal
audit conferences. The Department, however, elected to
issue Proposed Adjudication Orders, affording
Respondents an opportunity to request a hearing under
R.C. Chapter 119. Ms. Canter stated that attempts to
meet and to obtain additional documents in order to try
to resolve some of the matters were unsuccessful. One
of the factors in the Department’s decision to forego the
final fiscal audit conferences was the difficulty in
obtaining documents from CHS, not only during the
audit itself, but also during the exit conference process.
(Tr., Pt. I, pp. 191,416, 427-28, 439)
Days Audits
Days audits were also conducted of 1) Carington
Park, Terrace View Gardens, Vandalia Park, Franklin
Ridge, East Galbraith Health Care Center for fiscal
years 2003, 2004, 2005, and 2006; 2) Glen Meadows for
fiscal years 2004, 2005, and 2006; and 3) Wellington
Manor for fiscal years 2005 and 2006. A days audit is
“a review of the claims a provider has submitted for
payment for a given fiscal year to determine that the
Department had paid the provider appropriately. Some
of the issues that are looked at in these audits include:
1) whether the Department paid for dates of service
beyond the date of death of a recipient; 2) whether two
institutions paid for the some dates of service for a
recipient; 3) whether the Department paid for services
when another payer should have paid first; 4) whether

App. 299
patient resources were properly identified and applied.
(Tr., Pt. I, pp. 108)
For fiscal year 2005 and prior, unless a provider
notified the Department that a patient was not in the
facility, the Department paid the provider for a full 30
days for that patient. Thereafter, the provider
submitted a 9400 document identifying when a
recipient was not in the facility or there was a change
of resources or any circumstance that would indicate a
provider was overpaid. Starting in fiscal year 2006, the
provider submitted a claim for days of service provided
to the Medicaid recipient. (Tr., Pt. I, pp. 110, 116)
Under both the systems -- before and after fiscal
year 2005 – the Department looked at all claims paid
to the institutional providers for a recipient to see if
there were any overlaps in payment. There are no onsite reviews of the providers’ records. A report is
generated of any overlap. The days audits in the cases
at issue herein were performed in the same manner as
the audit at issue in Meadowbrook Care Center v. Ohio
Dept. of Job and Family Services (10th Dist. 2007),
2007-Ohio-6534. (Tr., Pt. I, pp. 110-11, 113, 116-17,
159)
In its audits, ODJFS determined that some of the
paid patient days were not covered Medicaid days of
service. As stated in Meadowbrook at ¶ 14, examples of
non-covered days include “days on which patients left
[the provider’s] facility for treatment elsewhere, or for
which hospice costs were reimbursed directly to a
hospice provider who furnished such care to a resident
in [the provider’s] facility.”

App. 300
ODJFS also looked at the amount Respondents
collected from individual residents for their patient
liability, which is “the individual’s financial obligation
toward the Medicaid cost of care for the medical
institution.” Ohio Admin. Code 5101:1-39-22.2(B). “The
difference between the individual’s patient liability and
the monthly Medicaid cost of care is the Medicaid
vendor payment amount.” Id.
After performing the patient day/patient liability
audits, ODJFS issued Combined Proposed Adjudication
Orders (CPAO) for each open audit period for each of
the Respondents. Each CPAO contained Reports of
Examination, detailing the “calculation leading to the
amount determined to be owed.” State’s Exhibits 43-46,
78-81, 105-108, 139-142, 169-172, 199-201, and 227228. Respondents each timely requested an exit
conference. Thereafter, ODJFS re-issued CPAO’s for
each facility for each open audit period, providing
Respondents the opportunity to request a R.C. Chapter
119 hearing. State’s Exhibits 47-50, 82-85, 109-112,
143-146, 173-176, 202-204, and 229-230. Each
Respondent timely requested a Chapter 119
administrative hearing.
During discovery, CHS produced additional
documentation, which was reviewed by ODJFS. As a
result of this review, ODJFS made some adjustments
and created new CPAOs with Reports of Examination.
The revised reports reflecting the revised patient days
and patient liability adjustments are set forth as
follows:

App. 301
Facility

State’s
Patient
Exhibit
Days/
No.
Patient
Liability
FY Audit
at Issue

Adjustments to
Patient
Liability7

Adjustments
to No.
of
Paid
Patient
Days

Carington Park

FY 2003

$8,892.76

363.5

p. 19
(column
C)

p. 8
(column
E)

$5844.28

167

p. 20
(column
C)

p. 8
(column
E)

$2,849.76

337

p. 21
(column
C)

p. 5
(column
E)

Carington FY 2004
Park

Carington FY 2005
Park

7

242

243

244a

The patient-liability adjustment amounts in this chart are not the
amounts that CHS owes to ODM. The total amounts the CHS
facilities owe to ODM are calculated by multiplying the correct
number of patient days by the correct rate and subtracting the
correct patient liability.

App. 302
Carington FY 2006
Park

245b

$10,191.70 374.5
p. 19
(column
C)

Terrace
View
Gardens

FY
2003

Terrace
View
Gardens

FY
2004

Terrace
View
Gardens

FY
2005

Terrace
View
Gardens

FY
2006

Vandalia
Park

FY
2003

246

247

248

249a

250

p. 5
(column
E)

$6,461.32

296.50

p. 15
(column
C)

p. 5
(column
E)

$910.00

51

p. 10
(column
C)

p. 6
(column
E)

$945.00

19

p. 14
(column
C)

p. 5
(column
E)

-$3,706. 00

3.0

p. 10
(column
C)

p. 5
(column
E)

$8378.65

592.5

p. 17
(column
C)

p. 6
(column
C)

App. 303
Vandalia
Park

Vandalia
Park

Vandalia
Park

FY
2004

FY
2005

FY
2006

251

252a

253a

Franklin
Ridge

FY
2003

254

Franklin
Ridge

FY
2004

255

Franklin
Ridge

FY
2005

256a

$0

198

p. 17
(column
C)

p. 6
(column
E)

$528.42

161.5

p. 16
(column
C)

p. 5
(column
E)

-$2990.20

441

p. 19
(column
C)

p. 5
(column
E)

$1,404.98

175

p. 17
(column
C)

p. 6
(column
E)

$2,385.00

93

p. 14
(column
C)

p. 6
(column
E)

$1,474.88

61.5

p. 15
(column
C)

P. 5
(column
E)

App. 304
Franklin
Ridge

FY
2006

257a

East
Galbraith

FY
2003

258

East
Galbraith

FY
2004

259

East
Galbraith

FY
2005

260a

East
Galbraith

FY
2006

261a

Wellington
Manor

FY
2005

262

-$1.563.00

7

p. 9
(column
C)

p. 5
(column
E)

$0.00

3

p. 9
(column
C)

p. 6
(column
E)

$405.00

54.5

p. 12
(column
C)

P. 6
(column
E)

$0.00

45

p. 32
(column
C)

p. 21
(column
E)

$2827.64

867

p. 19
(column
C)

p. 5
(column
E)

$0.00

3.5

p. 10
(column
C)

p. 5
(column
E)

App. 305
Wellington
Manor

FY
2006

263

Glen
Meadows

FY
2004

264

Glen
Meadows

FY
2005

265a

Glen
Meadows

FY
2006

266a

-$18.00

2.5

p. 10
(column
C)

p. 5
(column
E)

$994.62

11.5

p. 12
(column
C)

p. 6
(column
E)

$0.00

16

p. 12
(column
C)

p. 6
(column
E)

-$6,385.00

9

p. 8
(column
C)

p. 5
(column
E)

(Ohio Department of Medicaid’s Post-Hearing brief, pp.
7-8; Tr., Pt. II, pp. 339-54)
Pursuant to Ohio Admin. Code 5101:6-50-09(A)(4),
“Any audit report, report of examination, exit
conference report, or report of final settlement issued
by ODJFS and entered into evidence [in a R.C. Chapter
119 hearing] is to be considered prime facie evidence of
what it asserts.” Therefore, with the admission of the
Reports of Examination, the State met its burden of
proof and the burden fell to Respondent to refute the
figures. Although Respondent’s counsel objected to the

App. 306
adjustments in the Reports of Examination and did not
stipulate to the amounts, no evidence was presented to
rebut ODJFS’ prime facie evidence with respect to
patient days and patient liability adjustments. Vill. of
Bellville v. Kieffaber, (2007) 114 Ohio St. 3d 124 (Tr.,
Pt. II, p. 333)
Cost Reports and Audits
A. Overview
Each of the seven nursing facilities were required,
pursuant to R.C. 5111.26(A)(1)(a) and Ohio Admin.
Code 5101:3-20, in effect at the time, to file a cost
report annually covering the calendar year or portion
thereof in which the facility participated in the
Medicaid program. These cost reports were to be
prepared pursuant to rules and procedures established
by ODJFS. Id; see Ohio Admin. Code Chapter 5101:3-3.
The cost reports filed by Respondents for calendar
year 20038 were used by ODJFS to set the per diem
rates for FY2005 and FY2006. (See State Exhibits 53,
88, 115, 150, 177, 207, 231) Pursuant to Ohio Admin.

8

Three of the facilities–East Galbraith Health Care Center, Glen
Meadows, and Wellington Manor–filed partial calendar year 2003
cost reports because they did not operate for the entire year. East
Galbraith Health Care Center filed a six-month cost report
covering July 1, 2003, to December 31, 2003. Glen Meadows and
Wellington Manor each filed 90-day cost reports covering
December 2003, January 2004, and February 2004. Ohio Admin.
Code 5101:3-3-20(H). However, the 2003 partial-year cost reports,
in addition to the full calendar year 2003 cost reports filed by the
other four providers, were used to set the per diem rates for FY
2005 and FY 2006. (State’s Post-hearing Brief, fn. 6)

App. 307
Code 5101:3-3-01(A), allowable costs, specifically, those
costs that were actually incurred and were reasonable,
are determined in accordance with a hierarchy of laws
and rules as follows: The Ohio Revised Code, then the
Ohio Administrative Code, then the Code of Federal
Regulations, then the CMS HIM publications or
Provider Reimbursement Manual publications and
lastly, the general accepted accounting principles
(GAAP). Ohio Admin. Code 5101:3-3-01; Ohio Admin.
Code 5101:3-3-20. (Tr., Pt. II, pp. 95-96, 949-50; State
Exhibit 275a)
Under this hierarchy, the Ohio Revised Code is
applied first. If that source does not specifically address
an issue, then the Ohio Administrative Code is applied.
If that source does not specifically address an issue,
then the Code of Federal Regulation is applied. If that
source does not specifically address an issue, the
Provider Manual or CMS Publication 15-19 is applied.
And, finally, if there is complete silence, then general
accepted accounting principles are applied. (Tr., Pt. II,
pp. 957)
It is noted that the CFR and PRM are regulations
and interpretive guidelines for reportable costs for
Medicare cost reports. By including them in the
hierarchy of sources to use in determining allowable
costs for Medicaid nursing facilities, Ohio adopted
these regulations to determine allowable costs for
Medicaid cost reports in Ohio. 5101:3-3-01(A) There is

9

Publication 15-1, HIM-15-1, HIM-15, Provider Reimbursement
Manual (PRM) and CMS-15-1 are different names for the same
document. (Tr., Pt. II, p. 955)

App. 308
nothing in the Ohio Administrative Code that states
that certain provisions of the CFR or the PRM are not
applicable to reporting costs in a cost report. Moreover,
there is nothing in the CFR or the PRM that limits the
application of any of the rules included therein to only
Medicare or only Medicaid. (Tr., Pt. II, pp. 484-85, 958)
After conducting an audit of the 2003 cost reports,
ODJFS determined that CHS had improperly reported
costs in its cost reports. Many of the cost adjustments
that Clifton Gunderson calculated during the audit
were based upon insufficient documentation. During
the discovery phase of this administrative hearing
process, CHS provided ODJFS with additional
information and documentation. After reviewing this
documentation, adjustments were made to the cost
adjustments. In some instances, the additional
documents supported the reported costs, thereby
enabling ODJFS to delete the adjustment. In other
circumstances, the parties agreed that certain costs
should not have been included in the cost report and
the original cost adjustments remained. As a result of
this review and the agreement of the parties, ODJFS
and CHS stipulated to the new cost adjustments. These
stipulated adjustments are set forth in State Exhibit
267a.10 (Attached hereto as Attachment A and
incorporated herein)
10

It is noted that paragraph 4 of the Stipulation of the Parties,
there is reference to State Exhibit 267 as the document that
summarizes the agreed upon cost adjustments. During the
hearing, additional information was provided which resulted in
recalculation of some of these stipulated cost adjustments. The
parties agreed that the amended stipulated cost adjustment is
State Exhibit 267a.

App. 309
The parties, however, did not agree on all the cost
adjustments. The disputed adjustments are set forth in
State Exhibit 268. (Attached hereto as Attachment B
and incorporated herein) Although the parties agree as
to amounts set forth in State Exhibit 268, they disagree
as to whether those costs should have been included in
the first place. (Stipulations of the Paities, no. 5,
attached hereto as Attachment C) These adjustments
were made for direct-care consulting costs, found at
State Exhibit 268, p. 1, indirect care consulting costs,
found at State Exhibit 268, p. 2 and Cincinnati Reds
tickets, found at State Exhibit 268, p. 3.
Accordingly, the disagreement between the parties
relates to:
1. Inclusion of costs for direct-care consulting
(account 6210) and indirect-care consulting
(account 7215) in its 2003 cost reports
2. Inclusion of costs for Cincinnati Reds tickets in
its 2003 cost reports
The parties have stipulated to the documents
supporting these reported costs and also to the
amounts in dispute. (State Exhibit 268 and Stipulation
of Parties)
B. Cost Reports
Cost reports, which are based on a calendar year,
are the mechanism by which nursing home facilities
report their operating costs to the State. These cost
reports are prepared by the nursing facilities and
submitted to the State. Providers use the accrual basis
of accounting when reporting costs on a cost report.

App. 310
Within each cost report are separate cost centers:
direct care, indirect care, capital cost, other protected.
Each of these cost centers is divided into cost accounts.
The Ohio Administrative Code outlines what is
included in each cost account and cost center. The State
then uses the cost reports in a rate-setting formula to
establish a per diem rate, which is the amount that a
facility is paid for each person in the facility. The sum
of the various cost accounts comprises the total for the
respective cost center. The totals of the cost centers are
used to determine that provider’s rate. There is a
different rate for each cost center. (Tr., Pt. II, pp. 92-94,
96-97, 283-84, 376, 1012)
Over the years, Ohio has used different
reimbursement systems for Medicaid as it relates to
nursing homes. Prior to 1991, Ohio used a retrospective
cost settlement system. Under this system, the cost
report data was used “to establish ceilings, calculated
rates, multiplied the rate calculated by the number of
Medicaid days, and compared that to the total
payments made during the calendar year period.” If the
State paid the nursing home more than it should have,
the nursing home would repay the money. If the Sate
did not pay the nursing home as much as the cost, the
State would pay additional funds to the provider. (Tr.,
Pt. II, pp. 746, 1004, 1008)
In 1992, the State started transitioning into a
prospective cost based system, which came into place in
1994 and continued for 11 years, through FY 2005. In
the prospective cost-based system, a rate was
established for each facility, based upon its costs
(subject to ceilings). This rate was established prior to

App. 311
the beginning of the fiscal year for which it became
effective and there was no reconciliation as to “what
the provider actually spent in that period.” (Tr., Pt. II,
pp. 1009-10)
Julie Evers with the Department’s Office of Ohio
Health Plans, explained the prospective cost-based
system in a little more detail. Cost data was collected
from calendar year cost reports and an 18-month
inflation factor to the costs on that cost report was
applied to establish a rate for the subsequent fiscal
year. The cost reports for 2003 were used in
establishing the rates for FY 2005, which started July
1, 2004. Ms. Evers said that under the prospective costbased reimbursement system, the rate for nursing
facilities were based upon actual costs. Each facility
had its own unique rate. (Tr., Pt. II, pp. 746, 1011,
1029-30)
In 2005, the Ohio legislature passed laws which
changed the reimbursement system from the costbased prospective reimbursement system to a pricebased prospective system. During the transition period,
the rates in FY 2006 were the same as those in FY
2005. In FY 2007, the new rates under the price-based
prospective system went into effect. (Tr., Pt. II, pp.
1030-31)
Under the price-based prospective system, the State
pays “similarly-situated homes the same price subject
to case mix adjustments.” Rather than looking at the
facility’s costs, the State looks at “the peer group
experience to establish the rate components,” while still
starting with a calendar year cost report and applying
an 18-month inflation factor. (Tr., Pt. II, p. 1034)

App. 312
In order to claim any expense in a cost report, the
facility must have documentation, such as general
ledgers, trial balance, invoices, cancelled checks, bank
statements, contracts, leases, and loans, to
substantiate the expense. If the provider does not
supply documentation to substantiate the costs, that
cost is eliminated or disallowed due to lack of
documentation. An adjustment is made on the
Proposed Cost Adjustment Reports form. Each
adjustment reduces the amount that was originally
reported by the provider on its cost report. (Tr., Pt. II,
pp. 94-95, 98-103)
After the cost report audits are conducted,11 any
audit adjustments are entered into the Perseus system,
which also contains cost reports and sets the initial
rates for nursing homes. After the adjustments are
entered, Perseus calculates a new rate. These revised
rates are incorporated into combined proposed
adjudication reports12 (CPA report), which are sent to
nursing homes notifying them of the amount, if any,
owed back to the State. (Tr., Pt. II, pp. 377-78)
Direct Care and Indirect Care Consulting Costs
A. The Contracts
Each of the CHS facilities at issue herein contracted
with Strategic Nursing Systems (“Strategic”) and/or

11

One of the major purposes of the audit it to substantiate a cost
claimed on the cost report. (Tr., Pt. II, pp. 97)
12

Combined Proposed Adjudication reports are also called final
fiscal audit reports. (Tr., Pt. II, pp. 378)

App. 313
Providers Choice Administrative Services (“Providers”
or “Providers Choice”) for consulting services. Most of
these contracts consisted of two parts: Annual Services
and Enhanced Services. The Enhanced Services portion
of the contract was to pay Strategic and/or Providers
“additional fees as specified in Attachment A” of the
contract. (See, eg., State Exhibit 57, p. 5)
Under the “Annual Services” part of the contracts,
the facilities were invoiced monthly. Each of the
monthly invoices stated that payment was due upon
receipt of invoice. The facilities paid these invoices by
check.
Under the “Enhanced Services” part of the contracts
(Attachment A to the contract), rather than sending
monthly invoices, Strategic and Provider invoiced the
facilities on December 31, 2003 for the entire amount
for services provided from January 1, 2003 through
December 31, 2003. These invoices stated that payment
was due upon receipt of invoice.
During the audit, the auditor disallowed these costs
because there was inadequate documentation and there
was a related party issue. For example, Ms. Hess
testified that during the audit, the auditors asked for
accounts with respect to Strategic and they looked for
specific transactions in account 6210. They did not get
invoices, canceled checks, promissory notes, payments
of checks on the promissory notes (Tr., Pt. II, pp. 20608)
Since CHS presented documentation during
discovery, ODM is no longer proceeding on the issue of
inadequate documentation or related party issue. The

App. 314
additional documentation, however, revealed an issue
with liquidation of liabilities. This issue was not
identified originally because CHS failed to provide the
documentation (Tr., Pt. II, p. 16)
With respect to cost account 6210, the parties
stipulated:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Strategic Nursing Systems, Inc., at
State’s Exhibit 57. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Carington Park monthly for the consulting fees and
Carington Park paid each invoice by check as shown
in State’s Exhibit 58. The consulting agreement
(State’s Exhibit 57) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown by
State’s Exhibit 59. Carington Park issued an
installment promissory note for the December 31,
2003 for the Enhanced Services invoice, State’s
Exhibit 60. The payments of the installment
promissory note were per the note’s terms and were
by checks at State’s Exhibit 61.
B. CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384, entered
into an agreement with Strategic Nursing Systems,
Inc. at State’s Exhibit 92. The costs associated with
this consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Terrace View Gardens monthly for the consulting

App. 315
fees and Terrace View Gardens paid each invoice by
check as shown in State’s Exhibit 93. The
consulting agreement (State’s Exhibit 92) contained
an Attachment A for Enhanced Services, with an
additional consulting fee that was due on December
31, 2003, that was invoiced by Strategic Nursing
Services as shown by State’s Exhibit 94. Terrace
View Gardens issued an installment promissory
note for the December 31, 2003 Enhanced Services
invoice, State’s Exhibit 95. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 96.
C. CHS – Miami Valley, Inc. d.b.a. Franklin Ridge,
provider number 2339688, entered into an
agreement with Strategic Nursing Systems, Inc. at
State’s Exhibit 119. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Franklin Ridge monthly for the consulting fees and
Franklin Ridge paid each invoice by check as shown
in State’s Exhibit 120. The consulting agreement
(State’s Exhibit 119) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown by
State’s Exhibit 121. Franklin Ridge issued an
installment promissory note for the December 31,
2003 Enhanced Services invoice, State’s Exhibit
122. The payments of the installment promissory
note were per the note’s terms and were by checks
at State’s Exhibit 123.

App. 316
D. CHS – Miami Valley, Inc. d.b.a. Vandalia Park,
provider number 2339624, entered into an
agreement with Strategic Nursing Systems, Inc. at
State’s Exhibit 154. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
Vandalia Park monthly for the consulting fees and
Vandalia Park paid each invoice by check as shown
in State’s Exhibit 155.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with Strategic
Nursing Systems, Inc. at State’s Exhibit 181. The
costs associated with this consulting agreement
were reported in account 6210. Strategic Nursing
Systems, Inc. invoiced East Galbraith monthly for
the consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit 182.
The consulting agreement (State’s Exhibit 181)
contained an Attachment A for Enhanced Services,
with an additional consulting fee that was due on
December 31, 2003, that was invoiced by Strategic
Nursing Services as shown by State’s Exhibit 183.
East Galbraith issued an installment promissory
note for the December 31, 2003 Attachment A
Enhanced Services invoice, State’s Exhibit 184. The
payments of the installment promissory note were
per the note’s terms and were by checks at State’s
Exhibit 185. The consulting agreement (State’s
Exhibit 181) also contained an Attachment B for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown by

App. 317
State’s Exhibit 186. East Galbraith issued an
installment promissory note for the December 31,
2003, Attachment B Enhanced Services invoice,
State’s Exhibit 187. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 188.
(Stipulation of the Parties, ¶ 6)
With respect to cost account 7215, the parties
stipulated:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 63. The costs
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Carington
Park monthly for the consulting fees and Carington
Park paid each invoice by check as shown in State’s
Exhibit 64. The consulting agreement (State’s
Exhibit 63) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003. Carington
Park issued an installment promissory note for the
December 31, 2003 Enhanced Services fee, State’s
Exhibit 65. The payments of the installment
promissory note were per the note’s terms and were
by checks at State’s Exhibit 66.
B. CHS – Hamilton County, Inc. d.b.a. Terrace View
Gardens, provider number 2339384, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 98. The costs

App. 318
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Terrace View
Gardens monthly for the consulting fees and
Terrace View Gardens paid each invoice by check as
shown in State’s Exhibit 99. The consulting
agreement (State’s Exhibit 98) contained an
Attachment A for Enhanced Services, with an
additional consulting fee that was due on December
31, 2003. Terrace View Gardens issued an
installment promissory note for the December 31,
2003, Enhanced Services fee, at State’s Exhibit 100.
The payments of the installment promissory note
were per the note’s terms and were by checks at
State’s Exhibit 101.
C. CHS – Miami Valley, Inc. d.b.a. Franklin Ridge,
provider number 2339688, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 125. The costs
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Franklin
Ridge monthly for the consulting fees and Franklin
Ridge paid each invoice by check as shown in State’s
Exhibit 126. The consulting agreement (State’s
Exhibit 125) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003. Franklin
Ridge issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 127. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 128.

App. 319
D. CHS – Miami Valley, Inc. d.b.a. Vandalia Park,
provider number 2339624, entered into an
agreement with Providers Choice Administrative
Services, Inc., at State’s Exhibit 157. The costs
associated with this consulting agreement were
reported in account 7215. Providers Choice
Administrative Services, Inc. invoiced Vandalia
Park monthly for the consulting fees and Vandalia
Park paid each invoice by check as shown in State’s
Exhibit 158. The consulting agreement (State’s
Exhibit 157) contained an Attachment A for
Enhanced Services, with an additional consulting
fee that was due on December 31, 2003. Vandalia
Park issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 159. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 160.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with Providers
Choice Administrative Services, Inc., at State’s
Exhibit 190. The costs associated with this
consulting agreement were reported in account
7215. Providers Choice Administrative Services,
Inc. invoiced East Galbraith monthly for the
consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit 191.
The consulting agreement (State’s Exhibit 190)
contained an Attachment A for Enhanced Services,
with an additional consulting fee that was due on
December 31, 2003. East Galbraith issued an
installment promissory note for the December 31,

App. 320
2003, Enhanced Services fee, at State’s Exhibit 192.
The payments of the installment promissory note
were per the note’s terms and were by checks at
State’s Exhibit 193.
(Stipulation of the Parties, ¶ 7)
Some of the monthly invoices for services under the
annual contracts were paid more than one year after
the end of the relevant cost-reporting period. The
following chart shows that the invoices were issued in
November and/or December 2003. The checks to pay
these invoices, however, were not paid to Strategic
until March 2005 and/or April 2005.

App. 321
Facility Invoice
Month

Date
Checks
were
Issued

End of
CostReporting
Period

State’s
Exhibit
Number

CHS’s
Exhibit
Number
CHS
Exhibit
RRR,
TVG00
0734000735

Terrance
View
Gardens

December
2003

March
2005

12/31/
2003

State’s
Exhibit
93, pp.
23-24

Franklin
Ridge

December
2003

March
2005

12/31/
2003

State’s CHS
Exhibit Exhibit
FFFF,
120
FR001
pp. 23- 19424
001195

Vandalia
Park

December
2003

March
2005

12/31/
2003

State’s CHS
Exhibit Exhibit
NNN,
155
CP000
pp. 23- 72724
0072813

13

When CHS produced documents during discovery, it
inadvertently labeled Vandalia Park documents with the BatesNumber prefix CP and Carington Park documents with the BatesNumber prefix VP.

App. 322
CHS
Exhibit
ZZZ,
VP000
863000866

12/31/
2003

State’s
Exhibit
58, pp.
21-25

March
2005

2/29/
2004

State’s CHS
Exhibit Exhibit
208
WW,
GM009
pp. 3-4 2700928

March
2005

2/29/
2004

State’s CHS
Exhibit Exhibit
234
HHH,
WELL
pp. 4-5 00065
7-000
658

Caring- Noveton
mber
Park
2003
and
December
2003

March
2005
and

Glen
Meadows

December
2003

Wellington
Manor

December
2003

April
2005

(State Post-hearing Brief at 14)
Based upon the fact that they were not paid within
one year after the end of the cost reporting period, the
Department disallowed these costs in the FY2003 cost
reports. These amounts are included in the Stipulated
Amount columns on State Exhibit 268, pp.1-2 (attached
hereto as Attachment B)
In addition to the facilities set forth in the above
chart, for disallowance of seven payments on the
“Annual Services” monthly invoices, one facility, East

App. 323
Galbraith, paid all of the monthly invoices for Annual
Services for Providers Choice starting in January 2005.
These payments were also disallowed in the FY2003
cost report because the payments were not made within
one year after the end of the cost reporting period.
These amounts are also included in the Stipulated
Amount columns on State Exhibit 268, pp.1-2 (attached
hereto as Attachment B) (Stipulation of the Parties;
State Exhibit 181, pp. 5, 11; State Exhibits 190, 191)
Some of the facilities reported costs in their cost
report for the “Enhanced Services.” On December 31,
2003, Strategic and/or Providers Choice issued invoices
for the total amount of the “Enhanced Services”
contracts. The invoice stated “Payment Due Upon
Receipt of Invoice.” That same day, December 31, 2003,
the facilities issued promissory notes in the exact
amount of the invoices. Payment on these promissory
notes were not to commence until mid-2005. Therefore,
none of the facilities’ assets were transferred until
2005, over one year from the end of the 2003 cost report
period. In July 2005, the facilities began issuing
monthly checks to pay the promissory notes.
B. Liquidation of Liabilities
One of the cost accounts in dispute is 6210, which is
consulting and management costs related to direct
care. For purposes of illustration, during the hearing,
ODM used the example of one of the Carington Park
facilities, whose cost report was State Exhibit 53.
Carington Park reported $2,398,356 in this cost
account. Ms. Hess testified that during the audit they
sampled “from to vouch expenses, and [they] selected a
variety of different journal entries and transactions to

App. 324
test these amounts.” Although Carington supplied the
auditors with some invoices and a consulting
agreement, Ms. Hess stated that they received very
little documentation, even after requesting
documentation on this transaction. As a result, an
adjustment was made to this account for lack of
documentation and related party matters14. Ms. Hess
testified that the lack of documentation included lack
of information regarding the related party issue. (Tr.,
Pt. II, pp. 97, 104-08, 207; State Exhibit 54)
The consulting agreement between Carington Park
and Strategic Nursing Systems provided for
Compensation of Consultant: “For the full and efficient
performance of its duties and responsibilities
hereunder, Consultant shall be paid annually $1,550.00
per licensed bed (the “Consulting fee”), payable in equal
installments on or before the 20th day of each month.”
Ms. Hess stated that Carington provided few, if any,
copies of these invoices. (Tr., Pt. II, pp. 108-09; State
Exhibit 57, p. 5)
Through discovery in this matter, invoices and
checks were received and are set forth in State Exhibit
58. The invoices were dated January 31, 2003,
February 29, 2003, March 31, 2003, April 30, 2003,
May 31, 2003, June 30, 2003, July 31, 2003, August 31,

14

The related party issues were based upon the fact that the 2004
tax returns of the owners of Carington also listed ownership of
Strategic Consulting, which was one of the entities that Carington
entered into contract with for consulting services in cost account
6210. This issue was later dropped by the Department after
receiving documentation during the discovery phase of this case.
(Tr., Pt. II, pp. 106-07)

App. 325
2003, September 30, 2003, October 31, 2003, November
30, 2003, and December 31, 2003. The checks, in the
amount of $26,738, were dated September 22, 2003,
October 24, 2003, November 24, 2003, December 16,
2003, January 22, 2004, February 24, 2004, March 18,
2004, May 20, 2004, June 19, 2004, July 23, 2004,
March 28, 2005 and April 26, 2005. (State Exhibit 58)
Ms. Hess testified that all of these transactions,
except the two checks issued in 2005, would have been
allowable in the cost report. She stated that funds must
be expended within one year of the end of the cost
reporting period. Therefore, the checks issued on
March 28, 2005 and April 26, 2005 would be
disallowed. (Tr., Pt. II, pp. 110-11, 116-17)
There was also an Attachment to this contract for
Enhanced Services for the period of January 1, 2003 to
December 31, 2003. Under this contract, Strategic
Nursing Systems charged Carington Park $10,024 per
licensed bed. Since there were 207 beds, the amount of
the contract for enhanced services was $2,075,000. The
contract specifically stated that the “Invoicing will be
submitted on December 31, 2003.” (State Exhibit 57)
Therefore, on December 31, 2003, Strategic Nursing
Systems submitted an invoice for service provided for
the 2013 calendar year in the amount of $2,075,000.
The invoice stated “PAYMENT DUE UPON RECEIPT
OF INVOICE” Ms. Hess stated that this debt was a
short term liability. She said that in order to be an
allowable expense, Carington Park would have to pay
Strategic for the goods and services within a year of the
end of the cost reporting period, i.e. December 31, 2004.
The auditors did not receive a copy of this invoice

App. 326
during the audit. (Tr., Pt. II, pp. 118-20; State Exhibit
59, p. 4)
On December 31, 2003, Carington Park executed an
Installment Promissory Note with Strategic in the
amount of “$2,075,000, with interest from July 1, 2005
on the unpaid principal at the rate of 5.00% per
annum.” The promissory note further stated: “The
unpaid principal and accrued interest shall be payable
in monthly installments of $62,189.61, beginning on
August 01, 2005, and continuing until July 01, 2008,
(the “Due Date”), at which time the remaining unpaid
principal and interest shall be due in full.” A copy of
this promissory note was not produced during the
audit. (State Exhibit 60)
The promissory note itself states that payments are
to commence August 2005, which is more than 12
months after the close of the 2003 cost reporting period.
State Exhibit 61 contains copies of monthly checks in
the amount of $62,189.61 for payments on the
promissory note. The first check on payment of the loan
is dated July 26, 2005. It is noted that the promissory
note was to be paid in full by July 1, 2008, but checks
in the amount of $62,189.61 continued to be issued in
August, September, October and December 2008. None
of these checks in State Exhibit 61 were produced
during the audit. (Tr., Pt. II, p. 120)
Ms. Hess testified that if they had been produced,
the cost would have been disallowed based upon 42CFR
413.100 and Provider Reimbursement Manual section
2305. Ms. Hess further explained that the checks which
were written in 2005 would be allowed on the 2005 cost
report and those written in 2006 would be allowed in

App. 327
the 2006 cost report and similarly for 2007 and 2008.15
(Tr., Pt. II, pp. 121, 128-34)
Ms. Hess was asked if it would have made a
difference if Carington had received a loan from a bank
for $2,075,000 and then given that money to Strategic.
She stated that since the vendor, Strategic, actually
received funds to pay for the goods and services, that
cost would have been allowed in the 2003 cost report.
By providing Strategic a promissory note in lieu of
money, however, Strategic did not receive any funds or
payment for the goods and service until actual
payments commenced in 2005. Ms. Hess stated that
the difference is the actual expenditure of funds. (Tr.,
Pt. II, pp. 135-36)
Ms. Hess stated that by placing the costs for
Enhanced Services in cost account 6210, Carington
Park classified these costs as short term. Long term
liabilities are reported on the balance sheets and
interest associated with long-term liability is usually in
the capital component. Ms. Hess stated that the
current portion of a long-term liability is “technically
considered a short term liability as well and it’s due
within 12 months of that date and time.” The long term
portion is greater than 12 months. (Tr., Pt. II, pp. 15152)
The costs in cost account 7215 involve contracts
with Provider’s Choice Administrative Services. For
purposes of illustration, during the hearing, the
Department used the example of one of the Carington
15

This is supposing that Ohio had the same reimbursement
system. The system, however, was changed in FY2006.

App. 328
Park facilities. In the 2003 cost report, Carington Park
reported $694,177. During the audit, the auditors only
received a few invoices. The auditors disallowed
$625,000 based upon insufficient documentation and
related parties transactions. (Tr., Pt. II, pp. 137; State
Exhibit 54)
Carington Park entered into an agreement for
indirect care consultant services with Providers Choice.
Carington Park agreed to pay Provider’s Choice $550
per licensed bed, payable 30 days from the date of the
invoice. Since there were 207 licensed beds, the
monthly charge was $9,488. State Exhibit 64 includes
the invoices, starting on January 31, 2003 through
December 31, 2003, with the corresponding checks to
pay the invoices. The auditors did not receive any of
these documents during the audit. (Tr., Pt. II, pp. 13941; State Exhibit 63)
As with Strategic, Carington Park entered into an
Additional Services (“Enhanced Services”) agreement
in which Providers Choice charged $2,730 per licensed
bed. As with Strategic, the contract specifically stated
that invoicing will be submitted on December 31, 2003.
(State Exhibit 63, pp. 6-7)
On December 31, 2003, Carington Park executed an
Installment Promissory Note with Providers Choice in
the amount of “ $565,000, with interest from February
1, 2005 on the unpaid principal at the rate of 5 .00%
per annum.” The promissory note further stated: “The
unpaid principal and accrued interest shall be payable
in monthly installments of $24,787.34, beginning on
February 1, 2005, and continuing until January 1,
2007, (the “Due Date”), at which time the remaining

App. 329
unpaid principal and interest shall be due in full.” A
copy of this promissory note was not produced during
the audit. (Tr., Pt. II, pp. 142-44; State Exhibit 65)
The promissory note itself states that payments are
to commence February 2005, which is more than 12
months after the close of the 2003 cost reporting period.
State Exhibit 66 contains copies of monthly checks in
the amount of $24,787.34 for payments on the
promissory note. The first check on payment of the loan
is dated March 29, 2005 and continued through
December 18, 2006. None of these checks in State
Exhibit 66 were produced during the audit. (Tr., Pt. II,
p. 145)
Although ODM counsel just went through the
promissory note payment and time of payments
analysis for Carington Park, Ms. Hess testified that
there was a same scenario with the other facilities. She
stated that the auditors received approximately the
same amount of documentation for the other facilities
as for Carington Park. Therefore, at the time of the
audit, the costs were disallowed for lack of
documentation and what the auditors thought was a
related party issue. After reviewing the documentation
received during discovery in this matter, however, the
liquidation of liabilities issues became the basis for
disallowance. Ms. Hess testified that if the contracts,
invoices, promissory notes and checks had been
produced during the audit, the cost would have been
disallowed based upon 42CFR 413.100 and Provider
Reimbursement Manual section 2305. Moreover, she
testified that the same analysis would apply to all the

App. 330
other Carington Health Systems facilities at issue in
this case. (Tr., Pt. II, pp. 144-45)
In August 2004, prior to making any payments on
these promissory notes, Carington Health Systems
purchased Strategic for $4.6 million. Therefore, CHS
“owed the money to themselves. Strategic has a
receivable of $12 million. And when it was acquired, it
became part of the combination, and they eliminated.”
(Tr., Pt. II, p. 894)
Respondents presented the testimony of John
Fleischer and John Hapchuk to address the issue of
liquidation of liabilities.
John Fleischer has been a certified public
accountant since 1982. His firm, Howard, Wershbale &
Co., does a lot of work for nursing homes. Providers
Choice, which is currently one of the clients of Mr.
Fleischer’s firm,16 is one of the companies that received
promissory notes that are at issue in this case. (Tr., Pt.
II, pp. 226-27)
Mr. Fleischer also does consulting to the long-term
care industry and has been involved with a “couple
thousand” Medicaid audits and audit settlements. He
acknowledged that he does not perform the cost reports
for nursing home facilities, but reviews them for other
members of his firm. He said, however, he did prepare
them about 20 years ago. He has also served as

16

Mr. Cummins, the designated representative for Respondents in
this matter, and a CPA, merged with Mr. Fleisher’s firm in
January 2011. (Tr., Pt. II, p. 225)

App. 331
chairman of the Ohio Health Care Association’s17
payment committee. (Tr., Pt. II, pp. 218-19, 228)
Prior to presenting his testimony in this matter, Mr.
Fleischer did not review any of the exhibits in this case.
He had not seen any of the contracts between
Carington Park and Strategic. He did, however, look at
some of Mr. Cummins’ work papers. (Tr., Pt. II, pp.
228-30)
Mr. Fleischer has seen many instances in which
providers report costs which have been paid by a
negotiable instrument, including in the 1980’s when
providers got “lines of credit that they couldn’t pay and
then would refinance those into long-term debt.” He
explained that on the cost report there are two lines of
interest - the working capital interest and the longterm capital asset interest. Generally, the working
capital interest resulted from facilities being unable to
pay their vendors and refinance or convert into longterm debt or note with a bank or sometimes the
vendors themselves. Mr. Fleischer stated that the
entire expense would be recorded on the cost report
since it was incurred in that year and it was liquidated
by a long-term note. He admitted that this was not a
common practice and, in his experience has occurred
less than six times over the course of 20 years. He
further clarified that if he were looking only at such
transactions with vendors, it would be even more
limited. (Tr., Pt. II, pp. 221-24)

17

Ohio Health Care Association is the trade association which
represents nursing homes and assisted living facilities. (Tr., Pt. II,
pp. 227-228)

App. 332
When asked whether there was a specific rule in the
CFR which addresses costs not paid in the year they
were incurred, Mr. Fleischer stated there was a rule
regarding liquidation of liabilities. When asked if he
had an understanding of the liquidation of liabilities
rule, he responded that he had “looked at it a little bit.”
He said he has never seen the rule applied in the
manner the Department has applied it in this case.
Moreover, he was uncertain whether the rule was
applicable in Medicaid. (Tr., Pt. II, pp. 221,232)
He stated that cost reporting is to be on the accrual
basis of accounting and, in accordance with generally
accepted accounting principles, when costs are reported
in the year that they incur. He acknowledges that 42
CFR 413.100 is a rule dealing with “special treatment
of certain accrued costs.” Mr. Fleischer acknowledged
that under this rule, in the case of accrued costs for
which a provider has not actually expended funds
during the current cost reporting period, such costs are
not recognized unless the related liabilities are
liquidated timely. He defined liquidation of liability as
a payment of cash, transfer of other assets or a
presentation of a longterm debt instrument, such as a
promissory note. (Tr., Pt. II, pp. 232-33, 237-39)
Mr. Fleischer also acknowledged that there is a
liquidation of liabilities rule in the Provider
Reimbursement Manual (PRM). Although the PRM
rule is similar to the 42 CFR 413.100, the PRM is more
explicit, requiring that liquidation “must be made by
check or other negotiable instrument, cash or legal
transfer of assets such as stocks, bond, real property,
etc. Where liquidation is made by check or other

App. 333
negotiable instrument, these forms of payment must be
redeemed through an actual transfer of the provider’s
assets within the time limits specified in this section.”
(PRM 2305)
Mr. Fleischer stated that if a facility takes “an
ordinary expense and makes it part of a long-term
liability, ... the liability has been liquidated within one
year.” He admitted, however, that if an invoice is due
immediately, it is a short-term liability. The invoices
for Strategic and Providers Choice state “Payment due
upon receipt of invoice.” (Tr., Pt. II, pp. 241-42, 258,
278)
Mr. Fleischer was given a scenario of Carington
Park, getting a promissory note from the bank, taking
the cash it got from the bank and giving the cash to
Strategic. Mr. Fleischer agreed that in this scenario
there was a transfer of funds. In the herein matter,
however, Strategic did not get any money in their
account as a result of the promissory note. Strategic
took the note in lieu of cash. The first time Strategic
got any money under this contract was July 2005. (Tr.,
Pt. II, pp. 295, 302-06)
Mr. Fleischer acknowledged that a promissory note
does not make any actual transfer of provider assets. A
check, however, is a transfer of funds. The first check
issued to pay the promissory note was dated July 26,
2005. He agreed that the promissory note for
$2,075,000 did not transfer any assets from Carington
to Strategic. Strategic took the note in lieu of cash. The
promissory note did, however, liquidate the liability for
purposes of GAAP and reporting financial statements.
A cost report, however, is not a report of the financial

App. 334
status of a provider entity. (Tr., Pt. II, pp. 259-61, 281;
State Exhibit 61, p. 1)
PRM 2305 states that where liability is not
liquidated with the 1-year time limit, “the cost incurred
for the related goods and services is not allowable in
the cost reporting period when the liability is incurred,
but is allowable in the cost reporting period when the
liquidation of the liability occurs.” (emphasis added)
Mr. Fleischer stated that under the rule, the facility
would get its costs back in a later year. Therefore,
under this rule, Carington Park would report the
payments made on the promissory notes during the
year that the payments were made. So for example, the
first payment on the promissory note to Strategic
which was made on July 26, 2005, in the amount of
$62,189.61, would have been reported on the 2005 cost
report. (Tr., Pt. II, pp. 248-49)
However, there was a change in the reimbursement
system in 2004, and 2005 cost reports were not used to
establish rates. Mr. Fleischer said “2003 was a year
upon which rates were going to be established and we
did not know that 2004 was not going to be used.”
Therefore, looking in hindsight, Mr. Fleischer stated
that this provision of PRM should not apply because
there would be “no way to get that reimbursement back
at a later time.” (Tr., Pt. II, pp. 245, 300-01)
He admitted that had the reimbursement system
not changed, the cost reports for 2004 would set the
rate for FY2006, and 2005 cost report for FY2007, etc.
Therefore, the problem is that there was a change in
the law on how the rate was set. “They changed the
reimbursement system legislatively where they weren’t

App. 335
going to use the cost report anymore and that’s part of
why these rules don’t make sense. These rules are
designed for an ongoing reimbursement system.” He
admitted that the rules made sense prior to the change
in legislation. (Tr., Pt. II, pp. 250-51)
Respondents also presented the testimony of John
Hapchuk, who worked for the U. S. Office of the
Inspector General (OIG) in the Office of Audit Services
for 40 years. He held various positions of increasing
responsibility, serving as a senior auditor and audit
manager over the Medicare program. He also served as
a Medicaid Audit Manager. Since his retirement in
2010, he has served as an independent consultant. He
stated that during his career with the OIG, he
answered questions about “the application of Medicare
rules and the reimbursement manual.” He admitted
that he “can speak more from Medicare than
Medicaid.” (Tr., Pt. II, pp. 461-76, 488-89, 552;
Respondent Exhibit NNNN)
Mr. Hapchuk was hired by Respondent to look at
the liquidation of liabilities rule and give his opinion as
to its applicability to the consulting costs for Strategic
and Providers. He stated that in his years of auditing,
he has applied 42CFR4I3.100 and PRM 2305 “to cost
report audits where the costs are used as a basis to
reimburse the provider.” He further stated that he does
not recall making a finding based upon those rules.
(Tr., Pt. II, pp. 602)
He testified that the PRM “certainly applies to
Medicare. Because Ohio has deemed it in part of the
hierarchy of criteria, it applies to Medicaid too.”
Furthermore, he acknowledged that there is no section

App. 336
in the PRM which applies only to Medicare or only to
Medicaid and there is no wording in the PRM which
says that one rule applies to Medicare and one rule
applies to Medicaid. (Tr., Pt. II, pp. 484-86)
Mr. Hapchuk admitted he was not familiar with the
rules applicable to Ohio’s Medicaid cost reports and
does not know what is allowable in Ohio cost reports.
Moreover, he does not know any provision of the Ohio
Revised Code or Ohio Administrative Code that applies
to the reporting of Providers Choice and Strategic costs
in the cost reports. (Tr., Pt. II, pp. 558,560)
As a preliminary matter, Mr. Hapchuk stated that
Medicare rules, including 42 CFR 413.100, do not apply
in a prospective payment system (PPS).18 In an attempt
to understand the type of reimbursement system used
in Ohio, prior to the hearing, he printed off a one-page
document from the internet which listed the various
reimbursement systems used in Ohio, using words such
as retrospective, semi-prospective, prospective and
pricing. There were no definitions for any of these
terms and he acknowledged he could have a different
definition than that used by Ohio. (Tr., Pt. II, pp. 520,
548-550, 561; State Exhibit 274)
He stated that a Medicare prospective payment
system is one in which “payment is not dependent upon
what costs they incur, it’s dependent upon what type of

18

Throughout the hearing different witnesses used the terms
“prospective” and “retrospective”. At times the witness clarified
how he/she used the term. An explanation of how Ohio used the
various terms is set forth at pages 15-16 of the Report and
Recommendation.

App. 337
services they perform.” Mr. Hapchuk gave the following
example to explain the difference between retrospective
and prospective:
Normally cost reimbursement is retrospective,
when I said you take the costs, put them on a
piece of paper, give it to the government, and
then they do something and they determine
liability, pay you. Prospective to me is the PPS
system whereby ... the government says I’m
going to give you a thousand dollars for each
appendectomy. . . . [T]he amount of costs
incurred by the provider is immaterial because
I’m going to pay you on prices.
(Tr., Pt. II, pp. 540, 631)
Since in Ohio, in 2003, the rates were based upon
the reported costs incurred, not the type of service
performed, Ohio was not under a prospective payment
system such as that described by Mr. Hapchuk and
used by Medicare. He further explained that in a
retrospective system, cost reports are utilized and the
provider is required to report reasonable costs. He
stated that this system was in place in Ohio in 2003
and that under Medicaid, “states have an option of how
they want to reimburse. It appears Ohio had
retrospective. They were reimbursing 100 percent of
reasonable costs.” (Tr., Pt. II, pp. 525-28)
Mr. Hapchuk stated that under the system Ohio
had in 2003, the providers were to report their
reasonable costs. He further testified that in reporting
these costs, 42 CFR 413.100 and PRM 2305 would be
applicable. In his auditing experience, he has applied

App. 338
42 CFR 413.100 and PRM 2305 to cost report audits
where the reported costs are used as a basis to
reimburse the provider. (Tr., Pt. II, pp. 531, 533, 53536, 604)
Mr. Hapchuk, however, stated that reporting costs
“is one thing and what is going to be reimbursed is
another. One is putting a number on a document. The
other one is how much cash you are going to actually
get.” When asked to separate what gets reported and
what gets reimbursed, Mr. Hapchuk stated it was
“very, very, very difficult to separate them” in this case.
(Tr., Pt. II, pp. 534, 535)
He was asked to look at the invoice from Strategic
to Carington Park for the Enhanced Services. Mr.
Hapchuk stated he had not seen this document or any
of the other invoices for these services. He had,
however, looked at the promissory notes. Mr. Hapchuk
was asked whether the invoice, which stated “Payment
due upon receipt of invoice”, was a short-term liability.
Mr. Hapchuk responded, “I don’t think I’m prepared to
stipulate to that.” He went on to explain:
Well, when you talk about short-term and longterm liabilities, and everybody keeps talking
about one year, and I agree there’s a one-year
rule, but in my mind, who determines if
something is a liability? And I really don’t know,
to tell you the honest truth. I don’t know if this
was booked by Carington as a short-term
liability; if it was treated as a payable, which
meant it never hit the books. What I do know is
that eventually both Carington and the other
ones thought of it as a long-term promissory

App. 339
note .... I’m not sure I understand the rules for
it, frankly.
(Tr., Pt. II, pp. 574-75; State Exhibit 59)
Mr. Hapchuk was presented with a scenario in
which he might be serving as an auditor and was
provided with 1) a contract indicating services rendered
between January 1, 2003 and December 31, 2003 and
2) a corresponding invoice for these services, dated
December 31, 2003, and stating the invoice is payable
upon receipt. He was asked whether the invoice was a
short-term liability. He responded that “the reason I
don’t want to do it is I understand what these data are
going to be used for.” He further stated that “Carington
didn’t cause the State to convert over to a PPS
system....My whole thing on this is nobody has
questioned that these consulting services were true,
valid, related to patient care. ... And my feeling is,
okay, so you know, if they had kept the cost
reimbursement system, I’d probably have a different
idea.” Mr. Hapchuk then stated that his “judgment is,
hey, I don’t see any harm here, quite frankly. I don’t.”
(Tr., Pt. II, pp. 579-80)
Then ODM’s counsel asked him to look at the
Strategic and Providers Choice contracts for services
and whether they are reportable in a calendar year
2003 cost report. Mr. Hapchuk replied that he was
unable to do so for a Medicaid cost report. (Tr., Pt. II,
pp. 590)
He later acknowledged that the invoice for
Enhanced Services was due upon receipt, which is less
than one year, and the definition of a short-term

App. 340
liability is a liability that is due in less than one year.
He further admitted that according to 42 CFR 413.100,
a short-term liability should be liquidated within a
year. He was then asked whether the promissory note,
which is a negotiable instrument, is liquidating the
short-term liability of the invoice. He agreed that the
promissory note was liquidating something, that it was
liquidating a liability. But he could not say whether the
liability was short-term or long-term. (Tr., Pt. II, pp.
593-96)
It is noted that in his written expert report, Mr.
Hapchuk wrote: “a short-term liability such as the
money due Strategic and Providers was paid in the
form of the delivery of 3 year promissory notes....” He
also wrote: “Payment of the short-term liabilities due
Strategic and Providers Choice was completed when
the promissory notes were signed and delivered to
those companies.” Mr. Hapchuk went on to say that
“Since the execution and delivery occurred before
December 2004 the short-term liability was timely
liquidated.” (Respondent Exhibit NNNN, pp. 4, 6, 7)
He opined that, based upon the facts presented to
him in this case, the Liquidation of Liabilities Rules
does not apply. He stated, however, if Ohio’s
reimbursement system had not changed, he would have
a different opinion. “Under the old system, the State
would pay for something, a cost for 2003 when it was
actually liquidated. They would have paid for it
eventually.” (Tr., Pt. [I, pp. 503, 514-15, 517)

App. 341
Reds Tickets
Terrace View Gardens, Franklin Ridge, East
Galbraith Health Care Center, Glen Meadows and
Wellington Manor reported on their 2003 cost reports
the costs associated with the purchase of 2004
Cincinnati Reds season tickets. State Exhibit 41 is an
invoice for season tickets Cincinnati Reds games to Joe
Tucker, 2470-1/2 Princeton Pike Rd., Hamilton, Ohio.
The tickets were for the 2004 baseball season. There
was no evidence as to who Joe Tucker is and/or what,
if any, affiliation he has with CHS. These costs were
reported in the “employee benefits” accounts.19 (Tr., Pt.
II, p. 146; State Exhibit 268, p. 3; State Exhibit 41)
PRM, CMS Pub. 15-1, section 2105.8 states: “Costs
incurred by providers for entertainment, including
tickets to sporting or other events, ... are not
allowable.” Mr. Cummins stated: “The Reds tickets
were classified as employee benefits. They were used
for the staff of the Cincinnati-based facilities.
Carington Health System had a policy that was in
writing, and had been established as to what it was
going to be used for.” No such policy was identified
during the hearing. In Respondent Exhibit VV,
however, an undated single page document was found,
titled “Cincinnati Reds Season Ticket Policy.” There
was no indication where this document came from;
there was no number on the page (other than the
exhibit page number) which might indicate that that it
came from an employee manual or some other type of

19

Cost accounts 6530, 7070 and 7520 are employee benefit
accounts. (Tr., Pt. II, p. 146)

App. 342
employee benefit package material. There were no
initials indicating that the auditors saw the document
during the audit. Therefore, there is no way of knowing
when this document was created. When asked at the
hearing if there was a continuous string of payments
over the years for Reds tickets for employee benefits,
Mr. Cummins responded, “I would imagine so.” (Tr., Pt.
II, pp. 777-78, 780; Respondent Exhibit VV, p. 2)
Ms. Hess stated in the few instances where this has
occurred in Ohio, the auditors sought counsel from the
State on how to handle a cost of sporting tickets under
employee benefits. She said since the rule specifies that
the benefit has to be nondiscriminatory, i.e. available
to all, Ohio has instructed the auditors that the cost is
allowable if documentation is provided as to which
employees attended the game. Ms. Hess acknowledged
that there is no specific rule that requires the names of
employees. She said that although the regulations deny
tickets altogether, Ohio gives a little leeway and will
allow it as an employee benefit if there is
documentation to show that the tickets are available to
all employees, not just the owners and their friends.
Although Mr. Cummins said the tickets were not used
for the benefit of the owners, no documentation or other
evidence to support this statement was produced. (Tr.,
Pt. II, pp. 147-49, 164, 782)
Furthermore, Ms. Hess also testified that employee
benefits which are included in a cost report must be
conferred during the cost-reporting period. Any benefit
purchased or paid for in 2003 and included in the 2003
cost report must be used by the employee during that
year. The tickets at issue were purchased in 2003 and

App. 343
used during 2004. Therefore, if, in fact, the tickets were
an employee benefit, they would only be an allowable
expense if they were used in 2003. (Tr., Pt. II, pp. Hess,
p. 148)
Mr. Cummins was asked if this was a valid basis for
disallowance of the cost on the cost report. He
responded that if something is reported in the wrong
period, if it was reported in 2003 and should have been
reported in 2004, the way that matter was resolved was
to put the cost “in the more appropriate period.” He
stated, however, that in this case, because of the
legislative change, this cost could not have been
“pushed forward.” (Tr., Pt. II, pp. 779-80)
Analysis
Audit/Agreed-Upon Procedures
Nursing home Medicaid providers are required to
file annual cost reports with the Department. These
cost reports, which “capture the costs and expenses
incurred [during the year] for providing services to
residents within the facility,” are used to determine
reimbursement for nursing home Medicaid providers.
Nursing homes are required to maintain records to
support the costs included in the cost reports, including
financial, medical and statistical. “In the Medicaid
audit setting, a provider must provide supporting
documentation that demonstrates that the reported
cost was actually incurred, that it is reasonable,
allowable and related to patient care.” Meadowwood
Nursing Facility v. Ohio Dept. of Job and Family Servs,
(10th Dist. 2005), 2005-Ohio-1263 at ¶19. (Tr., Pt. I, p.
130)

App. 344
Pursuant to R.C. 5111.27, the Department is
authorized to audit cost reports. These audits may be
conducted by auditors under contract or ones employed
by the Department. If the Department elects to use
contract auditors, the contracts shall be entered into by
bidding. With respect to the audits in this matter, the
Department issued a Request for Proposal and Clifton
Gunderson was one of the vendors selected to perform
the cost report audits.
Pursuant to Ohio Admin. Code 5101:3-l-27(B)(1), an
audit is
A formal post payment examination made in
accordance with generally accepted accounting
standards, of a Medicaid provider’s records and
documentation to determine program
compliance, the extent and validity of services
paid for under the Medicaid program and to
identify any inappropriate payments.
The Department has conducted the audits of cost
reports pursuant to Agreed-Upon Procedures since
1999. Respondent, however, contends that AgreedUpon Procedures used by Clifton Gunderson do not
constitute an audit. In support of its position,
Respondents point to the testimony of Emily Hess who
stated that some procedures for performing an audit
are different than those under Agreed-Upon
Procedures.
Ms. Hess explained that the use of the term “audit”
has different meanings. She stated that under the
auditing standards, “which is where the financial-based
audits come from, there are specific standards that

App. 345
have to be applied to those auditing standards.” She
stated that many judgment calls need to be made, such
as control analysis or risk analysis. The primary
purpose for financial-based audits is to enable people to
look at the financial statements to make a decision on,
for example, stock exchange or banks making loans.
There are many purposes for an audit of a financial
statement. (Tr., Pt. I, p. 523)
Under the auditing standards for governmental
entities or entities receiving government funds such as
Medicaid, however, there are attest standards. These
standards are at a different level than financial based
audits because the purpose of the audit of a
governmental entity/entity receiving government funds
is different. In the audits at issue in this case, the
auditors were looking at specific information for a
purpose - the impact of the cost report on the rate.
Therefore, in these audits the purpose is to ensure that
the costs included in a cost report are correct,
documented, reasonable and allowable. In a cost report,
the auditors are not looking at internal controls,
inventory, accounts payable or cash status. (Tr., Pt. I,
pp. 523-24)
The Independent Accountant’s Report on Applying
Agreed-Upon Procedures, “has specific language that is
required under AICPA standards for attestation
statement engagements compared to the auditing
standards.” For example, under the attestation
standards, no representation can be made as to the
sufficiency of the procedures because Clifton
Gunderson did not write them, and, therefore, Clifton
Gunderson cannot “take ownership of them as a CPA

App. 346
firm.” The report states: “This agreed-upon procedures
engagement was performed in accordance with
attestation standards established by the American
Institute of Certified Public Accountants.” (Tr., Pt. I,
pp. 523-25; Respondent Exhibit RR, p. 1176)
In advancing its argument that an audit was not
performed in this case, Respondent cites two cases,
Medcorp, Inc. v. Ohio Dept. of Job and Family Services
(10th Dist., 2008) 2008-Ohio-464 and HCMC, Inc. v.
Ohio Dept. of Job and Family Services, (10th Dist.
2008)179 Ohio App. 3d 707, which found proper audits
had not been performed. Neither of these cases,
however, concern cost report audits and are, therefore,
not relevant to the herein matter. The issue in Medcorp
concerned the use of statistical sampling methodology
used by the Department to extrapolate the results of a
small sample of claims to a larger sample. The Court in
Medcorp found that the sampling methodology used by
the Department and its application to the audit of
Medicaid claims for medical transport was invalid.
There is no issue of sampling in the herein case. HCMC
concerned Medicaid payments on a fee-basis. HCMC,
an oxygen supply company, provided services to
Medicaid and non-Medicaid patients, billing the
patients in different ways and at different rates. Again,
the issues in HCMC are completely different than those
in the herein case.
The issue of cost report audits, however, was
specifically addressed by the Tenth District in St.
Francis Home, Inc. v. Ohio Dept. of Job and Family
Services (10th Dist. 2006) 2006-Ohio-6147. The Court
stated that “R.C. 5111.27(B) provides that the scope of

App. 347
an audit conducted is within the discretion of ODJFS.”
Id. at ¶25 Furthermore, the factors set forth in R.C.
5111.27(B) “embody the standards that the audits be
conducted in a manner to produce an accurate result
and ODJFS utilize auditing procedures that are
objectively verifiable.” Id. at ¶21. Moreover, the Court
held that under R.C. 5111.27(B), the Department shall
consider accepted auditing standards and even if the
auditors did not comply with generally accepted
auditing standards the audit is not rendered invalid.
Id. at ¶23
The audit manual and program for audits of cost
reports is to include the following:
(1)

Comply with the applicable rules
prescribed pursuant to Titles XVIII and
XIX;

(2)

Consider generally accepted auditing
standards prescribed by the American
institute of certified public accountants;

(3)

Include a written summary as to whether
the costs included in the report examined
during the audit are allowable and are
presented fairly in accordance with
generally accepted accounting principle
and department rules, and whether, in all
material respects, allowable costs are
documented, reasonable, and related to
patient care;

(4)

Are conducted by accounting firms or
auditors who, during the period of the
auditors’ professional engagement or

App. 348
employment and during the period
covered by the cost reports, do not have
nor are committed to acquire any direct or
indirect financial interest in the
ownership, financing, or operation of a
nursing facility or intermediate care
facility for the mentally retarded in this
state;
(5)

Are conducted by accounting firms or
auditors who, as a condition of the
contract or employment, shall not audit
any facility that has been a client of the
firm or auditor;

(6)

Are conducted by auditors who are
otherwise independent as determined by
the standards of independence
established by the American institute of
certified public accountants;

(7)

Are completed within the time period
specified by the department;

(8)

Provide to the provider complete written
interpretations that explain in detail the
application of all relevant contract
provisions, regulations, auditing
standards, rate formulae, and department
policies, with explanations and examples,
that are sufficient to permit the provider
to calculate with reasonable certainty

App. 349
those costs that are allowable and the
rate to which the provider’s facility is
entitled.
R.C. 5111.27(B)
As the court in St. Francis stated, “These
requirements embody the standards that the audits be
conducted in a manner to produce an accurate result
and ODJFS utilize auditing procedures that are
objectively verifiable.” Therefore, if an audit is
conducted in such a manner as to produce an accurate
result and the procedures used are objectively
verifiable, a valid audit is performed. Agreed-Upon
Procedures, which the Department has utilized since
1999, set forth the scope and method to be utilized in
conducting the cost report audits. The auditors must
indicate the steps taken and provide work papers
documenting their work to verify their findings. Id. at
¶21.
Respondent argues that Clifton Gunderson did not
complete the Agreed-Upon Procedures and presents
several bases for its contention.
First, Respondent states that “the most
fundamental flaw in the procedures performed by
Clifton Gunderson is the obvious lack of independence
by the auditors.” (Post-hearing Brief of Appellant
(Phase I) at 9) In support of its argument that Clifton
Gunderson lacked independence, Respondent noted
that in its response to the RFP, Clifton Gunderson
included Mr. Wilkins, former chief of the Department’s
Bureau of Audit, as a reference. However, since Clifton
Gunderson had performed hundreds of cost report

App. 350
audits for the Department, Mr. Wilkins was familiar
with Clifton Gunderson’s work and would be an
appropriate reference.
The issue of independence is an important factor.
Therefore, R.C. 5111.27(B) specifically states that the
accounting firm pe1forming the audit 1) shall not audit
any facility that has been a client of the firm or auditor
and 2) the firm not have direct or indirect financial
interest in a nursing facility. These factors concern
independence from the entity being audited, not from
the Department. Moreover, R.C. 5111.27 authorizes the
Department to use its own employees to perform cost
report audits. The employees are obviously not
independent from the Department.
Respondent also claims that Clifton Gunderson
could not be independent because in its response to the
RFP, Clifton Gunderson stated that it found a 5:1
return-on-investment ratio for prior audits. Therefore,
argues Respondent, “it is difficult to imagine how this
auditing firm will perform work truly independently
and not driven by the incentive to at least meet this
prior ration.” (Post-hearing Brief of Appellant (Phase I)
at 9-10) Since any disallowance that an auditing firm
finds in a cost report audit must be substantiated with
documentation, the nursing home is protected from any
unsupported finding.
Second, Respondent argues that Clifton Gunderson
departed from the Agreed-Upon Procedures outlined in
the RFP. After being awarded the contract and prior to
commencement of work, Clifton Gunderson requested
a slight modification to the cash disbursement testing.
This request was granted and approved by Mr. Wilkins

App. 351
prior to any work being performed under the contract.
Although Mr. Wilkins stated that he would have
documented that modification in an email or letter, no
such document was produced at the hearing. Ms. Hess
testified that Clifton Gunderson completed the AgreedUpon Procedures, which included the modification
requested before they commenced work. (Tr., Pt. I, pp.
185-87, 260-61, 497)
Third, Respondent argues that Clifton Gunderson
departed from the Agreed-Upon Procedures because it
did not obtain a signed representation letter from CHS.
The record is clear that Clifton Gunderson attempted
to obtain signatures from Wellington Manor, Terrace
View Gardens and Glen Meadows, but they refused to
provide signatures. (Tr., Pt. I, pp. 582-83, 679-80)
Mr. Cummins testified that the AICPA standards
regarding the performance of Agreed-Upon Procedures
“specifically state that if the accountant cannot obtain
a management representation letter from a responsible
party, they are required to withdraw, and there is no
exception. They are required to withdraw.” In this case,
the practitioner is Clifton Gunderson, the responsible
party is CHS and the client is the Depaitment. (Tr., Pt.
I, pp. 561, 585, 588)
AICPA AT section 201.39 states:
The responsible party’s refusal to provide
written representation determined by the
practitioner to be appropriate for the
engagement constitutes a limitation on the
performance of the engagement. In such

App. 352
circumstances, the practitioner should do one of
the following:
a. Disclose in his or her report that inability to
obtain representation from the responsible
party.
b. Withdraw from the engagement.
c. Change the engagement to another form of
engagement.
Furthermore, AT section 601.13 states “If, in an
agreed-upon procedures engagement, the practitioner’s
client is not the responsible party, the practitioner is
not required to withdraw but should consider the
effects of the responsible party’s refusal on the
engagement and his or her report.” Therefore, Clifton
Gunderson was not required to withdraw from the
audit. Moreover, Clifton Gunderson notified their
client, the Department, that Respondents refused to
sign the representation letter. (State Exhibit 20, p. 3)
Fourth, CHS argues that Clifton Gunderson did not
complete the engagement. After the exit conference
between CHS and Clifton Gunderson, Clifton
Gunderson requested additional documentation, some
of which was subsequently provided. After reviewing
these documents, Clifton Gunderson incorporated the
relevant information into the audit results, revised the
disallowances, and submitted the Audit Input
Document, copy of the proposed cost adjustments and
papers, thus completing the audit. (Tr., Pt. I, pp. 311,
316)
Fifth, Respondent contends that the basis upon
which disallowances due to related party issues were

App. 353
made were inadequate. These disallowances were also
based upon lack of documentation. Moreover, the issue
of appropriateness of individual cost adjustments was
to be addressed in Phase II of the hearing. (Tr., Pt. I,
pp. 515-16)
Sixth, although Respondents acknowledge that
“lack of documentation is a valid criterion for
disallowing costs,” (Post-hearing Brief of Appellant
(Phase I) at 15) they argue that Clifton Gunderson was
at fault for failing to contact Bert Cummins about the
difficulties in obtaining documentation. The nursing
home facility is required to maintain adequate
documentation to substantiate its costs. It is incumbent
upon the facility being audited to produce the
documentation to support the costs included in cost
reports. Respondents were given months to collect the
information requested by Clifton Gunderson. They
failed to do so. They cannot now turn around and say
the audit is invalid because the auditor did not have
sufficient information to complete the audit.
Seventh, Respondents contend that all proposed
adjustments were not discussed with Respondent at
the exit conference with Clifton Gunderson. CHS bases
its argument upon the fact that the second page of the
form documenting the exit interview was not filled in.
This second page has three sections: “Proposed
Adjustment Areas”, “Document agreement and/or
disagreement with the proposed adjustments and any
pertinent comments below”, and “Were work papers
given to the provider? If yes, please indicate which
work papers.” However, David McClellan, CHS’
Corporate Controller, signed the first page of the form,

App. 354
which states: “All of the proposed adjustments known
at this time were discussed with the Provider and a
copy of the proposed adjustments was given to the
Provider.” Additionally, CHS was given a list of
outstanding documents and records requested but not
received. (State Exhibit 9, Terrace View , p. 371)
Finally, Respondent contends that the audit
conducted by Clifton Gunderson was inconsistent with
others it had conducted and with an audit conducted by
another firm, Tichenor & Associates. Respondent
argues that, since Clifton Gunderson always performed
its engagements in the same manner, the results
regarding related party transactions should have been
the same. In the audits at issue, however, one of the
issues with the related party transactions was a lack of
documentation. It is unknown what type of
documentation the auditors in the previous audits
received from CHS. Respondent also argues that
Tichenor conducted an audit of a three-month period
which was also included in the period Clifton
Gunderson’s audit and “made no adjustments for any
home office costs associated with Strategic or
Provider’s Choice.” (Tr., Pt. I, p. 319; Post-hearing Brief
of Appellant (Phase I) at 18)
As a preliminary matter, it is unknown what
documents CHS produced to Tichenor. Furthermore, as
the Tenth District responded to a similar argument
raised in Meadowwood , 2005-Ohio-1263, “the other
years are irrelevant here. ODJFS could have
mistakenly allowed the expense.” Id. at ¶29, In other
words, prior audits do not bind subsequent audits. As
a final matter, it is interesting that CHS is asserting

App. 355
that Tichenor performed an audit, since the AgreedUpon Procedures used by Clifton Gunderson were the
same as those used by Tichenor. (Tr., Pt. I, pp. 673-74)
Respondent also argues that it did not receive an
exit conference. However, the exit conference was held
between Respondents and Clifton Gunderson’s auditors
on June 16, 2003. What Respondents did not get was a
final fiscal audit conference, which may be held after a
proposed adjudication order is issued. There is no
requirement for the Department to hold these
conferences.
In conclusion, the Agreed-Upon Procedures
performed by Clifton Gunderson in the cost reports at
issue herein constitute an audit for purposes of R.C.
5111.27.
Direct Care and Indirect Care Consulting Costs
The parties entered into contracts with Providers
and/or Strategic for services for 2003. The Stipulation
of the Parties ¶¶ 6 and 7, attached hereto as
Attachment C, set forth the relevant contracts. These
contracts consisted of two parts: those outlined in the
main body of the contract, (“Annual Services”) and an
attachment to the contract (“Enhanced Services”).
In analyzing whether the costs, which were not paid
within one year of the end of the cost reporting period,
are reasonable and allowable, it is necessary to look at
the provisions of the CFR and PRM, specifically 42
CFR 413.100 and PRM 2305 (collectively, “Liquidation
of Liabilities rule”).

App. 356
The Federal Register, which provides some
guidance in interpreting the CFR, states that 42 CFR
413 codifies the long-standing policy regarding “the
timing of payment for accrued costs by requiring timely
liquidation of liabilities [to receive payments]. This
policy is intended to prevent the outlay of federal trust
funds before they are needed to pay the costs of
providers’ actual expenditures.”20 (60 Fed. Reg. 33129
(June 27, 1995))
Moreover, “[t]he purpose of the regulation [42 CFR
413] is to assure that Medicare recognizes only costs
associated with a liability that is timely liquidated
through an actual expenditure of funds. GAAP does not
offer this assurance for Medicare.” In another
comment, it states that “in the absence of timely
liquidation of the liability, the cost can be claimed in
the cost reporting period when the liquidation occurs,
that is, when actual expenditure takes place, as
currently described in section 2305 of the Provider
Reimbursement Manual.” (60 Fed. Reg. 33131 (June
27, 1995); State Exhibit 272, p. 6)
Respondents, however, contend that although the
CFR and PRM are part of the hierarchy of rules which
apply in Ohio in determining appropriate costs in cost
reports, these particular provisions of the CFR and
PRM do not apply to Medicaid cost reports.
Furthermore, Respondents argue that the liability
created by the contracts for Enhanced Services and the

20

It is noted that this comment addresses Medicare. Ohio, through
its hierarchy of authorities, has adopted the CFR and PRM for its
Medicaid program.

App. 357
subsequent invoices for such services are not a shortterm liability, and, therefore, 42 CFR 413.100 and PRM
2305 do not apply.
First of all, Respondents argue that 42 CFR 413.100
does not apply in a prospective payment system. The
Background section of the Federal Register
commenting upon 42 CFR 413.100, states that this
section does not apply to Medicare providers under a
prospective payment system. 60 Fed. Reg. 33126 (June
27, 1995) Mr. Hapchuk described the Medicare
prospective payment system as one in which “payment
is not dependent upon what costs they incur, it’s
dependent upon what type of services they perform.”
Furthermore, Mr. Cummins stated that under a
prospective payment system, nursing homes are
reimbursed at a flat rate for each RUG (Resource
Utilization Group) category, regardless of the cost to
the facility. The flat rate is per service rendered
regardless of cost. (Tr., Pt. II, p. 879)
From fiscal year 1994 through fiscal year 2005, Ohio
was on a prospective cost-based system. In this system,
Ohio reimbursed nursing home facilities based upon
their actual reasonable costs, which were used to
establish the per diem rate for the next fiscal year. Mr.
Hapchuk acknowledged that Ohio’s system during this
period was not a prospective payment system as used
under Medicare. The providers in Ohio were
reimbursed based upon costs incurred rather than
service provided, thereby distinguishing Ohio’s
prospective cost-based system from the Medicare
prospective payment system. Accordingly, Respondents’
argument that 42 CFR 413.100 and PRM 2305 do not

App. 358
apply to 2003 cost reports based upon the
reimbursement system in effect at the time is not welltaken.
Respondents also argue that the Liquidation of
Liabilities rule, which addresses short-term liabilities,
does not apply to the Enhanced Services contracts
because the liability is not short-term.
42 CFR 413.100 addresses special treatment of
certain accrued costs. The rule states that “under the
accrual basis of accounting, revenue is reported in the
period in which it is earned and expenses are reported
in the period in which they are incurred.” However, for
“the accrual of costs for which a provider has not
actually expended funds during the current cost
reporting period,” the rule then sets forth requirements
for liquidation of liabilities. If these requirements are
not met, the cost is disallowed, generally in the year of
accrual, except as specified in another portion of the
rule which does not apply to this case.
One type of accrued cost addressed in 42 CFR
413.100 is a short-term liability. Specifically, “a shortterm liability, including the current portion of a longterm liability (for example, mortgage interest payments
due to be in the current year), must be liquidated
within 1 year after the end of the cost reporting period
in which the liability is incurred.” A short term liability
is one that is due and payable within one year of its
occurrence. (Tr., Pt. II, pp. 42, 113, 240; 42 CFR
413.100(c)(2)(i)(A))
Respondent contends that the invoices for the
Enhanced Services Contracts for services to be

App. 359
provided in 2003 were not short-term liabilities. In
accordance with the terms of the Enhanced Contracts,
on December 31, 2003, Strategic and Providers billed
the CHS facilities for the entire amount of the
Enhanced Services portion of the contract. The invoice
stated “payment due upon receipt of invoice.” That
same day, December 31, 2003, CHS facilities entered
into promissory notes with Strategic and Providers for
the full amount of these invoices. The promissory notes
stated that payments would not commence until mid2005.
The Department contends that the December 31,
2003 invoices for Enhanced Services, payable on
receipt, are short-term liabilities. Respondents argue
that the debt for the Enhanced Contract was a longterm debt and the promissory notes liquidated the
debt.
The witnesses disagreed on whether the debt was a
short-term and long-term liability. Mr. Cummins said
the Enhanced Services contracts were long-term. Ms.
Hess said they were a short-term liability. Mr.
Hapchuk was unable to state whether the Enhanced
Services invoices were long-term or short term
liabilities. At one point in his testimony, when asked if
an Enhanced Service contract was a short-term
liability, he did not want to answer that question
because he understood “what these data are going to be
used for” and then stated that CHS did not cause the
legislature to change the reimbursement system. He
did state that the promissory note was liquidating a
liability, but he could not say whether the liability was
short-term or long-term. Although he stated “who

App. 360
determines when a liability is a liability?” he did
acknowledge that the invoice was a liability. When
asked when the liability was due, he responded, “Half
of the train says due upon receipt, and I don’t know
eventually it came up it was a long-term promissory
note.” In his written expert report, however, Mr.
Hapchuk wrote: “a short-term liability such as the
money due Strategic and Providers was paid in the
form of the delivery of 3 year promissory notes....” He
also wrote: “Payment of the short-term liabilities due
Strategic and Providers Choice was completed when
the promissory notes were signed and delivered to
those companies.” Mr. Hapchuk went on to say that
“Since the execution and delivery occurred before
December 2004 the short-term liability was timely
liquidated.” ( emphasis added) (Tr., Pt. II, pp. 575, 57778, 593-96, 913; Respondent Exhibit NNNN 4, 6, 7)
Mr. Fleischer stated that if an invoice is due
immediately, it is a short term liability. He was shown
a copy of an invoice dated December 31, 2003 from
Strategic to Carington Park for Enhanced Services.
This invoice stated “Payment Due Upon Receipt of
Invoice.” Mr. Fleischer testified that it was a shortterm liability. (Tr., Pt. II, pp. 242, 278; State Exhibit
59, p. 4)
Respondents, however, argued that the statement
on the invoices saying “due upon receipt” is irrelevant
and has no meaning. It is merely form over substance
and is a statement put on all of Strategic and Providers
Choice invoices. On the same date as the invoices, CHS
issued promissory notes for the entire amount of the
invoice. If the invoices were not due upon receipt,

App. 361
however, there would be no need to immediately issue
the promissory notes.
Accordingly, the December 31, 2003 invoices for
Enhanced Services are short-term debts. Having found
that the invoices for the Enhanced Services were shortterm liabilities, it is necessary to look at the provisions
of 42 CFR 143.100 and PRM 2305, which address the
liquidation of liabilities of short-term liabilities.
The CFR provision requires that a short-term
liability must be liquidated within one year after the
end of the cost reporting period in which the liability is
incurred. The CFR, however, does not define what the
term “liquidate” means. Therefore, according to the
hierarchy of authorities, it is necessary to look to the
PRM. The Provider Reimbursement Manual, CMS
HIM-15-1, section 2305 is consistent with the CFR, but
sets forth additional requirements regarding shortterm liabilities. In addition to requiring that the short
term liability be liquidated within one year after the
end of the cost reporting period, the PRM requires:
Liquidation must be made by check or other
negotiable instrument, cash or legal transfer of
assets such as stocks, bond, real property, etc.
Where liquidation is made by check or other
negotiable instrument, these forms of payment
must be redeemed through an actual transfer of
the provider’s assets within the time limits
specified in this section. Where the liability (1) is
not liquidated within the 1-year time limit, or
(2) does not qualify under the exceptions

App. 362
specified in §§2305.1 and 230521, the cost
incurred for the related goods and services is not
allowable in the cost reporting period when the
liability is incurred, but is allowable in the cost
reporting period when the liquidation of the
liability occurs. (emphasis and footnote added)
Therefore, it is necessary to determine whether the
liability or debt set forth in the invoices for Enhanced
Services was (1) liquidated within one year of the end
of the cost reporting period and (2) whether that
liquidation complied with the requirements set forth in
PRM 2305.
Respondents argued that promissory notes are used
extensively in commercial transactions. The issue in
this case, however, involves more than a commercial
transaction or mere payment of a debt and accord and
satisfaction. As stated in the Federal Register, the
purpose of the Liquidation of Liabilities rule is to
ensure that “costs associated with a liability are timely
liquidated through an actual expenditure of funds.”
(emphasis added) Recognizing that this purpose is
different than that involved in mere commercial
transactions, the Federal Register points out that
“GAAP does not offer this assurance.” (60 Fed. Reg.
33131 (June 27, 1995)) PRM 2305 sets forth specific
criteria to be met in order to liquidate a liability or a
debt for purposes of cost reporting.
Pursuant to PRM 2305, liquidation must be made:
1) by check or other negotiable instrument; and
21

These exceptions do not apply in this case.

App. 363
2) where liquidation is made by check or other
negotiable instrument, these forms of payment
must be redeemed through an actual transfer of
the provider’s assets within one year from the
end of the cost reporting period in which the
expense was incurred.
If both of these criteria are not met, then the “cost
incurred for the related goods and services is not
allowable in the cost reporting period when the liability
is incurred, but is allowable in the cost reporting period
when the liquidation of the liability occurs.” Therefore,
if both of these criteria were not met, the costs for the
Enhanced Services contracts should be disallowed in
the 2003 cost report.
Having made payment of the December 31, 2013
invoices for Enhanced Services through promissory
notes, which are negotiable instruments, CHS complied
with the first portion of the rule. Therefore, pursuant
to the wording of PRM 2305, the payment, i.e. the
promissory note, must be redeemed through an actual
transfer of CHS’ assets within one year from the end of
the cost reporting period, which was December 31,
2004.
Mr. Fleischer testified that the promissory notes did
not transfer assets from CHS to Strategic.22 Rather,
Strategic took the notes in lieu of cash. They did,
however, liquidate the liability for purposes of GAAP
and reporting financial statements of the company. He
said that the promissory note given by Carington to
22

These comments applied to all Enhanced Services contracts and
promissory notes.

App. 364
Strategic is an asset of Strategic. It is not an asset of
Carington. He said that the amount of the promissory
note would show as an asset on Strategic’s balance
sheet. (Tr., Pt. II, pp. 259-61, 266)
There is a difference, however, between what is
reported in a financial statement and what is reported
in a cost report. Ms. Hess stated that the provisions of
42CFR 413.100 and PRM 2305 place additional
requirements for reporting costs in a cost report that do
not exist for reporting on a financial statement. The
financial statement is only required to follow GAAP,
not the CFR or PRM. (Tr., Pt. II, pp. 963-64)
The Federal Register emphasizes that
GAAP and Medicare payment policy have
different purposes. Unlike GAAP, which is
intended to be used to present the financial
position of an organization, Medicare policy
specifically deals with paying providers for costs
incurred in furnishing care to Medicare
beneficiaries. For payment purposes, the
Medicare Trust Funds should not be required to
pay a provider for costs associated with
liabilities that are not liquidated timely.
60 Fed. Reg. 33129 (June 27, 1995)
Mr. Fleischer consistently stated that the liability
of the invoices for the Enhanced Services were
liquidated when the promissory notes were issued. He
acknowledged that when Strategic deposited CHS’ first
payment on the promissory note, however, a transfer of
funds occurred. (Tr., Pt. II. Pp. 269-70)

App. 365
In Medical Rehabilitation Services P.C. v. Bowen,
U.S. Dist. Ct., E.D. Michigan, No. 87-CIV-75547-DT,
1989 WL 146308 (Sept. 6, 1989), the Court was faced
with a situation in which the provider included the full
expense ($61,544) ofa deferred compensation package23
in its cost report. However, the provider paid $17,330
by check and tendered its creditor a promissory note for
the balance. In interpreting the PRM 2305, the Court
held that “the issuance of a promissory note is not
evidence of a liquidation, unless Plaintiff’s assets were
actually transferred to its creditor within one year of
accrual.” Id. at *7
Another case in which providers issued promissory
notes for compensation deferral is Professional
Rehabilitation Outpatient Services v. Health Care
Financing Administration, U.S. Dist. Ct., S.D. of TX,
H-00-2526, 2001 WL 1910296 (December 7, 2001). 42
CFR 413.100(c)(iv) states: “accrued liability related to
compensation of owners ... must be liquidated within
75 days after the close of the reporting period in which
the liability occurs.” Professional Rehabilitation Output
Services elected to defer payment of the salaries of four
corporate officers and subsequently issued promissory
notes to each of the officers, committing to pay on or
before December 31, 1998. Id. at *3
The compensation costs were denied based on the
liquidation of liabilities rule. The reasonableness of the
23

42 CPR 413.100 addresses special treatment of certain accrued
costs, including short-term liability, vacation pay and all-inclusive
paid days off, sick pay, compensation of owners, nonpaid workers,
FICA and other payroll taxes, deferred compensation and selfinsurance.

App. 366
costs was not disputed. In upholding the decision to
disallow the costs, the court found that the provider
failed to timely liquidate the liability because
Professional Rehabilitation did not transfer any assets
to pay off the promissory notes within the applicable
time period. Id. at *6
CHS also failed to transfer assets for the promissory
notes for Enhanced Services contracts within the
requisite time period, and thus CHS failed to meet the
two preconditions to reimbursement of costs related to
a short-term liability.
In addition to the issues concerning the Enhanced
Services contracts, CHS also had annual contracts in
which some payments were not made timely pursuant
to 42 CFR 413.l00 and PRM 2305. Under the Annual
Contracts, Strategic and/or Providers Choice submitted
monthly invoices, payable upon receipt, to the CHS
facilities. Most, but not all, of the invoices were paid
within one year after the end of the cost reporting
period. As set forth in the chart on pages 21-22 of the
Report and Recommendation, seven invoices (6 from
December 2003 and one from November 2003) from
Strategic were not paid until 2005. Furthermore, one
provider, East Galbraith, made late payments (i.e.
more than one year after the cost reporting period) to
Providers Choice for all of the services provided in
2003.
Mr. Fleischer was asked to assume that the check
dated April 26, 2005, payable to Strategic Nursing

App. 367
System, was payment for the November 2003 invoice.24
He agreed that the costs associated with this invoice
would not be reported in a 2003 cost report under the
liquidation of liability rule. Since these costs were not
liquidated within one year after the end of the cost
reporting period, under the provisions of both the CFR
and PRM, these costs are not allowable in the cost
report. (Tr., Pt. II, pp. 243-44; State Exhibit 58, p. 23)
The amounts attributable to the payments for the
Annual Contracts and which were paid after December
31, 2004 are set forth in State Exhibit 268, pp. 1, 2
(attached hereto as Attachment B)
As a final matter, CHS contends that the
Liquidation of Liabilities rule should not even apply to
the facts in this case because the Ohio legislature
changed the type of reimbursement system in FY2006.
CHS argues that it would be unable to recuperate its
costs if they were not included in the 2003 cost reports.
Both Mr. Fleischer and Mr. Hapchuk testified that
their opinions regarding the inapplicability of the
Liquidation of Liabilities rule to the facts in this case
were greatly influenced by the fact that the
reimbursement system changed in July 2005. Mr.
Hapchuk stated that if the system had not changed, his
opinion would be different. (Tr., Pr. II, pp. 248-50, 301,
579-80)
Whether costs are allowable are determined by the
law in effect at the time. Moreover, at the time of filing

24

The parties agree that the April 26. 2005 check was payment for
the November 2003 invoice.

App. 368
the 2003 cost reports, CHS did not know that the
Medicaid reimbursement system would change in July
2005. A future change in the reimbursement system
does not provide justification to ignore the cost
reporting laws in effect at the time of filing cost
reports.
Interestingly, in August 2004, before CHS made any
payments on the promissory notes and before the
reimbursement system changed, CHSHO Inc.
purchased Strategic for $4.6 million, less than the
amount of money CHS owed Strategic for the
promissory notes at issue here. Mr. Cummins stated
that because of this acquisition, CHS “owed the money
to themselves.” (Tr., Pt. II, p. 894) The monetary
implications of this acquisition are unknown and are
not relevant to a determination of whether the
Enhanced Services costs are allowable in the 2003 cost
reports, but may have an impact on concerns raised by
Mr. Fleischer and Mr. Hapchuk. Moreover, the 2003
cost reports were used to set the reimbursement rate
for FY 2005, a year before the new system went into
effect.
The promissory notes at issue in this case total
millions of dollars. It is clear that the first payment on
the promissory notes were not made until 2005.
Therefore, the first outlay of cash was not made by
CSH until the beginning of FY2006. The per diem rate
CHS received for FY2005, however, was based upon the
2003 cost reports, which included the amount of the
promissory notes at issue in this case. Therefore, the
figures used to calculate the per diem rate for 2005
included millions of dollars represented by the

App. 369
promissory notes. Because of the deferred payment
arrangement, however, CHS received Medicaid funds
prior to actually expending any assets. It is scenarios
such as this, where a provider receives government
funds prior to expending the money for services, that
42CFR 413.100 and PRM 2305 were intended to
prevent.
Cincinnati Reds Tickets
Based upon PRM 2105.8, the cost for season
Cincinnati Reds tickets were disallowed. PRM 2105.8
states:
Costs incurred by providers for entertainment,
including tickets to sporting or other events,
alcoholic beverages, golf outings, ski trips,
cruises, professional musicians of other
entertainers, are not allowable. Costs incurred
by providers for purposes of employee morale,
specifically, for an annual employee Christmas
or holiday party, an annual employee award
ceremony or for sponsorship of employee athletic
programs (bowling, softball, basketball teams,
etc.), are allowable to the extent that they are
reasonable.
The rule clearly prohibits the reimbursement of
tickets to sporting events. Respondents, however, argue
that the season Cincinnati Reds tickets were not used
for “entertainment,” but were employee benefits, which,
if reasonable, should be allowed. (Respondents’ Post
Phase II Merit Brief at 61) Mr. Cummins testified “if
they’re used for employee benefits, they’re allowable if
they are reasonable.” (Tr., Pt. II, p. 778)

App. 370
A close reading of the rule, however, does not say
that costs of the prohibited items, such as sporting
events, are allowable if reasonable. The rule states that
costs incurred for employee morale, “specifically” listing
the types of events or activities, are allowable if
reasonable. None of the prohibited items are included
in the listing of employee morale items, which are very
different in character than the prohibited items.
Assuming
arguendo
that
Respondents’
interpretation is correct, if a provider wishes such
prohibited expense to be considered an employee
benefit, it is incumbent upon the provider to produce
documentation to support such contention. No
assumption can be made, as CHS argues, that merely
because the cost of tickets were listed under employee
benefits on the cost report and included as employee
benefits, they were used by employees, as opposed to
owners and their friends. Moreover, the unidentified
piece of paper entitled “Cincinnati Reds Season Tickets
Policy” and found in Respondent Exhibit VV is
undated. There is no way of knowing when this
document was created. (Respondents’ Post Phase II
Merit Brief at 62)
Moreover, employee benefit costs must be conferred
during the cost reporting period. That was not the case
here. Mr. Cummins acknowledged that if these costs
were reported in the wrong period, the matter would be
resolved by including them “in the more appropriate
period.” Again, as with the liquidation of liabilities
issue, the change of legislation issue was raised as the
reason the appropriate year could not be used. (Tr., P.
II, p. 779)

App. 371
For the above stated reasons, the cost for the 2004
Cincinnati Reds tickets should be disallowed and the
corresponding adjustments in State Exhibit 268, p. 3 be
adopted.
Notice Issue
The Liquidation of Liabilities rule was not cited in
the Notice letters as a basis for disallowances. The
basis for the disallowance at issue at that time was
insufficient documentation to support the reported
costs. Therefore, CHS argues that it did not receive
notice that the Department was going to use the
liquidation of liabilities rule to disallow costs.
Specifically, Respondents state: “The intention to apply
this rule was not included in the notices of opportunity
for a hearing, nor in the audit reports or reports of final
settlement attached to and incorporated in the notice
of opportunity for a hearing. “ Therefore, Respondents
argue, “the liquidation of liabilities rule cannot be
applied.” (Respondents’ Post Phase II Merit Brief at 2728)
The due process afforded a respondent in an
administrative hearing is the right to a reasonable
notice of hearing and reasonable opportunity to be
heard, including reasonable notice of the subject matter
of the hearing. State ex rel. LTV Steel Co. v. Industrial
Comm’n of Ohio (10th Dist., 1995) 102 Ohio App.3d 100,
103-04 The purpose of the notice requirement in R.C.
119.07 is to enable the respondent to prepare a defense.
Geroc v. Ohio Veterinary Med. Bd. (8th Dist. 1987), 37
Ohio App.3d 192, 198; Keaton v. Ohio Dept. of
Commerce (10th Dist. 1981), 2 Ohio App.3d 480,482-83

App. 372
It was only after discovery in this matter that the
Department received the documentation which
revealed there was no actual transfer of CHS’ assets
within one year from the end of the cost reporting
period. CHS, however, argues that the two-year (2003
and 2004) Combined Financial Statement of all the
CHSHO and its Affiliates disclosed promissory notes
paid by CHS to Strategic, and, based upon this, the
auditors had sufficient information to make a
determination on whether to disallow the costs under
the liquidation of liabilities rule.
In advancing its argument, CHS relies upon Note L
in the Combined Financial Statement of CHSHO and
its Affiliates, stating:
Carington contracted with Strategic Nursing
Systems, Inc. (Strategic), to provide direct care
consulting services....Additionally, at December
31, 2003 Carington owed Strategic $3,420,131,
which was included in accounts payable–trade
and accrued liabilities. At December 31, 2003,
Carington also owed Strategic $12,082,000 of
trade accounts payable that both parties agreed
were not due within the next twelve months.
This amount was classified as an other longterm obligation.
(Respondent Exhibit MMMM, p. 218)
Note A of the Combined Financial Statement of
CHSHO and its Affiliates clarifies that “Carington”
refers to CHSHO’ Affiliates, stating: “The combined
financial statements present the financial position,
results of operations and cash flows of CHSHO, Inc.,

App. 373
and Affiliates (Carington). The financial statements
include the accounts of 21 affiliated Ohio corporations
that operate under common management and are
commonly owned. The corporate affiliates ... operate 35
long-term care facilities.” Therefore, in Note L,
“Carington” refers to 35 long-term care facilities. There
is nothing in Note L which identifies which of the 35
facilities have promissory notes. Moreover, Ms. Hess
stated that in order to determine which facility had the
promissory notes it would be necessary to see the
promissory notes prior to making a finding of
disallowance of a cost in a cost report. (Tr., Pt. II, p.
986; Respondent Exhibit MMMM, p. 206)
During the audit, the auditors did not receive
invoices for the Enhanced Services costs, promissory
notes for the Enhance Services costs, or cancelled
checks showing payments on the promissory notes.
Without this information, the auditors would be unable
to make a finding of failure to timely liquidate under
PRM 2305. Ms. Hess testified that had they been given
those documents, they “would have eliminated the cost
based upon the Liquidation of Liability Rule which is
Publication 15-1, Section 2305.” (Tr., Pt. II, pp. 966-67)
It was only during the discovery stage of the
administrative proceeding that the Department
received documentation of these costs at issue on the
Enhanced Services contracts.25 The parties stipulated

25

It is noted that during the discove1y phase of this case, the
Department received additional documentation on other
allowances, which it reviewed and gave CHS credit, by removing
some disallowances.

App. 374
that, based upon documents received in the discovery
process, the Department’s “basis for the proposed
disallowance of the costs reported in 6210 and 7215 is
that the costs were not timely liquidated as provided by
the provisions of 42 CFR §413.100 ... and the provisions
of Pub. 15-1 §2305(A), §2305.1 and §2305.2.”
(Stipulation of the Parties, ¶ 8)
As stated in Geroc and Keaton, the purpose of the
notice requirement in R.C. 119.07 is to enable
respondent to prepare a defense. In this case, CHS
knew the basis upon which the Department was
proceeding and had time to thoroughly prepare its
defense, including engaging experts and calling
witnesses to address the liquidation of liabilities issues.
Respondent cites Minges v. Ohio Dept. of
Agriculture, 213-Ohio-1808 (10th Dist. May 2, 2013) in
support of its position that it did not receive proper
notice. In that case, however, the Ohio Department of
Agriculture (ODA) charged respondent with a rule that
required ODA to prove a particular behavior. ODA,
however, did not present evidence on this behavior and,
in its closing argument, relied upon a rule not cited in
the notice letter as the basis of its case. Therefore,
respondent did not have any opportunity to prepare a
defense.
In this case, CHS had ample opportunity to prepare
and suffered no prejudice from the fact that the Notice
Letter did not include notice of the disallowance under
the liquidation of liabilities rule. See Diso v. Dept. of
Commerce, 2012-Ohio-4672, ¶¶ 72, 73 (5th Dist. October
8, 2010) (finding respondent failed to show he was
prejudiced; he had time to prepare his defense).

App. 375
Moreover, to accept CHS’ notice argument would
encourage providers to fail to provide sufficient
documentation during an audit, then produce the
missing documentation during discovery and then
require the Department to issue another notice of
opportunity letter, starting the process all over again
from the beginning.
Prior Use of Liquidation of Liability Rule
CHS argues that the liquidation of liabilities rule
has never been used or interpreted in the manner the
Department is doing in this case, and, therefore, the
Department is precluded from using it in this case.
CHS relies upon the testimony of Mr. Fleischer, who
stated that, in his experience, he had not seen the rule
applied in this manner. From this statement, CHS
jumps to the conclusion that it has never been applied
in this manner. (Respondents’ Post Phase II Merit
Brief at 46) The record in this case does not establish
this fact one way or another.
Although CHS contends that the Department never
applied the rule, it then argues that the Department
has changed its application of the rule. CHS cites to
Cove Associates Joint Venture v. Sebelius, 848 F. Supp.
2d 13 (D.D.C. 2012) to argue that a new interpretation
of a rule cannot be applied to past practice. The court,
however, required that the providers must prove they
relied upon a prior interpretation of a rule. In this case,
there is no evidence of a contrary prior interpretation
or evidence that CHS relied upon a contrary
interpretation.

App. 376
CHS also raises the argument that the auditors are
prohibited from applying the PRM 2305 as it relates to
this case because it contends that the audit manual
only referenced a liquidation of an owner-administrator
compensation, not other types of liquidation of
liabilities cited in 42CFR 413.100. During the hearing
Mr. Cummins was asked to identify Respondent
Exhibit QQQQ, which he identified as six selected
pages from the audit manual that was in Clifton
Gunderson’s file. He said he went through the audit
manual looking for references to liquidation of
liabilities and this was the only reference he found. By
including only one aspect of the rule, CHS argues, all
other aspects or portions of the rule are excluded,
under the expressio unius principle (“the expression of
one thing is the exclusion of another”). (Tr., Pt. II, pp.
708-10)
Ms. Hess, however, stated that Respondent QQQQ
was not part of the audit manual. It was pait of a more
comprehensive document, identified as State Exhibit
280, which was a listing of the most common
adjustments made in audits. Moreover, she testified
that the audit paragraphs listed in State Exhibit 280
are not an exclusive list and that the auditors would
make adjustments for reasons other than those listed
in State Exhibit 280. (Tr., Pt. II, pp. 948-50)
Furthermore, the auditors are required to apply all
the laws according to the hierarchy set forth in Ohio
Admin. Code 5101:3-3-01(A).
Other Audits not at Issue In This Case

App. 377
CHS also argues that there were other audits
performed of other facilities in the CHSHO
organization and no disallowance was made using the
liquidation of liabilities in the manner it is being used
in this case. A determination of whether a cost was
allowable would depend, in part, upon the facts and
documentation in each case.
One audit raised by Respondent in support of its
position is that of East Galbraith, which covered the
period of June 29, 2003- September 30, 2003. The
Enhanced Service agreements and corresponding
promissory notes, however, were not entered into until
December 31, 2003. (Stipulation of the Parties, ¶7E)
Furthermore, there is no evidence as to the
documentation reviewed by the auditors in the other
facilities.
Unpaid Days
Respondent contends that the hearing examiner
improperly refused to consider evidence on unpaid
days, including the admissibility of Respondent Exhibit
0000, which was therefore proffered. This matter was
ruled upon in a March 15, 2013 Journal Entry granting
the Department’s Motion in Limine to exclusion
evidence of unpaid patient days for room and board and
unpaid claims for services.
Matters that are subject to R.C. Chapter 119
hearings are expressly limited to those matters
authorized by statute. R.C. 5111.06 authorizes Chapter
119 hearings as a forum for providers to challenge
matters included in final fiscal audits. The
statutory/regulatory scheme for final fiscal audits

App. 378
addresses the examination of payments by the
Department, whether such payments were appropriate,
and, if a determination of an overpayment is made, the
requirements of notice to the provider and the
provision of appeal rights under R.C. Chapter 119. The
final fiscal audit is the end result of an audit, which
was authorized by R.C. 5111.27, to determine whether
the provider must refund an overpayment to the
Department. Under this statutory/regulatory scheme,
non-payment or unpaid claims are not subject to R.C.
Chapter 119 proceedings. Unpaid days/claims which
CHS wanted to adjudicate, are by definition not
overpayments. Therefore, adjudication of claims for
unpaid days and unpaid claims are not at issue in this
administrative hearing.
Findings of Fact
To the extent any findings of fact constitute conclusions
of law, they are offered as such.
1.

The Respondents in this matter are: CHSGlenwell, Inc. [Glen Meadows (provider
number 2429330)]; CHS-Ohio Valley, Inc.
[Terrace View Gardens (provider number
2339384)]; CHS-Glenwell, Inc. [Wellington
Manor (provider number 2429321)]; CHS
Miami Valley; Inc. [Vandalia Park (provider
number 2339624)]; CHS-Miami Valley, Inc.
[Franklin Ridge (provider number 2339688)];
CHS-Greater Cincinnati, Inc. [East
Galbraith Health Care Center (provider
number 2399033)]; and CHS-Lake Erie, Inc.
[Carington Park (provider number 2339268)].
Respondents operate long-term care

App. 379
facilities, providing room, board and related
nursing services to persons eligible for
benefits under Ohio’s Medicaid program. At
the time at issue, ODJFS administered the
Medicaid program pursuant to R.C. Chapter
5111 and Title XIX of the Social Security Act.
2.

Initially, the cases involved in this matter
were split between two hearing examiners.
Originally, the above referenced hearing
examiner was assigned CHS-Glenwell, Inc.
Docket Nos. 09LTC17, 09LTC18, 09LTC19,
CHS-Hamilton County, Inc. Docket Nos.
09LTC30, 09LTC31, 09LTC32, 09LTC33, 26
and Carington Health Systems Docket Nos.
09LTC24, 09LTC2527. Thereafter, the
following cases were transferred to the above
referenced hearing examiner and the parties
agreed to consolidate the cases: CHS-Miami
Valley, Inc. Docket Nos. 09LTC13, 09LTC14,
09LTCl5, 09LTCl6, 09LTC34, 09LTC35,
0 9 L T C3 6 , 0 9 L T C3 7 , CHS-G rea t e r
Cincinnati, Inc. Docket Nos. 09LTC20,

26

During the hearing, the parties agreed that the correct name for
CHS-Hamilton County, Inc. is CHS-Ohio Valley, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the correct Provider No. was used
for the entities. (Tr., Pt. II, pp. 23-4)
27

During the hearing, the parties agreed that the correct name for
CHS-Carington Health Systems is CHS-Glenwell, Inc. and that the
caption of the case be amended to reflect this change. They noted
that throughout the proceedings the documents the correct
Provider No. was used for the entities. (Tr., Pt. n, pp. 23-24)

App. 380
09LTC21, 09LTC22, 09LTC23, and CHSLake Erie, Inc. Docket Nos. 09LTC26,
09LTC27, 09LTC28, 09LTC29.
3.

Prior to the consolidation, there were three
days of hearings in the CHS-Glenwell, Inc.
Docket Nos. 09LTC17, 09LTC18, 09LTC19,
CHS-Hamilton County, Inc. Docket Nos.
09LTC30, 09LTC31, 09LTC32, 09LTC33, and
Carington Health Systems Docket Nos.
09LTC24, 09LTC25 cases to address
Respondents’ challenge that the Department
had not conducted audits. After
consolidation, the parties agreed that the
determination of whether an audit was
conducted would apply to all the cases in
consolidated case.

4.

The Medicaid cost reports at issue in this
matter are: 1) the calendar year 2003
Medicaid cost reports filed by Carington
Park, Terrace View Gardens, Vandalia Park,
and Franklin Ridge; 2) the six-month cost
report covering July 1, 2003, to December 31,
2003, filed by East Galbraith Health Care
Center; and 3) the three-month cost reports
covering December 1, 2003, to February 29,
2004, filed by Glen Meadows and Wellington
Manor. The cost reports are collective
referred to as “2003 cost reports.”

5.

In order to conduct an audit of a cost report,
the person(s) conducting the audit reviews
records and documents to ensure that the
amounts reported in a provider’s annual cost

App. 381
report are reported accurately, are allowable,
documented, related to patient care and
reasonable. Each cost in a cost report should
be verifiable through documentation.
6.

ODJFS issued a Request for Proposal (RFP)
seeking independent professional auditors to
audit the 2003 Cost Reports in accordance
with Agreed-Upon Procedures. One of the
firms selected was Clifton Gunderson, which
has performed cost report audits since the
Medicaid program began in the mid-1960’s
and has performed them for the Ohio
Medicaid program pursuant to Agreed-Upon
Procedures since 1999.

7.

Clifton Gunderson contacted CHS on March
1, 2006, over three months prior to the site
visit scheduled for the week of June 12, 2006
requesting the information listed on the
attached letter by April 7, 2006. The
attachment listed 32 categories for items to
be produced and indicated the specific
accounts in the cost report to be audited. Ms.
Hess stated that CHS only produced
documents responsive to one of the requests.
Prior to the site visit a second request was
made for the general ledgers.

8.

On the last day of the field work, an exit
conference was held and signed off by three
Clifton Gunderson staff and David
McClellan, the Corporate Controller for CHS
at the time. The signed form states: “All of
the proposed adjustments known at this time

App. 382
were discussed with the Provider and a copy
of the proposed adjustments was given to the
Provider.”
9.

At the exit conference after the audit, Clifton
Gunderson asked CHS to sign the
representation letter, which is part of the
Agreed-Upon Procedures. CHS refused to do
so.

10.

Section 600 of the AICPA requires a
representation letter, which is usually signed
on the last day of field work. This letter is
obtained from the entity being audited, in
this case, Respondents.

11.

When Clifton Gunderson informed the
Department of CHS’ refusal to sign the
letter, Clifton Gunderson was instructed to
proceed with the audit as usual.

12.

At the exit conference Clifton Gunderson
gave CHS a list of still outstanding
documents, which was very similar to the list
sent in March 2006. This list included,
among other things, invoices, canceled checks
and contracts, which would substantiate
documentation for reported costs. The letter
stated that if the items were not received by
Clifton Gunderson by June 30, 2006, Clifton
Gunderson would make the required
adjustments in its report to the Department.
CHS provided some documentation for
expenses prior to the deadline and Clifton
Gunderson incorporated that information

App. 383
prior to issuing the proposed cost adjustment
letter, which was sent to CHS along with
supporting work papers of those
adjustments. CHS was given seven days to
respond to the report; otherwise, the
finalized report would be sent to the
Department. CHS did not respond and the
draft adjustments were finalized to the
Department. The Department received the
Audit Input Document, copy of the proposed
cost adjustments and papers to support
Clifton Gunderson’s proposed cost
adjustments.
13.

After receiving the finalized report from
Clifton Gunderson, the Department
performed a high level review for accepting
the actual audit from Clifton Gunderson to
ensure that what had been done was
adequately documented in the working
papers, and that the adjustments tied back to
those working papers that were submitted.

14.

The procedures for audits, starting with the
RFP, the contractor’s work and the
Department’s process after receiving
deliverables from the contract auditor have
been the same since 1999. The Agreed-Upon
Procedures have been modified periodically
since 1999.

15.

Clifton Gunderson followed the Agreed-Upon
Procedures as prescribed in the RFP and the
slight modifications made prior to

App. 384
commencement of the engagement and
conducted a proper audit.
16.

A final fiscal audit conference or exit
conference may be conducted by the
Department’s Bureau of Audit “to try and
resolve potential findings identified by the
Department with the providers.” This final
fiscal audit conference, which is different
than the exit conference held between Clifton
Gunderson and CHS immediately after the
on-site field work was completed in June
2003, is not mandatory.

17.

In this case, Respondents requested final
fiscal audit conferences. The Department,
however, elected to issue Proposed
Adjudication Orders, affording Respondents
an opportunity to request a hearing under
R.C. Chapter 119.

18.

The 2003 cost reports at issue in this matter
were used to set the per diem rates for fiscal
years 2005 and 2006.

19.

The Department audited the patient days
and patient liability for: 1) Carington Park,
Terrace View Gardens, Vandalia Park,
Franklin Ridge, East Galbraith Health Care
Center for fiscal years 2003, 2004, 2005, and
2006; 2) Glen Meadows for fiscal years 2004,
2005, and 2006; and 3) Wellington Manor for
fiscal years 2005 and 2006.

20.

The days audits at issue herein were
performed in the same manner as the audit

App. 385
at issue in Meadowbrook Care Center v. Ohio
Dept. of Job and Family Services (10th Dist.
2007), 2007-Ohio-6534.
21.

After performing the patient day/patient
liability audits, ODJFS issued Combined
Proposed Adjudication Orders (CPAO) for
each open audit period for each of the
Respondents. Each CPAO contained Reports
of Examination, detailing the “calculation
leading to the amount determined to be
owed.” Respondents each timely requested an
exit conference. Thereafter, ODJFS re-issued
CPAO’s for each facility for each open audit
period, providing Respondents the
opportunity to request a R.C. Chapter 119
hearing. Each Respondent timely requested
a R. C. Chapter 119 administrative hearing.

22.

Attachment D attached hereto and
incorporated herein reflect the revised
patient days and patient liability
adjustments. Although Respondent’s counsel
objected to the adjustments in the Reports of
Examination and did not stipulate to the
amounts, no evidence was presented to rebut
the Department’s prime facie evidence with
respect to patient days and patient liability
adjustments. The findings as set forth in
Attachment D attached hereto are adopted as
a Finding of Fact.

23.

Based upon audits on cost reports performed
at issue herein, ODJFS issued Notices of
Opportunity for Hearing to the facilities for

App. 386
each of the audits and each Respondent
timely filed a request for a R. C. Chapter 119
hearing in the above-referenced matters.
24.

Notwithstanding the contents of any initial
or any amended Audit Report in these
proceedings, the parties have agreed to the
Proposed Cost Adjustments set forth in State
Exhibit 267a, which is Attachment A,
attached hereto and incorporated herein as a
Finding of Fact.

25.

The parties have stipulated that there were
only two issues related to the cost report
audit disallowances at issue in this hearing:
1) the Strategic Nursing Services consulting
costs (reported by all seven facilities in cost
account 6210) and the Providers Choice
Administrative Services consulting costs
(reported by Carington Park, Terrace View
Gardens, Franklin Ridge, Vandalia Park, and
East Galbraith Health Care Center in cost
account 7215); and 2) the Cincinnati Reds
tickets costs reported by Terrace View
Gardens, Franklin Ridge, Glen Meadows,
and Wellington Manor in cost accounts 6530,
7070, and 7520 and reported by East
Galbraith in cost accounts 7070 and 7520.

26.

The Proposed Cost Adjustments on State’s
Exhibit 268 are the sole and only remaining
cost report audit adjustment issues.
Although the parties agree as to amounts set
forth in State Exhibit 268, they disagree as to
whether those costs should have been

App. 387
included in the first place. Stipulations of the
Parties, no. 5 These adjustments were made
for direct-care consulting costs, found at
State Exhibit 268, p. 1, indirect care
consulting costs, found at State Exhibit 268,
p. 2 and Cincinnati Reds tickets, found at
State Exhibit 268, p. 3.
27.

Cost reports are the mechanism by which
nursing home facilities report their operating
costs to the state.

28.

Between 1994 and July 1, 2005, Ohio used a
prospective cost based payment system, in
which a per diem rate was established for
each facility based upon the facilities’
reasonable costs.

29.

Under the Medicare prospective payment
system the costs incurred are irrelevant.
Reimbursement under the Medicare
prospective payment system is dependent
upon the type of service performed; the
provider is reimbursed a set amount for a set
service, regardless of cost.

30.

Ohio’s prospective cost based system is
different than the prospective payment
system under Medicare.

31.

In 2005, the Ohio legislature passed laws
which changed the reimbursement system
from the cost-based prospective
reimbursement system to a price-based
prospective system. During the transition
period, the rates in FY 2006 were the same

App. 388
as those in FY 2005. In FY 2007, the new
rates under the price-based prospective
system went into effect. Under the pricebased prospective system, the State pays
“similarly-situated homes the same price
subject to case mix adjustments.” Rather
than looking at the facility’s costs, the State
looks at “the peer group experience to
establish the rate components,” while still
starting with a calendar year cost report and
applying an 18-month inflation factor.
32.

CHS– Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Strategic Nursing Systems,
Inc., at State’s Exhibit 57. The costs
associated with this consulting agreement
were reported in account 6210. Strategic
Nursing Systems, Inc. invoiced Carington
Park monthly for the consulting fees and
Carington Park paid each invoice by check as
shown in State’s Exhibit 58. The consulting
agreement (State’s Exhibit 57) contained an
Attachment A for Enhanced Services, with
an additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by
State’s Exhibit 59. Carington Park issued an
installment promissory note for the
December 31, 2003 for the Enhanced
Services invoice, State’s Exhibit 60. The
payments of the installment promissory note
were per the note’s terms and were by checks
at State’s Exhibit 61.

App. 389
33.

CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Strategic
Nursing Systems, Inc. at State’s Exhibit 92.
The costs associated with this consulting
agreement were reported in account 6210.
Strategic Nursing Systems, Inc. invoiced
Terrace View Gardens monthly for the
consulting fees and Terrace View Gardens
paid each invoice by check as shown in
State’s Exhibit 93. The consulting agreement
(State’s Exhibit 92) contained an Attachment
A for Enhanced Services, with an additional
consulting fee that was due on December 31,
2003, that was invoiced by Strategic Nursing
Services as shown by State’s Exhibit 94.
Terrace View Gardens issued an installment
promissory note for the December 31, 2003
Enhanced Services invoice, State’s Exhibit
95. The payments of the installment
promissory note were per the note’s terms
and were by checks at State’s Exhibit 96.

34.

CHS - Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered
into an agreement with Strategic Nursing
Systems, Inc. at State’s Exhibit 119. The
costs associated with this consulting
agreement were reported in account 6210.
Strategic Nursing Systems, Inc. invoiced
Franklin Ridge monthly for the consulting
fees and Franklin Ridge paid each invoice by
check as shown in State’s Exhibit 120. The
consulting agreement (State’s Exhibit 119)

App. 390
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as
shown by State’s Exhibit 121. Franklin Ridge
issued an installment promissory note for the
December 31, 2003 Enhanced Services
invoice, State’s Exhibit 122. The payments of
the installment promissory note were per the
note’s terms and were by checks at State’s
Exhibit 123.
35.

CHS – Miami Valley, Inc. d.b.a. Vandalia
Park, provider number 2339624, entered into
an agreement with Strategic Nursing
Systems, Inc. at State’s Exhibit 154. The
costs associated with this consulting
agreement were reported in account 6210.
Strategic Nursing Systems, Inc. invoiced
Vandalia Park monthly for the consulting
fees and Vandalia Park paid each invoice by
check as shown in State’s Exhibit 155.

36.

CHS – Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider
number 2399033, entered into an agreement
with Strategic Nursing Systems, Inc. at
State’s Exhibit 181. The costs associated with
this consulting agreement were reported in
account 6210. Strategic Nursing Systems,
Inc. invoiced East Galbraith monthly for the
consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit
182. The consulting agreement (State’s

App. 391
Exhibit 181) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003, that was invoiced by Strategic Nursing
Services as shown by State’s Exhibit 183.
East Galbraith issued an installment
promissory note for the December 31, 2003
Attachment A Enhanced Services invoice,
State’s Exhibit 184. The payments of the
installment promissory note were per the
note’s terms and were by checks at State’s
Exhibit 185. The consulting agreement
(State’s Exhibit 181) also contained an
Attachment B for Enhanced Services, with
an additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by
State’s Exhibit 186. East Galbraith issued an
installment promissory note for the
December 31, 2003, Attachment B Enhanced
Services invoice, State’s Exhibit 187. The
payments of the installment promissory note
were per the note’s terms and were by checks
at State’s Exhibit 188.
37.

CHS - Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Providers Choice
Administrative Services, Inc., at State’s
Exhibit 63. The costs associated with
this consulting agreement were reported
in account 7215. Providers Choice
Administrative Services, Inc. invoiced
Carington Park monthly fat the consulting

App. 392
fees and Carington Park paid each invoice by
check as shown in State’s Exhibit 64. The
consulting agreement (State’s Exhibit 63)
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003.
Carington Park issued an installment
promissory note for the December 31, 2003
Enhanced Services fee, State’s Exhibit 65.
The payments of the installment promissory
note were per the note’s terms and were by
checks at State’s Exhibit 66.
38.

CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Providers
Choice Administrative Services, Inc., at
State’s Exhibit 98. The costs associated with
this consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Terrace View Gardens monthly for the
consulting fees and Terrace View Gardens
paid each invoice by check as shown in
State’s Exhibit 99. The consulting agreement
(State’s Exhibit 98) contained an Attachment
A for Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. Terrace View Gardens issued an
installment promissory note for the
December 31, 2003, Enhanced Services fee,
at State’s Exhibit 100. The payments of the
installment promissory note were per the

App. 393
note’s terms and were by checks at State’s
Exhibit 101.
39.

CHS - Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered
into an agreement with Providers Choice
Administrative Services, Inc., at State’s
Exhibit 125. The costs associated with this
consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Franklin Ridge monthly for the consulting
fees and Franklin Ridge paid each invoice by
check as shown in State’s Exhibit 126. The
consulting agreement (State’s Exhibit 125)
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003. Franklin
Ridge issued an installment promissory note
for the December 31, 2003, Enhanced
Services fee, at State’s Exhibit 127. The
payments of the installment promissory note
were per the note’s terms and were by checks
at State’s Exhibit 128.

40.

Miami Valley, Inc. d.b.a. Vandalia Park,
provider number 2339624, entered into an
agreement with Providers Choice
Administrative Services, Inc., at State’s
Exhibit 157. The costs associated with this
consulting agreement were reported in
account 7215. Providers Choice
Administrative Services, Inc. invoiced
Vandalia Park monthly for the consulting

App. 394
fees and Vandalia Park paid each invoice by
check as shown in State’s Exhibit 158. The
consulting agreement (State’s Exhibit 157)
contained an Attachment A for Enhanced
Services, with an additional consulting fee
that was due on December 31, 2003.
Vandalia Park issued an installment
promissory note for the December 31, 2003,
Enhanced Services fee, at State’s Exhibit
159. The payments of the installment
promissory note were per the note’s terms
and were by checks at State’s Exhibit 160.
41.

CHS - Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider
number 2399033, entered into an agreement
with Providers Choice Administrative
Services, Inc., at State’s Exhibit 190. The
costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services,
Inc. invoiced East Galbraith monthly for the
consulting fees and East Galbraith paid each
invoice by check as shown in State’s Exhibit
191. The consulting agreement (State’s
Exhibit 190) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. East Galbraith issued an installment
promissory note for the December 31, 2003,
Enhanced Services fee, at State’s Exhibit
192. The payments of the installment
promissory note were per the note’s terms
and were by checks at State’s Exhibit 193.

App. 395
42.

The Annual Services were billed monthly and
the invoice specified that payment was due
upon receipt. Terrace View Gardens,
Franklin Ridge, Vandalia Park, Glen
Meadows, and Wellington Manor paid the
Strategic Annual Services December 2003
invoices by checks dated March 2005.
Carington Park paid the Strategic Annual
Services November 2003 invoice by check
dated March 2005 and the Strategic Annual
Services December 2003 invoice by check
dated April 2005.

43.

During the cost reporting period at issue
herein, Wellington Manor and Glen Meadows
had Annual Services contracts with
Strategic. Both facilities reported Strategic
costs in cost account 6210 on their threemonth cost reports covering December 2003
through February 2004.

44.

Glen Meadows and Wellington Manor did not
produce canceled checks for the Strategic
Annual Services January 2004 and February
2004 invoices.

45.

Starting in January 2005 and ending in
December 2006, East Galbraith Health Care
Center paid the Providers Choice Annual
Services invoices issued monthly from July 1,
2003 to December 31, 2003.

46.

Glen Meadows and Wellington Manor did not
provide the auditors with sufficient
documentation to support the Strategic

App. 396
Annual Services costs they reported in the
2003 cost reports.
47.

On December 31, 2003, the facilities issued
invoices for the Enhanced Services contracts
for 2003. The invoices stated: “Payment due
upon receipt of invoice.”

48.

On December 31, 2003, CHS issued
installment promissory notes for each of the
December 31, 2003 invoices for Enhanced
Services.

49.

The December 31, 2003, promissory notes
that Respondents issued did not require
payment to begin until 2005. The parties
have stipulated that the Respondents paid
the December 31, 2003, promissory notes
according to the notes’ terms. None of the
payments on the promissory notes were
made within one year of the end of the
relevant cost-reporting periods.

50.

A promissory
instrument.

51.

All Respondents reported Strategic
consulting costs (Annual Services and
Enhanced Services) on the 2003 cost reports
in cost account 6210. All Respondents
reported Providers Choice consulting costs
(Annual Services and Enhanced Services) on
the 2003 cost reports in cost account 7215.

52.

ODJFS’ basis for the proposed disallowance
of the costs reported in 6210 and 7215 is that

note

is

a

negotiable

App. 397
the costs were not timely liquidated as
provided by the provisions of 42 CFR
§413.100 (Generally described as the
“Liquidation of Liabilities Rule”) and the
provisions of Pub. 15-1 §2305(A), §2305.1 and
§2305.2.
53.

In the initial release of CHS’ audits by the
Department there was no application of the
Liquidation of Liabilities rule proposed,
referenced or cited. Many of the
disallowances were based upon insufficient
documentation. Upon receipt of
documentation, including the invoices,
promissory notes and checks involving the
Enhanced Services contracts, the
Department made disallowances based upon
the Liquidation of Liabilities rule.

54.

Mr. Fleischer and Mr. Hapchuk stated that
the problem with applying the Liquidation of
Liabilities rule in this case is that the Ohio
legislature changed the law on how the
reimbursement rate would be established.

55.

Terrace View Gardens, Franklin Ridge, East
Galbraith Health Care Center, Glen
Meadows and Wellington Manor reported on
their 2003 cost reports the costs associated
with the purchase of 2004 Cincinnati Reds
season tickets. The invoice for these tickets
was issued to Joe Tucker. There was no
evidence as to who Joe Tucker is and/or
what, if any, affiliation he has with CHS.
These costs were reported in the “employee

App. 398
benefits” accounts. No documentation was
presented to show how the tickets were
distributed or who used the tickets.
Conclusions of Law
To the extent any conclusion of law constitutes a
finding of fact, they are offered as such.
1.

All statutory procedural requirements have
been complied with and this matter is
properly before the Department.

2.

Medicaid nursing home providers are
required to file annual cost reports, which
capture the costs and expenses incurred
during the year for providing services to
residents within the facility. Nursing homes
are required to maintain records to support
the costs included in the cost reports,
including financial, medical and statistical.
“In the Medicaid audit setting, a provider
must provide supporting documentation that
demonstrates that the reported cost was
actually incurred, that it is reasonable,
allowable and related to patient care.”
Meadowwood Nursing Facility v. Ohio Dept.
of Job and Family Servs, (10th Dist. 2005),
2005-Ohio-1263 at ¶19.

3.

Pursuant to R.C. 5111.27, the Department is
authorized to audit cost reports and the scope
of the audit is within the discretion of the
Department.

App. 399
4.

If a cost report audit is conducted in such a
manner as to produce an accurate result and
ther procedures are objectively verifiable, a
valid audit is performed. St. Francis Home
Inc. v. Ohio Dept. of Job and Family Services
(10th Dist. 2006) 2006-Ohio-6147.

5.

The Department conducted audits of
Respondents’ 2003 cost reports pursuant to
R.C. 5111.27 (eff. 3/30/2006) (renumbered as
R.C. 5165.108 effective 9/29/2013) and Ohio
Adm. Code 5101:3-3-21 (eff. 7/04/2002), and
the Department issued audit reports related
to those audits.

6.

Clifton Gunderson completed the AgreedUpon Procedures, which set forth the scope
and method to be utilized in conducting the
2003 cost reports audits.

7.

Clifton
Gunderson
completed the
engagement, conducted an exit interview
with CHS and discussed all the proposed
adjustments with CHS, as evidenced by the
signature of CHS’ Corporate Controller, who
signed verifying that fact.

8.

The audits, using Agreed-Upon Procedures,
which Clifton Gunderson performed on CHS’
2003 cost reports was conducted in such a
manner as to produce accurate results and
the procedures were objectively verifiable.
Therefore, Clifton Gunderson conducted a
valid audit.

App. 400
9.

The due process afforded a respondent in an
administrative hearing is the right to a
reasonable notice of hearing and reasonable
opportunity to be heard, including reasonable
notice of the subject matter of the hearing.
State ex rel. LTV Steel Co. v. Industrial
Comm’n of Ohio (10th Dist., 1995) 102 Ohio
App.3d 100, 103-04. The purpose of the notice
requirement in R.C. 119.07 is to enable the
respondent to prepare a defense. Geroc v.
Ohio Veterinary Med. Bd. (8th Dist. 1987), 37
Ohio App.3d 192, 198; Keaton v. Ohio Dept. of
Commerce (10th Dist. 1981), 2 Ohio App.3d
480,482-83

10.

Respondents had ample opportunity to
prepare a defense on the Liquidation of
Liabilities issues, including hiring experts,
and suffered no prejudice from the fact that
the Notice of Opportunity for Hearing did not
include notice of the disallowance under the
Liquidation of Liabilities rule.

11.

Whether the costs Respondents reported on
the 2003 cost reports are allowable was
determined pursuant to Ohio Adm. Code
5101:3-3-01 (eff. 9/30/2001) and the laws,
regulations, and rules referred to therein.

12.

Reported costs are “allowable” if they are
“incurred for certified beds in a facility as
determined by [the Department] to be
reasonable as set forth in [5101:3-3-01(AA)]
... “ Ohio Adm. Code 5101:3-3-01(A) (eff.
9/30/2001).

App. 401
13.

“’Reasonable’ means that a cost is an actual
cost that is appropriate and helpful to
develop and maintain the operation of
patient care facilities and activities,
including normal standby costs, and that
does not exceed what a prudent buyer pays
for a given item or services. Ohio Adm. Code
5101 :3-3-01(AA)(eff. 9/30/2001).

14.

Pursuant to Ohio Adm. Code 5101:3-3-20(L)
(eff. 9/12/2003), Respondents were required
to retain current and accurate financial,
statistical, and medical records supporting
the cost reports or claims for services for six
years after all appeal rights relating to the
audit reports herein are exhausted.
Respondents were also required to make
those records available to the Department.

15.

A “short-term liability” is a liability due and
payable within twelve months. A long-term
liability is one due and payable in one year
plus one or more days.

16.

The Strategic and Providers Choice Annual
Services invoices and the Strategic and
Providers Choice Enhanced Services invoices
were due upon receipt and were therefore
short-term liabilities.

17.

42 CFR 213.100 and PRM 2305, which
address special treatment of short term
liabilities in cost reports when the provider
has not expended funds during the current
cost reporting period, do not apply in the

App. 402
prospective
Medicare.

payment

system

used

in

18.

From 1994 through June 30, 2005, Ohio’s
reimbursement system was based upon
reasonable costs and was different than the
Medicare prospective payment system.

19.

Pursuant to Ohio Admin. Code 5101:3-3-01
(effective 9/30/2001), allowable costs were
determined in accordance with a hierarchy of
laws and rules as follows: The Ohio Revised
Code, then the Ohio Administrative Code,
then the Code of Federal Regulations, then
the CMS HIM publications or Provider
Reimbursement Manual publications and
lastly, the general accepted accounting
principles (GAAP). Ohio Admin. Code 5101:33-01; Ohio Admin. Code 5101:3-3-20.

20.

The CFR and PRM are regulations and
interpretive guidelines for reportable costs
for Medicare cost reports. By including them
in the hierarchy of sources to use in
determining allowable costs for Medicaid
nursing facilities, Ohio adopted these
regulations to determine allowable costs for
Medicaid cost reports in Ohio. 5101:3-3-01(A)
There is nothing in the Revised Code or Ohio
Administrative Code that states that certain
provisions of the CFR or the PRM are not
applicable to reporting costs in a cost report.
Moreover, there is nothing in the CFR or the
PRM that limits the application of any of the

App. 403
rules included therein to only Medicare or
only Medicaid.
21.

Pursuant to 42 C.F.R. 413.100(c)(2)(i)(A), to
be reported on the relevant 2003 cost reports
at issue in this matter, the Strategic and
Providers Choice Annual Services and
Enhanced Services invoices had to be
liquidated within one year after the end of
the relevant cost-reporting periods.

22.

In addition to the requirement that a shortterm liability be liquidated in a year, the
PRM CMS Pub. 15-1 §2305 places an
additional requirement, specifically, where
liquidation is made by negotiable instrument,
“payment must be redeemed through an
actual transfer of the provider’s assets”
within one year after the end of the costreporting period.

23.

A promissory
instrument.

24.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 §2305, the costs for the Strategic
and Providers Choice Enhanced Services
December 31, 2003, invoices reported on the
2003 cost reports at issue in this matter, are
not allowable costs because the first actual
transfer of the CHS assets did not occur until
2005, over one year from the end of the cost
reporting period.

25.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 §2305, the Strategic Annual

note

is

a

negotiable

App. 404
Services December 2003 invoice costs
reported by Glen Meadows and Wellington
Manor are not allowable costs because the
invoices were not liquidated within one year
after the end of the relevant cost-reporting
periods.
26.

Pursuant to Ohio Adm. Code 5101:3-3-20(L)
(eff. 9/12/2003) and the Provider
Reimbursement Manual (“PRM”), CMS
Publication 15-1, § 2305 , the Strategic
Annual Services January 2004 and February
2004 invoice costs reported by Glen Meadows
and Wellington Manor are not allowable
costs because the invoices were not
liquidated within one year after the end of
the relevant cost-reporting periods.

27.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 § 2305, the Strategic Annual
Services December 2003 invoice costs
reported by Terrace View Gardens, Franklin
Ridge, Vandalia Park, Glen Meadows, and
Wellington Manor are not allowable costs
because the invoices were not liquidated
within one year after the end of the relevant
cost-reporting periods.

28.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 § 2305, the Strategic Annual
Services November 2003 and December 2003
invoice costs reported by Carington Park are
not allowable costs because the invoices were
not liquidated within one year after the end
of the relevant cost-reporting periods.

App. 405
29.

Pursuant to 42 CFR 413.100 and PRM, CMS
Pub. 15-1 § 2305, the Providers Choice
Annual Services July 1, 2003, to December
31, 2003, invoice costs reported by East
Galbraith Health Care Center are not
allowable costs because the invoices were not
liquidated within one year after the end of
the relevant cost-reporting periods.

30.

The adjustments on State’s Exhibit 268 are
correct.

31.

Pursuant to the parties’ stipulations, the
adjustments on State’s Exhibit 267a are
correct.

32.

PRM 2105.8 specifically prohibits
reimbursement of sporting events.

33.

PRM 2105.8 allows reasonable costs
“incurred by providers for purposes of
employee morale, specifically, for annual
employee Christmas or holiday party, an
annual employee award ceremony or for
sponsorship of employee athletic programs
(bowling, softball, basketball teams, etc.)”

34.

The 2004 Cincinnati Reds season tickets are
a prohibited expense, are not one of, or
similar to one of, the listed employee morale
examples, and were not conferred during the
2003 cost reporting period. There was no
evidence who actually received these tickets.
Accordingly, the cost for the 2004 Cincinnati
Reds tickets are not allowable costs.

the

App. 406
35.

Any audit report, report of examination, exit
conference report or report of final
settlement issued by ODJFS and entered
into evidence is to be considered prima facie
evidence of what it asserts. Ohio Admin.
Code 5101:6-50-09(A)(4).

36.

The following patient days/patient liability
adjustments are correct:

Facility

Patient
Days/
Patient
Liability
FY Audit
at Issue

Adjustments to
Patient
Liability

Adjustments to
No. of Paid
Patient
Days

Carington
Park

FY 2003

$8,892.76

363.5

Carington
Park

FY 2004

$5844.28

167

Carington
Park

FY 2005

$2,849.76

337

Carington
Park

FY 2006

$10,191.70

374.5

Terrace
View
Gardens

FY 2003

$6,461.32

296.50

Terrace
View
Gardens

FY 2004

$910.00

51

App. 407
Terrace
View
Gardens

FY 2005

$945.00

19

Terrace
View
Gardens

FY 2006

-$3,706.00

3.0

Vandalia
Park

FY 2003

$8378.65

592.5

Vandalia
Park

FY 2004

$0

198

Vandalia
Park

FY 2005

$528.42

161.5

Vandalia
Park

FY 2006

-$2990.20

441

Franklin
Ridge

FY 2003

$1,404.98

175

Franklin
Ridge

FY 2004

$2,385.00

93

Franklin
Ridge

FY 2005

$1,474.88

61.5

Franklin
Ridge

FY 2006

-$1.563.00

7

East
Galbraith

FY 2003

$0.00

3

East
Galbraith

FY 2004

$405.00

54.5

App. 408
East
Galbraith

FY 2005

$0.00

45

East
Galbraith

FY 2006

$2827.64

867

WellingFY 2005
ton Manor

$0.00

3.5

Wellington
Manor

FY 2006

-$18.00

2.5

Glen
Meadows

FY 2004

$994.62

11.5

Glen
Meadows

FY 2005

$0.00

16

Glen
Meadows

FY 2006

-$6,385.00

9

37.

Based upon the foregoing findings of fact and
conclusions of law, and incorporating the
adjustments on State’s Exhibits 267a and
268 and on the preceding patient
days/patient liability chart, Respondents owe
the Department the following amounts for
each fiscal year:

Facility

Audit Issues

Amount
Owed by
CHS

Carington
Park

FY 2003
Patient days/patient
liability audit only

$43,509.40

App. 409
Carington
Park

FY 2004
Patient days/ patient
liability audit only

$25,067.70

Carington
Park

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$2,586,852.40

Carington
Park

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$2,608,779.73

Terrace
View
Gardens

FY 2003
Patient days/patient
liability audit

$47,821.90

Terrace
View
Gardens

FY 2004
Patient days/ patient
liability audit only

$10,022.77

Terrace
View
Gardens

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$564,212.69

Terrace
View
Gardens

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$537,237.84

App. 410
Vandalia
Park

FY 2003
Patient days/patient
liability audit only

$88,945.40

Vandalia
Park

FY 2004
Patient days/ patient
liability audit only

$35,340.11

Vandalia
Park

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$270,681.51

Vandalia
Park

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$230,730.54

Franklin
Ridge

FY 2003
Patient days/patient
liability audit only

$29,858.76

Franklin
Ridge

FY 2004
Patient days/ patient
liability audit only

$16,407.45

Franklin
Ridge

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$584,324.18

App. 411
Franklin
Ridge

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$577,418.87

East
Galbraith

FY 2003
Patient days/patient
liability audit only

$606.54

East
Galbraith

FY 2004
Patient days/ patient
liability audit only

$30,997.09

East
Galbraith

FY 2005
CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$913,384.29

East
Galbraith

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$1,215,526.66

WellingFY 2005
ton Manor CY 2003 cost report
audit and FY 2005
patient days/patient
liability audit

$213,205.07

App. 412
Wellington
Manor

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$218,261.37

Glen
Meadows

FY 2004
Patient days/ patient
liability audit only

$1,317.81

Glen
Meadows

FY 2005
CY 2003 cost report
audit and FT 2005
patient days/patient
liability audit

$121,990.35

Glen
Meadows

FY 2006
CY 2003 cost report
audit and FY 2006
patient days/patient
liability audit

$139,057.54

Total: $11,111,557.96
Recommendation
Based upon the foregoing Findings of Fact and
Conclusions of Law, it is recommended that ODM
adopt the patient days/patient liabilities adjustments
as set forth in Attachment D, (attached hereto and
incorporated herein), the adjustments in State Exhibit
267a (attached hereto as Attachment A and
incorporated herein), and the adjustments in State
Exhibit 268 (attached hereto as Attachment B and
incorporated herein). It is further recommended that it

App. 413
be ordered that Respondents owe the Department of
Medicaid the amounts set forth in Conclusion of Law
No. 37. This recommendation is not a final order, and
may be approved, modified or rejected by the Director
of the Ohio Department of Medicaid, and shall not
become a final order unless and until it is approved by
the Director.
10-31-2015
Date

/s/ Mary K. Crawford
Mary K. Crawford
Hearing Examiner
P.O. Box 14366
Columbus, Ohio 43214

App. 414
CERTIFICATE OF SERVICE
I certify that the original of this document was hand
delivered to the Ohio Department of Medicaid, Office of
Legal Counsel, 50 W. Town Street, Columbus, Ohio, on
November 2, 2015, with instructions that file-stamped
copies are to be delivered by Department personnel to
the parties and their attorneys of record, if any, in the
manner prescribed by law and at the addresses shown
in the record of these proceedings.
/s/Mary K. Crawford
Mary K. Crawford

App. 415
Stipulated Audit Adjustment Amounts for
CHS-Lake Erie, Inc. d.b.a.
Carington Park, Prov.# 2339268
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6001

1

(3,994)

0

6006

1

(1,242)

0

6001

2

(5,642)

(5,642)

6001

3

(45)

(45)

6020

3

(17,641)

0

6001

4

(1,970)

0

6001

5

(1,573)

(1,573)

6006

5

(1,710)

(1,710)

7055

5

54

54

7350

5

3,229

3,229

6001

6

(131)

(131)

6170

8

(25,480)

(25,480)

6530

8

(222,840)

0

7280

9

(129,723)

0

App. 416
7340

9

(5,545)

0

7340

11

(960)

(960)

8030

11

192

192

E-1

11

960

960

E-1

11

(192)

(192)

8020

12

(1,056)

(1,056)

8030

12

(19,776)

0

8040

12

(65,218)

0

E-1

12

(440,231)

0

E-1

12

177,233

0

E-1

12

(440,231)

0

E-1

12

263,283

0

8020

13

(148)

0

8030

13

(3,205)

0

8065

14

(119,016)

0

8195

15

(1,094,692)

0

8070

16

(11,372)

0

6095

17

(2,904)

0

6230

17

(30,461)

0

7310

17

(653,370)

(4,494)

8090

17

(17,463)

0

App. 417
Stipulated Audit Adjustment Amounts for
CHS-Ohio Valley, Inc. d.b.a
Terrace View Gardens, Prov # 2339384
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6001

1

(2,666)

(2,625)

6001

2

(1,863)

(1,863)

7025

2

301

301

7120

2

16

16

7350

2

1,546

1,546

6530

3

(128,569)

0

7340

5

(3,431)

0

7340

6

(1,085)

(1,085)

8040

6

164

164

E-1

6

1,085

1,085

E-1

6

(164)

(164)

8020

8

(1,404)

0

8030

8

(1,423)

0

8040

8

(2,617)

0

App. 418
E-1

8

(52,501)

0

E-1

8

17,052

0

E-1

8

(52,501)

0

E-1

8

22,497

0

8030

9

(167)

0

8040

9

(49)

0

8065

10

(49,682)

0

8195

11

(538,740)

0

A-1

12

4

4

6095

14

(1,175)

0

6230

14

(12,324)

0

7310

14

(141,347)

(1,818)

8090

14

(8,510)

(1,445)

6520

15

(28,002)

0

7065

15

(3,292)

0

7510

15

(4,477)

0

App. 419
Stipulated Audit Adjustment Amounts for
CHS-Miami Valley, Inc. d.b.a
Franklin Ridge, Prov # 2339688
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6000

1

(2,064)

(2,064)

6001

1

(168)

(168)

6006

1

(1,300)

(1,300)

7025

1

252

252

7055

1

117

117

7220

1

51

51

7320

1

3,112

3,112

6001

2

(1,452)

0

6001

3

(1,559)

(1,559)

6470

4

(1,700)

0

6530

4

(130,622)

0

7280

6

(64,380)

0

7340

6

(4,506)

(399)

7340

7

(1,734)

(1,734)

App. 420
7340

8

(2,110)

(2,110)

8065

8

2,110

2,110

8030

9

(4,996)

0

8040

9

(6,738)

0

E-1

9

(58,671)

0

E-1

9

27,987

0

E-1

9

(58,671)

0

E-1

9

39,721

0

8040

10

(1,007)

0

E-1

10

(5,035)

0

E-1

10

671

0

E-1

10

(5,035)

0

E-1

10

1,678

0

8030

11

(7,290)

0

8040

11

(18,768)

0

8065

12

(97,186)

0

8195

13

(242,625)

0

8070

14

(11,579)

0

A-1

15

10

10

6095

17

(1,352)

0

6230

17

(14,186)

0

App. 421
7310

17

(122,743)

(2,093)

8090

17

(8,133)

0

7200

18

(943)

0

App. 422
Stipulated Audit Adjustment Amounts for
CHS-Miami Valley, Inc. d.b.a
Vandalia Park, Prov # 2339624
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

6001

1

(4,959)

(4,959)

6530

1

1,912

1,912

7520

1

420

420

7350

1

2,627

2,627

6001

2

(25,817)

0

6006

2

(1,965)

0

6001

3

(136)

(136)

6001

4

(5,327)

(5,327)

6530

6

(142,376)

(5,225)

7340

7

(8,586)

0

7340

8

(679)

(679)

8020

9

(2,060)

0

8030

9

(13,740)

0

8040

9

(41,734)

0

App. 423
E-1

9

(287,672)

0

E-1

9

98,759

0

E-1

9

(287,672)

0

E-1

9

142,723

0

8040

10

(8,047)

0

8065

11

(202,325)

0

8195

12

(392,600)

0

8070

13

(15,432)

0

6095

14

(2,277)

0

6230

14

(23,886)

0

7310

14

(242,197)

(3,524)

8090

14

(13,694)

0

7200

15

(757)

0

App. 424
Stipulated Audit Adjustment Amounts for
CHS-Greater Cincinnati, Inc. d.b.a
East Galbraith Health Care Center,
Prov # 2399033
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

E-1

1

(159,259)

0

6001

2

(2,875)

(2,875)

6001

3

(3,743)

(3,743)

6006

3

(69)

(69)

7350

3

3,351

3,351

8065

3

461

461

6190

5

(50,705)

0

6530

5

(131,626)

0

7350

6

(3,685)

0

7340

7

(2,537)

(2,537)

8065

8

(43,924)

(6,493)

8195

9

(286,529)

0

6095

11

(792)

0

6230

11

(8,311)

0

App. 425
7310

11

(83,774)

(1,226)

8090

11

(5,628)

(863)

7200

13

(1,568)

0

App. 426
Stipulated Audit Adjustment Amounts for
CHS-Glenwell, Inc. d.b.a
Glen Meadows Prov # 2429330
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

7070

1

(3,580)

0

7060

1

(220)

0

7220

1

(306)

(306)

7500

1

(1,007)

0

7520

1

(5,990)

0

E-1

1

(172,100)

(172,100)

E-1

1

(517)

(517)

7125

2

(2,414)

(2,414)

6001

3

(7,164)

0

6030

3

(6,029)

0

6001

4

(76)

(76)

6001

5

(270)

(270)

6001

6

(845)

(845)

7025

6

58

58

App. 427
7120

6

92

92

7220

6

323

323

7350

6

372

372

6530

7

(33,290)

0

6550

7

(5,865)

(4,740)

6530

9

(25,149)

0

6530

10

(30,018)

0

7225

11

(4,652)

0

7265

11

(1,110)

0

7280

11

(19,984)

0

7290

11

(2,099)

0

7340

11

(6,451)

0

7265

12

(2,767)

0

7215

13

(14,071)

0

7340

13

(1,371)

(1,371)

E-1

14

(64,300)

(64,300)

8030

15

(1,607)

0

8040

15

(5,187)

0

8050

15

(1,100)

0

E-1

15

(153,863)

0

E-1

15

95,651

0

App. 428
8030

16

(654)

0

8040

16

(97)

0

8065

17

(26,081)

0

8195

18

(136,188)

0

A-1

19

8

8

6095

21

(376)

0

6230

21

(3,038)

0

7310

21

(29,064)

(396)

8090

21

(1,529)

0

7200

22

(1,140)

0

E-1

23

(566,294)

(566,294)

E-1

24

(66,274)

(66,274)

6120

25

(1,489)

0

6195

25

(7,176)

0

App. 429
Stipulated Audit Adjustment Amounts for
CHS-Glenwell, Inc. d.b.a
Wellington Manor of Butler County.
Prov # 2429330
COST
ADJUSTACCOUNT MENT
NUMBER NUMBER

ORIGINAL
ADJUSTMENT
INC./
(DEC.)

STIPULATED
ADJUSTMENT
AMOUNT

7070

1

(8,048)

0

E-1

1

(274,400)

(274,400)

7125

2

(2,027)

(2,027)

E-1

3

(29,400)

(29,400)

6001

4

(2,152)

0

6006

4

(101)

0

6001

5

(145)

(145)

6006

5

(325)

(325)

7025

5

97

97

7120

5

31

31

7255

5

17

17

7350

5

325

325

6060

6

(1,718)

0

6001

7

(30,000)

(30,000)

App. 430
6100

9

(2,050)

0

6530

9

(48,681)

0

6530

10

(15,859)

0

7280

11

(18,038)

0

7340

11

(4,854)

0

7520

11

(7,439)

0

7215

12

(10,909)

0

8020

13

(638)

0

8030

13

(1,160)

0

8040

13

(2,194)

0

E-1

13

(90,870)

0

E-1

13

66,268

0

8020

14

(218)

0

8030

14

(668)

0

8040

14

(513)

0

8065

15

(20,103)

0

8195

16

(115,248)

0

6095

18

(281)

0

6230

18

(2,274)

0

7310

18

(21,758)

(296)

8090

18

(1,145)

0

App. 431
6520

19

(4,648)

0

7065

19

(463)

0

7510

19

(750)

0

E-1

20

(112,536)

(112,536)

E-1

21

(60,470)

(60,470)

6120

22

(2,156)

0

App. 432
STIPULATED DISPUTED AMOUNT COST ACCOUNT 6210
NAME &
PROVIDER
NO.

ADJUST- ORIGINAL
MENT
ADJUSTNO.
MENT NO.

STIPULATED
DISPUTED
AMOUNT

CARRINGTON PARK,
2339268

7

(2,395,856)

(2,128,476)

TERRACE
VIEW
GARDENS,
2339384

4

(727,104)

(610,592)

FRANKLIN
RIDGE,
2339688

4

(425,00)

(284,332)

5

(153,456)

(153,456)

VANDALIA
PARK,
2339624

5

(249,552)

(20,796)

EAST GALBRAITH
HEALTH
CARE
CENTER,
2399033

4

(555,550)

(430,000)

GLEN
MEADOWS,
2429330

8

(39,655)

(39,655)

App. 433
WELLINGTON
MANOR
OF
BUTLER
COUNTY,
2429321

8

(30,741)

(30,741)

After discovering that the Provider No. for Franklin
Ridge was incorrect on State Exhibit 268, during the
hearing, the parties agreed that the correct number
could be inserted in pen on the exhibit. (Tr., Pt. II, pp.
20-21)

App. 434
STIPULATED DISPUTED AMOUNT COST ACCOUNT 7215
NAME &
PROVIDER
NO.

ADJUST- ORIGINAL
MENT
ADJUSTNO.
MENT NO.

STIPULATED
DISPUTED
AMOUNT

CARRINGTON PARK,
2339268

9
________

(625,000)
___________

(520,632)
__________

10

(44,368)

(44,368)

TERRACE
VIEW
GARDENS,
2339384

5
________

(200,000)
___________

(152,251)
__________

7

(17,749)

(17,749)

FRANKLIN
RIDGE,
2339688

6

(200,000)

(200,000)

7

(54,456)

0

VANDALIA
PARK,
2339624

7
________

(350,000)
___________

(251,379)
__________

8

(73,621)

(73,621)

EAST GALBRAITH
HEALTH
CARE
CENTER,
2399033

6

(350,000)

(350,000)

________

___________

__________

7

(15,000)

(15,000)

App. 435
STIPULATED DISPUTED AMOUNT REDS TICKETS ISSUE
NAME &
COST
PROVIDER AMOUNT
NO.
NO.

ADJUSTMENT
NO.

STIPULATED
DISPUTED
AMOUNT

6530
___________

13
___________

(907)
___________

7070
___________

13
___________

(113)
___________

7520

13

(114)

16
___________

(907)
___________

16
___________

(113)
___________

7520

16

(114)

EAST GALBRAITH,
2399033

7070
___________

10
___________

(113)
___________

7520

10

(114)

GLEN
MEADOW
S, 2429330

6530
___________

20
___________

(907)
___________

7070
___________

20
___________

(113)
___________

7520

20

(114)

TERRACE
VIEW
GARDENS,
2339384

FRANKLIN 6530
___________
RIDGE,
2339688
7070
___________

App. 436
WELLINGTON
MANOR
2429324

6530
___________

17
___________

(907)
___________

7070
___________

17
___________

(113)
___________

7520

17

(114)

App. 437
BEFORE THE OHIO DEPARTMENT OF JOB
AND FAMILY SERVICES
In the Matters of:
CHS-Glenwell, Inc. 09 LTC 17
CHS-Glenwell, Inc. 09LTC18
CHS-Glenwell, Inc. 09LTC119
CHS-Hamilton County, Inc. 09LTC30
CHS-Hamilton County, Inc. 09LTC31
CHS-Hamilton County, Inc. 09LTC32
CHS-Hamilton County, Inc. 09LTC33
Carington Health Systems 09LTC24
Carington Health Systems 09LTC25
CHS-Miami Valley, Inc. 09LTC13
CHS-Miami Valley, Inc. 09LTC14
CHS-Miami Valley, Inc. 09LTC15
CHS-Miami Valley, Inc. 09LTC16
CHS-Miami Valley, Inc. 09LTC34
CHS-Miami Valley, Inc. 09LTC35
CHS-Miami Valley, Inc. 09LTC36
CHS-Miami Valley, Inc. 09LTC37
CHS-Greater Cincinnati, Inc. 09LTC20
CHS-Greater Cincinnati, Inc. 09LTC21
CHS-Greater Cincinnati, Inc. 09LTC22
CHS-Greater Cincinnati, Inc. 09LTC23
CHS-Lake Erie, Inc. 09LTC26
CHS-Lake Erie, Inc. 09LTC27

App. 438
CHS-Lake Erie, Inc. 09LTC28
CHS-Lake Erie, Inc. 09LTC29,
Respondents/Providers.
Mary K. Crawford
Hearing Examiner
STIPULATIONS OF THE PARTIES
The Department of Job and Family Services and the
Respondents (hereinafter collectively “Carington
Health Systems”) stipulate and agree that for all
purposes in these adjudicatory hearings, and any
appeals arising, therefrom that the following
stipulations are made, entered into and binding upon
the parties as evidenced by the signatures of their
counsel, as facts which do not require testimony or
other evidence.
It is therefore stipulated by the parties that:
1. Carington Health Systems timely filed a request
for adjudicatory hearing in the referenced matters.
2. Carington Health Systems does not, by entering
into this stipulation, waive its right to contest on
procedural and/or substantive grounds the DJFS’s
position on and relating to the issue regarding
“Liquidation of Liabilities”.
3. Carington Health Systems does not waive any
objections to the Audit Reports and Reports of Final
Settlement previously addressed in this matter by
hearing before the Hearing Examiner consisting
principally of whether the Department of Job and
Family Services (“DJFS”) conducted an audit in

App. 439
compliance with the Ohio Revised Code and Ohio
Administrative Codes governing provisions.
4. Notwithstanding the contents of any initial or
any amended Audit Report in these proceedings, the
parties have agreed to the Proposed Cost Adjustments
on State’s Exhibits 267.
5. The Proposed Cost Adjustments on State’s
Exhibit 268 are the sole and only remaining cost report
audit adjustment issues (excepting the findings for
resident days remain an issue for each of the Carington
Health Systems’ facilities):
6. With respect to account 6210 on State’s Exhibit
268, it is stipulated that:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Strategic Nursing Systems, Inc,
at State’s Exhibit 57. The costs associated with
this consulting agreement were reported in
account 6210. Strategic Nursing Systems, Inc.
invoiced Carington Park monthly for the
consulting fees and Carington Park paid each
invoice by check as shown in State’s Exhibit 58.
The consulting agreement (State’s Exhibit 57)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 59. Carington Park issued an
installment promissory note for the December
31, 2003 for the Enhanced Services invoice,
State’s Exhibit 60. The payments of the

App. 440
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 61.
B. CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Strategic
Nursing Systems, Inc. at State’s Exhibit 92. The
costs associated with this consulting agreement
were reported in account 6210. Strategic
Nursing Systems, Inc. invoiced Terrace View
Gardens monthly for the consulting fees and
Tenace View Gardens paid each invoice by check
as shown in State’s Exhibit 93. The consulting
agreement (State’s Exhibit 92) contained an
Attachment A for Enhanced Services, with an
additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by State’s
Exhibit 94. Terrace View Gardens issued an
installment promissory note for the December
31, 2003 Enhanced Services invoice, State’s
Exhibit 95. The payments of the installment
promissory note were per the note’s terms and
were by checks at State’s Exhibit 96.
C. CHS – Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered into
an agreement with Strategic Nursing Systems,
Inc. at State’s Exhibit 119. The costs associated
with this consulting agreement were reported in
account 6210. Strategic Nursing Systems, Inc.
invoiced Franklin Ridge monthly for the
consulting fees and Franklin Ridge paid each
invoice by check as shown in State’s Exhibit 120.

App. 441
The consulting agreement (State’s Exhibit 119)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 121. Franklin Ridge issued an
installment promissory note for the December
31, 2003 Enhanced Services invoice, State’s
Exhibit 122. The payments of the installment
promissory note were per the note’s terms and
were by checks at State’s Exhibit 123.
D. CHS – Miami Valley, Inc. d.b.a. Vandalia
Park, provider number 2339624, entered into an
agreement with Strategic Nursing Systems, Inc.
at State’s Exhibit 154. The costs associated with
this consulting agreement were reported in
account 6210. Strategic Nursing Systems, Inc.
invoiced Vandalia Park monthly for the
consulting fees and Vandalia Park paid each
invoice by check as shown in State’s Exhibit 155.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with
Strategic Nursing Systems, Inc. at State’s
Exhibit 181. The costs associated with this
consulting agreement were reported in account
6210. Strategic Nursing Systems, Inc. invoiced
East Galbraith monthly for the consulting fees
and East Galbraith paid each invoice by check as
shown in State’s Exhibit 182. The consulting
agreement (State’s Exhibit 181) contained an
Attachment A for Enhanced Services, with an

App. 442
additional consulting fee that was due on
December 31, 2003, that was invoiced by
Strategic Nursing Services as shown by State’s
Exhibit 183. East Galbraith issued an
installment promissory note for the December
31, 2003 Attachment A Enhanced Services
invoice, State’s Exhibit 184. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 185.
The consulting agreement (State’s Exhibit 181)
also contained an Attachment B for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003, that was
invoiced by Strategic Nursing Services as shown
by State’s Exhibit 186. East Galbraith issued an
installment promissory note for the December
31, 2003, Attachment B Enhanced Services
invoice, State’s Exhibit 187. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 188.
7. With respect to account 7215 on State’s Exhibit
268, it is stipulated that:
A. CHS – Lake Erie, Inc. d.b.a. Carington Park,
provider number 2339268, entered into an
agreement with Providers Choice
Administrative Services, Inc, at State’s Exhibit
63. The costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services, Inc.
invoiced Carington Park monthly for the
consulting fees and Carington Park paid each
invoice by check as shown in State’s Exhibit 64.

App. 443
The consulting agreement (State’s Exhibit 63)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003. Carington Park
issued an installment promissory note for the
December 31, 2003 Enhanced Services fee,
State’s Exhibit 65. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 66.
B. CHS – Hamilton County, Inc. d.b.a. Terrace
View Gardens, provider number 2339384,
entered into an agreement with Providers
Choice Administrative Services, Inc, at State’s
Exhibit 98. The costs associated with this
consulting agreement were reported in account
7215. Providers Choice Administrative Services,
Inc. invoiced Terrace View Gardens monthly for
the consulting fees and Terrace View Gardens
paid each invoice by check as shown in State’s
Exhibit 99. The consulting agreement (State’s
Exhibit 98) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. Terrace View Gardens issued an
installment promissory note for the December
31, 2003, Enhanced Services fee, at State’s
Exhibit 100. The payments of the installment
promissory note were per the note’s terms and
were by checks at State’s Exhibit 101.
C. CHS – Miami Valley, Inc. d.b.a. Franklin
Ridge, provider number 2339688, entered into
an agreement with Providers Choice

App. 444
Administrative Services, Inc., at State’s Exhibit
125. The costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services, Inc.
invoiced Franklin Ridge monthly for the
consulting fees and Franklin Ridge paid each
invoice by check as shown in State’s Exhibit 126.
The consulting agreement (State’s Exhibit 125)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003. Franklin Ridge
issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 127. The payments of the
installment promissory note were per the note’s
terms and were by checks at State’s Exhibit 128.
D. CHS – Miami Valley, Inc. d.b.a. Vandalia
Park, provider number 2339624, entered into an
agreement with Providers Choice
Administrative Services, Inc., at State’s Exhibit
157. The costs associated with this consulting
agreement were reported in account 7215.
Providers Choice Administrative Services, Inc.
invoiced Vandalia Park monthly for the
consulting fees and Vandalia Park paid each
invoice by check as shown in State’s Exhibit 158.
The consulting agreement (State’s Exhibit 157)
contained an Attachment A for Enhanced
Services, with an additional consulting fee that
was due on December 31, 2003. Vandalia Park
issued an installment promissory note for the
December 31, 2003, Enhanced Services fee, at
State’s Exhibit 159. The payments of the

App. 445
installment promissory note were per the note’s
tenns and were by checks at State’s Exhibit l 60.
E. CHS-Greater Cincinnati, Inc., d.b.a. East
Galbraith Health Care Center, provider number
2399033, entered into an agreement with
Providers Choice Administrative Services, Inc.,
at State’s Exhibit 190. The costs associated with
this consulting agreement were reported in
account 7215. Providers Choice Administrative
Services, Inc. invoiced East Galbraith monthly
for the consulting fees and East Galbraith paid
each invoice by check as shown in State’s
Exhibit 191. The consulting agreement (State’s
Exhibit 190) contained an Attachment A for
Enhanced Services, with an additional
consulting fee that was due on December 31,
2003. East Galbraith issued an installment
promissory note for the December 31, 2003,
Enhanced Services fee, at State’s Exhibit 192.
The payments of the installment promissory
note were per the note’s terms and were by
checks at State’s Exhibit 193.
8. Based upon documents received during the
discovery process, DJFS will not proceed on
disallowance of costs in accounts 6210 and 7215 on the
basis of related party. DJFS will not proceed for
disallowance of costs in accounts 6210 and 7215 for
inadequate documentation as to Terrace View,
Vandalia Park, East Galbraith Health Care Center,
Carington Park and Franklin Ridge. As to Wellington
Manor and Glen Meadows the record will be held open
on the issue of inadequate documentation pending

App. 446
receipt of cancelled checks and invoices for January
and February, 2004, for Account 6210. The DJFS’s
basis for the proposed disallowance of the costs
reported in 6210 and 7215 is that the costs were not
timely liquidated as provided by the provisions of 42
CFR §413.100 (Generally described as the “Liquidation
of Liabilities Rule”) and the provisions of Pub. 15-l
§2305(A), §2305.1 and §2305.2.
9. Each party’s exhibits are admitted for all relevant
purposes.
10. The evidence presented at the Phase I hearing
regarding the issue of whether an audit was conducted
applies to all seven providers.
IT IS SO AGREED;
/s/William Greene
William Greene, Esq.
Charity Robl, Esq.
Assistant Attorneys General
Health & Human Services Section
150 East Gay Street, 17th Floor
Columbus, Ohio 43215-3428
Counsel for Ohio Department of
Job and Family Services

App. 447
/s/Geoffrey E. Webster
Geoffrey E. Webster (0001892)
Webster & Associates Co, LPA
17 South High Street, Suite 770
Columbus, OH 43215
Telephone: (614) 461-1156
Facsimile: (614) 461-7168
E-mail: gewebster@gewebster.com
Counsel for CHS

App. 448
Patient Days and Patient Liability Adjustments
Facility

State’s
Patient
Exhibit
Days/
No.
Patient
Liability
FY Audit
at Issue

Adjustments to
Patient
Liability1

Adjustments
to No.
of
Paid
Patient
Days

Carington Park

FY 2003

$8,892.76

363.5

p. 19
(column
C)

p. 8
(column
E)

$5844.28

167

p. 20
(column
C)

p. 8
(column
E)

$2,849.76

337

p. 21
(column
C)

p. 5
(column
E)

Carington FY 2004
Park

Carington FY 2005
Park

1

242

243

244a

The patient-liability adjustment amounts in this chart are not the
amounts that CHS owes to ODM. The total amounts the CHS
facilities owe to ODM are calculated by multiplying the correct
number of patient days by the correct rate and subtracting the
correct patient liability.

App. 449
Carington FY 2006
Park

245b

$10,191.70 374.5
p. 19
(column
C)

Terrace
View
Gardens

FY
2003

Terrace
View
Gardens

FY
2004

Terrace
View
Gardens

FY
2005

Terrace
View
Gardens

FY
2006

Vandalia
Park

FY
2003

246

247

248

249a

250

p. 5
(column
E)

$6,461.32

296.50

p. 15
(column
C)

p. 5
(column
E)

$910.00

51

p. 10
(column
C)

p. 6
(column
E)

$945.00

19

p. 14
(column
C)

p. 5
(column
E)

-$3,706. 00

3.0

p. 10
(column
C)

p. 5
(column
E)

$8378.65

592.5

p. 17
(column
C)

p. 6
(column
E)

App. 450
Vandalia
Park

Vandalia
Park

Vandalia
Park

FY
2004

FY
2005

FY
2006

251

252a

253a

Franklin
Ridge

FY
2003

254

Franklin
Ridge

FY
2004

255

Franklin
Ridge

FY
2005

256a

$0

198

p. 17
(column
C)

p. 6
(column
E)

$528.42

161.5

p. 16
(column
C)

p. 5
(column
E)

-$2990.20

441

p. 19
(column
C)

p. 5
(column
E)

$1,404.98

175

p. 17
(column
C)

p. 6
(column
E)

$2,385.00

93

p. 14
(column
C)

p. 6
(column
E)

$1,474.88

61.5

p. 15
(column
C)

P. 5
(column
E)

App. 451
Franklin
Ridge

FY
2006

257a

East
Galbraith

FY
2003

258

East
Galbraith

FY
2004

259

East
Galbraith

FY
2005

260a

East
Galbraith

FY
2006

261a

Wellington
Manor

FY
2005

262

-$1.563.00

7

p. 9
(column
C)

p. 5
(column
E)

$0.00

3

p. 9
(column
C)

p. 6
(column
E)

$405.00

54.5

p. 12
(column
C)

P. 6
(column
E)

$0.00

45

p. 32
(column
C)

p. 21
(column
E)

$2827.64

867

p. 19
(column
C)

p. 5
(column
E)

$0.00

3.5

p. 10
(column
C)

p. 5
(column
E)

App. 452
Wellington
Manor

FY
2006

263

Glen
Meadows

FY
2004

264

Glen
Meadows

FY
2005

265a

Glen
Meadows

FY
2006

266a

-$18.00

2.5

p. 10
(column
C)

p. 5
(column
E)

$994.62

11.5

p. 12
(column
C)

p. 6
(column
E)

$0.00

16

p. 12
(column
C)

p. 6
(column
E)

-$6,385.00

9

p. 8
(column
C)

p. 5
(column
E)

